<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2012 
=======================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________

       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS

                     JO ANN EMERSON, Missouri, Chair
 RODNEY ALEXANDER, Louisiana             JOSE E. SERRANO, New York
 JO BONNER, Alabama                      BARBARA LEE, California
 MARIO DIAZ-BALART, Florida              PETER J. VISCLOSKY, Indiana
 TOM GRAVES, Georgia                     ED PASTOR, Arizona
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas        

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
        John Martens, Winnie Chang, Kelly Shea, and Ariana Sarar,
                           Subcommittee Staff

                                ________

                                 PART 7
                                                                   Page
 Federal Communications Commission................................    1
 Securities and Exchange Commission...............................  105
 Securities and Exchange Commission--Inspector General............  177
 General Services Administration..................................  233
 Internal Revenue Service.........................................  313
 Treasury Inspector General for Tax Administration................  375
 Department of the Treasury.......................................  475

                                   S

                                ________

         Printed for the use of the Committee on Appropriations















                                 Part 7

   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2012












   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2012
=======================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS

                     JO ANN EMERSON, Missouri, Chair
 RODNEY ALEXANDER, Louisiana         JOSE E. SERRANO, New York
 JO BONNER, Alabama                  BARBARA LEE, California
 MARIO DIAZ-BALART, Florida          PETER J. VISCLOSKY, Indiana
 TOM GRAVES, Georgia                 ED PASTOR, Arizona
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas        

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
        John Martens, Winnie Chang, Kelly Shea, and Ariana Sarar,
                           Subcommittee Staff

                                ________

                                 PART 7
                                                                   Page
 Federal Communications Commission................................    1
 Securities and Exchange Commission...............................  105
 Securities and Exchange Commission--Inspector General............  177
 General Services Administration..................................  233
 Internal Revenue Service.........................................  313
 Treasury Inspector General for Tax Administration................  375
 Department of the Treasury.......................................  475

                                   S

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 66-999                     WASHINGTON : 2011




















                        COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\        NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\          MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia              PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia               NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey  JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                     ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama          JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri             JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                   ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho            DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas          MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida              LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana               SAM FARR, California
 JOHN R. CARTER, Texas                JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana          CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California              STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                   SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
 TOM COLE, Oklahoma                   ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                  MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida           BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania
 STEVE AUSTRIA, Ohio
 CYNTHIA M. LUMMIS, Wyoming
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    

               William B. Inglee, Clerk and Staff Director

                                  (ii)


   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2012

                                 -------
                                         Wednesday, March 30, 2011.

                   FEDERAL COMMUNICATIONS COMMISSION

                                WITNESS

JULIUS GENACHOWSKI, CHAIRMAN, FEDERAL COMMUNICATIONS COMMISSION
    Mrs. Emerson. The hearing will come to order. Thank you so 
much, Chairman Genachowski, for being here. I really do want to 
thank you for being here today and talking about the fiscal 
year 2012 Budget Request for the Federal Communications 
Commission.
    Your agency plays quite an important role in this country's 
telecommunications, television, radio, internet, and cable 
industries. And probably almost every American citizen, 
business, or even non-citizens, are touched by something that 
you regulate.
    The changes that we are seeing in the industry, just with 
the blink of an eye, something is new. When did we get our 
iPads, Joe? We got them last fall, and suddenly we need a new 
one. Technology keeps changing, and it is important for us, and 
certainly important for you, to be able to strike a balance 
between regulating all of these industries, but at the same 
time, not hindering competition or innovation. Among all of the 
jobs in the government, I think yours is probably one of the 
most challenging, with many business technology and consumer 
groups watching every single move you make, along with 
Congress, as well.
    While the FCC is funded by fees, congressional oversight 
over your budget is an important check on agency activities, 
and our committee is committed to fiscal responsibility and 
oversight of the agencies under our jurisdiction. The American 
people have tightened their belts, and it is important that the 
government do the same thing.
    We in Congress consistently hear from our constituents 
about the cost of government regulations, whether it is health 
care, greenhouse gases, financial institutions, or the 
telecommunications industry. The administration's new 
regulatory proposals are providing great uncertainty for 
businesses, and in particular, small businesses. The 
regulations, in many respects, are hurting the economy, and I 
have to say that I personally have very strong concerns with 
the FCC's Net Neutrality Rule, and I am sure you are prepared 
to get into discussion on that.
    You passed this rule even though you knew it would be 
opposed by a majority of members of Congress, and it was quite 
obvious that this played out in consideration of H.R. 1, when 
the House overwhelmingly rejected your proposed rules. I do not 
think the issue is going to go away any time soon, and I hope 
that, because of the controversy that it has created, that you 
would be willing to work a little more closely with the 
Congress on these types of proposed regulations. Once again, 
thank you so much for being here. I look forward to your 
testimony. I would now like to recognize my friend and 
colleague, Joe Serrano.
    Mr. Serrano. Thank you so much. And I also want to welcome 
the Chairman to this hearing. The Commission's request for 
Fiscal Year 2012 is $354 million in new budget authority, and I 
look forward to discussing the request with you during our 
questions.
    High-speed internet access is critical to helping people 
find and participate in education and employment opportunities. 
I am pleased to see that, in the request, the FCC is moving 
forward with your broadband plan to increase access across the 
country. One way to increase access is to improve wireless 
service, and I am encouraged by your continuing efforts to open 
up more spectrum for broadband services. Doing so will help to 
encourage innovation and improve competition among broadband 
services.
    As you move forward with all of your plans, I would urge 
you to remember one of my main concerns; that the people in the 
territories are not forgotten, and that they are treated 
equally. In addition, as we embrace these technologies, it is 
important that we do not destroy existing successful programs. 
PEG channels are one such program. Arising from a previous 
technological leap to cable television, we should make sure 
that they continue to thrive as telecommunication systems 
continue to change.
    Finally, you provide an important check to make sure that 
consumer interests are being served, and that there is a level 
playing field in telecommunications. And I look forward to 
hearing more from you about your important work, and I welcome 
you again.
    Mrs. Emerson. Thank you, Mr. Serrano.
    Mr. Serrano. Thank you.
    Mrs. Emerson. And thanks to our colleagues Mr. Diaz-Balart 
and Mr. Graves for being here today. Please go ahead, Mr. 
Genachowski.
    Mr. Genachowski. Thank you, I will be brief. I have 
submitted a longer statement for the record, and I will do an 
edited version here, if that is okay. First of all, thank you, 
Chairwoman Emerson, Congressman Serrano, for the opportunity to 
be here before the subcommittee. Thank you, Congressman Graves 
and Congressman Diaz-Balart, for joining.
    A year ago this month, a unanimous FCC approved a joint 
bipartisan statement of principles which said, ``Broadband 
service can be an indispensable engine for unleashing 
innovation and investment, spurring job creation and economic 
growth, and ensuring our country's global competitiveness.'' 
That statement continued, ``Working to make sure that America 
has world-leading high-speed broadband networks, both wired and 
wireless, lies at the very core of the FCC's mission in the 
21st century.'' I was pleased to give that bipartisan 
statement. And, since issuing that statement, the FCC has been 
focused on harnessing the power of broadband and communications 
technology to drive our economy, improve U.S. competitiveness, 
benefit consumers, and unleash innovation, including in areas 
like education, health, IT, and public safety.
    The benefits of broadband increase every day. Consider 
small businesses. Like no technology since electricity, high-
speed internet helps new businesses start and small businesses 
grow by expanding their reach to new markets and lowering their 
cost through cloud-based services. Challenges to seizing the 
opportunities of broadband increase every day too, as do the 
costs of exclusion from our digital economy as job postings and 
other essential information move online.
    About 25 million Americans simply cannot get broadband 
where they live. And about 100 million, one-third of our 
population, does not sign up. That is an adoption rate of about 
67 percent in the U.S., which compares to 90 percent in Korea 
or Singapore.
    In recent weeks, several expert reports have been issued 
that confirm concerns raised by earlier studies; for too long, 
the U.S. has been losing ground to our global competitors, and 
leadership in information and communications technology is 
critical for us to stay on top.
    In this context, we submit our fiscal year 2012 budget. As 
in the past, the budget we have prepared is derived entirely 
from fees the FCC collects and auction proceeds. The budget 
will allow the FCC, which currently has its smallest staff in 
10 years, to continue our efforts to boost our economy and 
ensure that more Americans can be full participants in our 21st 
century economy.
    Our budget will support vital new initiatives to improve 
public safety and help first responders communicate with each 
other and protect lives. The FCC's proposed budget will allow 
the agency to pursue its core goals of fostering investment, 
unleashing innovation, promoting competition, and protecting 
and empowering consumers.
    The budget is consistent with our agency's commitment to 
fiscal responsibility, and deriving the most benefit for 
consumers and our economy from public resources. For example, 
the budget will help us unleash Spectrum, the invisible 
infrastructure that sustains our wireless communication, so 
that U.S. companies lead the world in mobile innovation. It 
will help us drive more efficient use of this scarce public 
resource, and free up spectrum for auctions. In the last two 
decades, the FCC has raised $52 billion for tax payers through 
such auctions. Our voluntary incentive auction proposal, a 
market-based proposal, can raise significant money in the $20 
to $30 billion range. The budget will help us transform and 
modernize the universal service funds, so that it focuses on 
broadband deployment and adoption, not old telephone service. 
USF and inter-carrier compensation reforms will eliminate 
waste, improve efficiency, require greater accountability, and 
connect millions of Americans to our digital economy.
    The budget will help us drive forward our broadband 
acceleration initiative, which is cutting red tape and removing 
barriers to broadband build out, lowering the costs of and 
encouraging the massive private investment we need in our 
communications infrastructure. The proposed budget will help us 
improve public safety communications in the United States by 
ensuring interoperability of first responder broadband 
communications, by moving toward next generation 9-1-1, so that 
people can send, and first responders can receive, text 
messages, photos, and videos from mobile phones, and by aiding 
in vital efforts to protect against cyber-threats and other 
illegal activities.
    The proposed budget will help improve the operations and 
efficiency of the FCC, reducing burdens on business and the 
public. For example, the budget will allow us to complete work 
consolidating multiple out-of-date licensing systems into one 
modern and upgradable system, which will save over $35 million 
for tax payers, and provide more efficient licensing services 
to the private sector, including small businesses.
    Finally, the budget will ensure that we can continue our 
efforts to combat waste, fraud, and abuse, including by 
providing necessary funding to the agency's Office of Inspector 
General. These cost-saving enhancements are being built on 
significant progress we have already made from reforming, for 
example, the video-relay service, which will save tax payers 
$250 million annually, to reducing contracting costs of the 
agency by over $2 million a year. The Commission's commitment 
to reforming the agency into a model of excellence was 
recognized when the Office of Personnel Management named the 
FCC the most improved agency in the Federal Government. I look 
forward to working with this committee on initiatives to 
harness information and communications technology to get our 
economy moving and to expand opportunity for all Americans. 
Thank you for the time, and I look forward to your questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Emerson. Thank you so much, Chairman Genachowski. And 
again, I apologize for trying to take your opening statement 
time. While your appropriation is offset by fees, we really do 
have to look at all agencies in our bill to find ways for them 
to become more efficient, no matter what their funding source 
is. So can you give me three specific examples of the impact on 
your operations if we were to go back to fiscal year 2008 
levels?
    Mr. Genachowski. Sure. One is it would interfere with our 
ability to unleash spectrum for auctions. We need the engineers 
and the data work to do that. That is one important example. A 
second is it would interfere with our ability to transform the 
Universal Service Fund and inter-carrier compensation. This is 
a complicated endeavor. It will save money; it will make the 
programs more efficient and deliver better broadband to more 
Americans. But we need the resources in order to be able to do 
that work. It would interfere with the operations of our 
Inspector General's Office. The headcount increase in the 
budget is all an IG request, which I support, to make sure that 
they can continue their efforts to root out waste, fraud, and 
abuse. Through their efforts, along with our Enforcement 
Bureau, we have identified fraud in one program that has saved 
over $250 million annually. And finally, just one last point, 
it would interfere with our ongoing efforts to improve the 
internal technology at the FCC, which will save money. I 
mentioned the consolidated licensing system, we are also 
consolidating data centers. These are things that, when I was 
in the private sector, every company did, and you had to do to 
save money. So in each of these areas I feel strongly that 
these are real investments that will have a measurable positive 
return for the American people and the American economy.
    Mrs. Emerson. But you do not have any existing sources that 
could be reprioritized within the agency, as it exists today, 
to do some of this work?
    Mr. Genachowski. The work that we have done in preparing 
the budget took that into account. We brought in, as our 
Managing Director who oversees the budget process, someone who 
had spent 14 years doing budgets and running P&Ls in the 
private sector. And my directive to him was, we are going to 
root out waste and fraud at this agency and run it as 
efficiently as a private company would. And so, we have been 
able to find significant savings, and I have great confidence 
that we are doing as best we can to apply private sector 
budgeting principles to what we are doing. And the budget has 
been tight, and we are doing a lot with the money that we have.
    Mrs. Emerson. In spite of the 15.9 million increase that 
you have asked for?
    Mr. Genachowski. Yes, so one example was the headcount for 
the Inspector General's Office. They have a series of temporary 
employees whose contracts will be up. These are employees who 
have helped root out fraud and literally made sure that we can 
save $250 million in the VRS program. If we cannot fund them, 
they will go. We will lose their expertise and their ability to 
root out waste, fraud, and abuse.
    Mrs. Emerson. You have asked for 19 people in the IG's 
Office at a cost of $3.2 million. That is pretty hefty amount 
for salaries, is it not?
    Mr. Genachowski. Well that figure reflects not only 
salaries, but the work that they do to do their investigations. 
And so there is underlying work, whether it is data-oriented 
work, expert work that they need to do their work and as the 
investigator of waste, fraud, and abuse, they are very 
sensitive to making sure that their budget is as tight as 
possible.
    Mrs. Emerson. Okay. So you really felt, or at least agree 
with the Inspector General, that they are too short-staffed to 
do their jobs?
    Mr. Genachowski. I do. And again, the request here is not 
to increase headcount over what it is. For historical reasons, 
they have had a team of, I believe the number is 17 or 19, I 
cannot remember exactly, that has been working on these issues. 
They have been on a term-contract. We can find out the history 
of why that is so.
    Mrs. Emerson. Why they could not just simply stay on the 
contract.
    Mr. Genachowski. Either way, the money is being spent for 
them.
    Mrs. Emerson. With the exception of all the benefits that 
attach to a permanent employee versus a temporary employee.
    Mr. Genachowski. That may be. These are professionals who I 
think it would be in our interest to keep in government doing 
exactly what they are doing. At what point do they say, if we 
are not wanted here to do this job as a full-time employee, 
maybe we will go find something else to do. I presume we could 
replace them. I do not think we could replace the institutional 
memory and knowledge that they have accumulated in the 
investigations that they have done, which have been very 
successful.
    Mrs. Emerson. Okay. We will talk a little bit more about 
this.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Emerson. Thanks. Mr. Serrano.
    Mr. Serrano. Thank you. Thank you so much. Mr. Chairman, 
PEG channels are a valuable part of our communities, providing 
them with local information and learning opportunities for 
people and the communities they serve. The channels were 
originally created along with cable service. However, now that 
we are moving to a new technology, the channels are in danger 
of being left out. In January 2009 the Alliance for Community 
Media filed a petition concerning unfair treatment of PEG 
channels. It has now been more than two years since this 
petition was filed. Can you tell me why it has taken so long 
for there to be a ruling, and when we can expect one?
    Mr. Genachowski. Well, a couple of points, if I may. One 
is, I share your recognition that PEG channels play an 
important role in the landscape, providing a type of 
programming that you would not get in other places. And also 
they face challenges of the sort that you described, chiefly 
around cable companies or other multi-channel video providers 
upgrading from analog to digital, and doing that in a way that 
makes it hard for PEG channels to come along. The good news 
that I am happy to report is that, in the year since we talked 
about this at the last appropriations hearing, about half of 
the complaints that PEG operators have filed have been resolved 
in a way that has been successful from the point of view of the 
PEG operators. Keep in mind that there is a lot of state and 
local involvement here, because the number and many of the 
requirements around PEG channels are done at the local level 
during the franchising process. And our abilities at the 
national level are somewhat constrained. There are some open 
issues, though, as you mentioned. And we look forward to 
continuing to work with you to make sure that PEG is treated 
fairly in this evolving world.
    Mr. Serrano. Do you remember, when we discussed this last 
time, there was not just the issue of this desire not to have 
PEG channels run anymore, but it was also those that were 
around in some areas were just being treated in a way where it 
was very difficult for them to exist. I remember the testimony 
we had about, in some cases, the PEG channels went from an easy 
place you could find them to Channel 900, and then there was a 
dropdown menu different from the rest of the channels, where 
you had to go find them. So, it really became an adventure to 
try to find them, which was, we think, just a way to try not to 
have them function. So, I hope as you resolve some of these 
issues and the complaints that you also look at the general 
treatment because, they were there at the beginning.
    Here is what is interesting about that. I remember when 
cable first came to the Bronx, and I say I remember because, as 
you know, New York had a reputation of having great stations 
and nobody thought cable was necessary. So we got it after most 
of the nation got cable. It was very weird. But I remember that 
that was very much a part of the agreement. We will have all of 
this, then there will be public access and there will be PEG 
channels, and so on. Now, people seem to forget this earlier 
agreement, so I hope that you stay on top of this, because this 
is very important.
    Mr. Genachowski. Understood. And I am hopeful that the 
positive resolutions over the last year can provide a baseline 
and a set of practices that will make it easier to resolve the 
ones that are still outstanding.
    Mr. Serrano. Right. Now, Mr. Chairman, we always talk here 
about, we have in the last couple of years, about the digital 
divide, which continues to be a problem in this country. But 
there is a digital divide in terms of the small business 
community. They do have not access to the services necessary, 
and, in some cases, have not used technology properly. So, our 
question is, What are the major impediments to faster 
implementation of IT among small businesses? What are you 
encountering? What are we doing to help them? At the expense of 
getting some people on this panel angry at me, what is 
government doing to help them move along? What is in the future 
for small businesses?
    Mr. Genachowski. I think this is a very important topic and 
sometimes in all the discussion about broadband adoption or 
broadband goals, it can be very focused on individual 
consumers. That is very, very important, but the opportunities 
of small businesses online are just enormous. You can expand 
your businesses to other markets, increase your customers, 
increase your revenue. You can move to lower cost services, by 
using your services online or in the cloud. More revenue, lower 
services, more profit, more jobs.
    The obstacles that we have seen in our work on this are 
somewhat similar to the obstacles that we see in our consumer 
research. A lack of appreciation of the relevance of online 
benefits. In some cases, digital literacy, just not knowing how 
to do it. In some cases, affordability. In some cases, trust. 
Here are some of the things that we are trying to do. We have 
teamed up with the Small Business Administration to make sure, 
as they have boots on the ground in communities all over the 
country helping small businesses, that those people are able to 
help with new technologies and new opportunities. That has been 
a successful program so far with their initiative called SCORE. 
We are also taking steps to make sure that small businesses 
have access to more choices in the marketplace for broadband 
access.
    Finally, we are addressing some of the trust issues that 
small businesses have. I have talked to small business owners 
who say, Yes, it seems like a good idea, but I am really 
worried about putting my sensitive data online or in the cloud. 
A reasonable worry, but there are steps to take. In the next 
month, we expect to do a forum on this, where we will present 
best practices for small businesses, steps that they can take 
to increase the security of their information online. Some of 
these things we all know; do not click on a link in an e-mail 
from someone you do not know. It would help to increase the 
level of understanding in small businesses and we think that we 
can help on that education campaign, and that will help 
increase small business adoption.
    Mr. Serrano. All right. Thank you. Madam Chair, in view of 
the fact that we may vote soon, I will stop now.
    Mrs. Emerson. Thank you very much, Mr. Serrano. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman, for being here. First, 
I want to thank you for your work. I know that you have a big 
task ahead and, as I ask everyone that comes before our 
subcommittees, I would love for your cooperation in providing 
us with some options in how you can achieve the objectives of 
your commission with 10 percent less resources, 20 percent, and 
25 percent.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Graves. I will be submitting a letter for the record as 
well and your office should receive that. I hope we can get 
your assistance in that and we can work together as a partner 
in that way.
    If not, I imagine that this committee, as the Chairwoman 
has already brought up, will be looking to make some of those 
decisions for you. We would rather have your help in that, so I 
hope you can help us. I want to go back to November, when the 
FCC opened an investigation on privacy, the invasion of privacy 
of Americans, and just ask what is the status of that 
investigation into Google and the harvesting of personal data?
    Mr. Genachowski. You are referring to a specific 
investigation, which I cannot comment on. In general, I would 
say that any uses of spectrum or communications facilities that 
are in our jurisdiction are things that we would take 
seriously.
    Mr. Graves. So when do you expect that will be concluded?
    Mr. Genachowski. Again, I cannot comment on a specific 
investigation. It is in front of our Enforcement Bureau. So, 
with apologies, I can only comment generally, but not in a 
specific investigation.
    Mr. Graves. Okay, so really no idea when that will be 
concluded, even though there is by Google's own admission that 
data was collected, could be 62 million American e-mail 
addresses and personal data, but no idea when something may 
occur.
    Mr. Genachowski. Nothing that I can say about an ongoing 
investigation.
    Mr. Graves. Would you consider their admission that data 
has been collected? Do you consider that eavesdropping on 
innocent Americans?
    Mr. Genachowski. Again, it would not be right for me to 
comment on a specific investigation. In general, the FCC has 
had privacy rules in place for some time. They protect 
consumers when they make phone calls over wires, they protect 
consumers when they make mobile calls. They protect consumers 
when they are using various kinds of telecommunications 
facilities. We consider the privacy rules in our governing 
statute and in our rules to be very important. People have an 
expectation of privacy.
    Mr. Graves. So, do you consider it eavesdropping?
    Mr. Genachowski. Again, I will not comment on a specific 
investigation, but if there are any violations of our rules, we 
would take them very seriously.
    Mr. Graves. But would you consider anybody who harvests 
data from unknowing, innocent Americans identity theft, if it 
is personal data?
    Mr. Genachowski. There are many instances in this country 
of violations of privacy, misuse of communications facilities. 
We have other areas where we have investigated privacy 
violations. We take those very seriously. I understand what you 
are asking. I apologize that I cannot answer, but I just cannot 
talk about a specific investigation.
    Mr. Graves. So you are not certain if it is eavesdropping, 
not certain if it is an invasion of privacy or identity theft. 
Do you agree with the FCC's Enforcement Bureau, Michele 
Ellison, who said that it is a breach of privacy? Do you agree 
with that?
    Mr. Genachowski. I do not remember her quote exactly, but I 
remember at the time agreeing with what she said. If I could 
see the full quote, I am sure I would agree with the full 
quote.
    Mr. Graves. Right. She referred to it as a breach of 
privacy and it seems that this has been ongoing for awhile, 
because, prior to November, it was actually in May in which it 
was reported to the FTC. Is that right? They might have closed 
their case on that, but then you opened up one. So it has been 
going on awhile, three years of data has been harvested. I 
think the American people expect some action on that and I 
would hope that you would move swiftly. Because I can only 
imagine, and I would love for your response on this, if the 
government drove around taking pictures of homes, and at the 
same time was harvesting data over unencrypted Wi-Fis. How 
would the American people react to that?
    Mr. Genachowski. They would react badly, as they should. 
Americans should and do react badly to any invasions of privacy 
or violations of the rules that exist in privacy.
    Mr. Graves. So they should expect the same with anyone 
else, whether it was me or a large corporation, or the federal 
government themselves?
    Mr. Genachowski. I cannot disagree with that.
    Mr. Graves. All right. Thank you.
    Mrs. Emerson. Ms. Lee.
    Ms. Lee. Thank you very much. Good afternoon, Mr. Chairman. 
I apologize for being late. We had several meetings going on at 
the same time, and hearings. So, if my question is redundant, I 
apologize. First, I just want to say how important the FCC is 
to communities of color and underserved communities. So much of 
what we have been trying to do is close this digital divide and 
I would just like to get your sense of how that is going, if we 
are heading in the right direction. Secondly, in terms of any 
dramatic cuts to your budget, I would like to know how that 
would impact the work of the FCC. Thirdly, with regard, I am 
glad that you have reinstituted collecting data on the 
involvement of minority and women participation in the media 
and broadcast industry, because we have to be able to rely on 
data to make intelligent decisions about public policy.
    Along those lines, the Comcast-NBC merger, I know that is 
done, but in terms of the memos of understanding and all of the 
oversight responsibility, some of us thought the deal really 
was not what it should be, given the lack of minority 
participation in this. How, moving forward, will the FCC make 
sure that whatever those memos were, that they are complied 
with, for the full participation in minority and women-owned 
businesses?
    Mr. Genachowski. Thank you Congresswoman. In general, you 
identify a set of issues that have been historically bipartisan 
issues at the FCC, the goal of providing new entry to minority 
communities and others who are at risk of being left behind, 
the ability to participate in these technologies, these 
opportunities. In the area that is fastest growing and has the 
greatest opportunity, which is broadband and mobile-related 
opportunities, we are seeing two things. One is, there are 
across-the-board issues where, as a country, we are not where 
we should be. I mentioned some statistics earlier. Our adoption 
rate in the U.S. for broadband is about 67 percent, which 
compares to about 90 percent for Singapore and South Korea. But 
in certain communities, that number is even lower: minority 
communities, the elderly, rural communities, low-income.
    Meanwhile, the costs of digital exclusion are rising. Five 
years ago, if you were looking for a job and you did not have 
internet access, it was okay. You would find the classifieds in 
the newspaper and you would call up. You would at least be in 
the running. Today, if you do not have access to the Internet, 
you cannot even find the job, because the classifieds have 
moved online. And if you do not have basic digital skills, you 
are probably not eligible for the job. I do hear from business 
owners around the country who say, Actually, we do have some 
jobs open, but we need people who have digital skills, and they 
cannot use the Internet and they cannot use Excel and they 
cannot use Microsoft Word. So these are very big problems. 
There's no single silver bullet.
    Here are the kinds of initiatives we are working on. One, 
we are looking at reforming our Lifeline Link-Up program in a 
sensible way. This is the program that for many years has 
helped with adoption of telephone service. So, as part of our 
overall USF reform effort, bringing that program into the 21st 
century is an opportunity and a challenge, but it is one we are 
taking on. Second, we have been running activities to bring 
together entrepreneurs from diverse communities with capital. 
We call them speed-dating sessions, but they have been 
successful in overcoming barriers and getting the private 
market to work better for entrepreneurs. As I mentioned 
earlier, we are working with the Small Business Administration, 
so that their outreach to small businesses across the country 
includes education about the opportunities of the Internet for 
small and diverse businesses. So, these are just some of the 
areas we are working on. If I could mention one other example, 
on adoption, we are working on public-private partnerships. 
This is one of the areas where there is as much an opportunity 
for a win-win as you can find anywhere else.
    Any new subscriber for an Internet service provider is a 
win for that person who had previously been excluded, and also 
a win for the company because they get another subscriber. 
There are some innovative programs going on in the country that 
are focused on low-income Americans, communities that would 
otherwise be left behind. One of the things we are trying to do 
is work with companies to see if those, call them pilot 
programs, those pilot public-private partnerships, can be 
expanded and have more of a positive effect across the country.
    Ms. Lee. Comcast-NBC merger.
    Mr. Genachowski. I think with respect to any merger that 
has conditions, we have an obligation to make sure that the 
conditions, that the commitments made to the agency are 
honored, and we will have a process to make sure that that is 
so.
    Ms. Lee. Finally, the budget cuts.
    Mr. Genachowski. Budget cuts I will answer briefly, because 
the chairwoman asked the same question. Our ability to free up 
spectrum, generate auction revenue, would be hurt. Our ability 
to investigate waste, fraud, and abuse with our inspector 
general's office would be hurt. Our ability to transform the 
Universal Service Fund and take an inefficient program and make 
it an effective program would be hurt. We provide various 
services for consumers such as call centers, that would be 
hurt. We are in the middle of projects to upgrade our 
infrastructure in a way that would save money, consolidated 
licensing, consolidating data centers. Stopping those would 
have, as would these other things, a negative return on 
investment. This is an important area to me. I spent the last 
10 years in the private sector. The head of our managing 
director's office, who is in charge of this, spent the last 14 
years in the private sector. We both tried to drive here a 
private-sector mentality of making sure that we are getting the 
most bang for the buck in everything that we do; that we are 
taking costs out and delivering a greater return for the 
public.
    Ms. Lee. Thank you. Thank you, Madam Chair.
    Mrs. Emerson. Thank you, Ms. Lee. Our vice chairman, Mr. 
Diaz-Balart.
    Mr. Diaz-Balart. Thank you Madam Chairwoman. How are you, 
sir, Mr. Chairman?
    Mr. Genachowski. I am good, thank you.
    Mr. Diaz-Balart. Let me ask you, in the history of mankind, 
can you think of anything where there has been more innovation, 
so much innovation that has connected more people, that has 
employed more people, that has led to more inventions and 
innovations and spin-offs and launched more businesses and had 
more of an impact in such a short time? In the history of 
mankind, can tell me a couple of those that have done more than 
the Internet?
    Mr. Genachowski. I do not know that any has. It is an 
extraordinary boon to innovation, investment, job creation.
    Mr. Diaz-Balart. It truly is. It is one of those things 
that we are living in this incredible time and yet it looks 
like the answer to that is more government intervention and 
regulation. I guess government, who is not known as the 
innovator, the job creator, the efficient animal, is not doing 
enough. I guess the FCC now believes that government would have 
done better, could have done better, or regulation that 
government will come up with is better. I want to go back to 
your statement on page two.
    Mr. Genachowski. I would be happy to answer that, if you 
would like.
    Mr. Diaz-Balart. I think you already answered the issue 
about the fact that the Internet has clearly been among the 
most innovative things in the history of the planet, probably 
the most innovative, and yet it is clear that the FCC now wants 
to intervene there further. But let me just go back to your 
statement. You talk about how, even as the communications 
industry has grown, telecommunications is a critical and 
growing part of our economy. Yet, as the communications 
industry has grown in size and complexity, the FCC has remained 
relatively small and focused. You talk about how after the turn 
of the 21st century, even after the explosive growth in 
telecommunication services, the FCC is at a 10-year low in FTE. 
So, have you ever thought that maybe part of the reasons for 
that explosive growth is precisely because the FCC has not been 
meddling in every single decision? Have you ever thought, is 
that a possibility, that there is a correlation between this 
explosive growth? This innovation that you have just stated has 
no precedent. Could there be some relationship with not too 
much government regulation and that explosive growth?
    Mr. Genachowski. Two quick reactions. One is, with respect 
to preserving the freedom and openness of the Internet, and I 
could not agree more strongly with you that that is a central 
driver of innovation and our global competitiveness, on a 
bipartisan basis for the last five years, it has been thought 
at the FCC that basic rules of the road that give the broadband 
economy certainty and predictability would allow that to 
continue. That is what we did at the FCC, bringing in 
constituents and stakeholders from across the spectrum, 
internet-service providers, as well as early-stage businesses. 
There are many areas where we are working very actively to 
reduce regulations, reduce burdens on businesses. For example, 
opening up uses of spectrum, bringing market forces into uses 
of spectrum. There are areas where the FCC has responsibility 
for public resources, where it takes work and effort to make 
sure that those resources are being used for innovation and 
economic growth, like spectrum. So I would very much enjoy the 
chance to work with you on bringing market-driven policies to 
spectrum. I think there is some enormous opportunities for 
bipartisan efforts to unleash even more innovation in our 
mobile space.
    Mr. Diaz-Balart. Am I correct that the Net Neutrality vote 
was a split vote?
    Mr. Genachowski. It was a split vote at this FCC. Yes.
    Mr. Diaz-Balart. At the FCC, because there was obviously 
many, even in your board, that had those concerns about, 
frankly, over-regulating, and that you might have just the 
opposite effect. Sometimes government is in search of a 
problem. They have a solution for a problem that they later 
invent, and it seems that this may be one of those areas, but 
what you are potentially putting at risk again. And we agree 
with this, is the most innovative, the most dramatic, the most 
open, the most wealth creating animal maybe in the history of 
mankind. And yet, it seems that now, you know, a small group of 
people in the FCC people that they may know better than this 
incredible, dramatic thing.
    It is frankly a little frightening because now I hear 
rumors that the FCC may also be looking at wireless. And then, 
we will talk a little bit about that. But let me just ask you, 
do you have a cell phone?
    Mr. Genachowski. I do.
    Mr. Diaz-Balart. All right. I do too and I actually have 
two of them, because we are all weird in this place. Right? I 
am pretty sure that your first cell phone, like mine, that was 
in the second generation of that brick. The first one was too 
expensive. I am assuming that your first cell phone just made 
calls.
    Mr. Genachowski. True.
    Mr. Diaz-Balart. I am also assuming that you either have a 
BlackBerry or a Smartphone today that you can get phone calls, 
that you can get video, you can do SMS, MMS, Twitter, 
everything else. These are all new technologies that did not 
exist 10 years ago. Is it not because of the private sector 
innovation? Or is it government that comes up with all of these 
wonderful ideas and then tells the private sector, This is what 
you have to do and this is how you have to pursue it. I mean, 
which one is it?
    Mr. Genachowski. It is absolutely private sector. It is one 
of the reasons I am pushing so hard for a tool to use more 
spectrum auctions, two-sided auctions to bring more market 
forces into allocation of spectrum, free up spectrum for 
auction, billions for the Treasury, and even more innovation. 
And I was very, very supportive of the historically very 
important move that was made about 15, 20 years ago from 
spectrum lotteries and comparative hearings to auctions.
    Now the FCC has to run the auctions and it has to do a lot 
of work to identify spectrum to auction. A last quick point 
that I would make is I completely agree with you about the 
devices, the Smartphones that we each have, use about 22 more 
times spectrum than the old feature phones. The tablets that 
many of us have use 122 times more spectrum. We are facing a 
spectrum crunch in the country, and I very much look forward to 
working on a bipartisan basis to come up with market-based 
solutions to solve them.
    Mr. Diaz-Balart. And we need to, just again it does not 
seem like it has been a very bipartisan effort within the FCC.
    Mr. Genachowski. Over 95 percent of the FCC's decisions are 
unanimous or bipartisan.
    Mr. Diaz-Balart. Right, not net neutrality. And again, that 
one seems to be a solution trying to find a problem. And I 
think we all agree that clearly there has been innovation. In 
1997, the average cell phone bill was $98.63. In 2010, it was 
$47.21. In 1995 there were 340,000 cell phone subscribers in 
the United States and now there are 300 million subscribers. 
And again, these are private sector innovations.
    And here is my concern, Mr. Chairman. We all know that 
there is a need for some regulation. There is no doubt about 
it. But there seems to be this attitude, now, within the FCC, 
with your FCC, that it is almost like addicted to government; 
addicted to power. That now the federal government knows how to 
regulate the internet, the most innovative thing in the history 
of mankind because, I guess it has maybe been too innovative? 
It is crazy because it is too innovative? But the reality is 
that there a lot of us who are really concerned including 
almost half of your FCC board, with net neutrality, that is 
frankly, highly concerned that you are basically now meddling 
into something that has been an incredible advance. One of the 
most historic advances in the history of humanity as far as 
quickly. And because the federal government, the FCC, frankly 
knows best.
    Mr. Genachowski. If I may, the driving force behind what we 
have done is preservation of the incredible freedom and 
openness of the internet and the role that plays in driving 
innovation and job creation. And it is why we sought out to and 
were able to build very broad-based support for the sensible 
balance that we ended up with, from early stage and late stage 
technology companies, to the cable industry, major ISPs.
    Mr. Diaz-Balart. On that thought, though; you were talking 
about preservations of that. Well, wait a second. How is it 
possible then, to create it? You have to preserve it, I guess. 
But how was it created and preserved before you decided that 
government was going to be know-all, do-all. In other words, 
how did it become so big? What is it that you have to preserve? 
How would it be there if it was not for the federal government 
to take care of it originally?
    You are preserving something that was already created 
without your involvement, without the need of the federal 
government to do it, without taxpayer funding. So how was it 
created, without you being there originally to take care of it?
    Mr. Genachowski. Putting aside for a moment the origins of 
the internet its own story of the healthy relationship between 
the government and the private sector; what the FCC started 
realizing about 5 years ago, on a bipartisan basis, is that 
there were threats to freedom emerging and that sensible, high-
level balanced rules would preserve freedom, and competition, 
and innovation on the internet. Not everyone agrees and I 
respect different points of view. But that was the goal. It has 
been supported on a bipartisan basis but the resolution that we 
came up with was not satisfactory to many of the people who 
were arguing for the stronger measures. There were many people 
who thought we did not go far enough. But fundamentally, it 
brought together different segments of our broadband economy, 
added certainty and predictability to the marketplace, because 
I want to see our broadband economy not fighting with each 
other. I want to see them competing with each other. But I do 
not want to see them having, you know, non-productive policy 
fights. I want to see that energy go and compete with the rest 
of the world, where we are in danger of falling behind unless 
we really take advantage of the wonderful entrepreneurial 
assets that we have in the United States and tackle some of the 
strategic issues that we face as a country.
    Mr. Diaz-Balart. Madam Chair, I do not know if I have much 
time as I have a few more questions, but maybe for the second 
round.
    Mrs. Emerson. Yes. for the second round, please, and we 
will let Mr. Bonner go and then what we are going to do, just 
so everyone knows, when we start the next vote, at about a 
minute and a half, we will take about a 10 minute recess and 
then we will be right back because we will have two more votes. 
Okay.
    Mr. Diaz-Balart. Sure.
    Mrs. Emerson. Thanks. Mr. Bonner.
    Mr. Bonner. Thank you, Madam Chair. Mr. Chair. I do not 
know if you received, or if you are aware even, that I wrote 
you a letter last week and I would not hold you accountable to 
being aware of that, but I have a copy of it that I will give 
you. But I want to just say briefly, it addresses the 
Commission's proposed spectrum policy. I am sure I am not the 
only member of Congress who has written about this.
    During the national transition from analog to digital 
television, both the American consumer and broadcasters made 
significant investment in digital equipment. In the FCC's 
efforts to re-allocate spectrum for broadband development and 
deployment, what steps is the Commission taking to guarantee 
the public's ability to continue to receive high-quality over 
their digital television programming and to protect television 
broadcasters' ability to deliver vital local news programming 
to their viewers?
    Mr. Genachowski. The challenge we are seeking to address is 
the one we were talking a little bit about before. It is the 
gap created by all of the new, exciting devices on spectrum 
creating tremendous demand for more. Spectrum supply is 
essentially flat. And we need to solve this gap for a couple of 
reasons.
    One is, consumers are going to be incredibly frustrated as 
they use their Smartphones and their tablets, and they know 
what dropped calls feel like; they are going to hate dropped 
internet connections. They are going to hate having bad 
connections. And that will, I fear, frustrate and slow down the 
incredible economic opportunities that come from the mobile 
revolution.
    And that is agreed to by many industries that are involved 
in this, the wireless industry, the consumer electronics 
industry, the technology industry, et cetera. And they 
specifically support the tool that we have suggested and that 
has been supported on a bi-partisan basis, for the FCC to have 
the tool to conduct incentive auctions. Simply, an auction of 
the sort we are familiar with, but where the supply of the 
spectrum would come from licensees who voluntarily contribute 
their spectrum in exchange for a portion of the proceeds.
    It is a way to bring market incentives, market forces into 
allocation of spectrum. In that process, if it were applied to 
broadcasting, our expectation is that the vast majority of 
broadcasters would continue to broadcast exactly as they are, 
because any digita1 to digital transitions are very different 
in kind from the analog to digital transition. And we are 
committed to addressing the kinds of issues that you are 
mentioning and I look forward to working with you on that, and 
finding a solution that helps drive our economy and frees up 
spectrum to raise money for the Treasury.
    Mr. Bonner. I look forward to it as well. I note in your 
discussion, in your written testimony, about the FCC's 
investment in cyber-security and homeland security efforts. 
Given that we already have a Department of Homeland Security 
and the Cyber Command within the Department of Defense, not to 
mention cyber security spending in other federal agencies, like 
Treasury, Health and Human Services, Agriculture, and 
Transportation, to name just a few, which is estimated to reach 
$55 billion a year by 2015. Do you think it is fair to say the 
FCC's entrance into this field is an example of mission creep?
    Mr. Genachowski. I do not, sir. With respect to public 
safety spectrum, the FCC has had responsibilities in these 
areas for years and years, and whether it was with respect to 
the older phones that firefighters and police officers used 
around the country or our efforts to upgrade that to a mobile 
broadband public safety network, and also move to next 
generation 911. These are activities that the FCC has been 
recognized as having very important responsibilities for 
decades. With respect to cyber security, the FCC is the agency 
of the government that interacts with the commercial companies 
that carry internet traffic, and so it has been recognized in 
all of the inter-agency cyber security efforts that as a 
result, the FCC has an important role to play in cyber security 
and connecting with the other agencies that are focusing on 
other parts of the problem.
    So I appreciate the question, and I can understand why you 
would ask it, but there is, I think, a proper history. Just 
last night, I was at a dinner where the FCC was honored for its 
work on 9-1-1 and specifically for helping to move to next 
generation 9-1-1. As I mentioned in my statement, I think it is 
close to a crime that people today cannot text to 9-1-1. You 
cannot take a photo on your smartphone of a crime and zap it to 
9-1-1, and we are working very hard with the first responder 
community, with Congress, and with others to make progress. And 
for many years, the FCC has been involved in improving 9-1-1.
    Mr. Bonner. Well, as a quick follow-up, though, I mean, is 
there any area of jurisdiction at the FCC that you think is 
redundant with some other federal agency or department that we 
do not need? I think there is a real disconnect in Washington 
with the rest of America. It is hard for people who only visit 
this city to come to the tourist attractions or perhaps to come 
see their members of Congress. I think, sometimes, they have a 
real reason to believe that we are totally in the land of 
disbelief. When you are talking about the kind of debt that we 
have got, the kind of deficit that we have got, that is why I 
am asking about redundancy in programs when other agencies are 
doing similar things. I think it is a fair question at this 
difficult time.
    Mr. Genachowski. I agree it is a fair question, and when I 
arrived at the FCC we asked that question internally. What are 
we doing that is redundant, where can we save money?
    Mr. Bonner. And what did you find?
    Mr. Genachowski. Well, one of the things that we found was 
that we had multiple licensing systems that kind of grew up 
historically that were inconsistent, that took longer for 
employees internally to use, and that were incredibly 
frustrating to the private sector that relied on them, and we 
embarked on a mission to consolidate our licensing services. We 
also found that the rules at the FCC were such that people in 
different parts of the agency were discouraged from working 
together, across bureaus and silos, even though almost every 
issue we face involves both wired and wireless. We removed 
those barriers, and I think we have become a more efficient 
organization in part because of it. I mentioned we have 
identified other areas of cost-saving, and I do not think you 
were in the room at the time, but I come from ten years in the 
private sector. I hired a managing director who came from 14 
years in the private sector managing budgets, managing P&L, and 
while I am sure there is always room for improvement, we have 
been focused on bringing private sector best practices into 
budgeting and operations at the FCC.
    Mr. Bonner. I think we are going to get another vote 
called. Let me try to get a couple questions, and if you cannot 
answer them at this time, maybe you can get it to us on the 
record. How many employees do you have working at the FCC today 
versus 10 years ago?
    [The information follows:]

                         FTE Comparison Levels

    Mr. Bonner. How many employees do you have working at the FCC 
versus ten years ago?
    Mr. Genachowski. The requested FTE level for FY 2012 is 1,794, 
which is 198 FTEs lower than the FY 2002 level of 1,992 FTEs.

    Mr. Bonner. What is the budget request today versus ten 
years ago?
    [The information follows:]

                        Budget Comparison Levels

    Mr. Bonner. What is the budget request today versus ten years ago?
    Mr. Genachowski. The requested budget for FY 2012 is $354.2M which 
is $109.1M above the FY 2002 level of $245.1M.

    Mr. Bonner. A lot of times when we are budgeting out for 50 
years or 100 years, that is beyond most people's ability to 
comprehend. So let us look backward and see where you are today 
in terms of number of employees, and budgets. Now I do not want 
you to actually hire anyone new to do this, but assuming you 
have got someone in your capable staff who could do it, I would 
love to know how many words of new regulation have come under 
your leadership with FCC during the last two years and have 
been published in the federal register.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Bonner. You talked about small business and you 
mentioned that you have a private sector background. I live in 
Alabama. I do not live up here. I just work up here. Most of 
the small businesses that I have talked to, whether they are in 
the industry or not, are begging for relief from regulation. We 
need regulation. I am not saying you do not need it, but I am 
just telling you it would be interesting to know how many new 
words of burden, regulation, expense, that this government is 
imposing on them and their ability to compete in a global 
marketplace. And again, if you can answer those now, that is 
great. If not, we would love them for the record.
    Mr. Genachowski. I am not sure I can tell you the words, 
but we will get back to you on that. And we will also send you 
the list of regulations that we have found that we can repeal 
because they did not serve a purpose anymore. Early in my 
tenure, we set up FCC reform task force to do a sweep and 
identify unnecessary regulations and repeal them. I believe 
they identified 20. And we are in the process of doing that. 
And so I would be happy to put that together for you. In terms 
of the number of FTE's, I think we are at a lower number of 
FTE's now than we were 10 years ago and approximately 1,775 
now, and I cannot remember exactly the number 10 years ago, but 
we will get that for you. And you had a third question?
    Mr. Bonner. Just how the budget has grown or shrunk over 
the last 10 years.
    Mr. Genachowski. We will get that for you. I do not 
remember what the budget level was ten years ago, but we would 
be happy to get that for you.
    Mr. Bonner. Great. Thank you. Madam Chair.
    Mrs. Emerson. Okay. Let's just go ahead and vote, because 
we do not have enough time to really go through another 
question. We will go vote and take a 10-minute break and we 
should be back hopefully by five past two. Thanks.
    [Recess.]
    Mrs. Emerson. Okay. We are going to start again. I am going 
to allow Mr. Serrano to ask his next round of questions since 
Mr. Yoder is not quite ready yet.
    Mr. Serrano. Rather than go through all the prefacing 
comments on this, this whole thing with the FCC granting 
conditional approval for a company called LightSquared to build 
a terrestrial wireless broadband, now, the concern is that what 
they are building will interfere with GPS. And GPS, I do not 
know how long ago, to follow up a bit on Mr. Diaz-Balart's line 
of questioning today, GPS stopped being a fun, innovative thing 
and became very much a necessity for so many people, and so 
many law enforcement agencies, and so on.
    So the concern is that this will interfere with that 
service. And that is a big no-no. What can you tell us about 
that, and what precautions are you taking to make sure that 
that does not happen? And what is it exactly that they are 
going to do?
    Mr. Genachowski. Protecting safety, making sure that there 
is no interference with GPS, that harms safety is very central 
to what we are doing. Let me take a step back. An important 
part of our job is finding ways to unleash spectrum, make more 
spectrum available for new uses, for innovation, for job 
creation, for investment. And, in this case, this particular 
company has a proposal to build an innovative network, to 
invest literally billions of dollars, create hundreds of 
thousands of jobs, and provide mobile broadband services.
    Now as it is very common in the history of the FCC that 
when a new service proposes to launch, that interference issues 
are raised with existing services. And this is something the 
FCC has done for years. It has fantastic engineers that work 
with the engineers from the various parties, and others, to 
resolve interference disputes. There is an interference dispute 
right now about whether this new service would interfere with 
GPS.
    Mr. Serrano. And this new service would be used for what?
    Mr. Genachowski. It is called LightSquared, they are 
providing mobile broadband services for consumers and 
businesses.
    Mr. Serrano. So no different than what we have now, just 
more?
    Mr. Genachowski. Exactly. This is what we were talking 
about before, we are running out of spectrum, and in this case, 
it is proposing to use some spectrum and it is not worth 
getting into the details; but the short answer is, yes, it 
would be more and we need more.
    The GPS industry has raised interference issues, as I said. 
We are running the kind of process that we have run many times 
in the past to study the facts, to study the engineering, and 
to make sure that anything that we ultimately approve addresses 
interference issues that were raised. And obviously we are not 
going to do anything that would create safety issues with GPS.
    Mr. Serrano. Just one last question. Existing broadband 
services do not seem to be a problem for GPS. Why do the 
supporters of GPS services' technology feel that this 
particular one would be a problem? What is different about this 
delivery of service that is different from what we have now?
    Mr. Genachowski. It is a good question. Part of the answer 
is where on the spectrum chart this new service would be 
provided. And, again, this is something that is very common at 
the FCC, when any band of spectrum that is being used for a 
particular service in a way that it has not before, it raises 
new issues.
    And there are people who have been doing this at the FCC 
for decades: resolving interference disputes between parties. 
They are very, very good, they have tremendous credibility and 
respect, and they have earned it, because their track record 
over the years of making engineering-based, fact-based 
determinations about interference disputes is exactly what you 
would want the FCC to do to make sure that we are getting the 
balance right between driving investment, driving job creation, 
driving innovation and new services, while also protecting 
against interference to existing services, particularly 
interference that may cause harm and threaten safety, which we 
will not allow.
    Mr. Serrano. Okay. I have one more question. Ten years and 
we are still talking, in many ways, and rightfully so, about 9/
11. But one of the issues of 9/11 and that whole period of time 
was the inability of first responders to communicate with each 
other. And a lot has been said, a lot has been done. And you 
folks proposed some dramatic changes which some folks are 
opposing. Where is that whole issue? How much different are we 
now, heaven forbid we should ever be in that situation again?
    I was, unlike most members of Congress, I was in New York 
on 9/11, and in fact I always comment on the fact that we spoke 
about everything the terrorists did on that day. And one of the 
things that was never really written about is that there was an 
election going on which was suspended, or postponed, at 11 a.m. 
in the morning. So not only did they bring all that harm, and 
they attacked symbols of who we are, Wall Street, and the 
Pentagon, and they were trying to attack the legislative body, 
or the White House. But also the fact that they interfered with 
the electoral process, if you want to carry it that far. It was 
a wide effect.
    And I remember that, at that moment, and for quite a while, 
there was no way to communicate by phone or anything else. If 
we were having that problem and we know first responders were 
having similar, or even more difficult, problems? Where are we 
now, 10 years later?
    Mr. Genachowski. Not where we should be. The most important 
thing that we recommended on this was we absolutely need to get 
a mobile broadband public safety network built for our first 
responders that would be interoperable. And it is an 
unfortunate reality, even in these times of a budget crunch; it 
will cost money to do this. And as a society, we have to find 
an answer because the private sector will not, on its own, 
build a mobile broadband public safety network for police 
officers and firefighters.
    One of the things that I think is a positive in the 
voluntary incentive auction idea that many are looking at, is 
that it would generate, the estimates are between $20 and $30 
billion in new revenue for the Treasury, which would be more 
than enough to finally take care of funding a mobile broadband 
public safety network.
    The other important issue is moving forward on standards 
for interoperability, so that when the network is built it is 
not just built, but different services in different regions can 
talk to each other. We are moving forward on making sure that 
we have interoperability standards. In fact, over the last 
year, we granted some waivers that allowed first responders in 
a handful of communities to move forward, where they have the 
resources, to start building. We have conditioned that on 
having interoperability standards and our Public Safety and 
Homeland Security Bureau is working hard on that process. We 
have a proceeding now to develop those standards.
    Mr. Serrano. Thank you so much. Thank you.
    Mrs. Emerson. Thank you, Mr. Serrano. Mr. Yoder.
    Mr. Yoder. Thank you, Madam Chair. Sir, I appreciate you 
coming today and giving testimony, and certainly there are a 
lot of issues. I did want to follow up on the questions that 
Mr. Serrano was asking, particularly related to LightSquared's 
use of the GPS spectrum. I noted your answers, and I also noted 
some of the conversation that is out there right now. Clearly 
there are hundreds of millions of GPS users in this country. It 
is a very significant usage of consumable goods. A lot of 
people rely on these. And all these devices were deployed in 
reliance on the FCC's rules prohibiting a terrestrial-only 
network in the band adjacent to GPS. That is where you now have 
authorized LightSquared to deploy such a network. Do you agree 
with that statement, first of all?
    Mr. Genachowski. Generally, yes. But in addition to that, 
the companies that provide GPS also have to comply with certain 
standards with respect to their emissions and their ability to 
hear signals.
    Mr. Yoder. But there was a reliance on the fact that it 
would not be a terrestrial-only network in a band adjacent to 
GPS?
    Mr. Genachowski. I do not think that is right.
    Mr. Yoder. Okay, that is what I want to know. Do you agree 
with that statement?
    Mr. Genachowski. No. I do not think that is right. There 
are interference issues here that have to be resolved, but I do 
not think that reliance statement is correct.
    [The information follows:]

                      LightSquared Reliance Issue

    Mr. Genachowski: To clarify for the record, when the International 
Bureau released the MSV ATC Order in 2004, there was no promise, 
implied or otherwise that would have provided interested parties with 
this sort of assurance, especially since the Commission routinely 
provides licensees with the flexibility to deploy technologies they 
believe best serve market demand. Also, LightSquared does not propose 
to provide terrestrial-only service.

    Mr. Yoder. Okay. I want to talk a little bit about the 
process that you are using in relation to this issue, and so 
the committee can understand the decision making process that 
you go through, the standards you are going to use. And I know 
that you made clear in the comments to Mr. Serrano, that 
certainly you would not want to jeopardize GPS. That is not a 
goal. You would want to make sure that GPS has its full range 
of functionality. But the Commander of the U.S. Space Command 
testified to the House Armed Services Committee about two weeks 
ago, you may have seen this, that, ``We believe from what we 
have seen thus far, that virtually every GPS receiver out there 
would be affected''. This is a serious claim, clearly. Why did 
you go forward with even a conditional grant of LightSquared's 
application given the gravity of these concerns from the 
Department of Defense, which runs the national GPS system?
    Mr. Genachowski. Well, to make a couple of things clear; 
the waiver that was granted was conditioned on resolution of 
the GPS interference issues, and there is also information that 
suggests that the interference issues can be resolved. Why 
bother at all? The answer is massive private investment, jobs, 
and new innovative services. So the company that is pursuing 
this venture expects to invest billions of dollars, create 
hundreds of thousands of new jobs, literally, and provide new 
services in the marketplace. I think it would have been 
completely unacceptable to say, Well, we are not going to look 
at it. We are not even going to study the interference issues.
    And so what we decided to do is to say look, We understand 
the plan for providing these services. We understand how it 
could lead to massive private investment and job creation. We 
are going to treat this as we have many other interference 
disputes that the FCC has had for years. Like some of the other 
issues we face, you get people with very strong feelings on 
both sides that are absolutely sure that they are right. And I 
am proud of the career staff at the FCC that has the very hard 
job of getting into the engineering, doing the field tests, 
doing the work, and on behalf of the American people, getting 
the balance right to protect public safety and make sure that 
Spectrum is used to drive private investment and create jobs.
    Mr. Yoder. And so the idea is you give a conditional grant 
so you can see what the effect will be. Is that correct?
    Mr. Genachowski. Yes. It allows us to move to the next 
stage. It allows the company to move to the next stage. It 
allows us to move to the next stage, which we have, of running 
a process to resolve the interference issues.
    Mr. Yoder. Okay. And so, what I understand is that the 
Department of Defense, Homeland Security, Transportation, 
Interior, have each individually raised concerns about the 
proposal. And clearly, the comments from the U.S. Space Command 
to the House Armed Services Committee that they believe, from 
what they have seen so far, virtually every GPS receiver out 
there would be affected. From what you have seen so far, are 
they wrong? And if they are wrong, how so? And if they are 
correct, what are we doing to fix this problem?
    Mr. Genachowski. My experience in this area, having watched 
some of these interference disputes work themselves out over 
time, is to create a space where the expert engineers at the 
FCC can run a fact-based process with participation from 
everyone who has a concern, pro or negative, and to let that 
process try to produce a result. So I would not want to pre-
judge it. I think that would be wrong. We are prepared to do 
whatever is right to make sure we get the balance right to 
drive investment, jobs, and our economy, and absolutely make 
sure that we are protecting public safety.
    Mr. Yoder. And so what is the standard you use in making 
that decision? Is it a clear and convincing standard? Do you 
get to a point where the U.S. Space Command, Department of 
Defense, Homeland Security, other GPS providers are saying, 
Please do not do this, and you say, After receiving all the 
input, I think it is okay. And then we have an ongoing dispute, 
and there are clearly challenges then on the investment side 
for those who are producing the GPS products.
    [The information follows:]

                    LightSquared Standard of Review

    Mr. Genachowski. To clarify for the record, the standard we would 
normally apply to this situation is whether the new service would 
create ``harmful interference'' which is defined in Section 2.1 of the 
rules as ``Interference which endangers the functioning of a 
radionavigation service or of other safety services or seriously 
degrades, obstructs, or rapidly interrupts a radiocommunication service 
operating in accordance with the ITURadio Regulations.''

    Mr. Genachowski. Well, I hope we will not get to that 
point. We are running a process that is inviting the inclusion 
of all the different agencies and private sector players that 
have an interest. We are asking only one thing of everyone, 
which is, Let's work together to look at the evidence and see 
if we cannot find a common-sense resolution.
    So I am hopeful that that process will work well. We have 
had conversations with people in the GPS industry who agree 
that a process is necessary, and who I understand are 
supportive of the kind of process that we are running. And the 
evidence will determine the outcome.
    Mr. Yoder. And this process is open, everyone has an 
opportunity to have input, it is open to the public. Do we have 
access to everything that is going on along this process?
    Mr. Genachowski. The process is consistent with the kinds 
of processes the FCC has run in the past. I would be happy to 
get you more detail on exactly how this process works.
    Mr. Yoder. Well, I know that the NTIA provided a letter to 
the FCC describing the concerns that Federal users have 
regarding LightSquared's proposal. Are there other 
communications or meetings that have occurred between NTIA and 
the FCC?
    Mr. Genachowski. Well, the NTIA and the FCC meet frequently 
to discuss this. I am sure there have been some discussions in 
getting ready for running a process on addressing the 
interference issues.
    Mr. Yoder. Well, I just hope to impress upon you today that 
there are a tremendous amount of concerns about what is 
happening here. And some of those concerns are being expressed 
to members of Congress, who want to make sure that you aware 
that these concerns are out there, and that this is a very 
high-stakes situation, where a lot of investment has occurred 
in GPS, and hundreds of millions of devices, millions of users 
in the United States. And so if there are these concerns out 
there from many of these folks, who we take very credibly, 
including many of our Departments and agencies, we want to make 
sure that you, sir, understand the gravity of that. And I want 
to make sure I do my part impressing upon you that the concerns 
are out there.
    Mr. Genachowski. Well, you absolutely have, and I 
appreciate that. And I look forward to working together. I know 
we all share an interest both in making sure that there are no 
safety risks with respect to GPS, and also making sure that we 
are driving new businesses, that government is getting out of 
the way of new businesses that have the opportunity to lead to 
billions of dollars in private investment and hundreds of 
thousands of new jobs.
    Mr. Yoder. Well those are great goals, and let's hope it 
works out that way.
    Mr. Genachowski. Terrific. I look forward to working with 
you.
    Mr. Yoder. I yield back to Madam Chair.
    Mrs. Emerson. Thank you, Mr. Yoder. You mentioned earlier, 
you raised the issue of 9-1-1 texting. Why can we not text 9-1-
1?
    Mr. Genachowski. Because as a very broadly general matter, 
our 9-1-1 call centers are not set up to receive the texts. And 
I visited a couple of 9-1-1 call centers. They are incredible 
operations, I mean there are heroes who work at these places 
every day. And with respect to landline 9-1-1 calls, it works 
well. The call comes in, it goes up on the computer, they know 
exactly where you are, and within seconds they can dispatch 
someone to where you are. With mobile calls it does not work 
quite as well, though progress has been made. And I hope you 
will forgive a little bit of a digression, but I think this 
issue is very important; about more than half, I think about 65 
percent of 9-1-1 calls now come from mobile devices. But the 
location accuracy that the 9-1-1 dispatchers get from mobile is 
not as good. And in some cases it is quite bad. So in cities 
with tall buildings, or in very rural areas, the information 
may be of very little use to the dispatcher. So one line of our 
work involves working with first responders and industry to try 
to improve the location accuracy of mobile 9-1-1. And we are 
making progress on that, there is more to do. With respect to 
what we call next generation technologies, like texting, like 
sending photos, like sending videos, as a general rule the call 
centers are just not set up for it at all. The system will not 
receive a text. Many of them are non-IP based systems. So that 
is the reason. They are just not set up for it. They want to 
be. There are funding issues. I hate to say it, but there are. 
But I do think we need to work together on a bi-partisan basis 
to find a way, also with the states and local governments, 
because that is where a lot of the funding comes from. But as I 
said, two or three years ago, if you had said to someone, You 
cannot text 9-1-1, they would have said, Who cares? But 
texting, sending videos, have become so quickly so central to 
part of our daily activities, that it is no longer an 
acceptable answer to say, We do not have a plan for this. Even 
at the Virginia Tech tragedy a couple of years ago, there were 
students who did not know any better and tried to text 9-1-1. 
They did not go anywhere, there was no one to get those texts.
    Mrs. Emerson. So what is the solution?
    Mr. Genachowski. Well, some of it involves funding, as I 
said, and one of the things that we are trying to be helpful 
with is, as a resource to Congress and others, working with the 
industry and first responders, to price out what it would cost. 
A second issue is having standards. This is an area where a 
smart standard process can potentially accelerate the move of a 
lot of local 9-1-1 centers to an IP-based system and also lower 
the costs. Because the more that this equipment is up to scale, 
the faster it will be rolled out and the less it will cost. So 
we are working on that; we have a terrific person leading this 
up, Admiral Jamie Barnett who runs our Public Safety and 
Homeland Security Bureau. I look forward to following up with 
you on this because I think it is a very important issue.
    Mrs. Emerson. And I would appreciate that; I would like to 
very, very much.
    [The information follows:]

                       E911 Texting Capabilities

    Mr. Genachowski. With respect to your question about why Public 
Safety Answering Points--PSAPs--do not currently receive text messages, 
I wanted to clarify the two reasons for the record. First, circuit-
switched 911 networks and selective routers use old technology that is 
designed solely to support voice telephone service and, like 
residential wired telephone service, are not configured to receive text 
messages.
    Second, the texting methods that most consumers use today were not 
developed with 911 in mind, which affects their usefulness in emergency 
situations. For example, consumers using existing texting technology 
may not be able to transmit in real time, convey location information, 
or establish reliable 2-way communications between a particular call 
taker at the PSAP and the caller.
    Since PSAPs will need to upgrade their technology to be able to 
receive texts, states and localities also will have a critical role in 
the transition to next generation 911-NG911. Stakeholders, including 
the FCC, industry and the 911 community, are working hard on potential 
solutions to make texting to 911 possible. There has already been one 
small text-to-911 trial in Black Hawk County, Iowa, and we anticipate 
that there will be additional trials in other locations later this 
year.
    As part of a Notice of Inquiry issued by the Commission on December 
21, 2010, we are seeking to gain a better understanding of how to 
bridge the gap between the capabilities of newer, IP-based networks and 
devices and today's 911 system. We also are asking for input on how to 
further PSAPs' transition to IP-based communications capabilities and 
NG911 for emergency communications. We will keep this subcommittee 
apprised of our work in this area.

    Mr. Genachowski. Can I mention one other concern that has 
been raised just to note, something that we could look at 
together? We have heard complaints from first responders that 
in some states funds that have been designated as 9-1-1 funds 
on consumers' phone bills are not getting spent for that 
purpose. And I am not saying that that is an FCC issue; I am 
relaying a concern that I have heard from first responders who 
are trying to upgrade their 9-1-1 systems.
    Mrs. Emerson. I would agree with that; I am hearing the 
same thing from mine, and it is a little more complicated than 
it seems on the surface, but nonetheless it is one issue that 
has to get solved sooner rather than later. Let me ask you a 
little bit about the Universal Service Fund and your National 
Broadband Plan. I would like to know where you are with it, why 
don't you just answer that one first?
    Mr. Genachowski. Well, we issued a National Broadband Plan 
last year that identified the opportunities of accelerating 
deployment and adoption of broadband, opportunities for our 
economy, for job creation, investment, for making progress on 
education, health IT, et cetera, and it had some big ticket 
items in there which I can discuss. One is transforming the 
Universal Service Fund, another is unleashing spectrum in the 
incentive auctions. A third is removing barriers to broadband 
adoption. A fourth is improving broadband adoption. I would say 
a couple of things. One, a year and a half ago at this time, 
very few people were talking about broadband. And it was much 
more, I think in some other countries, thought of as an 
important economic issue than it was here and I am pleased that 
more and more people are understanding the opportunities of 
broadband, and it is creating more of a desire to tackle the 
challenges.
    With respect to spectrum, the challenge grows every day. 
There is an article in the papers today about how smart phone 
sales are going to be even faster next year than people 
thought. Again, Smartphones use more than 20 times as much 
spectrum, they put 20 times more demand on spectrum than old 
feature phones. I wish we had a warehouse of spectrum just 
lying around at the FCC that we can auction off, but we do not. 
So taking seriously the incentive auction proposal, which has 
had bipartisan support, and brings market incentives to the 
allocation of spectrum; it is a tool that the FCC does not have 
that is very important and we would be happy to work with you 
on that option. Transforming the Universal Service Fund, it 
does not make sense to have a fund that supports only universal 
telephone service. It has to support broadband. We are moving 
in that direction, we are doing it together with the reform of 
Intercarrier Compensation because it is a whole complex system 
that has to be done together.
    I am proud that just last week, thanks to the work of our 
staff, all five commissioners on a unanimous basis did 
something that was unprecedented; we issued a joint blog. And 
the blog said to the community of people who are concerned 
about this, We are serious about USF reform. We are serious 
about moving forward. We are serious about doing it quickly, 
and we want all stakeholders to participate in our process in a 
way that really rolls up the sleeves and helps solve problems, 
as opposed to blocking reform. I can keep going, but I think on 
a whole series of areas, we are making very significant 
progress. There is always a lot of work to do, and the rest of 
the world is not standing still when it comes to broadband 
deployment and adoption.
    Mrs. Emerson. You know, it was interesting and perhaps kind 
of strange at the same time that the ARRA bill was passed, and 
in it you were asked to put together your National Broadband 
Plan simultaneous to lots of monies being given out through 
NTIA or RUS to build out the infrastructure. It was kind of 
putting the cart before the horse because I would have thought 
you would have a plan and then deploy various tools to make it 
work, but nonetheless.
    Mr. Genachowski. If I could reserve my right to disagree 
with that.
    Mrs. Emerson. Well, coming from a rural area, I have to 
have every single type of phone, AT&T, Verizon, Century. I need 
really every single service there is to be able to get service 
in my district, and then there are still just dead spaces.
    Mr. Genachowski. I do think that is why it made sense to 
start moving forward where we knew there was need even as we 
developed a plan to tackle some of the larger things like 
spectrum reform, like universal service. And so given a fast-
moving globally competitive landscape, starting to make the 
first investments and taking care of the low-hanging fruit that 
everyone agreed made sense, I do appreciate your point of view, 
but I think it made sense and it will help the country make 
progress.
    Mrs. Emerson. Well, hopefully we will begin to make 
progress because I think everybody agrees, particularly in 
rural areas where we do so much telehealth and where it is 
really helpful as people want to become their own entrepreneurs 
and work for themselves. When you still have dial-up service on 
your computer that is pretty pathetic and there is no way you 
can compete or do things fast enough. One other quick question: 
there are a number of grant programs that come under the 
Universal Service Fund, and I know that regulators do not 
typically monitor grants, so how do you really ensure then that 
those funds are being used properly?
    Mr. Genachowski. Well, we do monitor. Most of them are 
distributed by an intermediary organization called USAC, 
Universal Service Administrative Company. And we do oversight 
over USAC and we have been very aggressive, and we have ramped 
up our efforts over the last year to audit what they are doing, 
to make sure that money is being spent wisely. We have found 
issues and moved to correct them, so I think oversight of every 
dollar that is being spent is incredibly important and if I 
could come back to the budget, it is one of the things that our 
IGs office helps us do. They help us do oversight on programs 
like VRS, where we saved $250 million, and they play an 
important role.
    Mrs. Emerson. So does the FCC determine the eligibility for 
those grants or does USAC determine the eligibility?
    Mr. Genachowski. We set the rules, the parameters, and they 
are the operational entity.
    Mrs. Emerson. Okay. I know Mr. Diaz-Balart has some other 
questions, and we also have simultaneously a briefing on Libya 
by the Secretary of State and others, and I know people are 
anxious to get to that. Go ahead, Mario.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. First Mr. 
Chairman, we were speaking between votes, and I appreciate your 
willingness to continue to talk and to work out some of these 
issues that are very complex, but obviously very important. So 
I want to thank you for that attitude, I really do.
    My understanding is that next week, the FCC is set to vote 
on a data roaming order. Now, this order can be seen as, in 
effect, for the FCC to over regulate the wireless industry. I 
want to make sure I understood you, because I am obviously 
concerned with--we keep talking about innovation and everything 
else, and that was done through the private sector. I just want 
to make sure that we are not over-regulating. And I also want 
to make sure that the FCC is not over-exceeding its statutory 
boundaries. Clearly if that is the case, what authority is 
being used in order to do so? I think it is pretty clear that 
Congress did not give statutory authority to impose a common 
carrier regulations like data roaming or wireless broadband 
data, et cetera, et cetera. So I just wanted to see what is 
going on next week at the FCC with this order and what are you 
looking at, and put my mind at ease, if you would.
    Mr. Genachowski. I would be happy to. About five or six 
years ago on a bipartisan basis, the FCC adopted voice roaming 
rules. And that meant that a consumer who got essentially any 
old-fashioned phone that just did voice could know that it 
would have national service. And it meant that competitors in 
the marketplace, particularly rural companies that were 
providing mobile service, would know that they could offer 
their customers a national voice service. It has worked very 
well. At the time, people attacked it as an overreach and they 
said it would deter investment, et cetera. As it played out in 
practice, it helped provide better consumer services, more 
investment, more competition, and no complaints at the FCC. The 
industry said, We are just going to get the deals done.
    So what we are looking at now as the world has changed 
along the lines that you talked about before, from old voice 
phones to data phones, is something very similar. Updating the 
rules to apply to data roaming so that a consumer, when they 
get a smart phone, can know that they will be able to roam 
anywhere, to make sure that competitive providers like rural 
carriers have the ability to offer competitive service, and we 
have heard very loudly from the rural carriers that this is a 
very big issue for them. And we are doing it in a way that we 
think will, as before, promote investment, promote competition, 
promote consumer benefits.
    On the legal authority, we are being very careful. 
Obviously it is very important that we act within our 
authority. Title III of the Communications Act provides ample 
authority to adopt rules like this. You are correct that there 
is a provision that says we cannot do common carriage, and we 
have been very careful to make sure that these common carriage 
rules, and in a whole series of ways, the rules that we have 
proposed and are discussing at the commission are not common 
carriage. They will, I hope, lead to companies in the private 
sector doing deals. We have heard many complaints from rural 
carriers and others, as the commission did before voice 
roaming, that the deals just were not getting done, and not for 
good reason.
    Mr. Diaz-Balart. I want to make sure that the FCC is not 
looking at trying to circumvent the old thing about depending 
on what your definition of ``is'' is? I want to make sure that 
the FCC is not looking at ways to circumvent the lack of 
Congressional authority. In other words, it is pretty clear 
what that is, and I just want to make sure that what you are 
not looking at doing is looking at ways to, All right, let's 
still do it but figure out how legally we can justify it. 
Because Congressional authority is pretty clear.
    Mr. Genachowski. And we have been considering the options 
here. There were some options on the table, including options 
that were requested by rural carriers, that we looked at and 
said, Those are potentially inconsistent with the statute. The 
approach that we have proposed we think is well within the 
statute.
    Mr. Diaz-Balart. Is the purpose to allow smaller companies 
to use the infrastructure of some of the larger networks that 
are already there, that they invested the private sector with 
their money? Is that what you are looking at?
    Mr. Genachowski. Well, the purpose is really the same as 
voice roaming. Roaming has become an essential feature of a 
competitive marketplace that gives consumers the option of 
something we know that they want. So essentially, this has been 
something that has been a success. It has served businesses, 
investment, and consumers well. As we move from a voice to a 
data world, replicating that in a cautious, smart way that has 
fidelity to the statute is what we have proposed, and I think 
it will have a positive effect on the marketplace.
    Mr. Diaz-Balart. So is that yes? Is the purpose, then, to 
allow some companies to use the investments of other companies, 
the infrastructure investments of others, in order to do that? 
Is that the purpose?
    Mr. Genachowski. It is not how I would characterize the 
purpose. We think that this will, as with voice roaming, 
increase overall investment. What we have heard from many rural 
carriers and other competitive carriers is that there is a lot 
of investment sitting on the sidelines, because unless they 
have a degree of confidence that they can get roaming deals 
nationally, they do not want to start investing and building 
out a network. They know they cannot offer a business where 
someone says, You mean I cannot use this phone if I am outside 
of the area? So we think that this will unleash investment. The 
experience for voice roaming is that companies much prefer to 
have their own networks than to roam on others, because it is 
over time much less expensive. Voice roaming and data roaming 
is expensive for the company that has to get it, and once they 
have a service up and running and they have the capital 
available, it is in their interest to build out their own 
networks. This was something of the theory when the voice 
roaming rules were adopted several years ago, but that theory 
has now been proven out in practice, and the voice roaming 
rules have had a very positive net effect on investment, and 
competition, and on providing better consumer services.
    Mr. Diaz-Balart. And again, I just want to make sure that I 
am understanding your answer. So you are telling me that that 
is not going to be the case, that the FCC's not looking at 
telling those who already have investment in infrastructure 
that they are going to have to allow others to use that 
infrastructure, correct? If you can just get to that specific 
part.
    Mr. Genachowski. Yes. It is not how I would put it. The 
rules that have been proposed, and I am limited in what I can 
say because we are still discussing this at the Commission, but 
you would have a framework where carriers with national 
networks would have to offer roaming agreements on commercially 
reasonable terms.
    Mr. Diaz-Balart. Who sets that commercially reasonable 
term?
    Mr. Genachowski. The private parties will set them, and I 
think as with voice roaming, we expect it to work well in the 
private sector and for the FCC not to have to be brought in.
    Mr. Diaz-Balart. And if there is no agreement between the 
two private sector or the multiple private sector parties to a 
price, then what happens? Does the FCC step in then?
    Mr. Genachowski. We expect that there will be agreements.
    Mr. Diaz-Balart. But if there is not?
    Mr. Genachowski. As with voice roaming, there is a process 
to come to the Commission, and complaints will be resolved.
    Mr. Diaz-Balart. Again, and I keep getting back to this 
because what I think I am hearing is basically that yes, that 
basically if they do not have an agreement, then you will 
basically force them to have an agreement. Correct?
    Mr. Genachowski. No. Well, what the remedies would be would 
depend on the circumstances involved. But again, I think the 
core point is that we have experience with a very successful 
program that has worked for companies throughout the ecosystem 
and consumers, and we have a very good basis of evidence to 
believe that this would work again, promote investment, 
innovation, competition, help consumers.
    Mr. Diaz-Balart. And that model is to allow those that do 
not have the infrastructure to use the infrastructure of 
others. Is that what you are doing?
    Mr. Genachowski. It is to make sure that companies that 
have national infrastructure offer roaming deals on 
commercially reasonable terms.
    Mr. Diaz-Balart. And I understand that, but if there is no 
agreement on that, does then government step in and decide what 
a commercial viable rate is?
    Mr. Genachowski. No.
    Mr. Diaz-Balart. Does the Federal government push on making 
sure? Is there a penalty if they do not reach an agreement?
    Mr. Genachowski. Well, some of these issues, we are still 
talking about, deliberating at the Commission exactly how it 
would work, and so I do not want to speak for the other 
commissioners. My own view, as with voice roaming, once there 
is the basic framework that says that companies are expected to 
do commercially reasonable deals, there will be deals. The 
companies who are seeking these deals do not want to have to 
file complaints. They do not have the capital to file 
complaints. And I think we will see a successful policy that 
promotes investment, promotes competition, promotes consumers 
in this as we have in the past, assuming the Commission adopts 
this next week.
    Mr. Diaz-Balart. All right, so that is happening next week. 
Again, I am concerned, as one who believes that free markets, 
frankly, have created a pretty good thing here in the United 
States, we have a pretty good gig going here, the wealthiest 
nation in the history of humanity; it has been because of this 
free market enterprise system that we have.
    Mr. Genachowski. Well, I agree, and the companies that are 
coming to us are companies that are trying to compete in the 
free markets. They are rural telephone companies from all over 
the country, and I would also point out that this approach has 
bipartisan support. It always has, it still does, and the 
spirit of it is to be extremely light-touch, and to promote a 
free-flowing market in which deals are getting done along the 
lines that we have planned out.
    Mr. Diaz-Balart. And I want to stay in touch with you, and 
obviously we will keep an eye on how that is moving, because 
obviously I think there are some of us that have great concerns 
about government being too heavy-handed on a lot of these 
issues. We already talked about net neutrality, and Madam 
Chairman, if I may just very briefly talk a little bit about 
this issue with LightSquared. Is that the right term?
    Mr. Genachowski. Correct.
    Mr. Diaz-Balart. And the possibility that it may affect 
GPS. Obviously if it affects GPS, I will never be able to get 
out of the Rayburn Building. So let me just put that on the 
table first. I guess there is a comment period. Is that the 
case? My understanding is that there is usually 45 days, when 
people were talking here about the waiver. I guess that it is 
because the waiver is about 45 days, right? So I think 7 days. 
Is that correct? Is that not correct?
    Mr. Genachowski. You are at a level that I do not recall.
    Mr. Diaz-Balart. Okay.
    Mr. Genachowski. I apologize.
    [The information follows:]

                      LightSquared Comment Period

    Mr. Genachowski. I appreciate the opportunity to clarify for the 
record the comment period issue related to LightSquared's conditional 
waiver and provide additional information on this matter. In November 
2010, LightSquared applied to the FCC to modify its Ancillary 
Terrestrial Component--``ATC'' authority. Its existing authority 
allowed terrestrial services to dual-mode handsets using LTE 
technology. The request was designed to permit LightSquared to offer 
wholesale terrestrial service to single-mode handsets--it neither 
requested nor was granted any alterations to its allowed transmission 
power, number of cell towers deployed, or any other changes.
    On November 19th, the International Bureau issued a Public Notice 
requesting comments, which ultimately were due on December 2, 2010, 
with replies due on December 9, 2010. On January 26, 2011 the FCC's 
International Bureau issued an Order and Authorization granting 
LightSquared conditional approval for its customers to offer 
terrestrial only devices to consumers. The waiver was granted with 
specific conditions including the formation of a working group to 
resolve the concerns raised, but more importantly noted that a final 
waiver grant was conditioned on the resolution of the interference 
issues.
    Some of the commenters in the proceeding raised the timing issue 
and claimed that they were precluded from fully participating in the 
proceeding. When the International Bureau issued its Order, the Bureau 
specifically addressed this concern and noted that the decision was 
consistent with timing for similar procedures and in accordance with 
our rules. As the Bureau noted, those entities that raised timing 
concerns also fully participated in the proceeding and filed 
substantive comments on the issues raised in the petition.

    Mr. Diaz-Balart. Here is one of the things that you heard 
today is that there clearly have been a number of federal 
agencies: DOT, DOD, DOT, NHS, NASA, FAA, NTIA, and others who 
have expressed some written concerns, I understand. And by the 
way, I commend you the way you talk about how we clearly want 
to make sure that we have investment, and that we have 
competition, and that we have innovation. So that is good. But 
you rarely get those agencies having objections. I just want to 
make sure that we are very careful that if the waivers have 
been granted; it is, to my understanding, that there are test 
results due on January 15, 2011.
    And does the waiver or whatever is happening now, has the 
FCC allowed LightSquared to build out its infrastructure prior 
to the test results of January 15?
    Mr. Genachowski. My understanding is that the 
infrastructure that they would be building out now will relate 
to the interference testing. It is interesting to put these 
issues together, because what we are being asked to do is 
interfere with the private operation of the market and deals 
that could, theoretically, be negotiated to resolve 
interference issues without government involvement. Now, that 
is not the way the process has worked and I think we are 
playing an appropriate role here, as we do in other areas, to 
make sure that there is a framework that protects against 
important issues. And we are going to be very careful in making 
sure that there is a framework that protects health and safety.
    Mr. Diaz-Balart. No, and there is no doubt. And you are 
always going to have the naysayers whenever there is new 
competition. And that is why I said a little while ago I am 
glad that you talked about that. We have got to make sure that 
we can, whenever possible, allow for innovation and 
competition. But when you are dealing with DOD and NASA; I know 
you are aware of it and I just wanted to make sure that we are 
not doing something that will jeopardize. Because that is, in 
essence, the purpose of your organization.
    Mr. Genachowski. Absolutely. Yes, sir and we take it very 
seriously.
    Mr. Diaz-Balart. Not to regulate things that are working, 
not to regulate things that are being innovative, not to 
regulate things where there is competition; i.e., Internet, 
which I, for some reason, insist you all are being very 
aggressive in regulating that part, but to make sure that there 
is no damage if that would be the case. And I am not saying 
that is the case with LightSquared. I mean, hopefully it is 
not, but I just want to make sure. I think that you and I do 
not disagree, and that there is a case for your organization. I 
think the cases that deal with those issues when they are 
legitimate concerns: to see if they are legitimate. I do not 
think that your role should be to intervene and regulate, when 
in fact, something is not broken; i.e., as you and I agreed at 
the beginning of our conversation, probably the most dramatic 
case of innovation, job creation, wealth creation, opening 
societies, that has taken place in the history of mankind: that 
is the Internet.
    I am a little concerned that for some reason you are 
emphasizing that in such a strong manner; I think you may be 
stepping a little bit too heavily there. But we will continue 
to have the conversation and we will continue to work together. 
And I appreciate the opportunity to do that with you and I look 
forward to it.
    Mr. Genachowski. Thank you.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    Mrs. Emerson. Thank you, Mr. Diaz-Balart. Chairman 
Genachowski, thank you so much for being here. I have some 
questions I would like to submit for the record; so does Mr. 
Serrano. And any others will also be submitted for the record. 
And if you can respond to us within 30 days, I would be very 
grateful. Thanks again for being here.
    Mr. Genachowski. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                           Tuesday, March 15, 2011.

                   SECURITIES AND EXCHANGE COMMISSION

                                WITNESS

MARY L. SCHAPIRO, CHAIRMAN, SECURITIES AND EXCHANGE COMMISSION
    Mrs. Emerson. The hearing will come to order. I would like 
to welcome our witness, Chairwoman Schapiro, and I thank you so 
much for being here today and for the testimony you will be 
giving related to the Securities and Exchange Commission. The 
SEC has a complicated mission of protecting investors, 
maintaining fair, orderly, and efficient markets, and 
facilitating capital formation, while at the same time not 
over-regulating our markets and hindering economic recovery.
    As you know, this committee is committed to reducing non-
security discretionary spending to fiscal year 2008 levels, and 
so far we have had a strong hearing schedule and I intend to 
continue this theme of strong oversight throughout the rest of 
the year. While the SEC is funded by fees, Congressional 
oversight over your budget is an important check on agency 
activities. Since 2001 in the wake of Enron, this committee has 
increased the SEC's budget by over 160 percent. Few if any 
other agencies have received such a large increase. In fiscal 
year 2001, the SEC's budget was $423 million; today it is $1.1 
billion. The fiscal year 2012 request proposes a significant 
increase, including a 20 percent increase in staff.
    Before we decide to provide the SEC with even more 
resources, several concerns need to be addressed such as the 
SEC's internal financial reporting, leasing practices, and the 
ability to ensure investors that another Madoff or Stanford 
Ponzi scheme will be caught and brought to justice before 
investors are severely affected. Capital formation and 
investment are critical parts of our economy and we must be 
sure that this agency is protecting investors while at the same 
time not precluding investment. This committee must be vigilant 
in our oversight of agencies like the SEC that play a critical 
role in the U.S. economy. Chairman Schapiro, you have a very, 
very challenging job and we do appreciate all the hard work you 
and your staff do and look forward to your testimony. I would 
now like to recognize my friend, Ranking Member Joe Serrano.
    Mr. Serrano. Thank you. Thank you, Madam Chair. And I also 
would like to welcome you to today's hearings. You have been 
involved in reforming the internal operations of the SEC and I 
look forward to learning more about your efforts during this 
hearing about that reform. You have been given many new 
responsibilities under the recently passed Dodd-Frank Act. 
These new responsibilities are vital to protect consumers and 
shareholders and to ensure that past abuses are not repeated. 
Unfortunately, you now have to implement your many new mandates 
without the necessary resources. I look forward to discussing 
this problem with you in greater detail today.
    We are also aware of your need to increase staffing, make 
significant information technology investments so that you can 
better fulfill your extensive new responsibilities. These are 
real needs that we need to work with you on addressing in a 
timely way. We are all in agreement that we need a strong SEC 
to protect us from investment scandals and another meltdown of 
the securities markets. We cannot afford to repeat our past 
mistakes, but now need a robust and well-run SEC so that we can 
apply past lessons to future challenges. During today's 
hearings, I hope to learn more about your reform efforts at the 
SEC and about the progress you are making.
    In closing, let me just make a comment. I know that the 
Chairwoman spoke about the fact that there is a great desire to 
cut back to 2008 levels. And certainly we on this side 
understand that that is going to happen in one way or another, 
maybe not to the extent that we have seen expressed so far, but 
there will be serious cuts across the federal government. It 
would seem to me that this is a dangerous place to cut if we 
are not going to provide proper oversight. I have been in 
public office 37 years. I cannot tell you, except for once, did 
I ever hear a state or federal agency come before me and say, 
We do not need money. We have enough. That was the SEC some 
years ago before you that actually came to us and said, No, no, 
that is fine, Mr. Serrano. We do not need any money. 
Translation, We do not want any oversight. And that is what 
happened.
    And so on one hand, I understand the need to cut. On the 
other hand, I fear that this is a place not to cut. One last 
point. I realize that there are a lot of people out there who 
do not like Obamacare, and by the way, I was the first one who 
said, Let us call it Obamacare because at the end of the day, 
there will be Social Security, Medicare, and Obamacare, and the 
other side would have given him his legacy. And so I am proud 
to call it Obamacare. I understand that that is an issue. But 
there is also a move afoot not to fund Dodd-Frank. And so we 
have this law that everybody agreed had to be passed in order 
to deal with this meltdown and all the schemes and all the 
scandals, and now we are not going to fund it and that would be 
a tragedy. So I hope that in the desire to cut, we come to some 
conclusion that there are some things we need to fund and fund 
properly. And I welcome you today. And I thank you, Madam 
Chair.
    Mrs. Emerson. Thanks, Mr. Serrano. I now recognize Chairman 
Schapiro for her opening. If you would try to keep your remarks 
to about five minutes, we will have more time for questions. 
Thanks so much.
    Ms. Schapiro. Chairwoman Emerson, Ranking Member Serrano, 
thank you for the opportunity to testify in support of the 
President's fiscal year 2012 budget request for the United 
States Securities and Exchange Commission. The $1.4 billion 
that the President is requesting will allow us to adequately 
staff the agency to fulfill our core mission of protecting 
investors, expand our information technology system so we can 
realize operational efficiencies, better keep pace with 
increasingly sophisticated financial market participants, and 
carry out our new responsibilities over hedge funds, 
derivatives, and credit rating agencies.
    As you know, we have worked tirelessly to make the SEC a 
more vigilant, agile, and responsive agency over the past two 
years, and we continue moving forward on multiple fronts 
designed to enhance our effectiveness and ensure robust 
oversight of the financial markets.
    In addition, we have embarked on a vigorous rule-making 
agenda, addressing critical issues including equity market 
structure, money market fund resiliency, asset-backed 
securities, consolidated audit trail, and municipal securities 
disclosure. I believe we have made a great number of necessary 
changes and accomplished a great deal, but this year we find 
ourselves at a critical juncture. That is because Congress has 
challenged us not only to continue our reform efforts and to 
carry out our core responsibilities, but also to fulfill the 
significant new responsibilities under the Dodd-Frank Act.
    As you know, separate and apart from that legislation, the 
SEC is responsible for essential financial market activities 
such as pursuing securities fraud, reviewing public company 
disclosures, inspecting the activities of investment advisers 
and investment companies and broker-dealers, and ensuring fair 
and efficient markets. And because of the new legislation we 
are taking on considerable new responsibilities. For oversight 
of the over-the-counter derivatives market and hedge fund 
advisers, registration of municipal advisers and security-based 
swap market participants; enhanced supervision of credit rating 
agencies, heightened regulation of asset-backed securities, and 
the creation of a new whistleblower program.
    Over the past decade, the SEC has faced significant 
challenges maintaining staffing levels sufficient to carry out 
its existing mission. For instance, from 2005 to 2007 the SEC 
experienced three years of frozen or reduced budgets forcing a 
10 percent reduction in the agency's staff. Similarly the 
agency's investment in new or enhanced IT systems declined 
approximately 50 percent between 2005 and 2009.
    At the same time, the size and complexity of the securities 
markets were growing at a rapid pace. Indeed, during the past 
decade, trading volume more than doubled, listed equity market 
volume alone now averages approximately 8.5 billion shares a 
day. The number of investment advisers grew by 50 percent and 
the assets they managed increased to $38 trillion. Today the 
SEC has responsibility for approximately 35,000 entities, 
including direct oversight of more than 11,000 investment 
advisers, 7,000 mutual funds, and 5,000 broker-dealers with 
more than 160,000 branch offices.
    We also review the disclosures and financial statements of 
approximately 10,000 reporting companies. And we oversee 
transfer agents, national securities exchanges, clearing 
agencies, and credit rating agencies. Indeed, we oversee some 
financial firms that regularly spend many times more just on 
their technology operations than the SEC's entire budget.
    A budget of $1.4 billion would allow us to hire the experts 
and acquire the technology we need to effectively carry out our 
core responsibilities and to begin implementation of Dodd-
Frank.
    Of the 2012 requested amount, we estimated that $123 
million will be allocated to begin implementing the provisions 
of the new law. This funding request also will support 
information technology investments of $78 million, including 
vital new technology initiatives ranging from data management 
and integration, to internal accounting and financial 
reporting. It will permit the agency to develop risk-analysis 
tools to help us triage and analyze tips, complaints, and 
referrals. And it will permit us to complete a digital 
forensics lab that enforcement staff will use to recreate data 
of computer hard drives and cell phones capturing evidence of 
sophisticated frauds.
    Finally, it is important to note that the SEC's fiscal year 
2012 funding request will be fully offset by matching 
collections of fees on securities transactions. Beginning with 
fiscal year 2012, the SEC is required to adjust fee rates so 
the amount collected will match the total amount appropriated 
for the agency by Congress. Because of this mechanism, SEC 
funding will be deficit neutral.
    I thank the subcommittee for your support and I look 
forward to working with you to improve the agency's performance 
of its core mission, to implement our new responsibilities, and 
to continue protecting investors. And, I am, of course, happy 
to answer any questions.
    [The statement of Ms. Schapiro follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Emerson. Thank you so much Chairman Schapiro. I am 
going to try to keep my questions to five minutes just because 
we seem to have a lot of folks here today.
    Our party is really trying to get a grip on spending and is 
very committed to reducing spending. While the SEC's 
appropriation is offset by collections, we still need to look 
at all agencies in our efforts to reduce funding for 
ineffective programs and the like, no matter what their funding 
source is.
    So could you explain to all of us on the subcommittee here, 
number one, how would a reduction of the SEC's appropriation to 
fiscal year 2008 levels affect the SEC? Do you believe that tax 
payer dollars are effectively being spent at the SEC? And what 
recommendations can you offer for more efficient and effective 
use of tax payer funds within your organization?
    Ms. Schapiro. Sure. With respect to returning to 2008 
levels, that year we had a $906 million appropriation. So it is 
about a $241 million funding gap. The way we would go about 
that would be to take the maximum non-compensation cuts that we 
can, including travel, expert witnesses, and information 
technology. Although, I have to say that I am not really in 
favor of cutting information technology to the bone. I think it 
is really critical for us to be successful in what we do. But 
then it would require that we likely have significant furlough 
or RIFS, or potentially office closings.
    The way we view it is after accounting for our normal 
attrition, going back to 2008 levels in 2012, assuming we do 
not go back this year, which would have, somewhat, more drastic 
consequences. About 740 FTE would have to be reduced. So in 
terms of a RIF, that would be something like a 1,000 positions. 
And if it were to be done through furloughs something like 50 
days for the entire agency to be furloughed. It would have a 
dramatic impact on our ability to pursue our enforcement cases, 
to continue even our internal reform efforts, but also to 
survey the markets during this particularly volatile time, 
given our very complex market structure.
    We would reduce even further the number of examinations 
that we are doing of regulated entities now. We are only 
examining nine percent of the investment advisers; I would 
expect to see that cut very dramatically.
    So it would have serious consequences, I believe, for our 
core programs, putting aside Dodd-Frank, for which of course, 
we would have virtually nothing for the implementation of.
    Mrs. Emerson. So what can you recommend? I know that you 
are doing your best to put efficiencies into practice. Are 
there other measures that you can take? Forget about the money 
piece of it, but are there other measures you can take with the 
budget that you have today to get done all of the 
responsibilities that you have been entrusted with.
    Ms. Schapiro. There are things. We can go through an 
initiative, and in fact we will because it is part of the 
Boston Consulting Group report that was just issued last week, 
to rethink our priorities and, perhaps, reprioritize in some 
areas. But we are already making some hard choices. We would be 
making very hard choices. And we would be stopping doing things 
I think are really critical to investor protection and their 
confidence in the integrity of our market. So if we have 
investment advisers with $38 trillion of assets under 
management and we are only inspecting nine percent of them, 
know we would have many fewer inspected and we would have 
significantly more assets that are at risk.
    But we can reprioritize in some areas; some things we 
cannot. Congress has decreed that we do certain things, and of 
course, we must try to do those. But even within 
reprioritization, we would be leaving some very, very big gaps 
in the regulation of the financial markets at a time when, I 
think, investors really question the integrity of financial 
intermediaries and even the integrity of our market structure 
after events like May 6.
    We can also continue to try to leverage more. One of my 
themes since I came on board two years ago has been to try to 
leverage private sector efforts. For example, in order to 
verify that the assets that an investment adviser says that 
they have in custody are, in fact there, we did a rule that 
says that investment advisers who custody with an affiliated 
broker-dealer have to get a surprise audit by a registered 
accounting firm. And that is a way for us to leverage third-
parties to try to do more and take a little bit off our 
shoulders. The whistle-blower program: it is about leveraging 
third-parties to bring us high-value information so that we may 
be able to bring securities fraud cases and stop ongoing 
frauds.
    Mrs. Emerson. You mentioned gaps. What gaps do you expect 
would not be filled?
    Ms. Schapiro. Well I think if we were to go back to 2008 
levels and potentially lose 1,000 positions from our staff of 
3,800, we would have to give up significant examination 
responsibilities. Our two largest divisions are examination and 
enforcement; between them about 2,000 people. We cannot bring 
all the cases now that are out there. But we are bringing about 
700 cases a year; that would be significantly reduced. Our 
ability to examine broker-dealers, credit rating agencies, 
investment advisers, mutual funds, where the vast majority of 
Americans have their personal savings. Our ability to monitor 
the exchanges and keep up with new phenomena, like high-
frequency trading, would be severely impacted.
    Mrs. Emerson. Thank you. Mr. Serrano.
    Mr. Serrano. Thank you, Madam Chair. I will also try to 
keep it to as close to five minutes as possible, because we do 
have a lot of folks here that should participate. Again, Ms. 
Schapiro, the big issue here, to me, is whether or not Congress 
will fund Dodd-Frank. So, my question to you is, assuming for a 
second that some folks get their way and we do not, we cripple 
the effects of Dodd-Frank. Is the law still strong enough to 
take effect, to keep us from not falling into the same 
situation we fell into last time? In this country, we have a 
unique way of having some folks either rewrite history or 
forget. It will not be long, I assure you, before people will 
forget what caused this mess a few years ago. And so, no one 
will be asking any questions. If we cripple Dodd-Frank, if we 
do not fund it, is the law on the books strong enough to have 
an impact, or will we run the risk again of not supervising, 
not analyzing, and therefore having the same kinds of schemes 
and situations again.
    Ms. Schapiro. Under our existing capability, we will get 
lots of the rules written for Dodd-Frank. We will not make the 
deadlines, for sure, on many of them. But for over-the-counter 
derivatives, for example, which is the largest area of concern, 
we will get the rules written. But I really believe and I think 
we can look back on history and see evidence of this, an 
inability to inspect for compliance with the rules and to 
enforce the rules, ultimately means that no matter how strong 
the law is, no matter how strong the rules are, we will have 
non-compliance, because there is no penalty for non-compliance. 
Compliance has costs associated with it. Some firms will 
continue to do a good job and be compliant and I think some 
clearly will not, if there is no mechanism for enforcing 
compliance.
    When we look at programs like the Consolidated Supervised 
Entities Program that was started by the agency in the mid-
2000s and disbanded by my predecessor, which was a voluntary 
program for regulation of the largest investment banks. One of 
the flaws in it, and there were many, was that it was a 
voluntary program. It was not really a good means for the SEC 
to enforce compliance, with the requirements of that program. 
As we know now, all of those investment banks are either gone 
or they have been converted to bank holding companies under 
supervision of the Federal Reserve. So, I think history tells 
us that it is important that we have the capability to follow 
up on compliance and enforcement.
    Mr. Serrano. What is really interesting about this, and 
this is a total personal statement, is that we do have in this 
country right now two groups who are disagreeing with each 
other on cuts and how to handle these cuts. But interestingly 
enough, from what I have seen, on the side of those who want 
cutting, their constituents do not want another meltdown on 
Wall Street. And on the side of those who may cut with caution, 
also do not want a meltdown. So, if there is one issue that 
most groups agree on, it is that we cannot have that kind of 
lack of supervision again and lack of oversight.
    So let me just ask you one last question. A lot is said 
about bringing the levels down, back to 2008. But I think we 
need to know, that from 2005 to 2007 frozen or reduced budgets 
cut a number of employees and the SEC is just now approaching 
the levels for 2005. Given all that has happened between 2005 
and today in the financial world, how did a reduced workforce 
affect the SEC over the past several years? I am talking now 
about that period when we were reducing rather than increasing.
    Ms. Schapiro. Of course, I was not at the agency at that 
time, but I think that is when you saw the agency go from 
examining, for example, with respect to investment advisers, a 
significant portion of the population, down to very low 
numbers, in the single digits of the investment adviser 
population. We saw dramatic cutbacks in technology spending, 
which I think has been one of the things that has most 
surprised me in the time that I have been at the agency. I was 
at the agency from 1988-1994, under President Reagan and then 
President Bush, and served as a commissioner. When I came back, 
in 2009, I was really shocked to see that the quality of the 
technology had hardly improved in that period of time. I think, 
given the size of our markets, the complexity and their global 
reach, the agency being unable to do a lot of its work through 
the use of technology and analytics is very crippling and 
leaves us in a position to not be able to do the kind of job 
that the American people have a right to expect from us. So, I 
would say during that period, examination resources were 
particularly reduced and the capability to keep up with these 
very complex financial institutions was definitely hurt.
    Mr. Serrano. Thank you.
    Mrs. Emerson. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you Madam Chairwoman. How are you 
doing? The SEC's Proposal for Municipal Advisors appears to 
cast a really wide net as to who has to register. In addition 
to the appointed members of [inaudible] boards, et cetera. It 
looks the SEC believes that the requirement applies to 
traditional bank products, including deposits and loans. So if 
all those bank employees and appointed officials have to 
register, I am not sure how the SEC expects to monitor and 
examine all those activities and how it would not distract from 
your other critical mandates.
    Two questions on that, do you really think it is the best 
use of Commission resources to try to regulate bank activities 
that are already regulated by the bank regulators who are more 
familiar with those banks, and their activities, and how they 
do business, number one. And number two is, would not it just 
lead to banks being subjected to yet another layer, another set 
of regulators with the SEC imposing a regulatory scheme, a 
regime that is completely different than the one they are 
already subjected to under banking regulations already in 
existence?
    Ms. Schapiro. Congressman, let me agree with you that we do 
not have the luxury or the resources or the desire to duplicate 
what other regulators are doing. And that I think also goes 
back to the leverage point. Where can we rely on our fellow 
regulators to pick up the slack? I will say on the muni adviser 
rule that we have gotten lots of comment, and the rule proposal 
is out for comment right now, and that we have cast the net in 
defining municipal adviser a little bit broadly. The statutory 
language is quite broad, but we are taking very seriously the 
comment letters, particularly with respect to the difference 
between appointed members of a public pension fund or a 
municipal hospital versus elected members and employees, and 
why was there a distinction made? And I appreciate that issue 
very much, and I think more was read into what we said than we 
intended in that regard, but we are looking very carefully at 
whether we may have cast the net too widely and taking the 
comments very, very seriously.
    Mr. Diaz-Balart. I appreciate that, and I am glad to hear 
that you are still looking at that because I think it does lead 
to a lot of concerns.
    Ms. Schapiro. Oh, absolutely, hundreds of comment letters 
yes, and from real people with real concerns because they 
volunteer their time on a school board.
    Mr. Diaz-Balart. Well, it is also--well, it might even 
hinder your ability to do what you have to do, your core 
mission. So, anyways, I am glad you are looking at that. The 
500 shareholder registration threshold, which I guess I just 
learned after a little bit of research, I guess under 1934 act 
has not been updated since the 1960s and for obviously a 
substantial number of community banks, it is either a restraint 
or it really hurts their ability to loan. And it is tough on 
them for raising capital, et cetera. Either way, it acts as a 
restriction on lending and I think particularly for community 
banks, in particular it could hurt the economic recovery, so 
when does the SEC expect to act to raise the threshold and will 
the SEC also act to raise a level of shareholders at which 
registered community banks can actually deregister?
    Ms. Schapiro. The second issue I would like to get back to 
you on, I do not know the answer. We have been looking at the 
500 shareholder limit because it has obviously become very 
current in the last couple of months with the increasing 
trading activity of unregistered shares and it has been brought 
very much to light. I have asked the staff to come back to me 
with a recommendation with respect to the 500 shareholder 
limit.
    You are right it has been in law since the 1960s, the goal 
was, of course, to make sure that when a company had a certain 
number shareholders and a certain amount of following, it was 
providing public disclosure and information for all of those 
shareholders about the finances of the company so investors 
could make reasonable, well-informed decisions. It may be that 
this is one of those areas where it is due for our looking at 
it again. It is in the statute. Although how we interpret the 
500 shareholder limit is in our rules so we have some 
flexibility with respect to that and we are looking at that. I 
would be happy to come back to you as we get closer.
    Mr. Diaz-Balart. Please. And if I may Madam Chairwoman, one 
last question, and you have heard this one before. The issue of 
the Stanford Ponzi Scheme, there are a lot of victims, and many 
in Florida, South Florida, that are eagerly awaiting an SEC 
decision on their SIPC eligibility so that they can potentially 
recoup some of their lost funds. And as you know in Florida 
where we have a lot of retirees it has been a huge issue. So, 
would you make the 16-month-old request for that determination 
a priority?
    Ms. Schapiro. Congressman it is a priority. We have been 
working with the Stanford Victim's Group and in fact, have not 
made a final decision because they asked us to keep the record 
open to provide us with additional information. I understand 
that late in January of this year we received significant new 
information from them, we are reviewing it right now and we 
will make it a priority.
    Mr. Diaz-Balart. So you will be taking into account the 
recently released Stanford Group Forensic Accounting Reports 
which show that Stanford funds were stolen and not used to 
purchase securities. So you will have that?
    Ms. Schapiro. We will take everything into account and 
speaking personally, I would love to find a way for this to 
work out well for the victims. But the law is our constraint 
and SIPC has quite different perspectives as well.
    Mr. Diaz-Balart. Madam Chairwoman I have a number of other 
questions but I will submit those for the record. Thank you 
very much.
    Mrs. Emerson. Thank you Mr. Diaz-Balart. Ms Lee.
    Ms. Lee. Thank you Madam Chair, good morning. First let me 
just say your leadership in strengthening the SEC has really 
been vital in maintaining strong and fair markets and in 
stabilizing the overall economy following the financial crises. 
And quite frankly, I think that $1.4 billion really is not 
quite enough to ensure that the SEC has the resources and 
skills and technology that you need to complete your mission 
given the size, the massive size, and the constantly increasing 
complexity of our markets. So let me ask you a couple of 
questions as it relates first of all, to fines and fees that 
you have levied. Can you give us a sense of how much in fines 
and fees were levied by the SEC?
    Ms. Schapiro. Sure. If we use 2010 as a benchmark, we had 
penalties ordered of just over $1 billion. That money goes to 
the Treasury, although some of that is actually returned to 
investors, but the bulk of that goes to the Treasury. We also 
assessed fees of $1.5 billion in 2010, all of which goes to the 
Treasury, so about $2.5 billion in fines and fees, an 
additional $1.8 in disgorgement does not go to the Treasury but 
goes back to harmed investors, was distributed in 2010. So, I 
think we are bargain.
    Ms. Lee. So the taxpayer, definitely, we are getting our 
money's worth in terms of return on investment in the SEC.
    Ms. Schapiro. I believe so. I know, as hard as we have 
worked over the last two years, with our new leadership team, 
we have more to do, there are efficiencies to find. We have a 
tiger team that is constantly going through and looking for 
pools of money that can be reallocated or used more 
effectively. But in terms of fees and fines, the SEC pays a 
very significant amount of money.
    Ms. Lee. And I suspect, I do not know but if your budget 
were cut, the assessment and the levying and the fines and fees 
probably would be reduced.
    Ms. Schapiro. If we do fewer enforcement cases, there will 
be fewer fines, and under the 2012 provisions, our fees are 
automatically adjusted to meet out appropriated amount.
    Ms. Lee. Let me ask you as it relates to the Dodd-Frank 
requirement of the SEC to set up and Office of Minority and 
Women Inclusion to be responsible for all agency matters 
relating to minority owned businesses, diversity in management, 
employment and business activities. Can you give us an update 
on that and how closely are you working with the SBA and all 
other Department of Commerce to adopt the best possible 
practices and policies to implement and maximize the impact of 
this office?
    Ms. Schapiro. Congresswoman we have posted the position for 
the head of that office. We did a nationwide posting. We have 
gotten 250 resumes. We are in the process of waiting for the 
re-programming authorization in order to actually set the 
office up, and in the meantime we have the functions, not all 
of them, but largely being done by existing staff. Once re-
programming has been decided, we will go ahead and hire the 
head of that office. I would like that person to be involved in 
setting up our processes and procedures, and then depending 
upon budgetary resources, we will either hire additional people 
or we will move people from other parts of the agency into the 
function.
    Ms. Lee. Could you keep the subcommittee updated on the 
status? It is something that some of us are very interested.
    Ms. Schapiro. Absolutely, I would be happy to.
    Ms. Lee. Thank you, and finally let me just ask you, in 
terms of some of the regulatory controls under Dodd-Frank as it 
relates to executive compensation; what impact have these new 
reforms been on executive pay and have companies changed their 
way of paying employees in terms of the connections between pay 
and performance across the financial services sector?
    Ms. Schapiro. Well there are a couple of different threads 
under Dodd-Frank. We just proposed rules, we and the FDIC, but 
we need to wait for the other financial regulators to join us 
on executive compensation clawback and deferral of compensation 
at the largest financial institutions, so those rules are not 
in effect yet. We have also done rules at the SEC that require 
enhanced disclosure with respect to executive compensation. 
Those pre-dated Dodd-Frank and went into effect last year and I 
think we saw generally better, more clear disclosure about 
compensation philosophy, so forth. And then the major Dodd-
Frank piece of this is the Say on Pay Proposals which we will 
start to see play out over this proxy season, which is really 
just going to begin in the next month or so. So we have not yet 
seen how Say on Pay is impacting compensation programs yet.
    Ms. Lee. Yes, disclosure is one aspect of it which is fine. 
Again I am not sure if Dodd-Frank requires some actual 
regulation.
    Ms. Schapiro. It requires that companies give their 
shareholders the opportunity to have an advisory vote on 
compensation and those are rules that are out now. And it 
requires that for the largest financial institutions, that all 
of the financial regulators jointly propose rules that would 
ensure that companies do not exacerbate or engage in excessive 
risk-taking through compensation programs that reward, 
essentially, risk-taking. We and the FDIC have done those rules 
for comment; the other regulators are following along.
    Ms. Lee. Madam Chair, let me just make one point for the 
record. I have legislation that I think would be a heck of a 
lot stronger in this environment, I know it will not pass but, 
I do not believe that taxpayers should pay for executive 
compensation pay over a 25 to 1 ratio. No more than 25 times 
what the average employee, or the lowest employee makes, to get 
a tax deduction from the federal government. And I do not think 
the public realizes that they do get tax deductions, these 
companies, by paying these employees this money.
    Ms. Schapiro. And that is the third piece of Dodd-Frank, 
you have reminded me. There is a requirement; we have not done 
these rules yet. They are very complex to write. It requires 
that companies calculate a pay ratio for median employee total 
compensation versus the CEO's total compensation. And by all 
that, included with every filing that the company does, and so 
we are working on those rules. As I say, there is complexity in 
the way the statute is written that we are trying to work 
through to do those rules.
    Ms. Lee. Thank you very much, Madam Chair.
    Mrs. Emerson. You are welcome. Mr. Graves.
    Mr. Graves. Thank you, Madam Chair. Thanks for joining us 
this morning, and there seems to be some discussion about the 
Dodd-Frank legislation, and I guess I want to talk about that a 
little bit as well. I know there is a fine line between 
consumer protection and personal responsibility, and that is 
certainly a difficult challenge for you. And as we just think 
about the Dodd-Frank law, and oftentimes I guess I will say 
government overreaches, it does want to jump in there and 
provide too much protection or save the taxpayer from decisions 
that they are making; and Dodd-Frank, in my opinion, and I 
think in many others, is one of those overreaching pieces of 
legislation. And as we think about, I know there are a lot of 
rules and things that have to be implemented from the 
commission, can you help us understand how long that might take 
to fully implement it?
    And partly because we know with uncertainty even in what we 
are doing here as policymakers, there is uncertainty in the 
marketplace, and it is holding up investment and cash is on the 
sideline. So maybe you could help us understand how long you 
think it will take to fully implement it. And then, in your 
opinion, when it is fully implemented, what impact does that 
have on the financial markets and maybe folks not investing 
where they may have previously.
    Ms. Schapiro. I am happy to. As you know, Congressman, 
there are lots of statutory deadlines in Dodd-Frank that 
require us to go very quickly. I think in part, this is 
motivated by a desire to have certainty about what the 
regulatory framework would look like, particularly around areas 
like over the counter derivatives where there was no regulation 
at all; hedge funds to a lesser extent and so forth. So we have 
been working very hard to try to meet the statutory deadlines 
where we can, but where we have found the statutory deadline 
runs headlong into our ability to really do a good job in 
proposing a rule and really having sufficient consultation with 
industry and market participants and investors, we have taken 
the time to do that because we think that is really important; 
more important to get it right than to get it fast. We 
appreciate the need for the certainty that the ultimate 
regulatory regime, particularly for derivatives, will create 
for industry as institutions and individuals determine if they 
want to run a swap data repository; do they want to have a 
swaps execution facility; do they want to be clearing agencies; 
do they want to participate in this market as it is regulated?
    We have done lots of consultations, as I said, we have 
gotten thousands of comment letters, and we have tried to 
propose our rules in a sequence that makes sense for industry 
in order to comment on them. We are also going to ask the 
industry how much time, once rules are finalized, do they need 
to implement them. What kind of technology do you need to build 
to be a major swap participant and be connected to the markets 
that are clearing and trading? And then try to build in 
reasonable amounts of time for people to get ready and to make 
the rules effective in a sequence also that makes sense.
    So I cannot predict for you how long that will take. Most 
of these rules have to be done by July 21 of this year; many of 
them will be, but not all of them. And then we will have the 
implementation periods that will largely be driven by the 
practical realities of the industry being ready. And so I would 
imagine it could take some significant time beyond there.
    But they will have legal certainty once the rules are done 
about what is the world going to look like; do we want to be in 
this world, do we not? How do we structure our business to work 
in this?
    Mr. Graves. So it could be the next 12, 24 months of 
uncertainty, quite frankly, I guess.
    Ms. Schapiro. I think 12 months of uncertainty; but again, 
uncertainty on some levels, but not uncertainty on other levels 
because there is some statutory certainty, also, specificity 
about a number of these things as well.
    Mr. Graves. Then what is your sense of money staying on the 
sidelines as a result of the new rules and regulations? You 
mentioned it is going to take a significant amount of 
investment in order to comply, potentially, by somebody who is 
in the marketplace with investment in new technology.
    Ms. Schapiro. You know, I do not have a number for you, 
certainly, from our meetings, we meet with lots and lots of 
industry participants. There is interest in being engaged in 
this market, and so I think there may well be some less 
spending right now until it is clear what the rules will 
require, what the technology will require in terms of 
reporting, for example. I think that once there is clarity, 
people will be in this marketplace, and they will want to 
participate in it.
    What I see causing more money, frankly, to stay on the 
sidelines are events like May 6, which scared people when we 
had that dramatic 500 point drop in the Dow in a matter of 
minutes; it really frightened people. The money is coming back 
now, but from that period until very recently, we had net 
outflows from equity mutual funds virtually every week. So 
retail investors were nervous, but even institutional investors 
were nervous about the frailty and the fragility of our market 
structure after that period. And then, of course, world events 
are causing a great deal of uncertainty.
    Mr. Graves. Madam Chair, can I ask one more question?
    Mrs. Emerson. Certainly.
    Mr. Graves. I would like to just get your opinion. Knowing 
where the debt is, the government, what we have as debt, and 
the tremendous load that that is, it is my understanding that 
when investors are investing in U.S. treasuries or notes, the 
bonds and such, that is taking money outside of the private 
sector. And right now, with $14 trillion of debt, the majority 
of that, what 65 percent of that or more, being the public 
debt, or what we would define as public debt, what impact is 
that having on the marketplace when we as a federal government 
are demanding so much in dollars to be invested in us? And 
there is only a finite amount no matter how fast they want to 
print it, there is still a limited amount. And yet it is not in 
the private sector being invested in new buildings or employees 
or products.
    Ms. Schapiro. Well, the stock market has been reasonably 
healthy; I should not probably say that and jinx things. And I 
think that suggests that the markets are available for equity 
capital raising, we have not had a lot of IPOs yet, although 
that is picking up again. I think it is a better question for 
an economist than for me, but I think the way the SEC enters 
into that equation is to do our best to ensure that investors 
have the information they need so they can make the rational 
choice between a treasury security and a share of common stock 
and feel comfortable that they know everything there is to know 
about that company. They will take their risks, prices will go 
up, prices will go down, but they have all the information that 
they need, and the market structure will facilitate their 
selling that stock after they bought it and they want to get 
out of it at a reasonable price; at a price that is reasonably 
related to the market.
    So to me, that is how I view our role in this. It is not so 
much to mediate between the competitive forces for where 
investors put their precious capital, but making sure that if 
it is in the equity markets, it is a stable marketplace and 
people have the information.
    Mr. Graves. And I appreciate that you cannot really give an 
opinion. I know you are right about the various markets there. 
I guess I am of the opinion, and I am sure many in this 
Congress are, that we would rather be in the private sector in 
the common stock and preferred stock and such.
    Ms. Schapiro. I believe in our equity market. One reason I 
believe the SEC is such an important piece of the economic 
framework is our equity markets are absolutely critical to the 
future of our economy. If companies cannot raise money and 
investors are not confident about putting in their money, we 
will not create jobs, we will not grow.
    Mr. Graves. Great, thank you, Commissioner.
    Mrs. Emerson. Thank you. I am going to go off Dodd-Frank 
for a little bit and just get back to some budget issues 
because we really do need to cover those. There is one thing 
that I want to follow up with you on: the request for increased 
personnel related to Dodd-Frank. You have asked for a 20 
percent staff increase, and given the short amount of time that 
we have, you know, for the rest of this fiscal year, and trying 
to figure out how we are going to fund the government until 
September 30, this seems impossible. But given that, and 
looking at fiscal year 2012: do you have the capacity to 
actually hire that many people?
    Ms. Schapiro. I believe we do. Actually we have 
strengthened our human resources function and Congress has 
given us some expanded hiring authorities that allow us to move 
more quickly than we have historically. We need to actually 
move aggressively utilize those. And we have, although I 
understand OPM has some disagreements with how aggressively we 
can utilize them. I do think it is a big number. There is no 
question. The total would be 780 new positions, 584 FTE, so it 
is not a small number. But I think they are spread out over 
many different divisions and departments which gives us, also, 
the capability to have hiring managers in a position to get 
that number of people on board.
    I will also say that we have wonderful opportunities to 
hire right now. We have not been hiring except very selectively 
during this continuing resolution to fill very specific 
positions. But when we do go out we are able to get people with 
tremendous backgrounds in algorithmic trading or hedge funds or 
credit rating agency expertise. It has been really incredible 
to me to see the kind of talent we can bring on and have, 
again, very selectively during the CR. So I think we can do it. 
We also have a new chief operating officer who is very 
committed to the improvements of our systems and our capability 
to move people through the system.
    Mrs. Emerson. You mentioned Boston Consulting and the 
report that they did. Going back to the staffing question, it 
summarized that you currently have 19 offices reporting 
directly to you and if we increase that with Dodd-Frank, it 
will be 24. Now I have worked in the private sector and I have 
had a lot of people report to me, but I have never had that 
many people. That would be, for me, personally, a very tough 
juggling act. So I just want to ask if that, for you, is the 
most efficient way to operate. And perhaps it might be worth 
looking at having a deputy or two to help run all those people. 
So please talk about that a little bit.
    Ms. Schapiro. Sure. I mean look, it is a big number. There 
is no question about it. Now, some of them are very small 
offices. The Office of the Chief Accountant is quite small, the 
Office of International Affairs is quite small. We have the 
five major divisions and the Examination Office which are very 
large. But it is a lot and I will say that it would be 
wonderful to have a little more flexibility than Dodd-Frank 
gave us with respect to the four new offices that will report 
to me, to perhaps have them report somewhat differently. Most 
all those functions that are contained in those offices are 
already being done elsewhere in the agency and reporting to 
different people. It would just bring them under me. And 
frankly, the intent was a good one. It was so they would have 
high level of visibility and support but, in fact, because it 
does give me a very large span of control they may not actually 
get more visibility and more support as a result.
    But we are working through all the Boston Consulting group 
recommendations and looking at where we can do some 
rationalizing of offices. So for example, we are going to put 
under the chief operating officer all the functions of the 
executive director's office. So those will not report to me 
separately, they will report to the chief operating officer. 
And there are some other opportunities, I think, to streamline 
this a little bit.
    Mrs. Emerson. I mean, you have a big job and you do need 
sleep occasionally. Efficiencies work. I know sometimes it is 
hard to do that and of course if Congress then requires people 
to report to you as opposed to you actually designing the most 
effective way to run your organization, I can imagine that can 
be difficult. I think we all should know better than to tell 
you precisely how to do something as long as you achieve the 
goals that are set out. With that, I am going to let Mr. 
Serrano ask questions.
    Mr. Serrano. I was interested that you had people report to 
you but not that many. Now we report to 700,000.
    Mrs. Emerson. Well there is that so I guess I probably had 
about 25 people doing really different things. So technically 
they could have all reported to me at one time. But it was just 
easier to split it up with three people, so only three people 
had to direct report because I could not have managed. I was a 
lot younger then and I actually could not multi-task much 
better than I can now.
    Mr. Serrano. Without a blackberry. Here is a concern, you 
spoke about IT and it almost sounded like you were willing to 
cut it but not to the bare bone. Maybe I did not hear you 
correctly, my concern there is that Wall Street firms and their 
lawyers are well prepared in that department and they certainly 
can outgun the SEC any time they wish even without some cuts. 
So what did you mean to tell us and how far are you willing to 
go?
    Ms. Schapiro. I only meant that if we have to go back to 
2008 levels we will have to make tradeoffs between our 
personnel costs and our IT costs. Over 70 percent of our budget 
is personnel and IT costs. So in order to go back to 2008 
levels, those are the two levers we have to pull to make really 
big differences and find that $240 million in savings. I meant 
only to say that we have not made choices yet about how we 
would calibrate furloughs or RIFF's versus IT cuts, but I would 
not want to take IT down to nothing, even under those 
circumstances because it is just way too important for us to be 
able to do our job. We do regulate firms that sometimes spend 
as much as $2 billion a year, $3 billion a year on their 
telecom and information technology costs compared to our 
relatively modest spending.
    Mr. Serrano. Something like the Cardinals and the Yankees. 
You guys invest on pitching, we invest on hitting.
    Mrs. Emerson. Well none of our pitchers are quite available 
at the rate we are going now.
    Mr. Serrano. There are injuries, as the SEC can tell you. 
So on that issue, you have to understand that we never miss one 
hearing opportunity to mention baseball.
    Ms. Schapiro. I know that.
    Mr. Serrano. It is what keeps us sane. But Boston beat the 
Yankees, yes I am depressed. So we talk about IT and yes we 
need to support it and so on, but give us specifics. How will 
increased information technology help the SEC perform oversight 
of the complex markets that we have?
    Ms. Schapiro. Sure, I am happy to do that. There are the 
systems that help us to do our jobs better internally. Case 
tracking systems and the capacity for our economists and our 
people who do market surveillance to have the analytics to 
review trading information and look for trends and patterns 
that are problematic. There are systems like the new TCR 
system, which I know this committee talked with our inspector 
general about, which helps us to bring in all of the tips and 
complaints and referrals that we receive in the agency, 
centralize them into one repository and allow everybody who is 
working on a particular matter to search that data to find what 
might be relevant to the case that they are working or the 
matter they are working on. And then to actually risk rank 
those tips and make sure the most important ones are being 
worked on first.
    And then there are systems like EDGAR which is how public 
companies get all their filing information to the SEC and the 
public accesses that data to understand what companies are 
saying in their 10-Ks and their 10-Qs. And we use that data to 
do our surveillance of public company disclosure. And there are 
systems like SEC.gov, which gets 18.5 million visitors a day. 
It has not been upgraded since it was launched in 1996, I 
believe. Yet it is a really critical tool for the public to 
access the SEC and the information that we have in the form of 
investor alerts, rulemakings, pronouncements, speeches, 
interpretations, everything that we are doing, and so that is a 
system where we really need to do a lot of work. And then we 
have systems that are critical to the integrity of the SEC's 
operations and the Chairwoman mentioned this earlier, our 
financial capabilities. We had in our audit two material 
weaknesses in our controls over financial reporting, largely 
because of a lack of investment in our internal financial 
management technology over many, many years. It is completely 
unacceptable for the SEC to be in that position. We have made a 
decision to outsource that function to a federal shared service 
provider, the Department of Transportation, but it will cost us 
money. It will cost us $13 million in 2012 to complete that 
migration to the Department of Transportation, but hopefully we 
will clear our internal weaknesses and have clean audit reports 
going forward.
    So, there are lots of different systems, whether it is 
Edgar Modernization for the corporate filings, SEC.gov, our 
case management and data management, internal systems or our 
financial reporting systems; they all help us do our job much 
better. And, of course, under Dodd-Frank, we are now going to 
have to register swap market participants, and municipal 
advisers and others and we need to build out the technology to 
do that.
    Mr. Serrano. Let me ask you a question. During the height 
of the crisis, there were a lot of folks unemployed on Wall 
Street and not necessarily the bigger shots but some middle 
management folks. Did any of those folks come over to the SEC? 
And if so, was it similar to when you see Fox or CNN say, And 
we have this issue we are dealing with today and we have an 
expert here who was once involved on the wrong side of the 
issue and he will tell us how to do it or not do it. I mean, I 
am not a lawyer so I do not know if I am getting into any 
difficulties here or getting you into any difficulties. Did any 
folks come over?
    Ms. Schapiro. Oh, absolutely. About 50 percent of our 
workforce has prior experience in the securities markets, and 
we have been the beneficiary of Wall Street's lean times, quite 
honestly. During the last two years in particular where we were 
in a position to do hiring, we were able to bring in people 
with great expertise and talent, and one of the criticisms of 
the SEC has been that we are too far from Wall Street and we 
have not kept up. These people help us keep up.
    Mr. Serrano. Thank you.
    Mrs. Emerson. What really makes me nervous is all the flash 
trading, the algorithmic trading et cetera. Obviously you do 
not have a computer system that can monitor that. I do not know 
that you can monitor it anyway because it is too split second, 
but how much would it cost to upgrade your system to even be 
able to track this?
    Ms. Schapiro. You know, we cannot and we probably should 
not be able to track this. But somebody has to be able to track 
this, so what we have done is we have proposed a consolidated 
audit trail that would require all of the markets, that are 
already surveiling their piece of the pie separately, to come 
to us with a plan and I hope we will finalize this rule in the 
next couple of months. Come to us with a national market system 
plan that would create a consolidated audit trail that would in 
fact give us an order by order, microsecond by microsecond 
audit trail for every transaction in the securities markets and 
ultimately we would like to be able to expand it to include the 
derivatives markets as well.
    After May 6, it took us four months to be able to 
reconstruct the market trading so we could reassure people that 
what had happened in our markets on that date, that it was not 
a cyber attack, it was not just a mistake, it was what it 
turned out to be in our report. And so this consolidated audit 
trail system will actually have to be paid for by the industry 
and the SEC will have complete access to the information. Now 
we will need tools with which to use that data, and to be able 
to look for improper trading, to be able to reconstruct trading 
after a serious market event, but we have actually pushed to 
the private sector in a sense, the responsibility of self 
regulatory organizations, the responsibility to actually build 
the data repository and build the system that will have a 
genuine audit trail for the first time in the U.S. equity 
markets.
    Mrs. Emerson. I am glad to hear that.
    Mr. Serrano. I did not catch or understand why you said 
that you probably should not be involved?
    Ms. Schapiro. Well we have to be involved, and we will set 
all the requirements and we will be deeply involved in what 
this looks like because it has to satisfy our standards for 
what market surveillance would look like. I meant only in the 
sense that in a time when there is not a lot of funding around 
if we can leverage third parties, leverage self regulatory 
organizations I believe that is a better approach for us. They 
will also have talent, expertise, and capability to oversee the 
extraordinary detail that will go into the building of a 
consolidated audit trail system. And of course it has to link 
all of their markets, so I think there is a logic to having the 
industry do this, but under very close oversight of the SEC.
    Mr. Serrano. Thank you.
    Mrs. Emerson. Since they already have the machines doing it 
anyway. Time for Mr. Graves.
    Mr. Graves. That is fine. You know, it seems like on every 
subcommittee, each agency comes before us and they all have 
great presentations, and yours has been fantastic as well and I 
appreciate that, and each time though it is asking for 
additional resources and because there are critical missions I 
know you are trying to accomplish and I think we all know the 
resources are limited and so we are looking for the efficient 
and effective ways to govern right now and I guess that is code 
words for less spending and being responsible to the tax 
payers. And I know, Chairwoman asked you about the 2008 levels, 
and that is a serious discussion I think we are all having 
right now. And so when it is brought up I know you do not take 
it lightly in any way, and I know it would not be devastating 
according to the words you used.
    Has the commission gone through an analysis of how it might 
be able to reach those levels in a comprehensive way, and not 
so just, you know, off the top of the head so much but as a 
agency they are comprehensively looked at and seen how they 
might do it? Or with any recommendations as to what we might do 
as a Congress to repeal authorizations or something that may no 
longer be necessary that you see as still burdensome, that we 
have overcome that error or whatever it might but just sort of 
a comprehensive approach to how we might reach 2008.
    Ms. Schapiro. Well as you can imagine, we have been doing 
lots of contingency planning over the last few months, but we 
have not sat down and said if we have to lose 1,000 positions 
from the SEC we will definitively choose not to do the 
following five things and the positions associated with those. 
What we have done is we have asked all of our division 
directors to prioritize those functions that are absolutely 
most critical and there are some we think we could stop doing 
and nobody would really notice. Or we could push again, to self 
regulatory organizations or to other third parties.
    But I cannot tell you that we have made the granular 
decisions yet, as well as how it would impact our technology 
investment going forward as well. Because for us, we do not do 
a lot of contracting, we do not do a lot of programs that can 
be shut down in the way that many Cabinet agencies do for 
example. For us it is going to always be a tradeoff between 
people and technology. There are efficiencies still to be 
gained at the SEC, I absolutely believe that and we are working 
hard to do that. But I do not believe there is a lot of money 
being spent on non productive functions. We will make very, 
very hard choices that I think have the potential to impact 
investor confidence in whether our markets are sufficiently 
regulated.
    Mr. Graves. And I think we as a committee would really like 
to work with you on that. You know, unfortunately, we will be 
put in the position to make some of those decisions for you if 
we are not given some of those recommendations as well, because 
regardless of any input we get from the various agencies the 
resources are still limited and there is only so much that we 
can apply toward your purpose and mission. So I would certainly 
encourage you to work with us and look for those opportunities 
in which maybe you are performing a task that is no longer 
necessary, that is still something that is going on and is 
required to be funded because law says you must carry out that 
task. But maybe you do not see that its purpose is necessary.
    Ms. Schapiro. And there are some of those. I mean, just to 
give you a quick example, under Dodd-Frank, we are required to 
examine every credit rating agency once a year. That is without 
regard to the risk that they might be presenting to the 
financial system, or to investors, or to companies. And our 
view would be it would be better for us to do our risk 
analytics and decide, yes, this one needs to be examined every 
year, but this one, maybe every three years, is good enough. So 
there are some small examples, I do not think they are huge, 
but there are some small examples where the constraints of the 
law might be loosened in a way that would give us more 
flexibility to deploy our resources.
    Mr. Graves. Right. Well, thank you. Thank you, Chairman.
    Mrs. Emerson. I want to bring up an issue that I know is 
not pleasant. But it has to do with rent, and leasing, and 
inefficiencies that might exist within the SEC's office that 
performs leasing for you all. Obviously, I am referring to the 
Constitution Center lease, and the fact that, as a result of us 
passing Dodd-Frank, and the anticipation that funds would be 
forthcoming, I assume, you all went out and leased 900,000 
square feet of space at Constitution Center. And yet it was not 
filled. And then there were other facilities that were not as 
well. And so, talk to us a little bit about how you are 
revamping this whole process, because there is nothing that is 
more frustrating to us than to know that there are 300 
workstations somewhere, with all the equipment, and no people, 
and no budget to pay for it.
    Ms. Schapiro. Well, that is not the case right now. There 
are not 300 workstations with no people. But, as you know, 
Dodd-Frank authorized doubling of the SEC's budget over five 
years, and gave us very, very significant new responsibilities. 
And we have to have people to do those responsibilities. We 
also have to plan for our space needs in advance because the 
time it takes to fit out a building, and particularly to 
install technology and telecomm, is not something we can turn 
on a dime to do.
    We did lease the space when it became clear that we might 
not have a budget; we very quickly released 600,000 square feet 
to self-funded agencies, FHFA and the OCC. So I think we have 
done the very responsible thing there. We still have the 
300,000 square feet, and we are, obviously, assessing our 
needs, and when we have clarity around the budget going 
forward, we will do what we need to do to continue to shed that 
space if that is what is required. But we moved aggressively 
because we had huge responsibilities coming, and an expectation 
from the authorization.
    Mrs. Emerson. Do you go through GSA for leases?
    Ms. Schapiro. Currently we do not. And I should say more 
broadly to your question, as you know, the Inspector General is 
looking at our leasing functions, and I am looking forward to 
his recommendations for improving that area. And again, I would 
mention, we have a new chief operating officer, who is 
experienced, not just in technology; he came from Capital One, 
but also with respect to issues like this. And I think we will 
be able to implement the IG's recommendations and move forward.
    Mrs. Emerson. Do you know how much one square foot costs at 
Constitution Center?
    Ms. Schapiro. I do not know off the top of my head; I would 
be happy to provide that information to you.
    Mrs. Emerson. I would appreciate it, because prices all 
over D.C. are crazy. But I had a meeting with somebody who 
happens to be in office management, or development, I do not 
know what you call it, but they own the buildings and they rent 
them out. And he told me that the average is somewhere in the 
$58 range, but it can go up to $94 if you are in a prime 
location. So I am just curious, and if you all would get back 
to me on that.
    Ms. Schapiro. More than happy to do that.
    Mrs. Emerson. I would appreciate it. And I understand, on 
the one hand, the need to anticipate. On the other hand, 
perhaps you had more faith in us than we had in ourselves for 
getting things done in a quick fashion.
    On the issue of financial reporting, the GAO report issued 
in November of 2010 said, in essence, that since 2004 you all 
had continually struggled with issuing clean financial 
statements. I know you addressed that, just for a moment 
before; and so given the fact that you do sophisticated 
monitoring of financial markets, it is a little embarrassing.
    Ms. Schapiro. It is more than a little embarrassing. It is 
not the right result for the SEC, and I actually announced it 
to a very large conference of auditors and accountants, that 
this was the result of our annual audit, because I think it is 
very important that we own up to it, and own up to the fact 
that over many years there was no investment in our financial 
management systems. They grew with lots of workarounds, and 
bolted on systems, that overtime, just became unsustainable.
    So the decision we have made, and I really believe it is 
the right decision, because this is not going to be a core area 
of focus for us, is to outsource this to a federal shared 
service provider. We will use Department of Transportation; 
that the GAO uses as well. And we made the decision, we have a 
new CFO, and a new Chief Information Officer as well, and we 
collectively made the decision that rather than take on the 
risks of trying to build a new system ourselves, and deploy 
that, that we should go with something that is basically tried 
and true. And I think it is the right decision.
    Mrs. Emerson. So, how does the financial part of that work? 
The Department of Transportation charges you for that service, 
and it is a kind of interchange between agencies?
    Ms. Schapiro. Yes. My understanding is that it will cost us 
about $5 million a year, annually, after we have made the 
switch over to DOT, which should happen by April of next year; 
so within the next year. The costs are $13 million in 2012 and 
$12 million in 2013, so it is not an inexpensive undertaking. 
But at the end of the day we will have a financial management 
system that works and remediates our internal weaknesses. I 
fear we could spend a lot of money to try to recreate the 
wheel, and maybe at the end of the day, not have a system that 
is tried and true.
    Mrs. Emerson. And could cost you easily that much.
    Ms. Schapiro. Exactly.
    Mrs. Emerson. Okay. I think that, you know, sometimes it is 
why we invent the wheel, if you will.
    Ms. Schapiro. Right. Exactly. To me it was the responsible 
thing to do, for the taxpayers.
    Mrs. Emerson. Yes, I mean, so DOT actually has the system 
and then you would just replicate it.
    Ms. Schapiro. They run the systems for multiple agencies.
    Mrs. Emerson. Oh, I see. Okay.
    Ms. Schapiro. They do it for GAO, they do it for CFTC; they 
have been designated by OMB as the service provider to other 
agencies, of financial management systems.
    Mrs. Emerson. Okay. Thank you. Mr. Serrano.
    Mr. Serrano. I will submit the rest for the record. Part of 
what the SEC provides to the financial markets is confidence 
that a powerful watchdog is providing the proper amount of 
oversight to the market. With the proposed H.R.-1 Bill, and 
this series of two to three week continuing resolutions, is the 
SEC able to provide that level of confidence in such an 
uncertain legislative climate?
    Ms. Schapiro. I think that, you know, H.R.-1, while 
certainly not having as dramatic an impact as going back to 
2008, would still impact the agency's ability to fulfill even 
its core functions. Operating as we are now, on the CR, we are 
not hiring, even though there are good people available for us 
to hire. We have cut back our investments in technology; we 
have spread them out over more years. We have cut back our 
examiners' ability to travel. And, you know, importantly, we 
are really, feeling the impact on our capability to engage, for 
example, with industry, or with foreign regulators, at a time 
when Dodd-Frank coordination is so critical with foreign 
regulators. We cannot spend the money to send people back and 
forth to Europe and to Asia, to really be working on 
coordinated rule sets.
    So, I think if we were to go back to the numbers in H.R.-1 
we would see, obviously, even more tightening of the belt: 
fewer enforcement cases, fewer examinations, less travel, and 
less technology investment. We are impacted now, that would 
clearly impact us more.
    Mr. Serrano. When we had the Inspector General here, the 
Inspector General remarked during his testimony that the SEC is 
in a much better position now than it was when he became 
Inspector General in 2007. So you are to be commended for that 
turnaround. What are your next goals for the agency, except in 
addition to staying alive?
    Ms. Schapiro. Staying alive is good. You know, we have an 
entirely new leadership team across the entire agency. And they 
are incredibly talented people. They are working 
collaboratively together and we have to continue to instill in 
our culture that investors come first and collaboration, 
cooperation with our colleagues internally, and in other 
agencies, and continue to make that part of our DNA. We have to 
always continue to be willing to remember the lessons of the 
past. We talk about Madoff a lot at the SEC, because we need to 
remember that the agency's failures cause tremendous harm. We 
need to continue to embrace those lessons of the past failures.
    And so my goal is that we become more agile, that we 
continue to recruit different kinds of skill sets and different 
kinds of talent to the agency, so that we are better able to 
connect the dots and understand what is going on on Wall 
Street, and throughout the financial markets that might impact 
investors. We could prevent more harm, which would be a 
wonderful legacy, and not just redress the harms after they 
have been exposed. So we have a lot of work ahead of us, a lot 
to do, but we have an incredibly engaged senior leadership team 
now. And I am pretty optimistic that we are going to continue 
to make real strides.
    Mr. Serrano. I should leave it there, for my part, but let 
me ask you a question: Do we know everything that we should 
know about the people, the groups, that were harmed by Madoff? 
It even reached the baseball team in New York. Where does it 
end?
    Ms. Schapiro. I think there is quite a lot of information 
out there as a result of the efforts by the SIPC trustee, and 
of course the SEC and the Justice Department have brought 
multiple cases in this regard. So I think it has been pretty 
transparent.
    Mr. Serrano. All right. Thank you so much.
    Mrs. Emerson. I have a bunch more questions and I know Mr. 
Womack wants to get back here. Oh, he is not going to make it, 
after all? Okay, well I know he will have some questions to 
submit for the record. Will you just go over, for Mr. Serrano 
and I, and for the record here, talk a little bit about all of 
the rule-making that you have to do as a result of Dodd-Frank. 
Explain, a little bit, those rules that you have to coordinate 
with the Commodity Futures Trading Commission, and how that 
whole process will work. Because I know that there is some 
frustration on the part of colleagues that the SEC is taking 
too long to do the rule-making, or implement the rules, but, 
quite frankly, I believe in your philosophy that you have got 
to get it right and that is more important than hurrying.
    Just explain, because the complexity of it is enormous, as 
is the impact if you get it wrong, which I think would have a 
very negative impact on the market.
    Ms. Schapiro. Sure. Well, we have some rules that we are 
doing jointly with the CFTC. But all the rules in the over the 
counter derivative space are at least in close consultation and 
collaboration. And I think both of us believe that, to the 
extent market participants are going to be both in their world 
of OTC derivatives and our world of OTC derivatives, we need to 
make the rules as synchronous as possible and as consistent as 
possible, because we do not want institutions to incur 
unreasonable costs trying to comply with two sets of regulatory 
requirements. So we have worked very, very closely together. We 
have coordinated very, very closely. Many of the rules we have 
proposed are essentially the same.
    But there are a bit in number where we have taken a 
different approach than the CFTC, in part based on the nature 
of the small piece of the OTC derivatives market we have 
responsibility for, the securities base swap market is 
different, for example, than the interest rate swap market, 
which is enormous and very liquid.
    And some of the differences really come from the fact that 
we just have different historical statutes and philosophies 
about things.
    We have gone out for comment on more than a dozen rules. We 
have reopened some comment periods, in fact, where we have 
gotten interesting comment letters, or there are other 
approaches. We have sought cross comments in our rule 
proposals. So if we have proposed something, we have asked. Did 
you think the CFTC has done it better? Yes, no, why? What would 
you do differently?
    And we have had many, many meetings, and we in fact held 
four round tables together where we brought industry in to talk 
through the different rule sets. As we come to final proposals 
we will need, I think, to work very hard to try to get these 
rules to be the same as much as we possibly can. And that is 
the challenge that is before us right now. And, then we need to 
also phase them in in the same way so that industry is meeting 
one set of deadlines, not two different sets of deadlines.
    Mrs. Emerson. Are there some things that we in Congress 
need to do to help clarify some of the requests or requirements 
that we imposed, I mean, within the rule-making process. 
Obviously, you are the expert at what you do, we are not 
necessarily the experts at what you do; and therefore, 
something that sounds like a good idea might not, in reality, 
be workable. Are there things that we can help you with this?
    Ms. Schapiro. I was going to say, we are getting a record 
number of comment letters from members of Congress, at least in 
my experience, over the last couple of months, explaining what 
was intended, or what was meant by particular provisions in 
Dodd-Frank; and that is actually extremely helpful to us. But I 
think we are trying to work things through the rule-making 
process as best we can.
    Where there are issues, or where we think there really is a 
necessity, potentially, for change, and I can think of one in 
the OTC derivatives area. There is a requirement that foreign 
regulators have to indemnify a swap data repository for 
information that it receives. Most foreign regulators cannot 
indemnify; we certainly could not indemnify a foreign swap data 
repository if we needed information from them. And we are going 
to see if we can work this through, somehow, through exemptive 
and other actions, but if not, we may well come back and say, 
this is a provision that will make it very hard for us to work 
collegially with foreign regulators. And it may also put them 
in the position of forcing us through the same hoop in getting 
information that we might need from their repositories, so that 
is just an example where we may well come back.
    Mrs. Emerson. Speaking of foreign regulators, I mean, 
obviously, so much of what you do, is at a global level and the 
global marketplace needs to more or less be on the same page. 
Are you finding good cooperation with your counterparts?
    Ms. Schapiro. There is great cooperation, I would say. Of 
everybody, I would say the United States is leading in the 
derivatives space, less so in compensation and some other 
areas. But it is very, very important for us to stay very 
closely tied to what foreign regulators are doing, because we 
do not want to create artificial opportunities for regulatory 
arbitrage, or see industries move from one jurisdiction to 
another simply because one regulator is far ahead of the 
others.
    To date, the G20 countries are talking about the same kinds 
of rules and the same kinds of protections built into their 
regulatory system for derivatives as we are, so we remain very 
confident at this point, but we will be watching closely. And, 
as well, that will go to the implementation periods.
    Mrs. Emerson. Mr. Serrano. I may just ask a couple more.
    Mr. Serrano. Ask as many as you want.
    Mrs. Emerson. I know, I know, but I do not want to keep 
everybody, especially if Mr. Womack is not coming back. I do 
have a very short question, and then I am going to ask 
something else that is just something that is more annoying 
than anything else, perhaps, and it has to do with the Facebook 
private sales. Only because that would have been one stock that 
would have been fun to buy one share for my grandchildren, just 
because it would be a fun thing to do.
    And I know that a lot of Americans were upset that Goldman 
chose not to allow American investors to buy stock in 
Facebook's stock offerings. Some have argued that regulations 
have forced the capital formation process offshore. In this 
case, Goldman actually marketed sale of shares to savvy, large 
scale investors, not smaller, less sophisticated investors like 
me. And so, while they were able to collect fees at Goldman, 
American investors were not able to invest in an American 
company. I mean, how do you all balance protecting investors 
while at the same time not depriving them of opportunities to 
invest?
    Ms. Schapiro. Well you know, the basic requirement is that 
securities have to be registered to be sold publicly, and there 
needs to be financial reporting, unless there is an exemption 
from that requirement. And Goldman proceeded, I believe, on the 
basis that this would be a private offering to large players 
without a general solicitation. And then when the media frenzy 
erupted, their concern was they might not be able to satisfy 
the requirement that this was not a general solicitation.
    So in light of that, I have asked the staff to come back to 
me with some recommendations on whether we need to look at the 
requirements of our exemptions. When these exemptions were 
written, nobody thought about media frenzy being the sort of 
thing that would tip the balance into whether you were engaged 
in a general solicitation or a truly private offering. And so 
we are looking at this issue very closely. We recognize the 
frustration that people felt. On the other hand, we do have to 
balance it with the need for people to have current, reliable 
financial information if they are going to buy shares of 
companies.
    Mrs. Emerson. And I do agree. It is just that it was 
frustrating.
    Ms. Schapiro. Understood.
    Mrs. Emerson. Let me just ask you about municipal 
securities. Primarily because I know that you have been, we all 
have been, looking into the issue of the safety and 
transparency of the muni bond market, and that you conducted a 
number of field hearings on the issue last year. So, if you 
could answer these few questions. First, how does the SEC 
propose to balance the importance of this financial instrument 
for cities and States with the importance of protecting 
investors? And while you do not have direct authority to 
require financial disclosures before municipal securities are 
issued, how does the SEC monitor these securities currently?
    It is worrisome, given all of the stress we are seeing 
today in States and in cities, with regard to pensions and 
financial obligations. So it does concern me that we may be 
potentially selling these bonds with the possibility that a 
town or a city might go bankrupt. I realize that traditionally 
nobody thought that that would happen, but, as I said, with 
pensions not fully funded, this becomes a little problematic. 
So I would just like to hear your thoughts on that.
    Ms. Schapiro. Well, as you point out, we do not have the 
ability to tell municipal issuers what they have to disclose or 
when they have to disclose it. We do get a reasonable amount of 
disclosure out by putting burdens on the broker-dealers who are 
going to sell the municipal securities to make certain 
information available. We have actually increased that in my 
two years at the SEC to require that even more information be 
made available. But we are reaching the limits of the authority 
that we were exercising over broker-dealers to do that.
    So, as you point out, we started a series of field hearings 
last year under Commissioner Walter's leadership, to try to 
bring issuers, investors, commentators, academics, everybody 
together, around the country, to talk about the issues with 
respect to the municipal securities market, and what could the 
SEC do that would get the balance right and protect investors 
in this, frankly, $3 trillion market, which is really, largely 
an individual investor-held market. And we had to suspend those 
because we didn't have the travel budget, but I am hoping that 
we will pick those up again later this year. And we did get a 
couple of them in, and they have been enormously valuable. And 
we have also been inviting people to Washington to come and 
talk with us about it.
    We have also done a lot in enforcement. We created a 
specialized group in our enforcement reorganization to focus on 
municipal issues. That group brought the first case against the 
State of New Jersey for inadequate disclosure. And they have a 
number of investigations going on around the country. One of 
the things we have seen from our enforcement actions is that it 
is having the effect on other state and municipal issuers to go 
back and look at the quality of their disclosure, the 
timeliness of their disclosure, the accuracy, the fullsomeness, 
to see if they can make improvements. And that is a great 
result from an enforcement case. We didn't levy a fine or 
anything, we didn't want to burden the taxpayers of New Jersey, 
but we wanted to make the point that you have to be truthful 
and you have to be honest in the disclosure that you do.
    My view would be that we get through the bulk of Dodd-
Frank. We'd like to come back to Congress and talk about 
whether there should be some more direct authority at the SEC 
with respect to the content of disclosure by municipal 
insurers. And the way we monitor it is largely through the 
MSRB, which is a self-regulatory organization that we leverage 
that runs the database for municipal disclosure.
    Mrs. Emerson. This will be my last question, and then I'll 
submit the rest of mine for the record. Because you referred to 
credit ratings agencies and perhaps the need to keep your hands 
off them, per-se, that is not how you said it, but that was the 
gist I got. But on the other hand, many people have said that 
part of the whole financial meltdown was due to the fact that 
the credit ratings agencies, or companies, were too invested 
with some of their clients, and not vigilant enough, if you 
will. And so, I am curious why they have not, in the past, been 
subject to the same expert liability standards that accountants 
and lawyers who make statements on security prospects would 
have been subject to.
    Ms. Schapiro. My point earlier was not that we should not 
be regulating them. I believe we should and that we have new 
tools under Dodd-Frank. Just that the statutory requirement 
that we analyze, examining every single one of them every year 
might be a little bit inflexible.
    Mrs. Emerson. OK, I misunderstood. Thank you.
    Ms. Schapiro. But the provision 436G in Dodd-Frank that 
would repeal the statutory provision that shielded them from 
expert liability is one we are wrestling with right now, 
because we do not want it to create issues, particularly for 
the asset backed securities market. I do not really know the 
historical reasons why credit ratings agencies did not consent 
and face expert liability. I would be happy to get back to you 
on that. I am just not recalling.
    Mrs. Emerson. Perhaps we should ask the authorizing 
committee to give us the answers to that, or look into that. I 
would appreciate that. That is certainly problematic to some 
extent.
    Ms. Schapiro. Well, the issue we face now is that they are 
refusing to consent, so that the ratings cannot be included in 
the registration statement, and that makes it very difficult to 
sell the securities in the public market. And so, we are trying 
to get the balance right. But we are going to move forward on 
that provision.
    Mrs. Emerson. Thank you, I think it is pretty necessary to 
do that. Joe, do you have any closing comments?
    Mr. Serrano. Yes. Please do not cut them. I know. That is a 
Congressional decision.
    Mrs. Emerson. Over my pay grade.
    Mr. Serrano. Just, my closing comments is that I really 
believe that they need every opportunity, the Commission does, 
to carry out its function, and put in place Dodd-Frank, and in 
the process we will all be better for it. If not, then we just 
wasted a lot of years and didn't learn anything from the last 
meltdown.
    Mrs. Emerson. Mr. Yoder is here, and so, let's filibuster a 
couple of minutes and talk about baseball teams so he can get 
organized to ask his one question. So, is St. Louis ahead of 
the Yankees in the standings?
    Mr. Serrano. I didn't even know St. Louis was still in the 
league.
    Mrs. Emerson. Oh, Joe. Well, listen, are you going to 
opening day?
    Mr. Serrano. No.
    Mrs. Emerson. I am going to try to. Let me just let Mr. 
Yoder go ahead, and thanks for getting here.
    Mr. Yoder. Thank you, Madam Chair, and I actually was 
distracted by your conversation, because I actually wanted to 
join you in that conversation.
    Mrs. Emerson. Because he is a Royals fan.
    Mr. Yoder. A long-suffering Royals fan.
    Mr. Serrano. But you gave up David DeJesus, right?
    Mr. Yoder. We are a farm team for a lot of the other 
national teams.
    Mrs. Emerson. Let me just say that you really do have a 
great farm team, though, I think. I mean, they are terrific. 
They are terrific. But it just seems like they are better than 
the division.
    Mr. Yoder. That is true. That is true. Last time we won our 
division, I believe was in 1994, when the strike ended the 
season early.
    Mr. Serrano. If I am not mistaken, you guys had the first 
baseball academy, right?
    Mr. Yoder. I'll take credit for that. I am not sure.
    Mr. Serrano. A thousand years ago. And you know who went 
there? Bill Richardson.
    Mrs. Emerson. Really? How come he never played on the 
Congressional baseball team?
    Mr. Serrano. He did. He was a great hitter. Could not run.
    Mr. Yoder. Thank you, Madam Chair. Ms. Schapiro, I 
appreciate you being here today, and I apologize for coming in 
here towards the end, but I did have a couple of questions for 
you. One is for very specific and it is related to complex 
minerals.
    Ms. Schapiro. Conflict.
    Mr. Yoder. I am sorry, conflict minerals. Pardon me. And I 
have had some concern raised, and I am apologizing if this has 
already been discussed, by a company in my district related to 
what they believe is a very difficult and onerous provision 
that would require them to have to understand the history of a 
mineral that has gone through so many different entities, that 
they feel it would be impossible for them to use it at the very 
trail-end. And the question they have that they wanted me to 
ask you is related to a potential de minimis provision. Could 
you maybe discuss that a little bit? And I might have a follow-
up question.
    Ms. Schapiro. Sure. We have a proposal out for comment 
right now on conflict minerals, and this relates to certain 
enumerated minerals in the statute that come from the 
Democratic Republic of the Congo, or the surrounding area. Our 
rule proposal is out, which would set forth the requirements 
for companies that use these particular minerals in their 
products to do due diligence about the source of the minerals, 
and provide a due diligence report if they are not conflict-
free, or they cannot determine whether or not they are, and 
have an audit of that report. I do not believe, and I would 
like to get back to you on this specifically, that the statute 
has a de minimis exception in it, and I do not honestly recall 
whether we made any proposal or asked for any comment with 
regard to a de minimis exception, but my recollection is that 
it is not contained in the statute.
    Mr. Yoder. Well, I appreciate that. I just want to share 
with you some concern from American companies that are having 
to compete globally. And we all share the same interests here 
in creating jobs in the United States, and I know you do as 
well, and I just want to make sure you are aware that there are 
some companies that use a very, very small amount of these 
minerals, a very de minimis amount, and that it would be 
extremely arduous and difficult for them, and a high cost would 
make them less competitive and affect their ability to create 
jobs and get the economy back on track.
    Ms. Schapiro. And you should know that we have met with 
many companies to talk because these are all important 
minerals. It includes gold, coltan, and a number of others that 
are really critical to the manufacture of electronics, as well 
as jewelry and other things. So, we have met with many 
companies, and we have gathered very broadly their input, and 
we will take it very seriously. And I would be happy to come 
back to you with further thoughts on that.
    Mr. Yoder. Would you, please? And particularly with 
electronics, where you might be using a minuscule amount, but 
the effort that it would take to understand that whole process, 
I think, is overly burdensome for some of these companies.
    And then I just had a couple general questions that small 
businesses ask me all the time, related to the fees they pay to 
the federal government and various agencies, and I wonder if 
you would comment on the status of all the different fees that 
businesses are paying to the SEC. And are there ways in which 
we can alleviate some of those to help the pressure on business 
owners? And then the other question would be related to just 
general regulations and the President's call for each agency to 
go through and review, and modify, and change regulations such 
that they are not burdensome and onerous. And we talked about 
one, the conflict minerals one. What is your agency doing 
specifically in that regard?
    Ms. Schapiro. The executive order does not actually apply 
to the independent agencies like the SEC. But that said, we 
have said that while we do much of what is already sought in 
the executive order: the cost-benefit analysis, trying to make 
accommodations for smaller businesses where we can with delayed 
implementation periods, or delayed compliance dates, and so 
forth, or exemptions. We are very active, and have been, over 
the last couple of years, looking at that, as well. But we have 
said that we want to go back. We are about to form a small 
business advisory committee. I have asked our commission to 
approve our doing that and going back and looking at rules that 
have been on the books for a long time to see whether there is 
small business relief that the SEC can make possible. So, for 
example, on regulation A offerings one of the ideas on the 
table is raising the limit, so more money can be raised with 
fewer requirements. We actually have come up with many ideas 
that we hope to address with our advisory committee once it has 
been put into place. So, while the executive order does not 
apply to us, we are trying to act as though it does because we 
think it is just a good practice.
    With respect to fees paid to the SEC by small companies, 
there are of course some fees related to securities 
registration, when you go public or your offer stock, but I am 
not aware of other fees. Again, I would be happy to supplement 
the record with that. But unlike other agencies, we do not have 
a lot of programs that I think would generate fee payments to 
the SEC.
    Mr. Yoder. Do you generate your resources, then, from tax 
dollars, or are you entirely fee-based?
    Ms. Schapiro. Well, we are fully appropriated by Congress, 
obviously, since we are all sitting here, but the SEC's budget 
is covered by a transaction fee that is paid by the self-
regulatory organizations to the SEC, and that is generally, I 
believe, passed on, ultimately, to customers. It is a fee on 
every stock trade, as opposed to a fee directly on businesses. 
And it is two cents per $1,000.
    Mr. Yoder. And I have not had a chance to review your 
comments, but what is the SEC doing in terms of reducing 
expenditures, and trying to find ways to become more efficient 
in this economy in which resources are obviously very scarce?
    Ms. Schapiro. Well, living under a continuing resolution, 
after two years of growth, we have had to significantly cut 
back on a number of activities, and try to reprioritize as best 
we can with the dollars that we have. We have a team under the 
leadership of our chief operating officer that has been going 
through and looking for all the places we are spending money 
less efficiently or less effectively than we think we could, 
trying to redeploy those resources to higher and better uses 
throughout the agency. We are also trying to leverage the 
efforts of third parties where we can, whether that is 
accounting firms, or whistle-blowers, or self-regulatory 
organizations.
    Mr. Yoder. Do you have examples on where you have made 
reductions?
    Ms. Schapiro. Sure.
    Mr. Yoder. Anything you want to highlight for the 
committee?
    Ms. Schapiro. This year we zeroed-out bonuses. We cut 
travel by 10 percent. We have delayed our technology spending 
by a significant amount. I would be happy to provide the actual 
dollar numbers, but we have reduced our security guards; we 
have reduced our overtime pay; we have reduced the use of 
expert witnesses even in our own enforcement cases, and 
consultants; we have eliminated the summer intern program; we 
have eliminated the student loan repayment program. A number of 
efforts we have taken.
    Mr. Yoder. Okay. Well, I appreciate that. I hope you 
continue to go down that road. And certainly, I want to follow-
up with you again on that conflict minerals issue.
    Ms. Schapiro. I am sorry. I said we eliminated the summer 
intern program. I think that is targeted. I do not know that we 
have actually done that, so let me get back to you.
    Mr. Yoder. Well, keep doing what you can do to reduce 
spending and keep costs low for business owners, and certainly, 
as well, on the regulatory side. As you take comment, it is my 
hope that you will keep an eye towards helping our innovators 
and entrepreneurs in the country be as successful as possible, 
and that our regulations are such that they do not create 
onerous burdens that make our U.S. companies less competitive 
in the global marketplace. So thank you for your comments. 
Madam Chair, I yield back. Thank you for the time.
    Mrs. Emerson. Thanks, Mr. Yoder. Chairman Schapiro, I 
really want to thank you for being here today, and thank you 
for undertaking the enormous job that you have that is probably 
quite intimidating to most people. And you do a very good job 
at it. And I know that you have had many, many messes to clean 
up, and you are going about doing it in the right way. And I 
also appreciate the fact that you are making efficiencies in 
some things, and I also understand the great need for you to be 
funded to the maximum extent possible in other areas, because 
of the nature of the work that you do.
    I may challenge my good friend, Mr. Serrano, on your 
statement that, I believe you said that the financial crisis 
was in fact perhaps mostly caused by lack of regulation and 
oversight. I think there were many, many things involved that 
led to it, and that was not necessarily the primary thing, but 
I feel good that the Chairman has undertaken a good review of 
the many burdens that they have to oversee and to regulate. It 
is tough, and it is a big burden, on the one hand. We will do 
our very best to ensure that you have the tools necessary to do 
your job, because our markets are absolutely critical, and I do 
not want you all to short-thrift that IT system, particularly 
because technology changes so rapidly. So we will keep our 
fingers crossed and do the best we can. Thank you so much for 
being here.
    Ms. Schapiro. Thank you so much.
    Mr. Serrano. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                       Thursday, February 10, 2011.

                   SECURITIES AND EXCHANGE COMMISSION

                                WITNESS

H. DAVID KOTZ, INSPECTOR GENERAL, SECURITIES AND EXCHANGE COMMISSION

                 Chairwoman Emerson's Opening Statement

    Mrs. Emerson. Okay, we'll go ahead and get started. I want 
to thank you very much, Inspector General Kotz, for coming 
today. This is the first hearing for the Financial Services and 
General Government Subcommittee of the 112th Congress. I'm 
really very honored to have been selected to be chairwoman of 
this important Subcommittee. The Subcommittee has many new 
members this year on both sides of the aisle. Mr. Diaz-Balart 
from Florida is here, and I guess the others will be coming 
along because we probably have several committee meetings that 
are scheduled simultaneously, as usual.
    We're going to follow the five-minute rule for questions, 
except for Ranking Member Serrano who can take as much time as 
he wants as long as he's not talking about the Yankees. We just 
have this running argument about the St. Louis Cardinals and 
the New York Yankees and----
    Mr. Serrano. I just want to know that the----
    Mrs. Emerson [continuing]. I guess we're going to get the 
Florida teams involved here too.
    Mr. Serrano. I just want to know if the Republican cuts 
will affect Pujols' contract. [Laughter.]
    Mrs. Emerson. I certainly hope not. I'm a little worried 
about the Pujol's contract, but I'm assured that it's all going 
to work out, Joe, so keep your fingers crossed. Although you 
all can afford him and I'm not sure that we can, but we're 
going to have to make do.
    For everybody else, we'll go on the five-minute rule 
although, quite frankly, I'm not going to cut off anybody in 
mid-sentence. We'll also recognize members in order of 
seniority based on who's present at the beginning of the 
hearing, going back and forth between the parties. For 
latecomers, you'll be recognized in the order that you arrive.
    Joe, you did a great job in the last Congress of being very 
understanding of all of the concerns that my side of the aisle 
had and obviously we will do the same of yours. We know that 
we're going to disagree on many issues, but I also believe it's 
very important for us to hear each other and really understand 
where everybody's coming from.
    We have a very difficult challenge in front of us. The 
federal government's debt is almost $14 trillion and we have to 
begin living within our means. The Appropriations Committee has 
been tasked with reducing spending to the fiscal year 2008 
level and this will require a 17 percent reduction in spending 
from fiscal year 2010 for this Subcommittee. It's not going to 
be easy. It's going to require incredibly tough choices, but 
I'm committed to holding as many hearings as we possibly can 
about the operations of agencies under our jurisdiction to find 
ways to make reductions to low priority, ineffective, and 
duplicative programs.
    The budget request for fiscal year 2012 will be submitted 
next week, but we wanted to get to work so we are beginning 
this hearing season by meeting some inspectors general. Quite 
frankly, we can learn an awful lot from you all, and I am very 
pleased that you're here today. Part of the reason is that, all 
inspectors general are a great check on our government agencies 
and the fact that you're able to find efficiencies within 
agencies is quite critical. We're looking to you all, 
especially this year, to really help us identify ways to reduce 
spending, and particularly spending which we would consider 
wasteful.
    Our Subcommittee has jurisdiction over a diverse group of 
agencies, many of which have a profound impact on Americans' 
lives and the financial stability of our economy. The SEC in 
particular has the unique task of protecting investors, 
maintaining fair, orderly, and efficient markets, and 
facilitating capital formation, while at the same time not 
over-regulating our markets and hindering economic recovery. 
Since 2001, Congress has provided the SEC with additional 
regulatory tools and has more than doubled the SEC's annual 
appropriation. That is a very short time period in which the 
SEC's budget has been doubled. It's difficult to understand how 
the SEC was not better positioned to deal with the economic 
turmoil of the last few years, and how the SEC allowed the 
Madoff and Stanford Ponzi schemes to continue for many years 
when they had complaints registered about these two entities 
over a decade before the individuals were charged.
    In addition, the SEC has been cited by GAO for inaccuracies 
in its financial reporting almost every year since it began 
producing audited financial statements in 2004. This is 
especially troubling as certainly the SEC would not tolerate a 
company with possible material inaccuracies in their financial 
statements for seven years. This past year, the SEC has also 
been cited by you, Mr. Kotz, for lacking clear leasing practice 
guidelines as well as waste and inefficiencies in their 
procurement and contracting costs. I really am encouraged that 
your office is looking into these issues and working with the 
SEC to correct the problems in a timely manner.
    Both the IGs and Congress should be watchdogs for taxpayer 
money. We should be actively looking for improvements and 
efficiencies in order to ensure that taxpayer money is being 
effectively utilized. I look forward to our Subcommittee 
members' contributions and I'd like to remind members again of 
the five-minute rule for questions. Now let me recognize my 
good friend from New York, Mr. Serrano, for any opening 
statements you'd like to make.

                    Mr. Serrano's Opening Statement

    Mr. Serrano. Thank you, Chairwoman Emerson, and 
congratulations. As I said to Chairman Wolf yesterday in the 
Commerce, Justice Subcommittee, to tell you that I'm glad to 
see your side in the majority would be a lie. But to tell you 
that if I had choices of who--which Republicans should head 
Subcommittees, I felt that way about Mr. Wolf and I certainly 
feel that way about you, that you're the best person to lead 
this Subcommittee when I'm not leading it.
    And the relationship we have--which, you know, the public, 
it's sad in a way, doesn't understand, doesn't understand that 
we as Members of Congress have relationships that go beyond the 
political stances we have to take. And what I always tell 
people back in my district when they tell me, ``Well, that 
person from that place,'' I say, ``You know, whether it's in 
front on an American Legion Hall, whether it's in front--during 
a parade for veterans, whether it's at the Puerto Rican parade 
in New York,--we all get here the same way, by begging somebody 
to vote for us and then getting insulted right after they vote 
for us.'' [Laughter.]
    Mr. Serrano. So we understand that. And I want to thank you 
for your support in the past for the kind of work that we've 
done. And I look forward to working with you again. Now, I read 
this morning that unfortunately you broke your arm and you 
can't do a lot of things for yourself, so I'm volunteering to, 
within House rules, to vote for you on the House floor.
    If you can't put the card in, I know how to vote ``no'' all 
the time now. I'm learning to do that----
    Mrs. Emerson. I thought you might be offering to wash my 
hair and save me some money every day.
    Mr. Serrano. My people will call your people. [Laughter.]
    It has been a pleasure to work with you on this 
Subcommittee for so long. Although our roles are now switched, 
I'm hopeful that we can continue to work in a bipartisan 
fashion on the many important issues under this Subcommittee's 
jurisdiction. I'd also like to take a moment to join with 
Chairwoman Emerson in welcoming new members from both sides of 
the aisle to this Subcommittee. There are a lot of important 
decisions to be made over the next couple of years and I 
believe that this Subcommittee has a significant role to play. 
I would like to join Chairwoman Emerson also in welcoming the 
Inspector General to the hearing in Financial Services today. 
You have an important role in conducting oversight of the 
Securities and Exchange Commission. I'm looking forward to 
hearing your testimony today and learning more about your work 
and ongoing investigations.
    With the passage of the Dodd-Frank Wall Street Reform and 
Consumer Protection Act, the SEC has a critical role to play in 
the successful implementation. The new powers given to the 
Commission are vital in preventing another financial meltdown. 
We must make sure that the SEC receives the robust funding that 
it needs in order to undertake these new responsibilities. I 
know that as Inspector General, you will be monitoring this 
important implementation. So again, thank you, Chairwoman 
Emerson, and welcome to you.
    And I must say, Madam Chair, that it's ironic in a way that 
we are facing the cuts we are because you remember how much you 
and I fought to make sure that whatever came out of Dodd-Frank 
would be in this Subcommittee. There was talk whether--what 
committee it would go to. So now we have this implementation in 
our Subcommittee and we have to make sure that it survives. And 
lastly, just in sort of saying goodbye officially to my 
chairmanship and welcoming yours, I hope that it survives, and 
I hope that as we work through these very important and serious 
cuts, that we keep three things in mind. One, that we created a 
lot of programs that help the consumer. And if you notice in 
the bills that you and I passed in the last four years, or 
tried to pass, all the bills speak in the prefacing comments 
about consumerism. Whether it's the product safety commission 
or whether it's investors--that the SEC has to protect 
consumers.
    Secondly, and very personal to me, we were very fair to the 
territories, to Puerto Rico, to Guam, Samoa, and all those 
American citizens who live in territories. And I hope that that 
continues.
    And lastly, for me again very personal, but for this 
committee and I know for you too, we did a lot of good things, 
a lot of good things in bringing dignity and giving the respect 
that the people that live in the District of Columbia deserve. 
I know that there are some folks who would like to bring back 
old issues, social issues that deal only with the District of 
Columbia. I hope that's not the case. I hope we realize that 
all American citizens should be treated equally, and while 
there are some constitutional requirements on our part in 
dealing with the District, that we don't have to make that 
hurtful or mean in our approach. And I know that's not who you 
are, and I know that your only pain in life, as you continue to 
think the Cardinals will win a World Series sometime soon--
which is not going to happen--but other than that, I welcome 
your chairmanship and I stand ready to support you.
    Mrs. Emerson. Thank you so much, Joe, and perhaps we should 
make a bet on the World Series after the hearing is over. Thank 
you for your very kind comments and very thoughtful comments. 
Let me take a moment to welcome Ms. Lee from California, Mr. 
Womack from Arkansas, and Mr. Alexander from Louisiana; and I 
already acknowledged Mr. Diaz-Balart from Florida. I thank you 
all so much for being here. And Mr. Bonner from Alabama, thank 
you. Inspector General Kotz I'd appreciate it if you keep your 
statement to five minutes so we can maximize the opportunities 
to ask questions. Thank you so much.

                   Inspector General Kotz' Testimony

    Mr. Kotz. Thank you for the opportunity to testify before 
this Subcommittee with respect to the Securities and Exchange 
Commission. In my testimony, I am representing the Office of 
the Inspector General, and the views that I express are those 
of my office and do not necessarily reflect the views of the 
Commission or any Commissioners. I'd like to begin my remarks 
by briefly discussing the role of my office and the oversight 
efforts we have undertaken during the past few years.
    The Office of Inspector General is an independent office 
within the SEC that conducts audits of programs and operations 
of the Commission, and investigations into allegations of 
misconduct by agency staff or contractors. The OIG does not 
make policy decisions for the SEC, or substantive 
determinations regarding the commission's program, functions, 
or budgetary process. Rather, the OIG's mission is to promote 
the integrity, efficiency, and effectiveness of the programs 
and operations of the SEC, and to report its findings and 
recommendations to the agency and to Congress.
    Since my appointment as Inspector General of the SEC in 
December 2007, our investigations unit has conducted numerous, 
comprehensive investigations into significant failures of the 
SEC in accomplishing its regulatory mission, as well as 
investigations into allegations of violations of statues, 
rules, and regulations, and other misconduct by commission 
employees and contractors. In August 2009, we issued a 457-page 
report of investigation analyzing the reasons why the SEC 
failed to uncover Bernard Madoff's $50 billion Ponzi scheme. 
This report was issued after a nine-month investigation in 
which we conducted 140 interviews and reviewed approximately 
3.7 million e-mails.
    In March 2010, we issued a thorough and comprehensive 
report of investigation regarding the history of the SEC's 
examinations and investigations of Robert Allen Stanford's 
alleged $8 billion Ponzi scheme.
    More recently, we issued reports on the circumstances 
surrounding the SEC's proposed settlements with Bank of 
America, and allegations of improper coordination between the 
SEC and other governmental entities concerning the SEC's 
enforcement action against Goldman Sachs.
    The office's audit unit has also issued numerous reports 
involving matters critical to SEC programs and operations in 
the investing public. These have included, just to name a few, 
an examination of the commission's oversight of Bear Stearns 
and the factors that led to its collapse, a review of the SEC 
bounty program for whistle-blowers, and an analysis of the 
SEC's oversight of credit-rating agencies and an audit of the 
SEC's real property and leasing procurement process.
    In addition, following the investigative report related to 
the Madoff Ponzi scheme, we performed three comprehensive 
reviews providing the SEC with 69 specific and concrete 
recommendations to improve the operations of both its 
enforcement and examination functions. Over the past three 
years, many of our efforts have been directed at identifying 
waste or misuse of government funds by the SEC. The two largest 
areas in which we have found significant waste and 
inefficiencies have been in procurement and contracting, and 
costs relating to real property leasing and office moves. In 
the procurement and contracting area, we've identified numerous 
deficiencies in the management and oversight of the SEC's 
contracts: A lack of written internal policies and procedures 
for administering contracts, a failure to maintain accurate 
records and data regarding contracts, and improprieties in the 
selection of vendors and the awarding of contracts. These 
failures led to the cancellation of contracts and the 
expenditure of funds to re-procure required services.
    In addition, numerous OIG investigations, audits, and 
reviews have revealed excessive costs and inefficiencies in the 
SEC's leasing of real property and the relocation of staff 
offices. We found situations in which the SEC made excessive 
payments that could have been avoided if appropriate policies 
and procedures had existed and been followed. We also found 
that SEC management approved a project to reconfigure internal 
office space at a significant monetary cost, without performing 
any cost-benefit analysis of the project prior to its 
undertaking. In the instances that I've described in which our 
office found wasteful expenditures and inefficiencies, we have 
provided SEC management with detailed descriptions of our 
findings, as well as concrete and specific recommendations to 
alleviate the problems and concerns we identified. We have also 
followed up to ensure that these recommendations have been 
agreed to and are fully implemented. We've also made 
recommendations designed to increase the SEC's oversight 
capability and its internal controls.
     In certain instances, it has been and will be necessary 
for the SEC to incur additional expenses to implement our 
recommendations. For example, after our investigative report 
found the SEC failed to respond appropriately to credible tips 
and complaints about Bernard Madoff's operations by conducting 
competent exams and investigations, we recommended numerous 
reforms to the SEC's Tips and Complaint system. The SEC has 
instituted a new Tip, Complaint, and Referral system in order 
to ensure that complaints received are acted upon in a timely 
and appropriate manner, at a total estimated cost of $21 
million.
    I believe that the SEC's mission of protecting investors, 
maintaining fair, orderly, and efficient markets, and 
facilitating capital information is more important than ever. 
At the same time, the SEC has a responsibility to utilize 
government funds in an efficient and effective manner. The 
Office of the Inspector General intends to remain vigilant to 
ensure that scarce government resources are utilized wisely and 
cost-effectively, and instances of waste and abuse are 
eliminated. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Emerson. Thank you Mr. Kotz. I'll start the questions, 
but let me just ask you--I've got four quick ones that I want 
to ask, and then I'll turn it over to Mr. Serrano--when you say 
that you're recommending an expenditure of $21 million to 
update the Tips and Complaints Department, what does that 
entail?
    Mr. Kotz. Well we didn't recommend that particular 
expenditure. What we said was The Tip, Complaint, and Referral 
system at the SEC doesn't work. You know, Harry Markopolos and 
others came forward with tips about Bernie Madoff, the tips 
were not reviewed appropriately, competent exams and 
investigations weren't done. And so the SEC put in a new 
system, a computerized system that involves ensuring that all 
different offices within the SEC are advised of the tips, that 
there's appropriate triage of the tips, that they're followed 
up appropriately. And so the SEC decided to put in a new 
system, in response to our recommendation, and they informed me 
that the system cost $21 million.
    Mrs. Emerson. So $21 million includes the computer system 
itself and the people to run the system?
    Mr. Kotz. I believe it's all-inclusive, yes. I believe the 
total cost of putting the system in and having the appropriate 
manpower--You know, one of the issues is, obviously the SEC 
gets a tremendous number of complaints.
    Mrs. Emerson. Right.
    Mr. Kotz. They have to weed through the complaints to make 
sure that they don't miss any that are significant. So they 
need significant manpower to be able to do that. So I believe, 
and this is what I've been advised, is that that's the total 
cost.
    Mrs. Emerson. So, you make the recommendation, they go 
ahead and follow through and put in place a better system, and 
then do you come back to see that in fact, yes, this new system 
they've put in place would in fact work, should another 
situation like Madoff or Stanford happens?
    Mr. Kotz. Right, yeah. Certainly. I mean, we initially make 
sure that they actually put in a system, that the system in 
finalized and up and running. But yes, I believe that our 
office needs to go back once all the improvements have been put 
in, particularly with respect to Madoff and Stanford, and test 
it to ensure that it works. I mean, we don't want systems put 
in that sound good on paper but don't actually make a 
difference. So we will go back and look into these systems and 
make sure that they will actually put the SEC in a better 
position to catch frauds that have occurred.
    Mrs. Emerson. So in fact, this system, is it complete?
    Mr. Kotz. I think it's nearly complete.
    Mrs. Emerson. Okay. I would appreciate it if you would come 
back to us and let us know what your review shows.
    Mr. Kotz. Sure. I mean, we have to give, obviously, a 
significant time for the system to be up and running in order 
to review it, but yeah. Absolutely. We definitely intend to 
look back on all these improvements, because again, you can put 
new policies in, you can put new systems in. We have to make 
sure that it makes a difference.
    Mrs. Emerson. Indeed. Especially for $21 million, which you 
know, in the whole scheme of things may not sound like a lot of 
money but in fact, you add $21 million up a few times and then 
you're talking about real money.
    Mr. Kotz. Twenty-one million dollars for me is a lot of 
money.
    Mrs. Emerson. Believe me, for me it's a lot of money, too. 
That speaks to the whole issue of really taking seriously our 
commitment to reduce spending. While the SEC's appropriation is 
offset by collections, we still need to look at all agencies in 
an effort to reduce funding for ineffective programs, no matter 
what their funding sources are. My concern is that we have 
doubled the SEC's budget over the last nine years, and yet at 
the same time we've had Madoff, we've had Stanford, we've had 
numerous other issues. There is skepticism among my colleagues 
that the SEC can effectively do its job, in spite of what you 
say that they followed through on some of your recommendations. 
Can you tell us, I'm going to ask these four questions in 
order----
    Mr. Kotz. Great.
    Mrs. Emerson. Number one: how would a reduction of the 
SEC's appropriation to fiscal year 2008 levels affect the SEC? 
Do you believe, based on all of the internal investigations 
that you've done, that taxpayer dollars are being used 
effectively or spent effectively? What can you do or what are 
you doing proactively to identify inefficiencies within the SEC 
budget itself? What recommendations might you offer for more 
efficient and effective use of taxpayer money for the SEC?
    Mr. Kotz. Okay, sure. In terms of reduction and 
appropriations to fiscal year 2008, obviously I can't speak for 
the entire SEC; I've not done a full analysis of how the budget 
would affect the SEC as a whole. Certainly, they tell me that 
if we went back to 2008 levels, it would require a significant 
reduction in force, possibly over 600 people. And I think I 
would have some concerns about the SEC losing 600 people in 
terms of being able to do the work they did. You know, in terms 
of efficiencies, one of the things we do is look for areas 
where there are inefficiencies. And so I certainly can't say 
that every penny spent is being spent in an efficient way. In 
fact, we've identified areas in which it's been inefficient, as 
I indicated. In the procurement area we've identified 
inefficiencies; we've identified inefficiencies in leasing 
area, and proactively, what we do is we look carefully at the 
areas where historically there have been problems. And so we'll 
go back, I mean we have offices and divisions who say ``Why are 
you auditing us again?'' and we say ``We're auditing you again 
because we had a lot of problems the last time we audited 
you.'' And so we are very aggressive and very vigilant in 
looking into the programs that have historically had problems. 
We do what we can to ensure that there are efficiencies.
    Look, the SEC's made a lot of mistakes, we've chronicled 
many of those mistakes, you know, in painstaking fashion, 
particularly with Madoff and Stanford and others. But I believe 
that the SEC is on the road to making improvements. I believe 
the SEC understands the importance of fixing the problems that 
they have, and I believe that they are working to do that. Our 
job is to ensure that it's reality, that it's not just a paper 
record. So I mean I don't know that I'm in a position, 
particularly, to make recommendations in terms of overall SEC. 
But you know our office is very aggressive and vigilant in 
looking at the SEC carefully. And anywhere we find any waste or 
inefficiencies, we point them out and we're very aggressive 
about ensuring that the SEC responds to our recommendations and 
does the appropriate thing. And I can tell you that Chairman 
Shapiro has been very good about assisting in that process. If 
I ever have a situation where I feel an office or division 
isn't being responsive enough, and we require a lot of 
responsiveness to our recommendations and we take them very 
seriously, her office is very helpful in ensuring that things 
are done the right way.
    Mrs. Emerson. I appreciate hearing that. One quick follow-
up. You've been told that if the SEC was to go back to 2008 
funding levels, that it would result in a loss of 600 people. 
The question is are the people who are currently working within 
the SEC doing the right jobs? Hypothetically, if you lose 600 
people, are there other people within the organization itself 
who perhaps should be doing something differently than they are 
today? Do you all look at that sort of thing?
    Mr. Kotz. From time to time in a particular office. We 
wouldn't do sort of a global view of that. You know, I don't 
know, I can't speak sort of for the SEC overall. Certainly, 
where we feel that people are not working hard, or they're 
engaging in inappropriate conduct, we'll recommend they be 
terminated. We have done that many times in my three years at 
the SEC, and many people have been terminated as a result of 
our investigations. So you know, certainly the ones we're aware 
of, we take action. Could I tell you that there is no one there 
who couldn't be in a different job? I couldn't.
    Mrs. Emerson. Some of the people who were involved in the 
Madoff scheme are still working there, is that not correct?
    Mr. Kotz. Many of the people who were involved in the 
Madoff scheme are gone. Some are still working there, but there 
is disciplinary action going on with respect to many of the 
folks who were involved in the Madoff matter.
    Mrs. Emerson. Okay, thanks. Mr. Serrano.
    Mr. Serrano. Thank you. Just a follow-up. I don't want to 
spend too much time on this, but you say that you're probably 
not equipped to, or prepared to tell us how cuts would hurt the 
agency--because that's the inner workings of the agencies. But 
you do know waste when you see it.
    Mr. Kotz. Right.
    Mr. Serrano. So, if you see waste, don't you also see when 
the budget gets too low to perform their duties? Doesn't that 
play----
    Mr. Kotz. Yeah, I mean, I would say so. I mean, as I said, 
I think that significant cuts or furloughs, 600 or more people, 
I think would have an impact. I don't think that there are 600 
people in the SEC who are not providing value, and so I would 
say that that would have an impact on the SEC's operations. As 
I said in my oral testimony, many of our recommendations 
require that people do additional things. So I'm in a position 
where I'm recommending that action be taken to redress 
something. You know, I don't want there to be a situation where 
they say, ``We'd like to redress it but we can't because we 
have budget cuts,'' or ``We can't because we don't have the 
people anymore to do it,'' or ``We don't have the funds to put 
in a system,'' so that is certainly a concern.
    Mr. Serrano. We would hope that the SEC has changed since 
the financial crisis started and the Ponzi schemes were 
discovered, and I believe they've changed, but for the record 
just say we hope they've changed. Question is, How has your 
office changed because of what's happened? How have you had to 
adjust? Have you had to look at things differently? Have you 
had to allocate your staff differently? When do you go after an 
investigation, you know, how do you determine which one to go 
after?
    Mr. Kotz. Yeah, well I think we've become even more 
vigilant and frankly more skeptical of things that happen. And 
so, you know, whenever there's a request, we look at it. We 
look at all of them. I mean, we certainly don't want to be 
caught in a situation where there's a complaint that comes in 
that we haven't reviewed carefully, so we review all the 
complaints. And you know, we have had more people added to our 
staff, we have a very small staff as it is. We have 18 full-
time employees at the moment. We did the Madoff investigation 
with four investigators. And so there have been need--we've 
gotten a lot more complaints in since the Madoff and Stanford 
scandals, and so we've had to address them. But frankly, I'm 
certainly very skeptical and suspicious, and if I see a 
complaint that comes in that alleges that something was missed, 
then we look at it very carefully to see if it was missed. 
Because there was a track record where important matters were 
missed, and so we have to look at them. I feel that I have to 
stay on my toes; I have to be very vigilant. We investigate 
everything thoroughly, and sometimes it turns out that the SEC 
did nothing wrong, but we have to take everything very 
seriously.
    Mr. Serrano. Are you at liberty to tell us without, 
obviously, getting specific or giving us information we don't 
need to know in public, where the complaints come from? I mean, 
who gives you these tips to follow in addition to whatever you 
uncover yourself?
    Mr. Kotz. We have some tips from inside, inside the SEC, 
employees coming forward in making claims, but the majority of 
the tips come from the outside, from investors, from folks who 
are either under investigation by the SEC or somehow affected 
by what the SEC does, and so I think that's the lion's share of 
them, is folks from the outside, investors who come in and say, 
``This was done wrong.''
    Mr. Serrano. Thank you. Getting back to the Dodd-Frank 
legislation which created more responsibilities and oversight 
responsibilities for the SEC, again, talking about staffing, do 
you feel, or do you have information that can tell us, whether 
in fact the SEC is equipped, staff-wise, now to handle these 
new responsibilities?
    Mr. Kotz. Again----
    Mr. Serrano. And by the way, I understand that friendly or 
unfriendly agency; all agencies always want more staff.
    Mr. Kotz. Right.
    Mr. Serrano. I only remember once, and it was an issue that 
I kept bringing up, and it was the SEC. In the prior 
administration, they were the only agency that came before us, 
and said that ``We don't need any more money.'' That should 
have been a sign that something was wrong, because every agency 
wants more staff----
    Mr. Kotz. Right.
    Mr. Serrano. They didn't want anymore, and obviously it was 
a problem, because they needed more. So do you think they're 
equipped to handle what they have to handle, assuming it goes 
forward, because, you know, there are some folks who would like 
no oversight of Wall Street.
    Mr. Kotz. Right, I mean I know that there are a lot of 
responsibilities associated with Dodd-Frank. Our office even 
has one relatively small responsibility, but we have a 
responsibility involving an OIG employee suggestion program. 
And I do think that at the moment what the SEC is doing is 
they're using other folks who were working on other matters to 
handle Dodd-Frank matters, because I don't think that they've 
been able to do any significant hiring for Dodd-Frank, so, you 
know, while I haven't done an analysis, per se, of the effect 
of Dodd-Frank on the SEC, I would certainly venture to say that 
it would be difficult to implement many of those 
responsibilities if there were cuts, and if they didn't have 
sufficient funds to do it.
    Mr. Serrano. One last question. The President's budget 
proposal for the SEC. Did you feel that, for what you may know 
about the President's budget proposal, that there are areas 
that are vulnerable at the SEC under that budget?
    Mr. Kotz. Yeah, I mean that, I have not really analyzed, 
you know, the particular budget proposals; I'm not really 
involved in that process, you know, so I don't know that I 
could really give an educated opinion on what the impact would 
be. But I do know that there are new responsibilities, I do 
know that there are many times where our office will recommend 
things that require additional funds. I can tell you that, you 
know, we will certainly be very watchful to ensure that if 
additional money comes to the SEC, that it's used wisely and 
efficiently. But I'm not sure I could give an educated opinion 
on, you know, one particular budget versus another.
    Mr. Serrano. Thank you.
    Mrs. Emerson. Thanks, Mr. Serrano. Mr. Womack.
    Mr. Womack. Thank you, Mr. Inspector General, thank you, 
Madam Chairman. I appreciate the testimony today. I've only got 
a couple of questions. Having spent 30 years in uniform, having 
been the subject of a number of Inspector General visits in my 
various military units, I recognize very quickly that troops, 
as it were, in this case the SEC, typically work on the things 
that they know the Inspector General is going to check, and so 
I have a couple of questions, reference your oral testimony 
about particularly the TCR, and the fact that, if I heard you 
correctly, the recommendation or the investment was about $21 
million.
    And I want to know--I want to be confident that we haven't 
created a $21 million paper tiger. Because on one hand, in your 
testimony you talk about the tips, and what later turned out to 
be credible evidence of problems, Madoff, Stanford, et cetera, 
were not followed up on, not taken seriously, something 
happened, there was a disconnect somewhere, and you are 
confident that the implementation of the TCR is going to fix 
those problems. What systems do you have in place from your 
office to check, to ensure, that those are happening, i.e., 
have we performed any test cases, have we engaged the system 
that is in place to ensure that there is a tracking program 
established to ensure that information that comes into the 
system is triaged and accurately determined to be credible or 
not credible?
    Mr. Kotz. Well I'm certainly hopeful that the system works, 
I don't know that I'm entirely confident, as you are, that the 
new system will work, and I couldn't----
    Mr. Womack. I didn't say I was confident. I want to be 
confident.
    Mr. Kotz [continuing]. As you were saying, I'm not sure I'm 
that confident either. I agree, certainly, with what you're 
saying, sometimes it's easy to put in a computer system, to 
make IT changes as a way to solve all problems. And you know, 
I've seen many times, both as Inspector General of the SEC and 
another job as Inspector General, that sometimes the easiest 
solution is to say, ``Oh, we'll just put a new computerized 
system in, that'll solve all the problems.'' And it sometimes 
is a paper tiger, and it doesn't necessarily work. So, as I 
indicated, once the system is put in fully, begins to work, 
there is sufficient time to be able to audit it, we will go 
back in and test it, because we need to ensure that there has 
been real change, not just a system put into place in which the 
individuals involved will do the same thing that they did 
before, which was not follow up appropriately. So I agree, and 
we will absolutely look carefully at this system, it's a 
significant expense, to ensure that it provides real change and 
isn't just a paper tiger.
    Mr. Womack. Do you have a certain timeframe, a certain date 
circled on the calendar, when you, as the Inspector General, 
have to be confident and certain that the systems that you have 
recommended are fully implemented, are working, because I think 
you said in your oral testimony that you think that the systems 
are pretty well operational.
    Mr. Kotz. Six months after it's fully implemented is the 
time period that we usually look at in order to conduct some 
kind of test or audit. You have to give it enough time to 
ensure that there's something to look at. But at the same time, 
you don't want to give it too much time, because if it's not 
working you want to get to it. So as a rule of thumb, we look 
at six months from the time it's fully implemented.
    Mr. Womack. Thank you very much.
    Mrs. Emerson. Let me ask a follow-up to his question, I 
probably shouldn't do this because it's Ms. Lee's turn, but: if 
we put a new computer system in place that's going to cost $21 
million, and we're hopeful that it's going to work, how would 
that, then, have caught the fact that the Fort Worth SEC 
employee shoved all the Stanford stuff aside for so many years? 
How does the computer system supersede any person like that?
    Mr. Kotz. Right. What happened in the Fort Worth situation 
was there were examiners in the Fort Worth office who believed 
that Allen Stanford was running a Ponzi scheme. They were 
trying to get the enforcement part of the Fort Worth office to 
take action, and the Enforcement Division would not take action 
over a series of years, and the examiners watched the alleged 
Ponzi scheme grow and grow over time, and couldn't get action. 
One of the new improvements in the system is to allow the 
examiners to have access to other folks, so the information the 
examiners put into the system then goes not just to the folks 
in the Enforcement Division in Fort Worth who were unwilling to 
go forward at that time, but to folks in Washington, folks 
other places where if somebody else looked at it, I think it's 
reasonable to believe that if others, other than the folks who 
were in place in Enforcement in Fort Worth, had read those exam 
reports, and had been aware of the significant findings, that 
they would have forced action to be taken.
    Mrs. Emerson. Okay, I appreciate that clarification. Ms. 
Lee?
    Ms. Lee. Thank you very much, thank you for your testimony 
and your service during these very challenging times. We 
congratulate Chairwoman Emerson again, and I want to associate 
myself with the remarks of our Ranking Member and, I mean our 
minority member, I said a Ranking Minority Member, and I want 
to just, say to you we look forward to our continuing work 
together. This has been a Subcommittee that has been very 
bipartisan in our work, and of course our goal is to make sure 
that the mission of the SEC and the other agencies are really 
serving the people of this country, so, congratulations again. 
And also, to you Mr. Kotz, let me just thank you for the 
thorough investigations that you have conducted, and say that I 
think that has restored some confidence in the SEC's 
enforcement mechanisms. And I want to make sure, though, that 
the budgets that we look at allow you to continue with our 
efforts, and would be very reluctant to support any budget 
cuts; of course I know we're going to have to deal with that. 
But I think the SEC really is on the right track now. And so, 
thank you very much.
    I know out of the Dodd-Frank Bill. The Congressional Black 
Caucus members on the Financial Services Committee made sure 
that each of our agencies had the Office of Minority Inclusion 
as part of their new mission. Could you kind of tell me, or do 
you know where that is, in terms of the SEC now?
    Also, in addition to that, I always want to know what the 
diversity numbers look like in all of these agencies as it 
relates to professional staff, as well as the types of--if you 
contract out any of your services, the contracts' amount, and 
to whom. I mean, do you contract with small and disadvantaged 
businesses, if so, how much? And what are you doing to ensure 
that the recruitment and training of the SEC goes into 
historically black colleges and universities to ensure a 
diverse staff?
    Mr. Kotz. Okay. We have not done an overview, per se, of 
the new office with respect to Dodd-Frank. I am aware of the 
office, I couldn't tell you right now what the status is 
because that isn't something that we've looked at. A lot of 
these new offices under Dodd-Frank are in the process of being 
implemented so it would be premature for us to look at. You 
know, certainly I can speak with respect to my office.
    My office takes diversity matters very, very seriously. We 
have a very high percentage of employees in our office from 
minorities, and women as well. When we do contract out, our 
office we generally contract out with smaller entities, we 
have, you know, generally smaller projects as well. So it isn't 
an analysis that I have done overall in the SEC, and I think 
that others, the Chairman and others, could speak to that. I am 
aware that this new office was placed in under Dodd-Frank, I am 
aware that there is an effort to staff it up, but I couldn't 
tell you the exact stats.
    Ms. Lee. Okay, well I guess, would your office, then, if 
it's possible to get sort of a report or breakdown of your 
staffing patterns and the contracting patterns, you know, the 
type of businesses by ethnicity, gender, you know the standard 
reporting.
    Mr. Kotz. Sure.
    Ms. Lee. I'd like to see that.
    Mr. Kotz. Sure, absolutely I can get that to you.
    Ms. Lee. Okay. And also let me just ask you in the 
implementation, who will be responsible for making sure, I 
mean, will yourself as IG be responsible for making sure that 
the implementation of the Office of Minority Inclusion is what 
it should be, and that it adheres to the law and the 
requirements, and who would oversee that?
    Mr. Kotz  That's absolutely under our purview, you know, 
where the SEC has a requirement, we compare what they're doing 
to what the law requires, and if we find that there is not 
sufficient regard to the regulations and the separate 
requirements, then that would be an audit function. And so, you 
know, that is an office that certainly, again, once it's put in 
place and the SEC comes forward and says ``We've done what we 
were supposed to do,'' that would be the subject of an audit 
for us to ensure that it's actually happening appropriately. 
And if it doesn't, we would report back to you that it's not.
    Ms. Lee. Would we have to ask you to report back? I mean, 
should I ask you this question next year, or, how should we----
    Mr. Kotz. No, no, no. No, no. No, no. No, I mean, you know, 
again, the only proviso being we have to make sure that the SEC 
has an opportunity to staff it appropriately----
    Ms. Lee. Right, I understand that.
    Mr. Kotz. But no, you wouldn't have to ask, it would be in 
our semi-annual report that we would send to Congress.
    Ms. Lee. Okay, Okay. Thank you very much, thank you Madame 
Chairwoman.
    Mrs. Emerson. Thank you so much, Ms. Lee. Mr. Diaz-Balart?
    Mr. Diaz-Balart. Thank you very much, Madame Chairwoman. A 
couple questions, and fully, frankly, kind of piggybacking on 
what you mentioned, you asked. Jo Ann mentioned that the SEC's 
budget had doubled since, I guess since the Enron incident. And 
yet, we still had these Ponzi schemes that were, again, that 
had been tipped on, but no action had taken place. In the case, 
for example, of the Stanford Ponzi scheme, between 1997 and 
2005, supposedly it grew from 250 million to 1.5 billion, and 
the lack of action on behalf of the investors by the SEC, as 
noted in your report, frankly cost a number of my constituents 
their entire life savings, because, again, I do have 
constituents that were affected by that.
    So, since your report, a number of changes have taken 
place, and you mentioned some of them. Enforcement practices, 
policies, whatever. But my question is, how much confidence can 
we actually have that it's been taken care of, and that 
something like this would be caught in the future, that another 
Stanford Ponzi scheme would be found, and what other things 
does the SEC need to do? I'm going to just ask you two real 
quick questions, that is one.
    Mr. Kotz. Right.
    Mr. Diaz-Balart. Level of confidence that you have, or that 
we should have, on that. And the other one, again piggybacking 
on the chairwoman's question about the tips and complaints, the 
21 million dollars. When they go out and get this new system, 
do they first consult with the private sector as to what 
systems are already available for--I understand it's a unique 
kind of area, but there may be others that do things that are 
similar in the private sector that already have systems, do 
they have to recreate the system or were they able to look at 
something that already existed and kind of adopt it? That would 
be my other question, and thank you Madame Chairwoman.
    Mr. Kotz. Okay. Sure, as to the level of confidence, you 
know, you cannot guarantee that the next one won't be missed. I 
mean, I can tell you, I have a level of confidence with respect 
to the specific issues that were both in the Madoff and the 
Stanford situations. In other words, the mistakes, the failures 
that were made by the SEC and those particular issues that we 
have put forward recommendations to fix those; And with the 
recommendations being implemented, I believe those same 
circumstances would not occur. Now of course, you have to 
ensure that there isn't some other situation, because obviously 
you can't just deal with the particular situations. So I mean, 
we have to stay vigilant, we have to stay skeptical. I believe, 
personally, that the SEC is in a much better position than it 
was when I first started as Inspector General, when these 
scandals took place. But we need to ensure that we continue to 
review and look at them carefully to make sure that there isn't 
something else happening that we would potentially miss.
    You know, with respect to this particular system, I wasn't 
involved, per se, in putting together that system. I will tell 
you that one of the recommendations we made arising out of 
Madoff, was more discussion with the private sector. In the 
Madoff case, folks in the private sector, there was sort of a 
whispering campaign, people knew there was something funny with 
Madoff's returns. I think a lot of people didn't think it was a 
Ponzi scheme, I think a lot of people thought it was some sort 
of insider trading or whatever.
    But people thought there was something suspicious about it, 
and yet that information was not really brought to the 
attention of the folks in the government, and I don't think the 
government folks had the same suspicions. So, there's a wealth 
of information out there in the private sector, and that 
information needs to be provided to folks in the government, 
because they have a better, sometimes a better finger on the 
pulse of what's going on.
    One of the things we recommended rising out of Madoff was 
for there to be more communication, more information brought, 
more incentives for folks in the private sector to bring 
forward that case. When we talked to folks who had suspicions 
about Madoff, we said, ``How come you didn't bring it to the 
SEC's attention?'' And they said, you know, ``What good would 
it do us? What does it do for me? Why should I? Now I might get 
sued.'' You know, ``My name will be involved in something, I 
may get sued. So there's no benefit for me, there's only a 
negative; why would I do that?''
    And so I think that the SEC needs to create incentives to 
get that information in, to learn about it. These folks agreed 
that they would give seminars to SEC folks about how, you know, 
how operations particularly work. And so I think that that's 
something that's an excellent idea, and I encourage the SEC to 
do that.
    Mrs. Emerson. Mr. Serrano. Your turn.
    Mr. Serrano. That quickly?
    Mrs. Emerson. Well, unless you want me to go to Mr. Bonner 
first.
    Mr. Serrano. You can, Mr. Bonner.
    Who under my chairmanship got the best attendance award, do 
you remember that?
    Mrs. Emerson. He did?
    Mr. Bonner. I hope to live up to that standard, now that I 
am back on the Subcommittee. Thank you, Madame Chair. Mr. Kotz, 
you have had an impressive career.
    Mr. Kotz. Thank you.
    Mr. Bonner. Working with the Peace Corps----
    Mr. Kotz. Right.
    Mr. Bonner [continuing]. USAID, and now the SEC, so you 
probably have a better vantage point than some people do 
because you've had the chance to see three different government 
agencies, with different roles and responsibilities. But 
especially as the Inspector General, you've had a chance, in 
this instance, to see up close perhaps some things that worked 
well in other agencies that you were in that may--that those 
ideas could be brought over to the SEC.
    I have a few questions that I'd like to get your comments 
on. And never to try to correct the Chairwoman, but by my math, 
the budget of the SEC has actually tripled, almost, over the 
last decade. It was $377 million in 2000, and by the 
President's budget request last year, that was 2010, was 1.1 
billion, so----
    Mrs. Emerson. You are correct. I believe I said their 
budget has more than doubled.
    Mr. Bonner. But, regardless, it's a sizable increase.
    Mr. Kotz. Right.
    Mr. Bonner. And so, while I've acknowledged you've had a 
lot of very important roles in government. Put yourself in our 
shoes and help me, as a guy from Mobile, Alabama, go back home 
when I do a town hall meeting, and explain to my constituents, 
some of whom, like Congressman Diaz-Balart, have lost in the 
Stanford scheme especially, this is an agency that has had its 
budget doubled or tripled over the last decade, depending on 
when you start the calendar. And yet, we have been--it's the 
agency that was asleep at the wheel for some of the biggest 
failures that had direct responsibility. How could I explain to 
my constituents, we need to give them more money, which is what 
the Commissioner is actually asking for, every Commissioner is, 
as Mr. Serrano said, would like more--we need to give them more 
money, and yet they've had a triple increase over the last 
decade, and they were asleep at the wheel during three of the 
biggest, with, if you count Bear Stearns and Lehman, four of 
the biggest issues that we've dealt with since the Commission 
was created. How would I explain that to my constituents?
    Mr. Kotz. I understand, certainly, I'm a taxpayer, too.
    Mr. Bonner. I know you are.
    Mr. Kotz. And, you know, the amount of money we're talking 
about is over a billion dollars, incredible amounts of money. 
The only thing I would say is that the SEC has to take action 
against, sometimes, very powerful, very rich, very well-funded 
interests. You know, Bernard Madoff had a tremendous amount of 
sums available to him to fight the SEC. So I'm not sure I could 
give you a specific thing to explain to a taxpayer, even like 
myself, why more money would be given to an agency that missed 
so many things. At the same time, I think it's worth noting 
that in order to keep up with the fraudsters, in order to 
ensure that there is compliance, the amount of money that those 
folks spend dwarfs anything the SEC could get, whether under 
the previous budget or under these budgets. You know it's a 
very difficult mission, I think, the SEC has, in order to stay 
ahead of what's going on in certain places in the private 
sector, and they need sort of the tools to be able to deal with 
the Madoffs and the Stanfords. And I don't think it's only a 
matter of money. And let me say this, the idea that they would 
solve the problem of Madoff by putting in a $21 million system, 
that's not going solve it; it's not just about more money to 
solve all problems. I think there needs to be, and you know, 
we're ensuring that there are significant changes in how about 
they go about doing their work, not just sort of, write a 
check, and now you have a new system and everything's fine. But 
I think it is important to realize what they're up against, and 
they are up against some very heavily-funded entities.
    Mr. Bonner. Let's go back to a comment you made earlier in 
response to a previous question, because I want to understand 
this. At the Fort Worth office, there were employees of the 
Securities and Exchange Commission who were suspicious, but 
they were not able to get anyone else in that office to be 
interested in it, and they didn't have any other avenue; there 
was a firewall where they couldn't call someone in another 
office, perhaps in Washington or New York, and say, ``Hey, 
we've got a problem here, no one is answering the phone, the 
building's on fire, but we can't get anyone to respond to us.''
    Mr. Kotz. Yeah, I mean, they didn't utilize it. They 
certainly could have, and we asked them how come they didn't. 
You know, sometimes you don't want to go over people's heads, 
sometimes there's an effect if you do that. I mean, certainly 
there was a director of enforcement in Washington that could've 
been gone to. I think the new system tries to make it easier 
for that to happen so it isn't dependent on a particular 
individual. I mean, maybe that is a failure even of the 
individuals who were suspicious, and found evidence of the 
Ponzi scheme, that they should have pushed it even further and 
gone above their heads to the head of the Enforcement Division, 
and then to the Chairman, and then to Congress, if they needed 
to, to ensure that something was being done.
    Mr. Bonner. The new tips and complaints system is $21 
million. The New York Times article on February 2, it actually 
cites that, in one of your reports, that you identify that 
there was more than $15 million in office space leased in 
Manhattan. I don't think that's in my friends' district. I 
think the gentleman is from the Bronx, is that correct?
    I wanted to make sure I drew that distinction. But $15 
million for space in Manhattan, where no SEC employees worked 
for five years?
    Mr. Kotz. Yeah, yeah that's outrageous.
    Mr. Bonner. What are some other examples that you might 
share with us? Because, again, we're in a pickle. We're trying 
to dig out of a fourteen and a half trillion dollar hole that 
we're in.
    Mr. Kotz. Right.
    Mr. Bonner. And the last thing any member of this 
committee, Democrat, Republican, left coast, west coast, south 
coast, wants to do is to cripple an agency that has a very 
vital role, but, boy, that's a lot of money that someone lit a 
match to.
    Mr. Kotz. Right. No, there are other examples, particularly 
in the office and leasing area. We looked at a case involving 
the San Francisco lease where the SEC sort of delayed in making 
a decision on what action to take, ended up paying a holdover 
rate that was significantly higher than market rate. There was 
a situation not too long ago where the agency decided to 
conduct a re-stacking, move 1,700 employees to different places 
in the office so they would be more efficient and more 
productive. We did a survey, that folks in the SEC said mostly 
they communicate by e-mail and phone anyway, so they don't 
necessarily think that moving them to a different spot is going 
to make any difference. They believed it was a waste of money. 
We found there was no cost-benefit analysis done to ensure that 
it was appropriate before it was done. You know, we were very 
harsh in our report on that. There have been some areas in 
procurement and contracting where contracts have been 
mismanaged, where the invoices haven't been carefully 
scrutinized to ensure that the government's not getting ripped 
off. Sometimes you have situations where you have an initial 
contract come in at a relatively low rate, and so that entity 
gets the bid, but then there are so many modifications that go 
forward that it ends up being much higher than originally. So, 
you know, look, we have found instances where there is waste, 
and where there is, we have been very strong in recommending 
that action be taken.
    Mr. Bonner. Just one final question. How many people do you 
have in the IG's office, and how many people are there at the 
SEC, although I should know that, I apologize I don't.
    Mr. Kotz. Yes. There's I guess a little under 4,000 FTEs at 
the SEC. We have 18 full-time employees right now in our 
office, there's another few that we are hiring--in the process 
of hiring. So we have a relatively small office. And frankly, 
many folks have said, ``Why don't you have more people?'' But I 
feel like, if our office isn't efficient, then, you know, 
there's no office that should be efficient. The office of the 
Inspector General has to be efficient, and if we can do what we 
need to do with 18 people, then we don't need 40 people.
    Mr. Bonner. That's a good philosophy. Thank you, Madam 
Chair.
    Mrs. Emerson. You're welcome. Mr. Serrano.
    Mr. Serrano. Thank you. In your testimony, you stated 
additional funding will be requested to ensure that the SEC has 
sufficient resources to implement many of the recommendations 
that have arisen, and will arise out of the audits, reviews, 
and investigations. With that stated, are we playing with fire 
to even contemplate cuts to the SEC? We don't want to be 
sitting here a few years from now talking about the next Madoff 
scheme, knowing that we didn't give the agency the tools to 
prevent another such scandal.
    Mr. Kotz. Yeah, I do think that is a concern. And there are 
times, you know, our reports come in, we do investigations, we 
do audits, we make recommendations. And there are times where, 
in a budget situation the agency will come back and say, ``We'd 
like to do it but we simply can't.'' You know, in that 
situation there's not much we can do. I mean, the agency gets 
to decide where they want to allocate their resources. And so 
there are times where that is the response. Sometimes we come 
back and say, ``We want you to do it anyway, find the money for 
it.''
    But it is a concern, because in order to fix things, 
sometimes they require change in policies, change in people, 
but sometimes they also require additional resources if 
something is not staffed up enough. For example, in the Madoff 
situation, in one of the complaints that they were working on, 
they were analyzing the complaint, and they decided to take 
those resources and put it somewhere else because there was 
another issue that was even more pressing. And so the 
individuals who were working on the Madoff exam stopped, 
started working on something else.
    And so, you know, if we come back with a recommendation and 
say, ``You need to ensure you have sufficient people working on 
this,'' and they say, ``we don't have the money to do it,'' it 
sometimes can be a concern.
    Mr. Serrano. Right. By the way, Madame Chair, just as an 
aside to Mr. Bonner, nobody being in that place is an issue, in 
Manhattan. Fifteen million dollars of rent, that's cheap in 
Manhattan.
    The issue is why nobody's there, not how much. That's, in 
Manhattan, you all know that's very cheap. How much can you 
tell us about the Constitution Center, the 900,000 square feet 
that were leased--and then the CR comes along and 
implementation. Now first of all, your understanding is that 
this space was to meet the new responsibilities of the SEC in 
general or specifically with Dodd-Frank?
    Mr. Kotz. I think it was both. We are conducting, 
currently, an ongoing investigation of all those issues----
    Mr. Serrano. Right, and I know you can't comment fully, 
but, whatever you can tell us----
    Mr. Kotz. I mean, and we're going back actually prior to 
the decision to go forward with the Constitution Center lease. 
We're going back to prior decisions that were made or not about 
space. We're looking at the entirety of the SEC's space 
decisions over time. What we believe happened in that case was 
the SEC believed that it was going to get certain funding; it 
needed people to house, and so went forward and made the 
decision to lease that space, which was 900,000 square feet 
and, you know, a very large amount of space.
    What we're looking at is, you know, was there a sufficient 
analysis done? Were there studies? You know, when you expend 
government funds, you have to ensure that it's done 
appropriately. There are processes that have to be put into 
place. There are studies that are be done--has to be a 
reasoned, you know, and thorough decision. Sometimes decisions 
are made, sometimes they're the right decisions, sometimes 
they're the wrong decisions. We look to make sure that it was 
reasoned decision, and so we're going back--I took testimony on 
that earlier in the week. We're working very hard to ask the 
SEC, ``What was your thinking? Why did you make that decision? 
What analysis did you do to support that decision? Could you 
have gotten a better deal somewhere else?''
    And so we're looking at it very carefully, and we hope to 
have a full report of it within a short timeframe.
    Mr. Serrano. Thank you. We await that. Let me ask you on 
one of my favorite subjects again. What kind of involvement 
does the SEC have, direct physical involvement, with the 
territories? I mean, are there field offices, if you will, in 
the territories? What is the exchange? And also, you know, one 
of America's best kept secrets is in addition to territories, 
we also have associated republics, like Palau and Micronesia, 
and so on. Is there any involvement with that? And I'm not 
including Hawaii; I know there's some comment about--Hawaii is 
a State.
    Mr. Kotz. You know, I can't say we have looked at that 
particular issue. Maybe that is something that----
    Mr. Serrano. That was a personal Democrat-Republican joke, 
you know, that Hawaii's a State.
    Mr. Kotz. As I said, we haven't looked at that particular 
issue; maybe that is something we need to look at, you know, so 
I don't know that I could tell you exactly, you know, I'm 
certain that there is some coverage. I don't believe that 
there's necessarily a field office----
    Mr. Serrano. Right.
    Mr. Kotz. But, you know, that is something that maybe we 
need to look at too----
    Mr. Serrano. Because I know that people in the territories, 
just like all Americans, get up in the morning. And there are 
some folks in those places, just like some folks in the States, 
that invest in the market and I'm sure there are some folks who 
are maybe trying to figure out ways to be cute in the market 
right now.
    Mr. Kotz. And, absolutely.
    Mr. Serrano. And so, how do we keep tabs on that, and how 
do we protect the investors in those areas? Or do they all deal 
through New York, or Miami, or----
    Mr. Kotz. Yeah, I mean, I think that's something that we 
should be looking at to ensure that there are appropriate 
procedures in place so that you can get feedback, and you get 
information from folks out there.
    Mr. Serrano. All right.
    Mr. Kotz. I appreciate that.
    Mr. Serrano. I would appreciate that too. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Emerson. Thanks, Mr. Serrano. Let me ask you another 
couple questions about this Constitution issue because it's 
just shocking to me. I realize that since you're still 
investigating it, there are some things that you can't say, but 
it's my understanding that the SEC has been able to release 
600,000 square feet of that space, and are keeping 300,000 
square feet as a hedge against another lease that's coming due 
in October. 300,000 square feet of space is a lot, and it's not 
cheap, I know. Just by having it sit there until October, to 
me, doesn't sound very efficient.
    Mr. Kotz. Right.
    Mrs. Emerson. Have you all actually made concrete 
recommendations to the folks at SEC on their leasing practices? 
Or are you waiting to do that until the investigation is 
complete?
    Mr. Kotz. We looked at leasing issues, sort of on an audit 
side before, made some recommendations with respect to that. We 
will wait until we finish our investigation to make 
recommendations with respect to the 300,000. I'm not sure that 
at the end of our report, we will recommend that they hold on 
to any part of Constitution Center.
    And I'm also not sure that there are finalized decisions on 
that, yet. I know that the SEC has been making efforts to try 
to get rid of some of that space. I don't know that, 
necessarily, they have made a final decision----
    Mrs. Emerson. I see.
    Mr. Kotz [continuing]. To hold onto 300,000. It may very 
well be that we recommend that they don't hold onto any of it, 
and it may very well be that do that on their own anyway. There 
is a facility out in Virginia; there was some talk about moving 
the folks from Virginia out to Constitution Center, but I think 
we have to look at the costs of that, whether that's effective 
and efficient or not.
    You know, there are sort of things on both sides. 
Washington, D.C. is more expensive than Virginia, but if you 
have folks in Virginia, you have this shuttle service that goes 
[inaudible] so the question is, how much lost time is there on 
the shuttle? How much does the shuttle cost? I mean, all those 
things need to be looked at carefully. We need to ensure that 
the SEC is making, you know, good, thorough decisions on all 
these matters, and I think certainly, given that we're in the 
middle of this investigation; the SEC is looking carefully at 
all its different options before going forward with anything 
with respect to those leases.
    Mrs. Emerson. I know, having worked in the private sector 
for many years here in Washington, D.C., and knowing how much a 
square foot of office space is, this is alarming to me.
    Mr. Kotz. It is an incredible amount.
    Mrs. Emerson. And that was 14 years ago.
    Mr. Kotz. Yeah, well we're asking the question, ``How on 
earth could you have thought that you would need 900,000 square 
feet of space? I mean, you know, in the budget climate we're 
in, how is it possible for you to think that?'' And so, you 
know, we're going to get the answers. You know, we haven't made 
any determinations; we're still in the middle of the 
investigation, maybe there are good answers. But you know, 
we're going to go forward, and we'll report back what we found.
    Mrs. Emerson. I appreciate that. Speaking of leases, 
though, do you have any other concerns outside of Constitution 
Place or Constitution Center at this time?
    Mr. Kotz. You know, but we've looked at a couple of areas, 
we've found some concerns, we found that there weren't policies 
in place that are appropriate. We have to make sure that the 
people involved have the expertise that's necessary. Right now, 
we're looking at Constitutional Center. Again, we're looking at 
numerous spacing decisions in Washington, D.C. We know that 
there is new space that they're looking at in other cities; we 
may be looking at them eventually.
    You know, we feel this is an area that is of concern, and 
so we have to look at all aspects of it. If there's, you know--
if it's the same people making the decisions, then wherever 
they're making the decisions, we have to look carefully at 
those decisions.
    Mrs. Emerson. Okay, so there are 11 regional SEC offices. I 
understand the need to have one in New York, perhaps even 
Boston, and maybe one on the West Coast. Is it efficient to 
have all of the SEC offices spread out around the country? It 
may well be, and perhaps you can make me feel more comfortable 
about that.
    Mr. Kotz. Yeah, I mean, I don't know that we've analyzed 
that point, but that again may be one that we need to look at. 
There is certainly, as time goes on, you know, the ability to 
communicate without being in the same place, you know, one of 
the--we have the suggestion program that is going on, and one 
of the suggestions was to have fewer people, for example, in 
New York City. Let them be out in Long Island or New Jersey 
where it's cheaper. Do you really need everybody to be in 
Manhattan? You know, one--two buildings, certainly not, maybe 
not even one building. And so maybe there are ways. Again, I 
don't know that we've done enough work.
    You know, we look very carefully when we conduct our 
audits; we're very thorough before we come up with the 
recommendation. But I do think it is worth looking at in 
today's age, whether there can be inefficiencies that way.
    Mrs. Emerson. It just seems, to me, that we do so much with 
tele-health and everything else today. Some of these spots just 
doesn't seem particularly necessary, but then maybe you can 
convince me otherwise, if in fact, those people are needed and 
the office space is cheaper than it is in DC.
    Mr. Kotz. Right.
    Mrs. Emerson. I would be curious to know if that's 
something that could be looked at.
    Mr. Bonner. Madam Chair.
    Mrs. Emerson. Yes, sir.
    Mr. Bonner. While we're talking about it, I am confident 
that there's rental space available in Mobile, Alabama for much 
cheaper than Manhattan----
    [Laughter.]
    Mrs. Emerson. I've got a great big factory in Dexter, 
Missouri that'd be happy to take them----
    Mr. Bonner. Just wanted to put that on the record.
    Mr. Serrano. Let the record show that I try to build you a 
courthouse, but----
    Mr. Bonner. And I'm proud to fill it right here.
    Mr. Serrano. Okay.
    Mr. Bonner. Thank you.
    Mrs. Emerson. Ms. Lee.
    Ms. Lee. Thank you very much. Let me just follow up with 
that by asking you what the dollar amount is in terms of the 
markets that you supervise, and investigate, and have to look 
out for?
    Mr. Kotz. Yeah, I don't know that I know a total dollar 
amount of the markets. I mean, I do know that, you know, one of 
the things the SEC looked at is in terms of sort of information 
technology budgets. You know, and I know that many of the 
additional funds that the SEC was seeking to get was in the 
area of information technology. And I understand that, you 
know, that the amount of money spent by large companies on 
information technology is, you know, many, many, many times 
more than the SEC's budget with respect to those areas. I'm not 
sure I could give you a total figure, but certainly as I 
indicated before, there are individuals with tremendous 
resources. I mean, Bernard Madoff was running a $50 billion 
Ponzi scheme. And so they have access to tremendous resources 
which can be used to sort of fight the SEC in going forward, 
and committing fraud, and other misconduct.
    Ms. Lee. You must know about how much of the $50 billion, 
for example, you know, in, that--bottom line is, you have 
responsibility for that $50 billion.
    Mr. Kotz. Right. Right, absolutely.
    Ms. Lee. Okay. So, how much? $100 billion? $200 billion? 
How much do you think that the SEC has responsibility to 
oversee or to be responsible for?
    Mr. Kotz. I would think it would be certainly over a 
trillion dollars, in terms of all the funds out there, but I'm 
not sure that I could give you a specific number.
    Ms. Lee. That's over a trillion. Okay, so, and what's the 
full staff--how many people total in the SEC?
    Mr. Kotz. A little less than 4,000, I think, full-time 
employees.
    Ms. Lee. 4,000. Less than 4,000. And you have how many, 
again?
    Mr. Kotz. 18 full-time employees right now, and we have--
we're hiring four more.
    Ms. Lee. Twenty-two----
    Mr. Kotz. Twenty-two.
    Ms. Lee. For maybe over a trillion dollars, maybe. 
Certainly $500 billion. Somewhere close to that.
    Mr. Kotz. The SEC has a very important, very difficult 
mission----
    Ms. Lee. Yeah, but with 22 people to kind of watch over, 
that seems to be very few. I mean, I would think you'd need 
three times that amount to protect us and the American people 
from these fraudulent scam artists.
    Mr. Kotz. Right. Certainly.
    Ms. Lee. You know? So, the--Chairman Rogers, I think that 
the 13 percent budget cut has been proposed, and I know I heard 
your answer earlier about you really haven't evaluated these. 
But what would it do to your office? Just your office?
    Mr. Kotz. Well, so, again, we have 18 full-time employees; 
we're trying to hire four more. They're important positions. If 
something like that were to go through, it very well may stop 
us from being able to hire those four people. I mean, you know, 
we have five investigators and six auditors. We do a lot of 
work with that, but, you know, we had somebody who recently 
left us, took a higher paying job. There's no way we could 
compete financially with the job this person got.
    We want to replace the position; it's an important position 
to replace, so there's certainly the possibility that if the 
budget cut is severe, that we won't be able to replace that 
person. And you know it would have an impact on our operations 
going forward. You know, we are lean and we are efficient, but 
we do need the bodies to be able to perform the work.
    Our complaints have gone up over time and we need to be 
able to assess them all.
    Ms. Lee. And you have to protect investors, right?
    Mr. Kotz. Yes, absolutely. And that's certainly the mission 
of the SEC.
    Ms. Lee. You've got at least $500 billion you've got to 
protect with 22 people.
    Mr. Kotz. Right.
    Ms. Lee. Maybe 18. Sure, Okay. Thank you very much.
    Mrs. Emerson. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. You mentioned 
a little while ago, in the back-and-forth, you know, money is 
not always the answer, obviously. And going back to some of the 
roles of the SEC--could part of the problem be that the SEC's 
faculty has been given too many issues to look at, too many 
things on its plate and that--to the point where they can't do 
any of them well because they're spread so thin? I mean, could 
that not also be an issue?
    Mr. Kotz. I think it's certainly a possibility. And one of 
the things that we try to focus on is that if the SEC is going 
to take on something, it needs to be able to do it well. And 
you know, one of the things we saw in the Madoff situation was, 
you know, the SEC would do these exams or investigations, and 
they would not do thorough ones. And so it would actually send 
the wrong message.
    I mean, we had--I talked to somebody in the private sector 
who was suspicious about Bernard Madoff. He said, ``Well I knew 
it wasn't a Ponzi scheme.'' I said, ``How did you know it 
wasn't a Ponzi scheme?'' He said, ``Because I knew that there 
was a complaint to the SEC that Bernie Madoff was running a 
Ponzi scheme. And so, if there was a Ponzi scheme, the SEC 
would have caught it. So I knew it's not that.''
    Well in fact, the SEC did not do a competent job in that. 
And in fact, both Bernard Madoff and Allen Stanford would use 
when they spoke to folks who would be skeptical about 
investing, they would say, ``The SEC was just here. You know, 
they gave me a clean bill of health.'' And so, sometimes it is 
a concern when you conduct an investigation, and you don't 
necessarily staff it fully. You don't do it appropriately; 
you're almost better off not doing it. You know, I don't know 
that I've looked at all the issues--I certainly haven't 
analyzed all the new responsibilities under Dodd-Frank--but I 
do think that that is something to be cautioned about.
    Mr. Diaz-Balart. I think what you're saying there is that 
some people get so dependent and so reliant on government that 
frankly, other things that would naturally take place, don't 
take place, because oh, it's you know, government, in this case 
the SEC, is going to take care of it. It's all fine; they're 
going to take care of it, so therefore, individuals don't do 
their part that they would otherwise do. Is that basically what 
you're saying?
    Mr. Kotz. Yeah, but I think that perhaps that the natural 
skepticism of Madoff, you know, the fact that he was having 
these continuous returns over time was lessened because they 
figured the government was watching.
    Mr. Diaz-Balart. Going kind of on the same point, and I 
know it may be an oversimplification, but you know, you would 
think that there are sometimes things that would trigger people 
to like, take notes. I know that if, you know, you use your ATM 
in the gas station twice, you know, like if I fill up my car 
and my wife's car and all of a sudden get a call or an e-mail 
saying, you know, ``Is that really you? Is there fraud there?''
    Mr. Kotz. Right.
    Mr. Diaz-Balart. And that's, you know, whether it's a $100 
transaction, which is like three gallons of gas now, or whether 
it's, you know, $4 on a--or I should say $10 for a cup of 
coffee in certain places, you know, you'll get that. And 
obviously they have systems to do that. And, going back to the 
$21 million expense that they're going through, is that--again, 
you would think, and from, you know, your report, there were 
some of those triggers that just weren't acted on, but somehow, 
the credit card companies, and I know it's kind of a different, 
but yet related situation. They have triggers and they have--
and they act on them. And, you know, why can't--the question 
that I get a lot, is why can't the federal government do what, 
frankly, every single credit card company does?
    Mr. Kotz. Right, well----
    Mr. Diaz-Balart. In that sense.
    Mr. Kotz. Yeah. No, I agree. I mean, the Federal government 
has to be held to the same standard, you know, the credit card 
company doesn't do its job, somebody else takes over. And so 
the federal government has to be held to that same standard, 
and simply putting it into a system is not enough. They have to 
ensure that the triggers are appropriately looked at. You know, 
they have to make sure that they have the right skill set of 
individuals being involved. One of the issues that we looked at 
in the Madoff case, was, you know, there was some very 
intelligent lawyers came out of very, very impressive law 
schools, but didn't know enough about trading to be able to 
analyze these carefully.
    Perhaps you got in somebody who had worked, you know, on 
the trading floor for many years. That person might have been 
in a better situation to identify these issues, rather than 
somebody who was, you know, a smart person. And so, the SEC 
needs to do more, clearly, than just put in a new system that 
costs $21 million. But, we are working on those issues as well 
and trying to recommend that they put together the right skill 
sets.
    Mr. Diaz-Balart. Well, I appreciate that, and if I may, 
Madam Chairman, just on the same point, because it seems that 
obviously one of the obvious things that I've learned is that 
sometimes it's not how much money is spent but how that money 
is spent. And, so--and it's going back to the fact that if 
there's one area where, I think, taxpayers cannot be told that 
it's because there wasn't enough money, it's frankly the SEC 
because of that tripling of the budget.
    So, I just want to make sure that, because it's so easy to 
just--and you haven't done that, on the contrary. But, for some 
of us to say, ``You know, we just need to spend more money, 
spend more money,'' well here's the case where a ton more money 
has been spent and yet, you've been able to find areas where 
that money was not well spent----
    Mr. Kotz. Right.
    Mr. Diaz-Balart [continuing]. Was not certainly focused on 
the right area. Obviously, one of the things that we need to do 
is obviously listen to you more often. A lot of times, we get 
the reports and we just don't act on them as well. So, anyway, 
thank you.
    Mr. Kotz. Thank you.
    Mrs. Emerson. Thank you, Mr. Diaz-Balart. Mr. Womack.
    Mr. Womack. Just a couple of follow-up questions. And, 
forgive me if I show my rookie nature to this panel and to 
perhaps, the subject matter that we're talking about here. But 
when recommendations go out of your office, when the Office of 
the Inspector General makes recommendations to the SEC for 
improvements to the systems that are designed to protect 
American investors, what are the consequences for the failure 
of the SEC to act on those recommendations to your 
satisfaction?
    Mr. Kotz. Well, that information is essentially reported to 
Congress. And so, in our semi-annual reports to Congress, we 
chronicle the recommendations that we made and how many 
recommendations are open. And you know, if necessary, we will 
come forward to a committee like this, and say, you know, in 
addition to providing the semi-annual report, because I know 
you both get lots of semi-annual reports, to maybe highlight 
the fact that there's a concern that recommendations are not 
being implemented.
    You know, we are very strict in our implementation. We 
require, initially, a corrective action plan to ensure that 
it's started. Then we require documentation to ensure that it's 
finished, and then only then do we agree to close it. And we 
report where it's not closed. So, you know, I certainly believe 
it's my obligation to bring to your attention, if that is the 
case, where we are--we're recommending many, many different 
actions, and they're not being taken, and there's no good 
reason provided why they are not being taken. So, I--my job is 
to bring that to your attention and to see how you all and 
others can help us assist in that process.
    Mr. Womack. Another question is more in the area of the 
competency issue at the SEC level. There's an argument out 
there that it's got too many lawyers and not enough subject 
matter experts in the areas where their jurisdiction falls. 
Comment on that. I'd like to know, do we have the right people 
in the seats there that have the proper expertise to be able to 
see what a good part of the American public has been able to 
see from a distance.
    Mr. Kotz. Yeah, I think that was an issue that we found in 
some of our investigations. As I said, concerns that folks do 
not have the experience to understand the issues, even though 
they may be lawyers, they may be smart, they may be hard 
working. I mean, many of the folks who worked on the Madoff 
matter actually worked very hard, worked very long hours, but 
missed sort of very obvious things.
    I know that the new director of Enforcement has looked to 
set up these sort of specialized groups to ensure that there 
are folks who have specific, specialized experience, that one 
can go to. When the Ponzi scheme investigation was done in the 
SEC, from Harry Markopolos's complaint, the individuals who 
worked on that investigation had very little, if any experience 
in conducting Ponzi schemes.
    They didn't know how to conduct a Ponzi scheme. They were 
very smart, they were very hard working, they tried very hard, 
but they didn't know how to conduct a Ponzi scheme 
investigation. And so, I believe that they're putting in place, 
sort of specialized groups, so you have a resource to go to.
    But I think part of that may very well be, in addition, 
hiring other folks. Now there was a time where it was difficult 
for the SEC to recruit, say, Wall Street folks, because they 
were making a lot more money, there were big bonuses, there was 
no way they were going to come work for the SEC.
    You know, with the economic times, that--I don't think that 
that's an excuse anymore, frankly. Because the times are tough 
on Wall Street, at least they have been. And perhaps there's 
more of an opportunity to get those people. And so, I 
absolutely agree that we need--the SEC needs to get in the 
people who understand how the fraudsters work, not just people 
who are very smart, and are trying hard and hard working.
    Mr. Womack. I would agree with that. The gentleman from 
Florida was talking about triggers just a minute ago, and at 
the risk of sounding like a broken record in part of my earlier 
line of questioning--and I will use metaphorically the TSA, 
although I'm not necessarily endorsing the activities of the 
TSA.
    But, when they developed a system to find, say, a gun in a 
bag that might be put on a conveyor belt, the best way to test 
whether the effectiveness of that system was to basically put a 
gun in a bag and put it on the platform and let it go through 
to see if it does its job. And my strong recommendation, my 
strongest recommendation is for any of the processes, the $21 
billion TCR or whatever system that has been recommended and it 
is in place, that we put the gun in the bag and check the 
system. And that's the only way that you can restore consumer 
confidence, investor confidence that we have in place fail-safe 
systems that are designed to protect, and in fact, do protect 
the investor.
    Mr. Kotz. Yeah, and that's an excellent idea. I'm not going 
to say specifically that I'm going to do that, because the 
SEC's probably listening--but, in order to test the system, you 
have--that's an absolutely excellent idea, you know. In other 
words, to see specifically if a complaint comes in, what 
happens to it?
    Mr. Womack. And I just want to follow up with what the 
gentleman from Alabama said. I believe there are market rates 
in Arkansas that are even more competitive than Mobile, Alabama 
and certainly, much more competitive than Manhattan.
    Mrs. Emerson. You notice, he didn't say Missouri.
    Mr. Serrano. Madame Chair, it's a good thing I don't 
represent Manhattan. I may be offended by that.
    Mrs. Emerson. Yes, but you represent Yankee Stadium, Joe, 
which is quite lovely real estate.
    Mr. Serrano. Yes. The salaries there are quite high.
    Mrs. Emerson. And the ticket prices are outrageous.
    Mr. Womack. I will take exception to the gentleman from New 
York. He's complaining about Cardinal baseball, and let it be a 
matter of the record here, that Madame Chairwoman is joined by 
a die hard St. Louis Cardinal baseball fan.
    Mr. Diaz-Balart. Those are fighting words.
    Mr. Serrano. I like the Cardinals.
    Mrs. Emerson. Just not as much as the Yankees. All right, 
so playing off of everything that my colleagues have talked 
about with regard to staffing, and I actually really like Mr. 
Womack's idea about testing the systems at the SEC. I think 
that's a great idea.
    Right now, there are 23 offices that currently report 
directly to the chairman of the SEC, and I think Dodd-Frank 
will add even more offices that--if you look at the functions 
of the office on the charts--seem to mirror, to some extent, 
existing offices already within the SEC.
    We know, as we've just been discussing for quite some time, 
that there was poor coordination between the offices within the 
SEC. So, have you all actually considered doing an internal 
review of the entire SEC structure, not just focused on Madoff 
or Stanford?
    Mr. Kotz. Yeah, I think that's a good idea. I mean, you 
know, perhaps, particularly as you say, with respect to Dodd-
Frank, once the SEC puts in all those offices, we need to 
ensure that those offices are not doing the same thing that 
another office is doing. So I think at that point in time is 
probably a good time to look at an overview and to ensure that 
both, there is communication between offices, but also that 
there isn't duplication of effort.
    Mrs. Emerson. Well, I know that there is, if I remember 
correctly, something within Dodd-Frank with regard to 
whistleblowers, but yet there already is a function within the 
SEC that does that. I think perhaps four of the five offices 
that Dodd-Frank recommends putting in place mirror something in 
the title. So it seems to me that, if those existing offices 
can be refashioned, and the people have the right skill sets, 
that it's absolutely wasteful to set up all new offices that 
mirror the same thing that the other offices are supposed to be 
doing already.
    Mr. Kotz. Right. No absolutely, absolutely. That's 
something that we have to be very careful about. I think 
anytime you have legislation, new legislation, particularly as 
comprehensive as Dodd-Frank is, you have to ensure that it gets 
acclimated into your own environment in an efficient way, and 
not just sort of added on. I mean, a lot of those situations--
there's statutory requirement that somebody report to the 
chairman, and I think that's why there are many, you know, 
situations where the offices report to the chairman's office. 
But we have to make sure that they're all doing different 
things, and are not duplicating efforts.
    Mrs. Emerson. Well, and 23 direct reports is really a lot 
for any organization.
    Mr. Kotz. Yeah.
    Mrs. Emerson. I want to flip over to a totally different 
subject, which is fascinating and scary at the same time. High-
frequency, or algorithmic trading--and specifically, I want to 
refer back to May of last year when the Flash Crash occurred. I 
think by some accounts, computer-aided high-frequency trading 
now counts for 70 percent of total trading volume, and so there 
is much more influence by the algorithms rather than actual 
traders.
    Do you think that the SEC is currently able to keep up with 
these new ways of trading? Is this something that you all are 
looking into?
    Mr. Kotz. Yeah--there have been some complaints that came 
in about what happened in May. We have begun to look at it. I 
mean, the SEC actually has done a lot of its own analysis on 
how it happened, why it happened, came out with a report. So we 
haven't sort of duplicated their process in that way, but I 
think that is something that does need to be looked at in the 
future. I mean, I think things are getting more complicated, 
more difficult, and we have to ensure that the SEC's able to 
keep up.
    Mrs. Emerson. So, within their report, do they talk about 
how they could better detect those kinds of issues in the 
market?
    Mr. Kotz. I haven't thoroughly analyzed the report, but I 
believe that that is part of it. I believe they looked at, you 
know, what happened, why it occurred, and what we can do in the 
future to move forward appropriately.
    Mrs. Emerson. Okay, because it's a fascinating issue, but 
it's also somewhat intimidating and hard to track.
    Mr. Kotz. Right.
    Mrs. Emerson. It begs the question as to whether or not 
there are obsolete regulations that might need to get thrown 
out, and perhaps Congress should look at this whole issue, 
because of the manipulation that can occur.
    Mr. Kotz. Right, right. No, absolutely. That's a real 
concern.
    Mrs. Emerson. All right, thank you. Mr. Serrano?
    Mr. Serrano. I just want to first of all ask unanimous 
consent to submit some questions for the record.
    Mrs. Emerson. Without objection and we will all, I believe, 
have questions to submit for the record. I forgot to say that 
earlier, so thank you.
    Mr. Serrano. Okay. And just one follow-up question on the 
issue of the territories. So you said that you were not aware, 
which I understand because I'm not aware myself either. I was 
not asking a question that I knew an answer to. So you will 
look at it, and you will report to the Committee?
    Mr. Kotz. Yes, absolutely.
    Mr. Serrano. Okay.
    Mr. Kotz. Absolutely.
    Mr. Serrano. Because I'd like to know what our relationship 
is with the SEC, and how they deal with that, and just what's 
going on out there.
    Mr. Kotz. Okay. No, absolutely.
    Mr. Serrano. Which, by the way, it's a general pattern 
throughout the federal government that in so many cases, the 
territories are sort of an afterthought.
    It's true in funding. If you look at the way we fund, we 
fund using a formula for the 50 States and then you have to 
bargain to get the territories, you know, a certain amount of 
money and it's never based on population like in the other 
States and so on. So I'd like to have a better understanding of 
that.
    Mr. Kotz. Okay. Good, good. Thank you.
    Mr. Serrano. Thank you. Any timeline on that, I don't want 
to give you more work to do.
    Mr. Kotz. Well, no. I'd be happy to get back, you know, in 
a short timeframe. Just initially what's done, if there's a 
more thorough analysis----
    Mr. Serrano. Okay.
    Mr. Kotz [continuing]. That's required, I'll go forward. 
But I can get back in a few weeks just generally what's 
happening.
    Mr. Serrano. That's great, that's great. Thank you. I have 
no further questions.
    Mrs. Emerson. Thanks, Mr. Serrano. Mr. Diaz-Balart, more 
questions?
    Mr. Diaz-Balart. None.
    Mrs. Emerson. Mr. Womack?
    Mr. Womack. None.
    Mrs. Emerson. Ms. Lee?
    Ms. Lee. One more. Let me ask, now the FDIC is responsible 
for the oversight of--as it relates to the new rules governing 
credit cards? Is it the FDIC?
    Mr. Kotz. I'm not sure, sorry.
    Ms. Lee. Okay. But whichever agency it is, you know, we'll 
talk to them about this, but, you know, the credit card 
companies now have found new ways to scam the system.
    Mr. Kotz. Right.
    Ms. Lee. So I'm wondering now as it relates to Dodd-Frank, 
how--well, I do know. The traders in some of the financial 
institutions are really busy now developing ways to game the 
system.
    Mr. Kotz. Right.
    Ms. Lee. Now, given that, what's your staffing like to try 
to anticipate these new games that are being put together?
    Mr. Kotz. Yeah, I mean----
    Ms. Lee. So you can do this on the front end and how do you 
recognize what they are? Because let me tell you--the credit 
card companies and the new scams that they're running are just 
as serious as the ones before.
    Mr. Kotz. Right.
    Ms. Lee. And consumers are really paying the price now.
    Mr. Kotz. Right. No, I mean, it's very difficult I think to 
stay ahead of the curve with respect to those kinds of things, 
with respect to fraud. And I think the SEC needs to not just 
react sort of when they get a complaint. They put this new 
system in, they react to complaints. They also need to be 
proactive. And I know that's something that the Enforcement 
Division is looking at. I know that that's a priority for them. 
But I absolutely agree that they need to sort of look for the 
next fraud before it happens, anticipate it, and set up systems 
to deal with it.
    Ms. Lee. Well, what's the staffing that's required for that 
and how do you anticipate, knowing that this is taking place 
right now, how do you do that within the current staffing 
patterns? And again, I think you should have a 50 percent 
increase myself to really protect consumers and investors from 
what has taken place given the magnitude of your job. And so 
how are you going to do this?
    Mr. Kotz. Yeah, you know, I think it's difficult. I think 
you need the bodies who are focused only on sort of the new 
risk areas, the proactive measures and not have them, you know, 
if they're sort of dealing only with complaints that are 
brought in regarding past issues, they don't have the time and 
resources to be able to look at those things. So I think that 
where you have significant budget cuts, I think that that's a 
concern.
    Ms. Lee. And I hope this committee will really look at that 
very carefully because I can see a new wave of fraud, new games 
that are being played and put together right now that we don't 
even know what they are. And you're going to have to look at 
what the dynamics are and what they look like and then be able 
to prevent them from taking place.
    Mr. Kotz. Right, right. Absolutely.
    Mrs. Emerson. Thank you so much. I want to thank all my 
colleagues. Mr. Kotz, thank you so very much for being here 
today. We really appreciate your direct answers and we look 
forward to working with you.
    Mr. Kotz. Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                            Tuesday, April 5, 2011.

                    GENERAL SERVICES ADMINISTRATION

                                WITNESS

MARTHA N. JOHNSON, ADMINISTRATOR, GENERAL SERVICES ADMINISTRATION
    Mrs. Emerson. The hearing is going to come to order. I 
would like to welcome my colleague and friend, Mr. Serrano and 
Mr. Womack as well, and particularly we want to welcome you, 
Administrator Johnson. Thank you very much for being here 
today. I also want to mention for our colleagues that we have 
several of the GSA regional administrators here. Thank you all 
very much. I know that you are the ones who have the up close 
and personal face time with our offices and you all do a great 
job. We really appreciate you being here and I hope that the 
time that you spend in D.C. is productive. Certainly it is a 
crazy time and I suppose it is possibly an interesting time for 
you all to be here.
    GSA directly provides or has contract vehicles for a wide 
range of services for federal agencies. Some of these services 
are easy to understand such as buying supplies, finding and 
leasing office space or constructing and maintaining 
courthouses. Other services are less well-known, such as 
managing a public key infrastructure, conveying or auctioning 
excess lighthouses, or providing information to the public 
through new media tools and technology. When done well, these 
services are invisible and unappreciated. When done poorly, 
these services are ugly reminders of waste and inefficiency.
    For fiscal year 2012, the GSA requests $9.8 billion in 
budget authority and obligational authority, of which $9.5 
billion is for the Federal Buildings Fund. The remaining $332 
million in funds are for, among other things, an Office of 
Inspector General, the management of GSA, and notably, $38 
million for an initiative to streamline acquisition management.
    The Federal government's gross debt currently exceeds $14 
trillion and is expected to reach $26 trillion in 2021. The 
government will never be entirely debt-free, but I am committed 
to reducing the rate at which we incur debt.
    As such, this committee's goal is to reduce spending under 
this subcommittee's jurisdiction to fiscal year 2008 levels. 
GSA will undoubtedly be a part of meeting that goal through 
reductions in its own budget, through innovations to reduce the 
expenses of all federal agencies and I know that you are 
working towards that goal, as far as trying to use innovation 
to provide efficiency. We are thankful for that, once again and 
thank you for being here, and welcome, Administrator Johnson. I 
do appreciate your service and look forward to your testimony. 
But now let me recognize my friend, Mr. Serrano, for any 
opening statements he has to make.
    Mr. Serrano. Thank you Madam Chair, and you will notice, I 
will not make any comments about the St. Louis Cardinals at 
all.
    Mrs. Emerson. I know. I am ashamed of how poorly they are 
doing, what can I tell you?
    Mr. Serrano. I am a Yankee fan, so it is fine with me. 
Actually, I feel bad.
    Mrs. Emerson. Well, I am sure it is. Do you feel badly?
    Mr. Serrano. I do. I only feel good when the Red Sox lose.
    Mrs. Emerson. Well, at the moment of two against one, but 
since your team is winning and ours is losing.
    Mr. Womack. I am not saying a thing.
    Mr. Serrano. Okay, Colonel. Thank you, Madam Chair. I, too, 
would like to welcome GSA Administrator Martha Johnson. The 
General Services Administration plays a primary role in 
procuring goods and services, as well as managing facilities 
for other parts of the federal government. Because of this, the 
GSA has the responsibility of minimizing property costs, as 
well as the cost of goods and services for their clients, the 
other agencies of the federal government.
    As we go forward in a tight budget climate, it is important 
to know that agencies like the GSA are doing their utmost to 
ensure that the federal government is operating as efficiently 
as possible. I am also interested in learning more about the 
contractor performance database, which, according to press 
reports, is expected to go live on April 15th. This database 
will provide lawmakers and the public with important 
information about the reliability and past performance of the 
federal government contractors.
    I think I speak for everyone here when I say that the 
Federal government should not be using contractors who cannot 
get the job done on time, on budget, and in line with their 
bids. This database will help ensure greater public 
accountability for those contractors who fail to meet these 
goals. Lastly, we are now just a few days away, it seems, from 
a possible government shutdown. Because the GSA operates as the 
landlord for so many federal buildings, a possible shutdown at 
the GSA would potentially have a much broader impact on the 
many federal buildings that house other agencies.
    Administrator Johnson, as you answer questions today, I 
think it would be helpful to learn more about the effects of a 
government shutdown on GSA's operations, and what plans the GSA 
has in place, should a shutdown occur. Once again I welcome 
you, and I thank you for being here. Thank you, Madam Chair.
    Mrs. Emerson. Thank you so much, Mr. Serrano. Administrator 
Johnson, if you could keep your opening remarks to five minutes 
or so, that way we will have more time for questions. We 
welcome you, and thanks for being here.
    Ms. Johnson. Thank you very much, Madam Chair, Ranking 
Member Serrano, and distinguished members of the subcommittee. 
Thank you for inviting me to appear before you today to discuss 
GSA's Fiscal Year 2012 Budget Request.
    Our Fiscal Year 2012 Budget continues efforts that we 
started last year to transform GSA into an innovative change 
agent for the government. GSA is a strategic partner for 
federal agencies that helps them make efficient and effective 
use of resources, collaborate with and engage with the public, 
and make government more nimble, agile, responsive, and 
adaptive.
    GSA is building a government that works better by changing 
the way we acquire, manage, and dispose of our assets, and by 
accelerating open government through new transparency tools and 
practices. We believe that open government is good government, 
and we have requested limited funding increases that will 
enable us to engage citizens even further, in so doing, receive 
better feedback about vital federal programs. We are also 
requesting targeted investments in federal buildings and land 
ports of entry to modernize the nation's infrastructure, create 
jobs, and grow trade and commerce.
    GSA's Fiscal Year 2012 Budget priorities align with our 
goal of supporting a government that works better through a 
three-part strategy of supporting innovation, building customer 
intimacy, and creating operational excellence. The two primary 
drivers of this strategy are first, our focus on achieving a 
zero environmental footprint and second, our dedication to 
fostering an open and transparent government.
    The Zero Environmental Footprint goal, or ZEF, is GSA's 
commitment to eliminate our impact on the natural environment, 
and use our example and our government-wide influence and 
positioning to reduce the environmental impact of all federal 
agencies. ZEF focuses GSA's efforts and resources to 
concentrate on reducing our consumption of energy, water, and 
other resources, eliminating pollution and reducing 
inefficiencies from all of our operations. As numerous examples 
from the private sector demonstrate, pursuing sustainability 
across our enterprise will help us stretch our budget dollars 
further and develop best value to the taxpayer and our agency 
customers.
    GSA is also building expertise, technology, and processes 
for open government, and is putting transparency, 
participation, and collaboration at the center of government 
operations. We are publishing unprecedented amounts of 
government data and information online and through mobile 
applications to communicate government performance and services 
to citizens.
    GSA is helping the government be more responsive by 
expanding citizen participation through shared information, 
crowd-sourcing tools and techniques, virtual workplaces, and 
collaborative protocols. Our efforts in open government have 
provided federal agencies with the tools and expertise to make 
a more visible and accessible government that is better able to 
encourage and engage the talent and contributions of our 
citizens, industry, academia, and our own civil servants.
    To conclude, your approval of GSA's Budget Request for 
Fiscal Year 2012 is a vital step towards helping GSA deliver a 
more effective and efficient government. Our request advances 
the administration's goal of winning the future through 
strategic investments in innovation and infrastructure, while 
cutting waste and excess. I look forward to continuing this 
discussion on the Budget Request with you and the members of 
the subcommittee.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Emerson. Thank you so much, Administrator Johnson. I 
am going to go ahead and start. We have been joined by Mr. 
Diaz-Balart and Mr. Bonner. And so I will try to keep my 
questions to five minutes as well.
    The Bowles-Simpson Fiscal Commission proposed government-
wide reduction in travel, printing, and vehicles. Can you share 
with us, how much does GSA currently spend on these activities 
for itself and what you are doing to help other federal 
agencies save resources in these areas?
    Ms. Johnson. The actual numbers of what we spend I will 
have to provide for the record.
    [The information follows:]

              Travel, Printing, Motor Vehicle Expenditures

    What does GSA currently spend on travel, printing, and motor 
vehicles?
    GSA response: GSA obligated $69 million for travel, printing, and 
motor vehicles in FY 2010. Of that amount, approximately $50 million 
was for travel, $13 million was for printing and reproduction, and $6 
million was obligated to operate the GSA-internal motor vehicle fleet.

    Ms. Johnson. We are attacking travel with great vigor. Our 
own projections are to cut our own travel $11 million this 
year, and to reduce that through a number of techniques.
    First of all, we are working much more with a mobile 
workforce notion, which, I think, gives us much more 
flexibility and technology, so people can communicate across 
the country without picking up and going there. Second, we are 
installing some good telepresence, videoconferencing 
capability, which I think will get people to stay off 
airplanes. One of the things is you really want to have a good 
capability, so that your instinct is to get on the video 
conference, rather than get on an airplane. A change in 
behavior is part of this as well.
    So, through our FAS, acquisition service, we are creating 
important tools so that people who do travel have better 
options and better prices. So, as usual, we are working on more 
efficient travel, when it is necessary.
    In printing, I think we are right at the cusp of moving 
from really a paper-dominated government to an electronic-
dominated government. And we are right in the center of that. 
We are reducing the publications we offer by quite a good 
number, although I am going to have to supply that to you. We 
are also, through our online capability, publishing data and 
making much more available to the public that way. And I think 
that is encouraging all of us, again, to shift behaviors to 
move online. So, through all of these shifts in travel and 
moving more towards technology, I think we are on the glide 
path towards much more efficiencies.
    [The information follows:]

                          Printing Operations

    The Administrator committed to provide the number of print 
publications that GSA is eliminating or reducing.
    GSA Response: GSA print operations are managed by the Office of 
Citizen Services and Innovative Technologies (OCSIT). OCSIT promotes 
and manages the distribution of Federal print publications to the 
public; however, actual printing and print distribution is primarily 
accomplished through the Government Printing Office distribution 
facility in Pueblo, CO. OCSIT supports print distribution by creating a 
variety of direct marketing materials and a quarterly Consumer 
Information Catalog. OCSIT also publishes the annual Consumer Action 
Handbook (CAH) and its' Spanish equivalent, the Guia del Consumidor, to 
provide consumers with critical information on purchases, problems, and 
complaints.
    In FY 2010, GSA promoted and distributed more than 22.9 million 
publications to the public through the GPO distribution facility in 
Pueblo, CO. Ninety-eight percent of these publications were prepared 
for other Federal agencies, to meet specific requirements and pass on 
critical information to citizens. GSA printed and distributed an 
additional 9.7 million publications through quarterly distributions of 
GSA's Consumer Information Catalog. GSA plans to reduce the number of 
Catalogs it produces and distributes by more than 30 percent in FY 2011 
by moving from quarterly to semiannual distribution. This transition 
will reduce GSA printed documents by 3 million pieces.
    GSA is working with customer Federal agencies to find ways to 
reduce print publications, but has not set specific targets for 
reducing their print publications. GSA has had recent successes in 
making Federal publications available through online document sharing 
tools. GSA currently offers 100 agency publications each on Scribd, a 
free online document sharing tool, and Google Books and the GPO 
Bookstore website. Publications on Scribd received 40,000 page views in 
FY 2010 and, in the first ten days that agency publications were posted 
on Google books, GSA received 2,000 orders for printed publications and 
500 on-line views. GSA plans to make 500 publications available 
electronically through Google, Scribd and other partnerships by the end 
of FY 2011, and expects this will allow Federal agencies to eliminate 
or reduce print publications in the future.

    Mrs. Emerson. Okay. I will appreciate you getting that 
information back to us. On page nine of your testimony, you 
mentioned FSS Size Solution for Domestic Shipping and Parcel 
Delivery Services and the work that you all are doing to reduce 
costs. Given the fact that we also have jurisdiction over the 
U.S. Postal Service, and it is in such dire need of either new 
funds or trying to reduce its expenditures since it is way in 
the red, do you work with them and is this part of what you all 
are doing to try to save costs?
    Ms. Johnson. The parcel service, direct parcel service, is 
one of our many cooperative buying programs that we are sort of 
facilitating. We are moving away from, clearly, our old mandate 
of being the sole supplier of these things, to organizing the 
agencies into kind of a cooperative buying process. We are 
doing it for office supplies, for wireless service, for print 
services, eventually for software, in a more concentrated way, 
and domestic parcel delivery.
    The process is to go out and to ask industry, the post 
office, who can come in with the best bids and then to 
orchestrate the agencies to agree to a certain volume of 
purchasing. So, in that process they are among the competitors, 
if you will, for our consideration.
    Mrs. Emerson. So the Postal Service will be competing with 
UPS, with FedEx, or whomever as part of this, because it just 
seems to me that we should be encouraging them to be able to 
increase volume so that they are not in such dire financial 
straits.
    Ms. Johnson. That is a good point, and I can learn more 
about how we consider them, and what sort of conversations we 
had with them.
    Mrs. Emerson. Would you? I would appreciate it because when 
you have got an agency, or an entity of the government that is 
almost $3 billion in the hole, you have got to try to figure 
out: Okay, are there things that we can do. And obviously a 
federal partnership, since it is a public-private entity 
anyway, anything that we can do to help them, as long as they 
can meet the same price threshold.
    Ms. Johnson. Exactly. Offer the same value, which is what 
we can then be the arbitrators for.
    [The information follows:]

                             USPS Services

    How did GSA consider the US Postal Service in the Express Ground 
and Domestic Delivery Service FSSI BPA, and did GSA have any 
conversations with the USPS when developing, competing, or awarding the 
BPA?
    GSA response: GSA had several conversations with the US Postal 
Service (USPS) when developing the Express and Ground Domestic Delivery 
Services (ExGDDS) FSSI BPA, and worked with all potential offerors, 
including the USPS, to ensure they were well-positioned to participate 
in the solicitation.
    Early in the ExGDDS procurement, GSA determined that using the GSA 
Schedules program was the best way to fulfill the goals and objectives 
of the FSSI. GSA worked with USPS to help them become a Schedule 
provider for the first time.
    GSA conducted extensive market awareness discussions with USPS, as 
well as the other interested suppliers, during the solicitation 
development and market research phase. GSA used that industry feedback 
to develop a solicitation that was keenly competed among GSA Schedule 
participants.
    Ultimately, GSA selected United Parcel Service (UPS) as the source 
that provided the best value to the government based on price and other 
technical evaluation factors. The evaluation criteria used for the 
procurement were technical approach, past experience/past performance, 
corporate qualifications, and pricing.

    Mrs. Emerson. Okay. Well, then let's have a further 
conversation about that if we could. Mr. Serrano.
    Mr. Serrano. Thank you. Let's talk about one of our 
favorite bills, H.R. 1. What is the impact on your agency? The 
bill proposes no funding for construction or acquisition of 
facilities, a cut of $676 million from fiscal year 2011 
requests, and very little funding for repairs and alterations, 
a cut of $423 million. So, what would be the impact? If it were 
enacted what would it do to the impact on federal buildings, 
current projects, and construction jobs?
    Ms. Johnson. Our building's projects are in sort of a 
number of tranches. We work with the judiciary and we have a 
couple of those projects, we have a number of construction 
projects under way. We also do a great deal of land ports of 
entry right now. Federal office buildings; everything from 
federal centers to negotiating office space and work 
environments, and the whole portfolio will be impacted. And it 
is difficult to know how the priorities work out until you 
actually know how much you are dealing with overall. The 
repair-alteration piece to it is of huge concern because our 
inventory is a huge valued asset, and any degradation of that 
just puts us that farther behind. So, while we try to be very 
good stewards about using the resources that we have available, 
holding to that line will reduce our ability to continue the 
repairs and alterations that we want to do, and schedules we 
want to keep.
    Mr. Serrano. Now what would happen to projects that are 
near completion? For example, buildings that are almost ready 
for occupation but would not receive the final installment of 
construction costs?
    Ms. Johnson. We are going to have to manage it at the 
portfolio. If the funds are limited, we will need to look at 
each of the projects we have and determine where we will suffer 
the least, if we were to slow down, or extend the schedules, or 
do any kind of change of program. So it is really a comparison 
problem. Clearly, the priority is to start with the safety and 
security of the workers. So if the work that we are doing has 
to do with that, we need to get that taken care of. But then it 
is a trade-off; if you have a whole bunch of money and you have 
got one project that is nearing completion or four that are at 
another stage, you just have to make all of those trade-offs. 
And we do this all the time. This is the nature of portfolio 
management.
    Mr. Serrano. Right. If there's something that both parties 
agree on, and I venture to say this out loud, it's that the 
economy will show that it is doing better when more jobs are 
added to the economy. The majority party also believes that, 
through very dramatic cuts and new jobs, you would turn the 
economy around. Some of us believe that some of those cuts can, 
in fact, make us lose jobs that already exist. Is there any way 
of knowing the impact on jobs, how many jobs you would lose if 
these cuts went through?
    Ms. Johnson. I could explore that and provide that for the 
record. I think we could make some estimates around that.
    Mr. Serrano. I appreciate that. I am going to ask you about 
the potential shutdown. No, first let me ask you, a project 
that is very much a part of this committee, over the last few 
years. What would be the impact, again, I know that you cannot 
really outline exactly what would happen if H.R. 1 becomes law, 
but what would be the impact on the St. Elizabeths campus in 
Southeast DC for the Department of Homeland Security? That has 
been a project that has been mentioned quite a bit.
    Ms. Johnson. Quite a bit; it kind of dominates our thinking 
in many ways. It is the largest building project we are engaged 
in right now. It has a number of phases of work. Essentially, 
if we had a smaller budget we would have to slow down the 
overall project. Right now, we are engaged in working through 
the Coast Guard's headquarters, and we would work very hard to 
try to stay on schedule and be as creative as possible to do 
that. But I think we are going to be needing to adjust on all 
fronts, if we are compromised on our budget.
    Mr. Serrano. I have one last question, Madam Chair. I know 
we have other members. Again, related to H.R. 1; the impact of 
a potential shutdown of the government. As the government's 
landlord, what happens to GSA operations if very few of your 
tenants are able to work after this Friday?
    Ms. Johnson. We clearly are responsible for a major asset 
for the government, and need to be sure that it is secure, and 
where there is necessary work going on we need to be supportive 
of that. If there are hospitals that need to stay open, or 
other kinds of facilities, and we are engaged in them, although 
we do not do hospitals, we would be supporting the work of 
whichever division is still engaged. And I suspect it would be 
quite minimal. But our facilities play a part in supporting 
those vital missions and I do not think we should be the link 
in the chain that would be compromising that.
    Mr. Serrano. Okay, but there is a plan in place?
    Ms. Johnson. We have a regular plan, ours was renewed a 
couple years ago. It is sort of a routine thing, what to do, 
because we are so vital to everyone in the government, and so, 
yes, we have a plan in place.
    Mr. Serrano. Right. Thank you, Madam Chair.
    Mrs. Emerson. Thank you, Mr. Serrano. Mr. Womack.
    Mr. Womack. Madam Administrator, help me out with something 
here. Government-wide policy, if my numbers are correct, in 
2008, it was $52 million and some change, and then in 2010, it 
was nearly $60 million, and your 2012 request is $105 million. 
I did some quick math on that. If I am right, that is about one 
and three quarters times the 2010 amount. Help me out with 
government policy. Why such an exponential increase in the 
request, there?
    Ms. Johnson. The bulk of that is responding to the pleas 
and cries from across government to be sure that our 
acquisition workforce is trained and as professional as 
possible. And the acquisition workforce over the last couple of 
decades has not had the attention it needs. It is a complex 
job. It has had a huge amount of turnover. And we are all 
sensitive to the fact that, as it gets more complex, we need to 
be sure that those people, our contracting officers, and the 
people part of the procurement process are really well trained. 
So the bulk of that is leaning in the direction of the 
acquisition workforce.
    There is a piece for cyber security, a large portion for 
the Integrated Acquisition Environment, some policies around 
that, and a couple of other minor things. But that is the piece 
that is most special and dear to my heart.
     Mr. Womack. But to nearly double the budget?
    Ms. Johnson. Well, there are a couple other pieces to it, 
but that is a chunk of it, yes.
    Mr. Womack. Wow. There has been a lot of discussion at the 
federal level about the amount of property we own. My 
understanding is that there are 1.2 million different pieces of 
perperty, if my numbers are correct. It is my understanding 
that a number of properties have been designated as excess or 
underutilized. How many of these have been designated as 
excess?
    Ms. Johnson. This is where I begin to sound like a 
dictionary; there are differences between excess, surplus, and 
underutilized. There is a database that indicates there are 
some 14,000 pieces of properties that are identified as 
individual pieces that are excess, I believe, is the word. We 
have 170 that we are currently working on disposing and those 
are ones that are working through the rather elaborate process 
to be sure that no one else can use them.
    Mr. Womack. Is that 170 of the 14,000?
    Ms. Johnson. Yes. But the 14,000 are subsets of other 
properties. For example, flagpoles and fences are separately 
designated if you are talking about a whole base. And so you 
have dozens of properties in one cluster, which, if it came to 
us as a disposal, it would be the whole collection. So it is 
not apples and oranges, and that is where we get everybody a 
little bit confused.
    Mrs. Emerson. How many buildings would be involved in the 
14,000?
    Ms. Johnson. Buildings in the 14,000; that gets to, is a 
shed a building? I would have to supply you that designation. 
There are properties, there are radio towers, there are fences, 
there are flagpoles, so it is a real collection.
    [The information follows:]

                            Federal Property

    How many of the 14,000 Federal real property assets identified as 
underutilized or vacant are buildings (instead of flagpoles, fences, 
etc.)?
    GSA response: The Administration has identified 12,217 excess 
properties in the United States. Of that amount, 9,070 are buildings. 
The remaining 3,147 properties include undeveloped land, airfields, 
utility systems, roads and bridges, and a variety of structures other 
than buildings.

    Mrs. Emerson. Excuse me for interrupting both of you. So 
one flagpole would be one of the 14,000?
    Ms. Johnson. Yes, it could be.
    Mrs. Emerson. But it is not necessarily?
    Ms. Johnson. It could be that is specifically denoted.
    Mrs. Emerson. Would a gate be a thing, too?
    Ms. Johnson. It could be.
    Mrs. Emerson. Could you get us a list of the 14,000?
    Ms. Johnson. We have all of that. Now, let me explain that 
that is a database that is developed by each agency posting 
what it considers to be in that category. So this is something 
we collect, and we can share it, it is not something we share 
generally, because of security reasons. So we will share it.
    [The information follows:]

                List of Underutilized Vacant Properties

    The Administrator committed to providing the Committee with a list 
of all 14,000 underutilized or vacant properties. (Rep. Emerson, 
transcript lines 420-425, page 21)
    GSA response: A separate file is attached, listing 12,217 excess 
properties, including the likely disposition outcome of the properties. 
This file is also available on-line at link: http://www.whitehouse.gov/
issues/fiscal/excess-property-map.

    Mr. Womack. Do we have too many buildings?
    Ms. Johnson. We have 170 we need to be moving on, so yes, I 
think we are always in a position of needing to adjust our 
inventory. Whether it is down or up is really a question of the 
individual, localized needs. For example, during the census 
process, we do not want to own census offices, but we need to 
go out and lease fairly small entities around the country to 
house that. So it ebbs and flows, if you will. And on any given 
day we always have properties that we need to be disposing of, 
and we always have needs that we need to be fulfilling. We do 
spend a tremendous amount of effort on trying to be sure that 
federal workers are housed first in owned property, if at all 
possible, and keep the consolidation and the adjustment moving, 
but of course that is always a matter of funding, because 
consolidating is not free.
    Mr. Womack. My mother-in-law was into arts and crafts. She 
never sold a piece. So when I visited her home, and I love her 
dearly, it is all still there. And the way we acquire property, 
and hold onto property, and have 14,000 pieces, and in our 
pipeline only 170 to move right now, kind of reminds me of an 
organization that might hoard property. That seems to me to be 
a terribly inefficient way to run government, particularly when 
a government like this government is borrowing 40 cents on the 
dollar for everything it spends. So I am concerned about the 
amount of inventory that we have, and with each piece of that 
inventory, if it is not being appropriately used, there is a 
lot of care and well-being, and a lot of other factors that go 
into its management, and so I would challenge you to continue 
to press on that issue.
    Finally, this question; GSA has a set of requirements for 
new construction and renovation to be certified as U.S. Green 
Building Council's LEED designation. I understand that the LEED 
standard is internationally recognized, but I am also aware 
that there are other green building rating systems. And so, my 
question for you is; would it cost less to implement and allow 
for examination of the full life-cycle of building materials if 
we developed through some other process? Why do we only 
recognize one standard?
    Ms. Johnson. The Energy Independence and Security Act asked 
us to lean toward one standard, to designate one that we would 
use, and asked us on a regular basis to review and see if that 
was the best one. We have, therefore, chosen LEED, and that has 
become quite a well-known standard, and I think there is a real 
value in that. At the same time, you never want to get sleepy 
and sit on one standard or one norm without really testing and 
seeing what other options you have. We have also been looking 
at another standard. Green Globe, I believe, is what it is 
called. And we have been looking at that a little bit in some 
of our regions, and in preparation for the sort of formal 
review, we have been gathering data.
    I completely sympathize with the situation of standards 
emerging right now in the sustainability and green world. We 
are really at a time when we are learning a lot, and they are 
changing, and we need to be very adept at taking in the new 
information and science that is coming along to tell us which 
standards are helping us the best. So while LEED is a 
predominant one now, we are keeping our ear to the ground. And 
we also work in conjunction with the Energy Department. Be sure 
we are not just willy-nilly moving around on consumer 
standards. We want to be sure we are really grounding it in 
something. So we are in good partnership with them about it.
    Mr. Womack. I would caution the organization about putting 
all of your eggs in one basket, particularly when this is an 
emerging area of society today. There are others out there that 
can do similar things in a much more cost-efficient way. And I 
yield back now.
    Mrs. Emerson. Thank you so much, Mr. Womack. Ms. Lee.
    Ms. Lee. Thank you very much. Good morning. Let me just say 
a couple of things. First off, thank you so much for being 
here, I know your agency, you are faced with many, many 
challenges right now. And also, I know and recognize that we 
all understand the need to consolidate and streamline the 
operations, and also procurement activities for the entire 
federal government. The concern in the streamlining and 
consolidation is that we may be shutting out small business 
opportunities. First of all, in my last life, I was an 8(a) 
contractor. And getting on that GSA schedule was horrendous, 
first of all. It is almost impossible. But secondly, once on 
it, it never led to any opportunities at all. And so, I want to 
find out exactly what is taking place now to help small 
businesses, especially 8(a) businesses, small and disadvantaged 
businesses, minority and women-owned businesses, weed through 
this process, because certainly, a hundred years ago it was 
very difficult. I am hearing it is still extremely difficult. 
Secondly, let me just ask you about this lumping of 
subcontracts together. In the effort to consolidate, lumping 
these subcontracts, oftentimes preclude smaller businesses, 
minority and women-owned businesses, from those opportunities. 
So how do you allow for the full participation in this whole 
notion of consolidation? And if you have any data on how you 
are doing with regard to 8(a) contracting, I would like to see 
that.
    [The information follows:]

                            8(a) Contracting

    Please provide data on GSA 8(a) contracting.
    GSA response: In FY 2010, GSA conducted almost 7,500 8(a) contract 
actions with a face value of over $841 million.

    Ms. Johnson. Well, the top line with regard to small 
business, I am actually very proud of what we are doing with 
small business, because I do agree with you. Working with the 
federal government is a big challenge, especially for small 
businesses. There is a whole industry, that has grown up, of 
consultants that will milk a small business.
    Ms. Lee. Rip a small business off.
    Ms. Johnson. Right. And we certainly are not happy with 
being in a position where we are creating that kind of a niche. 
We have an Office of Small Business Utilization, which works 
closely with the SBA, and also helps us, as GSA, with our 
purchasing so we are, I think, making some good tracks and this 
is the kind of thing where you want to get to the place where 
it is hand-over-hand, so that you are repeating your 
performance every year. About 29 percent of our contracting 
goes to small businesses; it was $2.3 billion in 2010. I am 
delighted that $1 billion of that was to small disadvantaged 
businesses, which means I think we have done some tremendous 
outreach. And I can provide you more statistics about that 
performance and that story.
    [The information follows:]

                Small, Disadvantaged Business Contracts

    The Administrator committed to providing more statistics on GSA 
contracting with small and small, disadvantaged businesses.
    GSA response: GSA awarded over $9 billion in contracts in FY 2010, 
and almost $3.15 billion, or 34.8 percent, was awarded to small and 
small, disadvantaged businesses. GSA FY 2010 small business awards 
greatly exceeded the agency target of 27 percent.
    Through March 2011, GSA had awarded over $500 million to small 
businesses, or nearly 30 percent of year-to-date obligations of $1.8 
billion.
    Contract data comes from the Federal Procurement Data System 
(FPDS).

    Ms. Johnson. Your comments ring absolutely true. I am quite 
concerned about small business getting approved to work with 
the government and then not having any business, getting the 
fishing license, but no river with any fish in it. And I think 
we need to be honest and straight up with small businesses 
about the potential markets, and help them understand. We do 
have mentoring programs, and we are working hard at doing more 
and more training. The mentoring program that we began last 
year has really given us a good model for helping work with 
small businesses and giving them a possibility to work their 
strategy out. I worry about small businesses that find the 
government in their business plan to be the dominant partner, 
because I think that makes them very vulnerable to the swings 
in government spending and budgets. So it is important to 
counsel small businesses so they will be viable and they will 
be successful. So, a number of different pieces to this, and I 
can certainly give you more.
    Ms. Lee. I appreciate that, but I do know that the big boys 
have contracts with the government; they negotiate the 
extensions, they rely on the federal government for their major 
contracts and perpetuity. But when it comes to small 
businesses, and small minority and women-owned businesses, we 
are told, you have got to break loose at some point. I mean 
that is the whole goal of the 8(a) program, which is fine, to 
become independent and break off from the federal government. 
There is a double-standard for the small businesses and then 
for the big businesses because they certainly continue to get 
these big contracts.
    Ms. Johnson. One of the things that we want to do, and is a 
big push on the part off the SBA, as well, is to be sure we 
understand what this picture is, because one of the 
difficulties in our measurement system is that we can measure 
prime contractors, but understanding the click throughs, and 
they can be two, and three, and four, and how much small 
business we are reaching, and how that happens, and what kind 
of business they are getting. That is a big challenge there, in 
trying to get that data and have it be proper. And that is what 
we are surveying our shoulders against.
    Ms. Lee. That is really historical. I mean, really a hard 
one to crack. And finally, let me just ask, the consolidation 
of these smaller contracts; that is inconsistent with the goal 
of trying to ensure full participation for small and 
disadvantaged businesses, because they certainly cannot compete 
with the big companies on consolidation.
    Ms. Johnson. I need to give you a more detailed brief on 
that later for the record. Again, it goes to really 
understanding what is going on at that next level. How much 
inappropriate bundling is going on? How much appropriate 
bundling is going on, where you can get some efficiency and 
build some partnerships? So it is a fairly complex issue, and 
let me supply you a more thoughtful brief on it.
    Ms. Lee. Thank you very much, thank you Madam Chair.
    Mrs. Emerson. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman. 
Madam Administrator, good to see you. Let me first also 
apologize right now because I am going to have to step out 
right after these questions because there is another hearing, 
as you know, so I apologize to you as well. The GAO placed GSA 
a thousand years ago, I think it was 2003 in the real property 
management. And it is real property management and it is high-
risk category. Is it still there? Are you still in that high-
risk?
    Ms. Johnson. I believe we have been released from that.
    Mr. Diaz-Balart. You have been? So there are parts that 
have been released. Are there parts that are not released? 
Okay. That is good to hear, because it has been there for a 
million years.
    Ms. Johnson. I met with the head of the GAO about this, and 
he indicated that we were moving forward and making good 
progress.
    Mr. Diaz-Balart. Good. And obviously, going back to what 
Mr. Womack was talking about, there is some question as to, 
excess property, under-utilized, inefficiently utilized 
property. The flip-side of that is when you get rid of it. Do 
you get rid of it when the market is really, really bad, in 
which case the taxpayer gets hit, as well? But having said that 
is there at least a plan for those if, in fact, part of the 
reason why we still have a lot of space that we are not 
disposing of, is there at least a plan? Is there a threshold 
that you say, when the market reaches this level, if we get 
this much money, we will get rid of these properties. Is there 
a plan for that? Because I understand that, I guess in 2009, 
GSA disposal of 800,000 square-feet, generating $1.8 million, 
which is good, but supposedly there are 54 million square-feet 
of under-performing and non-performing assets. So again, I 
understand the issue with the market. How do you deal with 
that, is there a plan to make sure that when the price reaches 
a certain level, you already have the facilities ready to go, 
et cetera?
    Ms. Johnson. We do not do the analysis quite that way. 
Obviously, real estate is a very localized issue. So some 
markets can be quite robust and others can be in a quite 
different position. So our analysis and our profit is dictated 
by law, and it has to do with an agency coming to us and 
declaring a property ready for disposal. So they need to come 
to us, and frankly, there is expense involved in disposing of 
properties, and in tight budget times, that is a difficult 
proposition. When they do come to us, we need to be sure that 
no one else in the government needs it, that we go through all 
of the routine of: do the homeless need it, or does local 
government need it? And only then do we begin to enter into a 
point of negotiating on the open market. So even if we were 
able to figure out the market in advance of all of those 
clearances, it really is at that point that we focus on trying 
to get the best deal.
    I agree with you, I am not interested in fire sales. That 
does not serve the taxpayer. I am also very interested in 
moving property that we need to move. I think this has been a 
long-standing problem, almost intractable in some people's 
minds since President Nixon probably. It is something we work 
at, and I think our approach to it is to be sure that we are 
going through the process of seeing the entire opportunity for 
a piece of property, that is kind of our role. And then helping 
work through all of the remediation, or whatever needs to be 
done to that property to make it sellable and command a good 
price.
    Mr. Diaz-Balart. But are there more aggressive efforts? And 
you mentioned that some of those are not you, it is from the 
agencies, or others who may actually be the operatives. Because 
in the meantime, as Mr. Womack mentioned, we are still paying 
for the operating costs. We are still paying for maintenance, 
et cetera, so it is a double-whammy. So how aggressive can you 
be?
    Ms. Johnson. I think there are a couple of ways of going 
about this. One is, we have committed to developing strategic 
plans with agencies, because they do not have strategic real 
estate plans and they have huge amounts of property and we need 
to help them, with our expertise around that. There is also a 
concerted effort by the administration to engage in property 
disposal. And we will be, we hope, working very closely, and 
providing our expertise, and our staff, and support, and data, 
to that effort. It is a fairly ambitious goal and it is meant 
to do just this, to drive it. We still are in a situation of 
honoring the various legal constraints, which are absolutely 
appropriate in terms of the taxpayers value, to be sure that it 
is available for homeless, state, and local, et cetera, 
historic education. But I think that the administration is 
quite aggressive on this one. And we are happy to be playing 
along as a good partner in this.
    Mr. Diaz-Balart. Good. And if I may, finally, Madam 
Chairwoman, an issue that I know is as frustrating to you as 
anybody else. Obviously, renting is not a good use of taxpayers 
money. For long-term, the DOT building here is one of the 
examples that is always used. But the fact that DOT is there, 
we are renting, we are going to be paying for that many times 
over, as opposed to if we would have just purchased it, built 
it. But it is an issue of scoring. And it is not your issue, it 
is not something you control, the way OMB and CBO scores it. Is 
that something that you are dealing with? Because this is, 
again, a good market to either purchase or build right now, and 
we could save a ton of money for the taxpayers, but you have 
got the scoring issue. Are you pursuing that? Is that an issue 
that the White House and you are jumping on OMB and CBO? Or is 
that something that we are just not dealing with at this time?
    Ms. Johnson. We are always eager to find the best deals 
that we can. The lease portion of our portfolio just tipped 
over the 50 percent mark, which I think is even more 
accelerated. Everybody is concerned about this. The scoring 
rules and the ability to enter into public-private partnerships 
do create some constraints for us. I think that they are based 
in some real serious understanding by the administration of 
risks that we need to be careful about, and at the same time, 
there are long-term costs associated with low-risk profiles. So 
it is always better to figure out a way in which we can own 
inventory, but collecting the necessary resources to build is a 
pretty formidable project. And at the same time, we still need 
to have some flexibility, so the whole leasing and renting 
structures offer us that. It is complex. We want to be on the 
side of saying we would like to have an owned inventory that is 
well maintained, receiving rents, and we would like to be as 
aggressive about that as possible, understanding the 
proportionality with leasing for agility.
    Mr. Diaz-Balart. Thank you. Thank you, Madam Chair.
    Mr. Serrano. Madam Chair.
    Mrs. Emerson. Mr. Serrano.
    Mr. Serrano. I just, if I may, with respect to you, Mr. 
Bonner. What Mr. Diaz-Balart brings up is an issue I brought up 
when I was chairing this Committee. It is really a serious 
issue, one we should really concentrate on. I know folks 
somewhere deal with these numbers, and they tell us it does not 
work this way. But for us to be leasing makes no sense 
whatsoever. We should own. It turns out that even when we lease 
we end up having to take care of the property anyway. If your 
relationship is like mine with my landlord, it is a big deal.
    Mrs. Emerson. If you will yield just for a second. One 
thing that you said in your testimony, I think it was on page 
14, you are requesting a new obligational authority for $5.3 
billion of rental space to provide 201 million rental square 
feet of lease space makes me very uncomfortable. I will come 
back to this during my questioning. I think we all tend to 
agree.
    Mr. Serrano. Yeah. I am really nervous about that. The fact 
that government leasing tipped over 51 percent, you said, and 
that should not be. I just sent out a tweet saying we are here 
with the biggest landlord and now you are telling me you are 
the biggest renter.
    Mrs. Emerson. You had better, you are going to have to re-
tweet your tweet.
    Mr. Bonner.
    Mr. Bonner. Madam Administrator, can you give us an update 
on the Federal courthouses that are on the GSA list for 
construction? And I say this in full disclosure, that when Mr. 
Serrano was Chair and Mrs. Emerson was the Ranking Member, this 
Committee had worked to help put a new Federal courthouse in 
Mobile, Alabama on their list. And I have thanked the Chairman; 
it is the Jose Serrano Federal Courthouse in Mobile, Alabama.
    But I want to make sure that I understand your testimony. 
It looks like you have got funding of $199 million for a 
Federal building and courthouse in Hawaii. Is that the only new 
project you have got in the budget?
    Ms. Johnson. Yes, as you can see, our budget is dominated 
by St. Elizabeths, and some FBI, and some remediation projects. 
And with regard to courthouses, we have one repair and 
alteration project for the Federal building in Los Angeles 
which does include bankruptcy courts. But the only full 
construction project that we are putting in the budget this 
year is the one in Hawaii.
    [The information follows:]

                 Construction Projects--FY 2012 Budget

    GSA, in the FY 2012 President's Budget, is requesting $198,650,000 
for a repairs and alterations project at the Prince Jonah Kuhio 
Kalanianaole (PJKK) Federal Building and Courthouse in Honolulu, 
Hawaii. This is not a new construction project.
    GSA proposes the second of a two-phase modernization project for 
the PJKK Federal Building and Courthouse located at 300 Ala Moana 
Blvd., Honolulu. The PJKK Federal complex was constructed in 1977 and 
consists of a nine-story Federal Building connected by an enclosed 
bridge to a five-story courthouse. The complex houses approximately 70 
agencies in 862,269 gross square feet (GSF) and serves as the main 
Federal center in the Hawaii and Southern Pacific areas.
    Phase I was funded under the American Recovery and Reinvestment Act 
of 2009. Phase I includes design services for the entire two-phased 
project (each phase was designed as independent projects) and multiple 
construction components including: repair/replacement of HVAC, fire and 
life safety, plumbing, and electrical systems in the courthouse; 
renovation of the courthouse and Federal Building second floor 
including public lobbies, common area corridors, and restrooms.
    Phase II construction components include: additional repair/
replacement HVAC, electrical, communication, fire protection, plumbing, 
and conveyance systems; sealing the building envelope and replacing the 
windows with energy efficient, blast protective glazing; realignment of 
the building layout to allow for the expansion and consolidation of 
multiple tenant agencies' space; conversion of portions of occupied and 
vacant space into mechanical rooms and an atrium for day lighting and 
air return; improvements to the interior tenant space; plaza repairs; 
and site security improvements.
    Phase II Design ($13,500 thousand) was funded by the American 
Recovery and Reinvestment Act of 2009. This request is for Phase II 
Construction ($185,050 thousand) and Management and Inspection ($13,600 
thousand). The estimated total project cost for Phase I and Phase II is 
$319,650 thousand.

    Ms. Johnson. Now, obviously the list from the courts is 
long and they have put their priorities forward, and we do our 
best to work with that in the constraints we operate in.
    Mr. Bonner. Well, my question is based, really, from an 
informational standpoint. We have had a healthy, robust debate 
over the last few years about what role Congress should play in 
directing agencies with earmarks. And earmarks are a bad name 
in much of America. If you could tell us, and the people back 
home throughout the country, how GSA determines that project A 
has greater value than project B, and especially if we are 
restricted in terms of self-restriction, but we are restricted 
nonetheless, in terms of the advice and encouragement we can 
give you. How do you make those decisions?
    Ms. Johnson. First of all, with respect to courthouses, we 
work very closely with the administrative office of the courts. 
And they have a priority list that they have to work on months 
themselves, which truly helps us. You really do not want to be 
the mediator of all your customers and their particular 
petitions. But working within that, then we need to make the 
trade-offs in our budget between the judiciary, and then, of 
course, the other significant and important projects in the 
rest of the federal portfolio, notably, now, as I have said, 
the Department of Homeland Security, the land ports of entry, 
the FBI, a number of security-related repairs and alterations. 
And that is also crowding the agenda, if you will.
    So we do this in part by trying to understand where an 
invested dollar will receive the most value. Where is the need 
the greatest; where are there other solutions? And, of course, 
we look across our portfolio in many of these cases and try to 
find out how we can be working within the portfolio we have.
    I do think the security issues, and those are some of the 
demands by the court, they really are in need of being assured 
that they are working in a safe environment. Those make 
buildings rather distinguished, unique, and that means we end 
up, I think, investing, perhaps more.
    We are trying to work with the courts more and more, using 
steady conversation, and other techniques for being sure that 
they are secure and safe. And there are other ways that we can 
go about this as well, within a tight budget.
    Mr. Bonner. So the project would have been on the court's 
list for years to get to this point?
    Ms. Johnson. It could be, yes. I would be happy to supply 
you with the encyclopedia on that. But no, I would be happy to 
give you the listing of the courthouse projects.
    [The information follows:]

                        Courthouse Project Plan

    The Prince Jonah Kuhio Kalanianaole (PJKK) Federal Building and 
Courthouse in Honolulu, Hawaii that is in the FY 2012 President's 
Budget is a repairs and alterations project, not a new construction 
project.
    The Courthouse Project Plan, as approved by the Executive Committee 
on behalf of the Judicial Conference of the United States, includes 
only new construction projects. With that said, the PJKK Federal 
Building and Courthouse repairs and alterations project would not be 
listed on the Courthouse Project Plan.

    Mr. Bonner. I know years ago, when the courthouse in Mobile 
was of interest, a courthouse in Little Rock all of a sudden 
jumped to the forefront, and it just so happened that we had a 
President from Arkansas, and the fact that we have got a 
courthouse in Hawaii, I just wanted to make sure that it has 
been on the list as a priority for a long time.
    Ms. Johnson. Yes, it has been. And we are in the process of 
doing a fair amount of construction of other courthouses. So 
each year is just a snapshot.
    Mr. Bonner. The other thing that would be of interest to me 
would be, how much of your request for new funding is going to 
be centered in Washington, DC, versus how much is going to be 
centered elsewhere, even if you count Homeland Security as a 
part of that, I am sure that is going to weigh it heavily.
    Ms. Johnson. I do not have the numbers. I can do the 
percentages, but our projects are St. Elizabeths, the request 
for 2012, the State Department Headquarters, and the Interior 
Department; and work on those three buildings. The rest is 
around the country, ranging from the land ports of entry on the 
northern and southern borders, data centers for the FBI in 
Virginia, upgrades to the Los Angeles federal building. And so 
it is dispersed around the country. I can get you those exact 
percentages.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Bonner. Okay. And then, lastly, could you, and I 
apologize, this may be in your testimony, I just did not see it 
at the top, the Chairman of the Full Committee brought to our 
attention, a few days ago, in another hearing, that the 
discretionary amount of spending, including the stimulus, we 
have an increase of 84 percent over the last couple of years; 
again, including the stimulus. How much of the stimulus, if 
any, did GSA occupy? And how does your budget request compare 
with five years ago and 10 years ago?
    [The information follows:]

                         Budget Request History

    How does your budget request compare with 5 years ago and 10 years 
ago?
    GSA response: The FY 2012 President's Budget requests $617 million 
in net budget authority for GSA. GSA net budget authority was $759 
million in FY 2006 and $457 million in FY 2001.

    Ms. Johnson. You mean the Recovery Act Stimulus Bill?
    Mr. Bonner. Yes.
    Ms. Johnson. The Recovery Act gave us about $5.5 billion, 
divided across investment in our fleet and preponderance in our 
building. It was a tremendous boost. It did a number of things. 
It really rejuvenated a great deal of our inventory, it greened 
it, it made it much more efficient, across the board. We have 
been able to upgrade buildings and start other buildings. We 
had a long list of projects that were ready to go.
    In fact, what was really interesting about it was that, as 
we worked down the list, the market was such that we were able 
to get much more competitive bids and the dollar went farther. 
So we were able to work down our list quite a bit.
    So 18,000 jobs is what the tally is so far for that 
stimulus work, and we are really shovels in the ground now. A 
lot of that is in major construction, now, so we are going to 
be continuing to see some real stimulus as a result of it.
    I have heard all kinds of numbers about the sort of backlog 
that we were working with before that, in the range up to 20 
billion, in terms of what we needed to do to revitalize the 
inventory. And it is like a car, if you do not do preventative 
maintenance it just begins to hiccup. And I think our buildings 
have been long in the tooth, and needed that. So we were able 
to do upgrades, and we were able to do the sustainability 
investments that have made them much more efficient, 
operationally, so I can get you the actual 10 years ago, 5 year 
ago numbers.
    Mr. Bonner. It would be interesting. Mr. Serrano, again, 
made a point with his questioning about H.R. 1. And while H.R. 
1 passed the House, it did not pass the Senate, and so 
therefore, in some ways, it is still a number that is in flux, 
if you will, as negotiations go forward this week in terms of 
whether we can avoid a government shutdown.
    Senator Kyl and I have long believed that Washington is 
disconnected from real America because we talk about trillions 
or billions, and most families cannot really put their arms 
around that amount of money. And yet, Senator Kyl came up with 
an analogy on H.R. 1 that you would be looking at a budget of 
$10,000, not billions or trillions, but if you had a $10,000 
budget, you would be looking to try to cut $28 out of that.
    I think if most American families were given the 
opportunity, they could find $28 in savings of a $10,000 
budget. That is the equivalency of the amount of money we are 
talking about. And yet, when we get into it, whether it is $61 
billion, or $100 billion, or however you look at it, it seems 
like an impossible task to cut that much money.
    So as the largest landlord, and as someone who has 
responsibilities the GSA does, and we all benefit from that 
with our district offices, and depend on the professionalism of 
your staff, it would be helpful for us to make sure that we 
understand that everyone is looking to try to find ways to save 
money at a time where we are not going to get out of this hole 
this year, or next year, or probably in the next couple 
decades. And that is the thing that a lot of people have not 
focused on: The hole is so deep it is going to be a long time 
getting out of it. But everyone, including GSA, is going to 
have to do their part. Thank you, Madam Chair.
    Mrs. Emerson. Thank you, Mr. Bonner. I have got a lot of 
questions; I do not even know where to begin. Let me just go 
back to the courthouse issue for process purposes only. So you 
all have the Hawaii courthouse on your request list. And Mr. 
Bonner said his Mobile, Alabama courthouse was ahead of the 
Hawaii courthouse. Yet all of the funds have not been 
appropriated yet for it, so why would you not just want to 
finish up the one, before we get started on another?
    Mr. Serrano. Can I interject something, Madam Chair?
    Mrs. Emerson. Yes, sir.
    Mr. Serrano. You and I take very seriously, and I think it 
is important to say this: Notwithstanding what you hear these 
days, every member of Congress, if they could have a brand new 
courthouse in their district, would have it. But in addition to 
that there are areas where it is very much needed. When I was 
Chair, and I realize that being Chair is totally different from 
being Ranking Member, we took seriously the need for Mobile, 
Alabama courthouse. And I am surprised that it would have 
disappeared from the list, and a new one would appear. Granted 
that the Chairman of Appropriations and the Senator is from 
Hawaii; and granted that the President was born in Hawaii; 
notice how I got that in?
    Mrs. Emerson. We all know that, Joe.
    Mr. Serrano. Right. Okay. So I can understand. If I was 
President, Puerto Rico and the Bronx would be in good shape. 
But I take this very seriously. I do not know why his 
courthouse disappeared from the list, and I am concerned. And I 
think we should know, and I think we make serious points when 
we say this, because we took very seriously, we just did not 
hand down a courthouse here and there to make people happy. 
This was done in a very studious way.
    Mrs. Emerson. It is a problem; how does that happen? And if 
Mr. Bonner was not sitting here I would still ask the same 
question, because I cannot figure out how that process works.
    Ms. Johnson. Let me give you a little bit, and then I will 
probably need to give you some more afterwards. But first of 
all, the Hawaii courthouse is not a new construction; it is a 
rehab, so that puts it on a slightly different list. It is a 
competing bid for, not for new construction money, but repairs 
and alterations; if I have got that right. So those are two 
different buckets.
    I can explain what I understand to be the process, which 
is, you get a tranche of money, and you are trying to move down 
the list and if something is so big that it does not fit in, 
you need to move to the next one so the priorities and the 
money are two moving lists.
    Mrs. Emerson. Right, I understand that.
    Ms. Johnson. And I will provide you more detail on the 
particulars of the Mobile, Alabama case.
    [The information follows:]

                     Mobile, AL Courthouse Project

    The Administrator committed to provide more detail on why GSA is 
not asking for additional funds for the new Courthouse project in 
Mobile, AL.
    GSA response: The initial design for the new U.S. Courthouse in 
Mobile, AL was completed in December 2004. Since then, design 
requirements have changed because of reduced space needs from courtroom 
sharing, other tenant changes, increased focus on energy performance, 
and the need to better mitigate potential threats from severe coastal 
storms. As a result, GSA now needs to redesign the courthouse before 
proceeding with construction. GSA is planning to start the redesign and 
proceed to the completion of concept stage. Once the concept stage is 
completed, GSA will have a better cost estimate and in the future will 
request the necessary funds for construction.

    Mrs. Emerson. In all the stove piping, it just seems to me 
that there just needed to be another round of funds provided 
for this courthouse, and then there would be enough and you 
could get it done. But to drag it out makes it cost more; we 
all know that, yet perhaps not if it was being done this year 
because you would still get a lot of bids. The construction 
industry is still in very dire straits. So that would be an 
opportunity to do that. I just worry about how that whole thing 
works.
    Mr. Bonner. Well, Madam Chair, if I might add that I 
appreciate you raising it, and I appreciated the Ranking 
Member's comments as well. I really was hesitant to even bring 
it up, quite frankly, because we are in a very vulnerable 
position. If it looks like we are advocating and directing you 
to do something, then we get in a lot of hot water in newspaper 
editorials, and back home. We are in a very awkward position, 
though, and that is why I was asking the question. Just to 
understand the process of how one goes to the top of the list. 
I know there are different pools of money, and different 
buckets, if you will, but I appreciate the Chair and the 
Ranking Member.
    Mrs. Emerson. Well, and it was not just to benefit you, it 
was really to understand the process, just because of when 
Hawaii popped up on there, I am thinking, wait a minute, we 
just did this other one, but we have not got it all figured out 
yet, and so for our clarification.
    Mr. Serrano. And I want to clarify that, also. This is not 
about telling you what to do. It is about the Committee had 
made a decision, that decision was well-received by everyone, 
and then, all of a sudden, it drops out of the list. So I would 
like to know, just in terms of what I did in the past. What 
success did I have? Why would it go off the list?
    Mrs. Emerson. Exactly.
    Ms. Johnson. Yes, I think the process should be 
transparent.
    Mrs. Emerson. Yes, and we could have another meeting on 
that sometime, post this hearing; that would be great.
    Mr. Bonner. Madam Chair, one more thing.
    Mrs. Emerson. Yes, sir.
    Mr. Bonner. The seats in the courthouse in Mobile are going 
to be coming from the old Yankee Stadium. I do not know if that 
means anything or not to the former Chairman.
    Mrs. Emerson. They are not going to be very comfortable, 
then.
    Mr. Serrano. I cannot afford one; they are selling for $750 
apiece.
    Mrs. Emerson. They are not worth it. Well, they are, for 
historic purposes. For historic purposes, they are.
    The old St. Louis seats, when we got our new stadium there, 
are very uncomfortable, I just want you to know.
    Mr. Serrano. When was the last time somebody in St. Louis 
sat in a seat and celebrated a World Series Victory?
    Mrs. Emerson. Thank you, in 2006.
    So, let me come back to property disposal. Thank you, Mr. 
Bonner. Of the $15 billion in estimated savings that we were 
talking about in the civilian property BRAC, is the three 
billion from when the President issued the memorandum directing 
agencies to produce no less than three billion in cost savings 
by the end of fiscal year 2012, from assets, sale, proceeds, et 
cetera, is this three billion part of your $15 billion?
    Ms. Johnson. Yes, well, the $15 billion is not all ours. I 
mean, GSA is only one piece.
    Mrs. Emerson. Right, okay.
    Ms. Johnson. Yes. That is all additive.
    Mrs. Emerson. That is an easy question, yes or no. Perfect. 
Thank you. Let me ask you about independent leasing, in 
particular some issues we have had with the Securities and 
Exchange Commission, and the fact that they have leased 
hundreds of thousands of square feet in anticipation of 
something that has not yet been stood up, if you will. And the 
incredible cost, waste of money that was.
    But we have got the SEC, we have the Federal Deposit 
Insurance Corporation, FDIC, and other financial regulatory 
agencies who do have independent leasing authority, so they do 
not have to go through you.
    Would there be any benefit from those agencies requesting a 
proposal from you all before soliciting a lease of their own, 
if only to, number one, depend on the expertise that you all 
have developed, but, number two, to serve as a point of 
reference?
    And since lease negotiation and management is not really 
the primary mission of those agencies, how does independent 
leasing authority ensure the safety and soundness of the 
financial market?
    Ms. Johnson. Let me begin by saying that we are quite proud 
of our expertise, and we are more than willing to offer it to 
any agency that is requesting it. We do look at the whole 
federal government as our customer, and they certainly have the 
right to exercise their independent leasing authority.
    We feel, frankly, the business case that we need to make to 
agencies, particularly when it comes to office buildings, that 
we can probably get the best deals and be smooth about doing it 
and that agencies insist on using their own leasing authority 
speaks something to their feelings that they know their mission 
more and want to move in that direction. We can be even more 
aggressive with agencies, being sure that they know our value.
    Mrs. Emerson. I would think that it would just make sense; 
having worked in the private sector and, at least, been a part 
of a senior staff that was involved in negotiation, I was not 
directly doing it. I mean, it was laborious, and nitpicky, and 
certainly, we were fortunate to have someone working for us, 
because none of us had the expertise to be doing this.
    Ms. Johnson. Well, it does require huge expertise. And 
sometimes people lose sight of that, and do not appreciate 
that, and see that as more bureaucratic than actually just the 
curlicues you need to go through. But I think it is that 
balance between their really wanting to be on top of what they 
have, and what they control, and what their mission is, and 
their delivery, and understanding that they have a lot of 
services they can avail themselves of.
    Mrs. Emerson. Yes, and it might be helpful for you to give 
us some recommendations.
    Ms. Johnson. Showcase what we could do for them.
    Mrs. Emerson. Yes, that would be helpful. And perhaps it 
would be helpful for you to be a little bit more aggressive on 
that front.
    Ms. Johnson. Well, that is really a top priority for me, to 
be sure, that we are out with customers. I talk about customer 
intimacy, and it is true. We need to visit people, know that 
they know what we can do.
    Mrs. Emerson. All right. And it helps you as an agency 
prove your worth, if you will. Let me just ask something really 
quick here because this is something I am not quite sure I 
understand. It was brought to my attention and it was one part 
of GSA I was not familiar with previously. And that has to do 
with the services that you give to other agencies with regard 
to financial advice. I think there are six little agencies for 
whom you provide that advice. What kind of education or 
professional credentials do GSA's financial advisers have? Are 
they chartered financial analysts, or Series 7 license holders, 
or risk managers? I am just a little curious about this.
    Ms. Johnson. There are a handful of agencies for whom we 
provide financial administrative services. And it is truly a 
mechanical service of being sure that they are recording what 
interest they are getting and receiving it. It is not financial 
advice, so we do not provide that kind of training. This is not 
about going to a financial adviser the way I would as an 
individual. I think those organizations are usually limited in 
government securities anyway, so there is a fairly tight range, 
and so we are completely and only a gearshift mechanism so that 
they do not have to do the administration. That is what we 
offer. It is not advice. It is not advice.
    Mrs. Emerson. It is not advice whatsoever. Okay. Is that 
something that you want to continue doing?
    Ms. Johnson. Well, we offer a lot of administrative 
services to agencies. And there are many small agencies that 
need all kinds of things. And I think it again positions GSA to 
sort of have to do everything for everybody. I am happy to do 
that, and I think it continues to demonstrate our value. When 
it is completely administrative like that, it is not a burden 
to us, but it would be to them. It is well within our capacity.
    Mrs. Emerson. How many people do you have in that office?
    Ms. Johnson. Oh, I do not even know. I will find out.
    Mrs. Emerson. I am just curious, because there is no way in 
your budget that I could figure that out.
    Ms. Johnson. I think it must be part of our financial 
services.
    Mrs. Emerson. Okay. I appreciate that. I have a few more 
questions, but go ahead, Mr. Serrano.
    [The information follows:]

                      Financial Advisory Services

    How many people are in the office that provides financial advisory 
services?
    GSA response: GSA provides a full range of accounting and financial 
services for 52 small Federal agencies and commissions. GSA services 
include: Accounts Payable, Accounts Receivable, Payroll, Travel 
Payments, Travel Relocation Audits and Payments, Collection of Debts, 
Billing, and Preparation of Daily Cash Deposits. In conjunction with 
these services, GSA also provides standard general ledger 
reconciliation, payment processing, systems analysis, training, and 
financial reporting.
    GSA services include trust fund accounting. When requested by 
customer agencies, GSA will also request that Treasury withdraw earned 
interest and deposit it in spending accounts. GSA transmits requests on 
a regular schedule that is determined by Treasury and the customer 
agency. GSA does not make decisions about what investments to make or 
when to make them. GSA provides this service for six customer Federal 
agencies: the Barry Goldwater Scholarship Foundation, Christopher 
Columbus Fellowship Foundation, Japan-United States Friendship 
Commission, Morris K. Udall Foundation, US Institute for Environmental 
Conflict Resolution, and the Eisenhower Exchange Fellowship.
    GSA provides accounting and financial services to all agencies and 
commissions with 23 accountants and accounting technicians. GSA 
accountants require a bachelor's degree in accounting. GSA accounting 
technicians require specialized experience in accounting or bookkeeping 
but do not have an educational requirement.

    Mr. Serrano. Thank you. You could not tell me a job loss 
figure. So I want to give you a number based on some 
information I have gotten. I have been told that the effect of 
H.R. 1 would amount to about 16,000 jobs lost through the 
economy through your agency. Is that wrong? Is it near the 
number?
    Ms. Johnson. That sounds high to me.
    Mr. Serrano. Well, what sounds right to you then?
    Ms. Johnson. Well, 16,000 jobs, that is, we have created 
18,000 jobs with our Recovery Act money, which is in the 
billions. So it just does not quite sound proportional. But I 
certainly will record that and double check.
    Mr. Serrano. Well, I would like you to double check it and 
maybe, at a later time, tell us how many, because whenever 
people come before us and we discuss the impact of the cuts 
that are taking place, and this H.R.1, while Mr. Obama said it 
was just a number that was floating out there, it does not get 
better every day. That number actually gets worse every day in 
terms of cuts. So I would really appreciate if you could, at 
one time soon, maybe before this hearing ends, but I do not 
think that will happen, just give me a sense of how many jobs 
you are going to lose. Every other agency that comes before us 
tells us that they are going to lose jobs. Are you going to 
leave here today telling me you are the only agency that is not 
going to lose jobs?
    Ms. Johnson. I am sorry, were you asking about the number 
of GSA employees that would lose jobs?
    Mr. Serrano. Private sector construction jobs.
    Ms. Johnson. Oh, yeah, that is what I thought you meant.
    Mr. Serrano. But you do not know?
    Ms. Johnson. Not right off the top of my head.
    Mr. Serrano. Okay, will you find that for us? Could you 
give us an estimate? Something we hear a lot about on this 
subcommittee is cost overruns and poor performance by 
contractors. Often these are the reasons cited when big IT 
contracts fail. What is GSA doing to provide more transparency 
and accountability on the part of contractors, and how will the 
upcoming contractor performance database help agencies make 
more informed choices about awarding contracts?
    Ms. Johnson. This is an important project. Its nickname is 
FAPIIS, F-A-P-I-I-S, and it is about taking the database that 
we have for internal uses to monitor contractors and what kind 
of record they have of performance. And to now turn it into a 
public-facing database. Clearly, you do not just turn a switch 
and have the public looking at your internal contracting 
database directly, so it is something that we have been working 
on. It will be released in April. And there are a couple of 
things: I think it is very important for the public to be able 
to see, and have much more of a transparent view of our 
contracting. And in fact, one of the things that I needed to 
elaborate on earlier with Mr. Womack's question, is that the 
Office of Government-Wide Policy is embarking on it, and some 
of the budget money that we are requesting is for the 
integrated acquisition environment, which is to put all the 
contracting data in a place that is together and easy to get to 
and connects with the same tag number, so that people can track 
through the numbers stated. So, first of all, we need to be 
more transparent altogether, and this FAPIIS database is part 
of that effort to allow people to see into the database. But 
for the most part, we have an Inspector General capacity, we 
have contract managers, and I must say that our contractors are 
honest and have integrity, and are solid performing. It is 
important to them to know we have an eye on them, but I want to 
be careful not to disparage the tremendous work of the 
construction industry management and the whole surrounding 
contracting database that the contractors are setting up with 
the government.
    Mr. Serrano. Okay. Now, we touched on this subject before, 
but I just want to take you there again on this whole issue of 
leasing versus construction. What factors does GSA take into 
account in deciding whether a particular facility should be 
matched with the right federal construction, ultimately, 
because I think you heard from all of us, and we are concerned 
that you are now 51 percent leasing. We should own the property 
instead. It is the American Dream and it affects federal 
government, too.
    Ms. Johnson. There are, of course, many considerations, and 
these are probably no surprise to you. For agility reasons, 
there are agencies that, at times, need short-term space. The 
census is the great example of that. They are not ones for 
which we would think about having permanent facilities. On the 
other end, we have the judiciary, which we know is going to be 
around for hundreds of years.
    And so, we do want to be sure that wherever possible we are 
building for them and securing that kind of facility. And then 
there is a retaining level. So the trade-offs are the need for 
flexibility, the amount of people that need to be in and out, 
and oftentimes this is in conjunction with a built space, like 
with the Department of Homeland Security. We have a number of 
people in a number of lease spaces. We are trying to 
consolidate them into an owned space, and so they are temporary 
quarters. In many cases in cities where there are lots of 
available office space, and office space does not have special 
security, it does not need all the kinds of things that some 
federal missions require, then it is strictly a financial 
trade-off, what makes the most sense. And then the fundamental 
issue is getting the money ahead of time and altogether to be 
able to build the building and to be able to put the case 
forward, and go through that whole process. So sometimes there 
is just plain agility in terms of delivering space to people.
    Mr. Serrano. Let me ask you something further on this. At 
every agency and every corporation and any group, there are 
always decisions being made through a lot of in-house lobbying, 
as we have it here in Congress, about budget funding. And we 
have stated, we believe in consolidating, we believe in cutting 
waste, but cutting for the sake of cutting, just to reach a 
bottom line does not make any sense. On this issue, inside GSA, 
is there a leasing lobby versus a construction lobby? I mean, 
people who are giggling in the background here, are they broken 
into two different groups?
    Ms. Johnson. Not in my office. Not in my office.
    Mr. Serrano. Because I am trying to figure out how these 
things are decided. Because we obviously went too much into 
leasing in the opinion of this committee, and so how did that 
happen? Was it just a coincidence? Were some decisions made and 
no one paid attention to where that was going, and it did not 
matter? Or was there a group inside saying, leasing is the way 
to go?
    Ms. Johnson. No. There is not an inside lobby. These are a 
matter of business decisions constrained by the amount of 
appropriations and the schedule we have. I do want to tell you 
one story, because I want you to understand that I believe in 
this deeply, that we should be in federal space wherever 
possible, and that we need to be inventive and innovative about 
how to get there, because the workspace is changing. We are no 
longer in a world where everybody needs their ten square-feet 
of office cube. We are more able to work virtually; we are more 
able to work in a number of different places. So GSA is 
committing in the renovation of its headquarters, which 
typically houses about 2,000 people. As we go through the 
renovations, and we are dispersed into some swing space, and 
when we return to that building, we are taking all of GSA in 
the D.C. area into that building so that we can house 6,000 
people, and we can give up all the leases. We want to 
demonstrate that it is possible not to just consolidate by 
squeezing, but to maximize the use of our space because work is 
changing. And it is a real Judo, this is a whole new way of 
working, and I think this, of course, is an opportunity to use 
our property much more wisely, and in our case, get out the 
number of leases. So I am trying to set that example, too. I 
just want you to know my heart is in this. There is no leasing 
lobby.
    Mr. Serrano. Okay, thank you. Madam Chair, the Cardinals 
Park, is that leased from the city, or is that owned by the 
Cardinals?
    Mrs. Emerson. I guess it is owned by the taxpayers, Mr. 
Serrano, because we had to pass a bond issue to pay for part of 
it.
    Mr. Serrano. They will pay it back. Thank you.
    Mrs. Emerson. Not affordable, but yes. Yet they are all 
sold, so what can I tell you? Ms. Lee.
    Ms. Lee. Thanks very much. Let me ask you a couple things 
about how the rental rates are determined for, say, the federal 
building. Many of us choose to have our Congressional offices, 
in the Federal Building, or in the GSA building. However, the 
rents seem to be a bit exorbitant compared to what the rents 
are in commercial space. I have resisted moving into commercial 
space, because I like being in the Federal Building. But every 
time this comes up, I have to look at this very closely, 
because I do not know how you all determine whether you go up, 
or down, or base your rates on fair market fluctuations, in-
rates, rental-rates in the region, and city. How is that 
determined?
    Ms. Johnson. I am going to summarize, and then I need to 
get you more information, because it is not a simple question, 
if you will, and there is a lot of process underneath it.
    [The information follows:]

                            GSA Rental Rates

    How is rent determined in Federal buildings?
    GSA response: By law, GSA rental rates must approximate commercial 
charges for comparable space and services. GSA calculates rental 
charges for Federally-owned space based on independent appraisals, and 
rental rates for leased space are based on actual lease costs, plus a 
fee.
    GSA calculates rental charges for Federally-owned space based on 
the appraised value of the building. Rental rates are established for 
five-year periods, and include a ``shell rate'', which remains constant 
during the five-year period, and a ``base year operating rent'', which 
increases each year. GSA appraises space at least every five years; 
however, GSA may appraise space more frequently, to reflect changing 
market conditions, new tenants, varying schedules in the occupancy 
agreement expirations, or for backfill of vacant space.
    Rent for leased space is a pass-through of the underlying lease 
contract, plus the cost of any building services not performed through 
the lease and a lease fee. Both the operating costs and the real estate 
taxes that GSA pays to the lessor are passed through to the tenant 
agency.

    Ms. Johnson. Federal buildings where we have 5,000, 10,000 
employees, and how we charge rent to those agencies is based on 
a number of factors. It is obviously about the cost of the 
building itself. But when we own a building, and we are not 
paying a mortgage and interest on it; it is sort of an 
interesting business case calculus.
    When we are putting people in the leased space, those rates 
are directly paid to the lessor, and so those are also market, 
those are what we have been able to negotiate, and hopefully as 
good and as competitive as possible. So it depends on whether 
you are in leased or owned space, and then how that owned 
structure is managed through the building fund, in order to 
build the building fund and cope with the business case where 
the building is already paid for and we are not trying to 
rebuild it, but we do need to keep an eye on building out 
further inventory across the federal government. So it is an 
integrated set of issues when it is a Federal building, when it 
is an owned building.
    Ms. Lee. Leased.
    Ms. Johnson. Leased buildings are market set, we are on the 
market, and we are leasing space on the market. They are 
negotiating with us, we get a deal.
    Ms. Lee. Okay. I think then, just for the ninth 
Congressional District, I believe we are federal, it is owned 
by the Feds.
    Ms. Johnson. Okay.
    Ms. Lee. I think we own it, the Federal government.
    Ms. Johnson. Okay.
    Ms. Lee. And we are paying you the money.
    Ms. Johnson. Yes, those rents are not as easily traceable 
to an individual negotiation in market and there are a lot of 
pieces to it. There are a lot of pieces to it.
    Ms. Lee. Okay. Yeah, I would like to, at some point, see 
it.
    Ms. Johnson. Like the Marshals Service.
    Ms. Lee. Yeah.
    Ms. Johnson. And the security, and all of that.
    Ms. Lee. Security, I mean, I know all that.
    Ms. Johnson. They are huge expenses.
    Ms. Lee. I also know there is other space where the 
security would be almost comparable, and other kinds of 
services that are lower. But, again, I would just like to kind 
of understand a little bit better.
    Ms. Johnson. Of course. Of course.
    Ms. Lee. Thank you.
    Mrs. Emerson. I might say we have the same sort of issue 
with which we are dealing right now, so I understand that. I 
want to talk about a new subject. No more leasing. Well, 
actually, I take that back. No more building leases. But you 
talk, in your testimony here, about, you say GSA also plans to 
pilot plug-in hybrid electric motor vehicles in the federal 
fleet, but lacks statutory authority to purchase them. So, why 
do you not talk to us a little bit about this, it is of great 
interest to me, given the fact that we do now, actually, have 
companies in the United States who produce, not that they are 
getting ready to produce, but they do produce electric trucks, 
electric cars, and why is it not possible for you to purchase 
these?
    Ms. Johnson. It is not that we cannot purchase them, it is 
that the pricing level is arbitrarily low.
    Mrs. Emerson. So why do you not explain this?
    Ms. Johnson. So what we need to do and what we are asking 
for is a rising of the statutory price limitation on what we 
can spend on vehicles. We have over 450 types and models of 
vehicles. So there is a lot of complexity to the fleet. We buy 
our fleet, for the most part, and then lease them to agencies. 
So an agency would lease a car, a truck, or runaround from us. 
So we are seeking to buy electric vehicles. Now, we are also 
exploring the possibility of leasing them to see if that is a 
better business case. Electric plug-ins are a new item on the 
market. OEMs, at this point in our conversations, are not 
interested in a leasing conversation. And I personally think it 
is part of the fact that it is a new product, and they want to 
negotiate and then have them just move on through the cycle. 
They do not want to reclaim them, for the most part, there 
might be other instances. But we are looking at whether we 
should be buying them or leasing them, but the price limitation 
is keeping us from buying them.
    Mrs. Emerson. Okay, so say there was, the price limitation 
was lifted, given the new technology, you would be able to 
consider leasing them. I understand there is the whole issue of 
how do you determine the residuals on an electric vehicle 
versus how it works on a regular, traditional car or truck, 
whether it is gas or diesel. But the wear and tear is much less 
on an electric vehicle, at least as far as the pieces inside 
go. Not that there are too many, you just need to pop new 
batteries in there, and put new tires on, and maybe change a 
hose or two. So what precisely do you need? You say you need to 
have the price limit lifted. And then, do you have to have 
special legislation enabling you to do a lease versus the 
purchase?
    Ms. Johnson. No.
    Mrs. Emerson. Okay.
    Ms. Johnson. What we have to do is figure out if the OEMs 
will do a deal like that, and figure out if it is the better 
business option.
    Mrs. Emerson. Okay.
    Ms. Johnson. So we are going to be looking at that, and 
when you are doing that pilot, and there are sort of 
distortions to a business case, that we would then obviously 
redo it, if we went into any kind of volume purchasing.
    Mrs. Emerson. Okay.
    Ms. Johnson. Or leasing.
    Mrs. Emerson. Because I would think that, based on 
projecting out, the higher cost at the front end saves you 
money at the back end, especially with the price of fuel right 
now, whether it is gas or diesel. I mean, it is getting a 
little bit out of hand.
    Ms. Johnson. Well, we are delighted that our fleet is as 
efficient as it is, and we are saving a tremendous amount on 
fuel because we have so many alternative fuel vehicles. Two 
thirds of the fleet purchases are in that direction. And that 
is why we want to experiment with the hybrids. See how they 
function in altitudes, see how they function in muggy climate, 
in cold climate, all that.
    Mrs. Emerson. Sure, sure.
    Ms. Johnson. And we certainly want to get the best value we 
can, and right now it would be about a hundred, but I think we 
could command a deal. But we have got to figure out what that 
is.
    Mrs. Emerson. And, but you have to have the statutory 
authority?
    Ms. Johnson. For the pricing, yes, we are a little bit 
caught there.
    Mrs. Emerson. What is the upper limit?
    Ms. Johnson. I do not know. I do not remember.
    Mrs. Emerson. I do not know what it is.
    Ms. Johnson. Do you know?
    Mrs. Emerson. Okay. No, that would be, I would be 
interested.
    Ms. Johnson. I would be happy to keep you up on that.
    Mrs. Emerson. If you can get some more information on that. 
It could, in the long run, end up saving an awful lot of money.
    [The information follows:]

                       GSA Motor Vehicle Pricing

    What is the amount of the Statutory Price Limitation on motor 
vehicles?
    GSA response: The statutory price limitation, established by 
section 702 of Division C of Public Law 111-117, limits the price a 
Federal agency may pay for a new motor vehicle to no more than $13,197 
for a passenger vehicle (excluding buses, ambulances, law enforcement, 
and undercover surveillance vehicles) and excluding station wagons, 
which have a maximum price of $13,631. Law enforcement vehicles may 
exceed the statutory cap by $3,700 and special heavy-duty vehicles may 
exceed the cap by $4,000.
    Section 1575 of the FY 2011 Appropriations Act (P. L. 112-10) 
created an exception to the Statutory Price Limitation for any vehicle 
that is a commercial item and which operates on emerging motor vehicle 
technology, including but not limited to electric, plug-in hybrid 
electric, and hydrogen fuel cell vehicles. However, unless extended, 
this exception will expire on September 30, 2011.

    Ms. Johnson. Yes.
    Mrs. Emerson. In an urban or metro environment. Those 
electric vehicles cannot pay for themselves in a rural area, 
like where I live. But certainly where Joe lives, you would be 
able to save a lot of money, I believe.
    Mr. Serrano. Some folks in my district, in the Hunts Point 
Produce Market, it is important to the northeast and beginning 
to move in that direction. You are right, the problem is the 
initial cost. It is not like buying a Chevy.
    Mrs. Emerson. Right, it is interesting, there is a company 
in Missouri, in Kansas City, I live diagonally across the state 
from there. But a company that got some Recovery Act monies, 
and instead of building the factory there, they had the factory 
and they used it to encourage the private sector to purchase 
these vehicles, and gave them a discount. And so now Frito Lay, 
for example, has every single one of its medium box trucks all 
electric now.
    Mr. Serrano. That was a great program, the Recovery Act.
    Mrs. Emerson. Well, I am not saying that it was, I am just 
saying that this was an innovative use of stimulus funds.
    Mr. Serrano. I could not help myself.
    Mrs. Emerson. I know you could not, I know you could not. 
But I will say this about you guys got a new stadium in New 
York and we got a new one in St. Louis, but it still costs $175 
to get a ticket to go to a Yankees game. It is ridiculous.
    Mr. Serrano. That is in the bleachers.
    Mrs. Emerson. Bleachers. Yeah, that is pretty high up 
there.
    Mr. Serrano. Yeah.
    Mrs. Emerson. One-hundred and seventy-five dollars. I know, 
because, but, needless to say, it is not something a normal 
family could do. Anyway, let me ask you about the Federal Food 
Donation Act, which is kind of near and dear to my heart. The 
final regulations were incorporated into the Federal 
Acquisition Rules in 2009. Do you all monitor how many times 
the food donation clause is exercised by other agencies?
    Ms. Johnson. I am not sure we do, but I will double check. 
I do know that we are monitoring, when we are letting another 
concession, whether or not they are giving us a business plan 
that would show some sort of sensitivity to donate.
    Mrs. Emerson. Okay. So how do you work with the vendor 
community to encourage the donation of the food that otherwise 
gets trucked in a landfill or what have you?
    Ms. Johnson. Well, a couple of different ways. Because 
there are no cost contracts it is more by example than by 
people being eager and interested. But I think that is where, 
by requesting a business plan that incorporates that, we are 
signaling it is important to us. And therefore, we are going to 
be paying attention to that as we let the contracts. And I 
think that is a good place to have some leverage.
    I will also say that there is a lot of interest on the part 
of the federal workers, and the administration is very keen on 
wellness. So there is this whole notion of, let us look at the 
cafeterias and get some better food and better processes for 
environmental sensitivity to them.
    Mrs. Emerson. Well, I am just curious because I had been 
talking, a couple years ago, to the Commander of Fort Leonard 
Wood which is an Army post in Missouri, again not my district, 
but with regard to the Federal Food Donation Act. They have so 
many catering opportunities there and otherwise the food just 
goes to waste. So they have actually taken it upon themselves 
to go into some kind of memo of understanding with a couple of 
our food banks in that particular part of the state, and it is 
working really well. It just seems so sad, and particularly 
with so many people hurting during the economy we need to take 
advantage of every opportunity to save good food, and not waste 
it.
    Ms. Johnson. I agree, and I think it is through our model 
in our profile on this that people can see it is important to 
us.
    Mrs. Emerson. Yes, and thank you. I just hope you all will 
keep promoting this because it is very important.
    Okay, I have one last question then I have several for the 
record that I would like to ask you all to try to reply within 
30 days. I hope that is not pushing it too much.
    The Dodd-Frank Act created numerous new offices and among 
those are the Consumer Financial Protection Bureau, the Office 
of Financial Research and the Federal Insurance Office. Have 
these offices, to the best of your knowledge, do you know if 
those offices have approached GSA for assistance with leasing 
space or contracting for administrative services such as 
personnel or accounting?
    Ms. Johnson. Yes, we have been, from the front, trying to 
be supportive and helpful in getting them up and going, and I 
believe we are moving forward on some leasing work with them. 
And we have also been advising them about technology and how to 
think about setting up an office in these days. There are so 
many more ways of doing it in thinking about cloud computing, 
and the technology available, so we have been doing a fair 
amount of discussion with them about possibilities.
    Mrs. Emerson It is interesting because we have parts of all 
these other existing regulatory agencies that are going to move 
into that Consumer Financial Protection Bureau, and so it is 
going to have some kind of an impact, I should think, on space 
requirements of the existing agencies. So I do not know how you 
juggle everybody, but have you been approached by the other 
agencies, not by the Consumer Financial Protection Bureau, but 
the agencies that have large chunks of personnel who would be 
moving into that?
    Ms. Johnson. I am not briefed on that. I will get that to 
you.
    Mrs. Emerson. Okay.
    [The information follows:]

            Consumer Financial Protection Board Space Needs

    Has GSA been approached by agencies other than the Consumer 
Financial Protection Board (CFPB) who will be required to transfer 
large numbers of personnel to the CFPB for assistance with space or 
other administrative services?
    GSA response: The Treasury Department has requested that GSA obtain 
space for the Consumer Financial Protection Bureau (CFPB). GSA is not 
aware of any contacts from any other agencies for space needs resulting 
from the establishment of the CFPB.

    Ms. Johnson. But I certainly know we have been working with 
the Consumer Financial Protection agency specifically.
    Mrs. Emerson. All right. Because part of the Comptroller of 
the Currency goes there.
    Ms. Johnson. It would normally be part of our regular 
routine to support agencies as they are freeing up space and 
identifying that and continuing to move people around.
    Mrs. Emerson. Right, but since they are moving large chunks 
of people it seems that you would now have extra space 
available, and I do not know if it is an owned building or a 
leased building. So any more information that you would be able 
to provide, I would be grateful.
    Ms. Johnson. I would be happy to.
    Mrs. Emerson. All right thanks. Mr. Serrano.
    Mr. Serrano. Thank you. I have just one more question, but 
I do have a bill that gives tax breaks for businesses in areas 
that do not meet the clean air standards to purchase electric 
vehicles.
    Mrs. Emerson. Well, let me take a look at that.
    Mr. Serrano. See how we do business, it is amazing. Thank 
you for bringing us together.
    Ms. Johnson. My pleasure.
    Mr. Serrano. One last question. The budget request contains 
$34 million for electronic government projects. We heard from 
Commissioner Steven Kempf about GSA's efforts in this area, 
along with GAO, and OMB. H.R. 1 cuts this request to $2 million 
which would ensure the projects like the IT-dashboard stop 
operating. What is the impact of H.R. 1 on these projects and 
how does GSA anticipate that these projects will eventually 
return money to the American taxpayer? What is the rate of 
return on these projects?
    Ms. Johnson. These projects are near and dear to my heart 
and they are in jeopardy with the current budget situation. The 
open government, the publishing of data, the USAspending.gov on 
some of the other dashboards, and so on, are, I think, 
incredibly critical new tools for the American public to know 
what is happening with their government. And the public is 
getting accustomed to this; we have millions of people coming 
to USA.gov. In the course of a year it jumped 30 percent in one 
year so it is beginning to be viral, how many people are 
depending upon understanding their government online. So I am 
quite concerned that our dashboards and our public facing 
services are in jeopardy.
    I do not have an exact ROI, I do not know how you would 
calculate an ROI for the value of open government, but I can 
speculate that the confidence that people will have in the 
government will only increase if they can see what is 
happening. And they will provide us the feedback and the raised 
hands when they see things funny in the data and they can raise 
questions. It just makes us so much more interactive and it 
gives us the power of the citizenry to help us to view what is 
going on. The ROI for that I do not know how to put it in 
dollars and cents to give you some understanding of the 
expenditures.
    Mr. Serrano. Right.
    Ms. Johnson. But for relatively little money to be that 
transparent is huge.
    Mr. Serrano. Yeah, we appreciate that transparency is 
important. There seems to be a contradiction here and again, 
that is where the budget cuts get in the way. A lot of folks of 
this country on both sides of the political spectrum are saying 
we need to know more about what government is doing and how it 
is doing it. And yet you see committee meetings, and committee 
hearings, and in all honesty not the Chairwoman, but other 
people on this committee say we got to cut that. Why do you 
need that website? For instance we had this website for the 
Consumer Product Safety Commission where you could put up a 
complaint and the private industry would come on and say, No 
that is not true, or that never existed, or that report is not 
true. We think that is good, but some people do not want that 
information out there so it is very confusing. I want to thank 
you for your testimony for my part, but remind you of three 
things. One, I still think we are going to lose jobs to the 
private sector; I wish you could get back and tell us. I 
realize that federal agencies now find themselves in a little 
difficulty with a Republican House and, I think, a Democratic 
Senate.
    Mrs. Emerson. Most Republicans would vote Democratic.
    Mr. Serrano. Right. Sarcasm is not my strength; I do not 
know about the Senate. You do not have to comment on this, but 
I know that people are kind of balancing their comments but I 
think Republicans and Democrats want to know if 16,000 jobs 
would be lost or 10,000 jobs or 5,000 jobs; that helps both 
sides.
    Secondly, I hope that you can begin to show us that owning 
is better than leasing. And lastly, and very carefully because 
we do not tell you folks what to do, but I am interested to 
find out why the Mobile Alabama courthouse dropped out of 
sight. I am all for Hawaii. Thank you so much.
    Mrs. Emerson. Thank you, Administrator Johnson for being 
here today and I look forward to following up on several items. 
I understand we all are trying to live in a climate where we 
are using every dollar as wisely as possible, and I appreciate 
the work that you all are doing to become more efficient and 
less unwieldy, if you will.
    Anyway, please always know that you can call upon us, and I 
certainly will look forward to you getting back to us on 
several items not the least of which is, not only to answer our 
questions that we submit, but also on things that we can be 
helpful with regardless of the subject matter.
    Ms. Johnson. Did you have questions for the record?
    Mrs. Emerson. We do have questions for the record so they 
will be given to you, and then if you could get back to us in 
30 days.
    Mr. Serrano. I have questions for the record.
    Mrs. Emerson. And Mr. Serrano has questions for the record. 
My guess is that my other colleagues will also have questions 
for the record.
    Mr. Serrano. Mine will be in Spanish, try that.
    Mrs. Emerson. And, anyway, we also appreciate the fact that 
your regional administrators are here, and I can certainly say 
that our regional administrator from Kansas City is very well 
liked by our office and has gotten off to a very good start.
    Mr. Serrano. Can I ask a quick question? Is the New York 
region still New York, New Jersey, Puerto Rico, and the Virgin 
Islands? That has to be one of the greatest, shall we say, 
political decisions made in the 1950s.
    Mrs. Emerson. So, Mr. Serrano wants to know if you will 
take them on a field trip when you go.
    Mr. Serrano. I mean, if you look at the map right? I mean 
we are all for it in New York we think it had to do with a 
certain community in growing numbers in the 1940s and 1950s. 
But when that decision was made people said, It makes sense to 
us, in New York. But does it make sense in the rest of the 
world? New York, New Jersey, Puerto Rico, Virgin Islands, I 
love it.
    Ms. Johnson. Well, you are very fortunate.
    Mr. Serrano. I am sure Florida wanted it.
    Mrs. Emerson. Anyway, thank you again, very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                            Tuesday, March 1, 2011.

                        INTERNAL REVENUE SERVICE

                                WITNESS

DOUGLAS H. SHULMAN, COMMISSIONER, INTERNAL REVENUE 
    SERVICE
    Mrs. Emerson. The hearing will come to order.
    Thank you so much, Joe, for being here today, and I want to 
thank Commissioner Douglas Shulman of the Internal Revenue 
Service. I would like to also say, and I guess we will have 
other Members come in, but consider yourself lucky. It is just 
us today, a nice intimate setting. But we are going to have to 
adjourn this hearing before floor debate begins on the 
continuing resolution at noon because we are not supposed to 
conflict with it.
    Last month we had two very productive hearings with agency 
inspector generals, but this is our first agency budget 
hearing. So you are number one, and so we really appreciate so 
much you being here today.
    As my colleagues have heard me say before, and when H.R. 1 
was considered on the floor, the Federal Government's $14 
trillion debt compels the Appropriations Committee to reduce 
Federal spending to fiscal year 2008 levels. This will require 
a 17 percent reduction in spending from fiscal year 2010 for 
this subcommittee, and I am committed to holding as many 
hearings as possible and learning as much as we can so that we 
can make informed and the most judicious recommendations and 
reductions possible.
    When I think of the IRS, I guess when everyone thinks of 
the IRS, I am both deeply appreciative of the work that you all 
do, but I am also very concerned. The 24-hour/7-day work that 
you do around the clock to assist taxpayers comply with their 
obligations and the work that you all do to pursue tax cheats 
who undermine our voluntary system is very good. You have 
really improved and I am very pleased with that. I know you are 
proud of the work that your staff has done.
    On the other hand, I am concerned quite a lot about the 
growing number of social programs being implemented through the 
Tax Code. These programs significantly increase the IRS' 
expenses and reach into the private lives of Americans. For 
example, the fiscal year 2012 budget includes nearly half a 
billion dollars to implement the health care law. Say what you 
will about the health care law, but half a billion dollars is a 
lot of taxpayer money; and future requests for more funding are 
forthcoming, I have no doubt.
    So, once again, I want to thank you so much, Commissioner 
Shulman, for being here. I appreciate the good work that you 
are doing, and I look forward to your testimony.
    With that, let me ask my brother and cochair here Mr. 
Serrano for his comments.
    Mr. Serrano. Well, thank you. And this wouldn't be a proper 
hearing if I didn't say something about the Cardinals.
    Mrs. Emerson. Okay. I am ready.
    Mr. Serrano. People will be paying a lot of taxes in the 
next 10 years.
    Mrs. Emerson. I don't know, what do you think about the 
idea of a 10-year contract, though? When you are 31 years old, 
that is a bit much.
    Mr. Serrano. You should only get a 10-year contract when 
you are in Congress.
    I would also like to welcome Commissioner Shulman to 
today's hearing. He has testified before us several times 
before, and I look forward to hearing what he has to say about 
both the fiscal year 2012 budget request for the IRS and the 
impact on the IRS of the numerous remaining funding issues for 
fiscal year 2011.
    At the outset I must note that we are in a very strange 
situation here today. We are here to review the proposed 2012 
budget request without having finished the fiscal year 2011 
appropriations process. Moreover, there is a stark contrast 
between the levels included in the House Republican CR for 2011 
and the President's fiscal year 2012 budget.
    The President's budget robustly funds the IRS for fiscal 
year 2012 for what I believe are good reasons: The IRS collects 
the vast majority of revenue that allows our government, the 
Department of Defense, and the Department of Education to 
operate. It helps to ensure that our Tax Code, which everyone 
agrees is extremely complicated, is administered in a fair 
manner, and it helps to prosecute those who seek to cheat the 
United States Government. Unfortunately, we must compare this 
robust request with the funding level provided in the House-
passed continuing resolution. That resolution cuts IRS funding 
by approximately $600 million from last fiscal year.
    While I appreciate the sincerity of the belief among my 
friends on the other side of the aisle in their desire to 
reduce spending, I think such cuts to the IRS budget are very 
misplaced. It makes little to no sense to impose harsh budget 
reductions on the very agency that raises the vast majority of 
revenue. Should the House-passed funding level actually become 
law, I think the end result will be fewer taxes collected from 
tax cheats, fewer services for taxpayers, an increase in the 
tax gap, and ultimately an increase in our deficit over the 
next year.
    Finally, I would be remiss if I did not discuss the other 
possibility should the House and Senate not come to an 
agreement on a continuing resolution. It should not be news to 
anyone here that we are now 3 days away from a possible 
government shutdown. Even with the potential of a 2-week 
continuing resolution, we are likely to be in the same place in 
the near future. Any shutdown would have a serious impact on 
the numerous services and activities that Federal agencies 
normally engage in.
    Should such an event come to pass, I am interested to find 
out what services the IRS will have to shutter and what the 
impact will be on tax enforcement, tax returns processing, and 
taxpayer refunds.
    Mr. Shulman, I put a lot before your plate, but we have 
worked together for a few years now, and I know of your 
commitment and your talent and your ability. So we stand ready 
to listen to your testimony.
    Mrs. Emerson. Thank you, Joe.
    I would like to recognize you, Commissioner Shulman, for 5 
minutes. If you can keep it at that, and then we will have lots 
of questions for you. Thanks.
    Mr. Shulman. Thank you, Chairwoman Emerson, Ranking Member 
Serrano, Ms. Lee, for having me before the Subcommittee to talk 
about the budget environment and the 2012 Budget Submission by 
the President in particular.
    The 2012 budget was crafted during a time of fiscal 
austerity and belt tightening. What that means to me and this 
Agency, and in our dialogue with OMB, is finding savings where 
we can, and then investing in strategic priorities that will 
help the tax system improve.
    Against this backdrop I think the budget makes clear that 
the IRS is vital to the functioning of the government and 
keeping our Nation and our economy strong. In 2010, we 
collected $2.3 trillion in revenue. For every dollar the IRS 
spends, about $200 comes in to the Federal Government. We 
processed 140 million returns and put $312 billion of refunds 
into the economy.
    I think it is in recognition of this critical role that we 
play that the 2012 budget has judicious investments in our core 
programs, as well as funding for new provisions in the Tax 
Code.
    The budget also tries to keep the balance between service 
and enforcement, and makes sure we administer the law in a fair 
way.
    I will also note the budget has the necessary funding to 
finish our core taxpayer account database, our centerpiece of 
our modernization program, for this upcoming 2012 filing 
season. If we finish this core database and get funding for it, 
it will mean faster processing of all returns, expedited 
refunds for 140 million individual taxpayers, and enhanced data 
security.
    I want to emphasize that, because of our unique revenue-
raising functions, the investments in our budget more than pay 
for themselves and directly contribute to deficit reduction.
    I also want to point out that this budget, like last year's 
budget and the budget before that, includes significant 
efficiency savings. So even though we are asking for a net 
increase, in this budget we have $190 million of targeted 
efficiency savings. In this current environment, I challenged 
our leadership and everyone at the IRS to find savings where 
they can, recognizing the situation we are in.
    Let me briefly turn, before I conclude, to a related 
matter, which is H.R. 1, the continuing resolution to fund the 
government. Under the House version, the total fiscal year 2011 
funding would be $603 million below the 2010 enacted level. I 
would be remiss in my responsibilities as IRS Commissioner if I 
didn't spell out the effects that such a large reduction would 
have on our ability to carry out our mission, to the fiscal 
health of the Nation, and the integrity of the tax system.
    If H.R. 1 were enacted, the IRS would need to make 
substantial, immediate cuts to its enforcement programs. We 
estimate that an action of this magnitude would reduce direct 
enforcement revenue this year by about $4 billion. In other 
words, a dramatic reduction in IRS funding would actually 
increase the deficit by about seven times the magnitude of the 
proposed reduction. Moreover, such a conspicuous drop in 
enforcement activities could have an impact on longer-term 
voluntary compliance.
    We would also be forced to dramatically reduce the 
resources to taxpayer services, leading to millions of 
unanswered telephone calls, delayed processing of 
correspondence, and potentially delayed processing of refunds.
    With that said, I want to be clear that I recognize the 
challenging environment that we are in. I appreciate that this 
Committee has to make difficult choices on behalf of the 
American people. And so, I look forward to a constructive 
dialogue over the coming weeks and months, and I very much 
appreciate the continued support that this committee has shown 
the IRS.
    So that concludes my testimony. I think I kept it under 5 
minutes.
    [The prepared statement follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                          AFFORDABLE CARE ACT

    Mrs. Emerson. You did great. Thank you very much. And I 
appreciate the fact that you have broken down for every dollar 
spent, this is how much you bring in. That is helpful for all 
of us to know.
    My first set of questions is going to be about the health 
care law. This is the first request that the IRS has made to 
Congress for it. You say in your written testimony, that some 
of the provisions of the bill went into effect immediately upon 
enactment, such as the small business health care tax credit, 
the qualifying therapeutic discovery credit and expanded 
adoption credit. Consequently, you all must have already spent 
some funds on health care in both fiscal years 2010 and 2011. 
So can you tell me how much you all have already spent, and how 
many employees worked on health care in fiscal years 2010 and 
2011, and what source of funding you used for that first 
question?
    And then, second--well, anyway, why don't you go ahead and 
answer that.
    Mr. Shulman. Sure. As you mentioned, there were a number of 
immediately effective provisions: a tax on tanning services, a 
credit for small businesses to help them ensure that their 
employees have health care, $1 billion in tax credits for 
therapeutic discovery grants to help innovation in health care, 
and a branded pharmaceutical manufacturers annual fee. There is 
also the need, because we have until 2014 for full 
implementation to build a lot of infrastructure, as reflected 
in our 2012 budget. We need to immediately start planning, 
looking at our core systems, trying to figure out things like 
how we reconcile the concept of household income, which will be 
the trigger for credits, et cetera.
    So we did begin immediate implementation. During 2010 and 
2011, up to this time, we have planned about $60 million, and 
the funds came from the authorizing legislation. There were 
funds in that. The exact number of people I would have to get 
back to you on. I don't have that number.
    [The ACA personnel information follows:]

                             ACA Personnel

    During Fiscal Years 2010 and 2011, the IRS has spent approximately 
$60 million in Affordable Care Act implementation costs. The Department 
of Health and Human Services (HHS) allocated these funds to the IRS out 
of the funds provided in the authorizing legislation (PL 111-148). As 
of February 28, 2011, the IRS hired 428 additional personnel 
(cumulative for FY 2010 and 2011) to implement the tax law provisions 
of the ACA. In addition to people specifically hired for ACA 
implementation, existing program staff have spent time managing the 
implementation of various tax law provisions in the ACA.

    Mrs. Emerson. Okay. Was there any money transferred, say, 
from HHS or----
    Mr. Shulman. There were funds in the authorizing 
legislation for implementation.
    Mrs. Emerson. So are there any HHS funds included in part 
of the 2012 budget?
    Mr. Shulman. No. The 2012 budget submission is all IRS.
    Mrs. Emerson. You referred to H.R. 1 in your testimony, and 
you outlined all of the negative ramifications should it ever 
become law. Let me ask you, because of the prohibitions that 
would not allow the IRS to expend any funds to implement the 
new health care law, what other budgetary resources then would 
you have to implement and enforce health care, and do you know 
how much more HHS could actually transfer?

                      AFFORDABLE CARE ACT FUNDING

    Mr. Shulman. Well, I think you are referring to some 
language, which has been brought to my attention, forbidding us 
from spending money in that bill for implementation.
    Mrs. Emerson. Correct.
    Mr. Shulman. First, I would note I think the President has 
been pretty strong about his commitment to this law, and so 
that prohibition obviously would have to be passed by both 
Chambers of Congress and signed by the President. So we haven't 
really done contingency planning around that, at this point.
    I should just state it up front, I have been very clear 
that we should run as a nonpartisan, nonpolitical agency. We 
don't write the laws, we implement the laws on the books. If we 
weren't allowed to spend funds on, or if we weren't given funds 
for health reform, I think of it the same way that I think 
about not getting funds for any other law that is passed, and 
we have to make a set of difficult trade-offs. We really 
haven't done that kind of contingency planning.
    Mrs. Emerson. This will be the last set of questions I ask, 
and then I will turn it over to Mr. Serrano.
    Requesting $473 million and over 1,200 new employees for 
the health care implementation is a fairly significant 
increase. I note you have broken it down in the submitted 
testimony very nicely and very specifically. But this is before 
the individual mandate even goes into effect in 2014, and, I 
believe, the last provision of the health care law doesn't go 
into effect until 2018. Have you all done the calculation yet 
to determine exactly how much funding and how many FTEs you are 
going to need to fully implement health care probably through 
2020?
    Mr. Shulman. I don't have those numbers. What I would point 
out is 82 percent of the money we ask for is technology and 
infrastructure. 2012, 2013, leading up to 2014, is going to be 
a big ramp-up, where we have to take our core technology, make 
it work for the implementation of the ACA. I mentioned the 
household income. We need to make sure we have the right 
interfaces with the State exchanges to put out $400 billion of 
refundable credits in real time, and that the eligibility 
requirements can work; we must set up the systems for this new 
concept of reconciliation of those credits at the time people 
file their returns.
    And so I would anticipate that some of the biggest budget 
numbers you will see will be in 2012, 2013, 2014, as we get up 
and get operational, and then there won't be as big investments 
in technology and infrastructure going forward, because that 
will be in place.
    We also have to go into our core tax systems to make sure 
all this works. Then we have to do back-end testing of those 
systems to make sure that there aren't any problems.
    Mrs. Emerson. So the answer, though, is you really haven't 
planned much beyond 2014?
    Mr. Shulman. We haven't done the kind of specific planning 
that would allow us to talk about numbers.
    Mrs. Emerson. Do you know when you may get to that point?

                   AFFORDABLE CARE ACT IMPLEMENTATION

    Mr. Shulman. CBO put out a 10-year estimate of 
administrative costs with the bill. If you look at this number, 
our costs per year are not far off from taking the total and 
dividing it by 10. And so we will go through detailed planning 
each year. Some of it will depend on how things evolve. The 
President yesterday just talked about State flexibility, what 
States decide to opt in, opt out as we put out guidance. So we 
are going through it.
    I will note there is funding in here for the 1099 
provision, which seems to have universal support of repeal. We 
would pull that funding out if that were repealed. So I think 
there is a variety of moving pieces.
    Mrs. Emerson. Once you get into the individual mandate 
piece in 2014, do you envision having to hire a few thousand 
enforcement folks?
    Mr. Shulman. Not for the individual mandate. I mean, the 
individual coverage requirement, as it is called in the bill, 
is actually a relatively small dollar amount. There are 
prohibitions in the bill around using levies, seizures, those 
kinds of things. We would not have any live agents ever talk to 
someone about that. And so I think most of the money for the 
individual responsibility requirement is going to be for 
technology, so we set up the proper billing systems, not for 
hiring lots of people to go out and check on folks.
    Mrs. Emerson. Okay. We will probably talk more about this.
    Mr. Serrano.
    Mr. Serrano. Thank you very much.
    It was not my intention to speak about health care at all, 
but let me make one comment. I don't envy the situation that so 
many agency heads are finding themselves in, because I think 
what you are going to see--and I say this not to be nice, but I 
don't think you are going to see it from Jo Ann Emerson, but I 
think you are going to see it from some folks who are elected 
and not elected--which is to sort of try to find a way to 
intimidate agency heads into not fully implementing on time the 
health care law or laws they don't like. You do that by using 
the bully pulpit both if you are elected, and if you are not 
elected, but have a radio or TV show, you can do that, too, 
sort of rile the people up to say, don't do it.
    For me, it is very simple. And maybe it is because I am not 
a lawyer. I am not putting lawyers down. But it is the law of 
the land, and until further notice, it has to be obeyed, and it 
has to be implemented, and it has to be paid for. And if we 
don't pay for it--I don't want those wars to be going on, but 
we keep paying for it. But that is what we live with.

                        EARNED INCOME TAX CREDIT

    Anyway, let me move on to one of my favorite subjects, 
EITC. You have done a great job in advertising to people that 
are eligible and to use it, and I have participated in many 
activities in my district.
    The question is, what more can be done both by the IRS and 
others to ensure that all taxpayers who qualify for the EITC 
are, in fact, claiming it and receiving it? I believe that may 
who are eligible are still not using it, not taking advantage 
of it.
    And lastly, again, here is an example of some laws that 
people go after. It would seem at times that the EITC is the 
biggest tax issue in the Nation the way it is enforced or how 
the recipients of it are attacked. And so what can we do to 
make more people take part in it; and, secondly, perhaps to 
alleviate some of the concerns other people have about the 
program?
    Mr. Shulman. The EITC is a large refundable tax credit 
which has a set of characteristics. One is it helps lift a lot 
of people out of poverty. Over twenty-five million people got 
it last year. Fifty billion dollars was paid out. But when 
there is a large refundable tax credit, it also becomes a 
target for people who would perpetrate fraud. And so we run a 
program that tries to address both ends of that spectrum.
    To your question around outreach, we hold EITC awareness 
days. We try to educate practitioners. And when I say ``we 
hold,'' we hold thousands of them. We invite Members of 
Congress. We do a lot to promote it. If we think someone is 
eligible, and they are not claiming it, we will send a letter 
to them. There is an automatic letter that goes out, and we 
work with lots of different groups to advertise it.
    I am quite proud of the rate--for a program trying to lift 
people out of poverty, it has a 75 to 80 percent participation 
rate. So it is a very high participation rate.
    On the other end of the spectrum, there is more fraud and 
error in it than I would like, and so we have an aggressive set 
of proposals around reducing fraud and error. In this 
President's budget, we have proposed to increase the penalty by 
five times for preparers, tax preparers, who don't do proper 
due diligence to make sure people meet the eligibility 
requirements. We run very serious audit programs, and we block 
a lot of fraud coming in. We block or retrieve about $4 billion 
annually in error and fraud; and I would note, some of this is 
error, that people--you know, tough economic times. They take 
money out of their 401(k), they don't pay taxes on it, they 
claim the EITC. They didn't know the law. We make an adjustment 
in just the EITC. So all the numbers aren't fraud.
    We also are working with OMB right now to run some 
experiments with some State data to see if that can be used to 
decrease fraud. And the list goes on. We have a preparer 
oversight project, and 66 percent of EITC claims come from 
preparers. We try to get this balance right by doing extensive 
outreach, making sure people know that they can get the credit, 
but we are also very focused on making sure the payments go to 
the right people, and that we combat any fraud. I think both 
ends of the spectrum are important.
    Mr. Serrano. I recall at one time that something like 17 
percent of the taxpayers were EITC recipients, if you will, and 
yet 44 percent of the audits have been conducted on them. Are 
those numbers still the same? Because at that time I claimed 
that that was unfair. It is a touchy thing. No Member of 
Congress should be saying, don't go after somebody who is 
committing fraud. But 44 percent against 17 percent of the 
taxpaying population or tax-filing population seems to be 
unfair. What has happened there?
    Mr. Shulman. The number I carry in my head is 36 percent of 
audits have some----
    Mr. Serrano. I am not going to argue over that.
    Mr. Shulman. Tangential, Appropriations Committee-speak. 
The number had some relation to EITC taxpayers. And, again, it 
is a difficult balance. We are trying to get it right. So, your 
average taxpayer has less chance of being audited than an EITC 
taxpayer because, as I talked to you, it is a big refundable 
credit. As I said, as you go up the income scale, if you have 
over $200,000 in income, you have a higher chance of being 
audited than an EITC taxpayer. And if you have over $1 million 
of income, you have got four times as much chance of being 
audited.
    So there is more auditing of the EITC than your average 
taxpayer below $200,000, but because it is a large refundable 
credit, and we are trying to get this balance right.

                      VOLUNTARY DISCLOSURE PROGRAM

    Mr. Serrano. Your testimony highlights the success of the 
voluntary disclosure program for which 15,000 voluntary 
disclosures were received. What is the IRS's evaluation of the 
performance of the voluntary disclosure program, and what are 
the lessons learned? In addition to resources, what else does 
the IRS need to ensure the success of the international tax 
enforcement initiative?
    Mr. Shulman. As you know, as members of the Committee know, 
I made international tax evasion one of my priorities when I 
came into the Agency. We had an unprecedented agreement with 
the Swiss Government, for the first time in American history, 
to get thousands of accounts turned over from Switzerland, 
really putting a dent in bank secrecy. We have a variety of 
other activities. And as we ramped up the jeopardy of people 
getting caught, we ran a voluntary disclosure program which 
said, ``come in, pay your back taxes, pay your interest on the 
back taxes, pay a very substantial penalty--in this case 20 
percent of your account balance--on top of all this, but you 
can avoid going to jail.''
    Frankly, when I started this, I thought maybe 1,000 people 
would come in. We usually get about 100 people a year through 
voluntary disclosure. As you mentioned, we had 15,000 come in. 
Since it closed, we have had another 3,000 or 4,000 come in. We 
just announced another Voluntary Disclosure program.
    And before I get to lessons learned, we are using that 
information to data mine and then go after other tax cheats, 
because we see patterns of banks, promoters, advisers who 
facilitate this. And you have seen some of that start to 
percolate through the press, so we have now taken that data, 
and are branching out our investigations to both other banks 
and other parts of the globe, and we are going to keep the 
pressure up.
    I think lessons learned are, one, you need to be staffed 
for this. Like I said, we were planning on about 1,000; we got 
15,000, so we had to get ramped up for this.
    Two, the technique of ramping up pressure and then allowing 
for people who want to come in and get right is important. I 
have always said it is great, we have gotten well over 20,000 
people back in the tax system. And they have had to pay the 
price. But what is more important for our tax system is the 
next 20,000 or the next 100,000 people don't even think about 
doing this and are honest, tax-paying citizens for the years to 
come.
    And so I think the real lessons are around how to use your 
enforcement tool to build long-term compliance in the system. 
Because that is the most efficient thing we do. There is a huge 
ripple effect when we find bad actors, bring them in, 
demonstrate the consequences. And the key is to prevent that 
action in the future.

                      DEBT COLLECTION FLEXIBILITY

    Mr. Serrano. I have one more question this round. The whole 
issue of collecting debt during an economic recession, now, we 
know that the people who have haven't paid the taxes or who owe 
taxes no question should pay them, and you should collect them. 
But the taxpayer advocate feels that there is insufficient 
guidance available to the tax-collection employees in terms of 
how best to go about doing it so it doesn't--while collecting 
taxes, it does not create undue hardships on people who may 
have lost their jobs during this recession.
    What can you tell me? What is happening to both do what 
your agency is charged with doing, and at the same time taking 
into consideration that these are not normal times?
    Mr. Shulman. Similar to what I talked about before. I don't 
see conflict between collecting the revenue, but making sure we 
understand the individual circumstances of each taxpayer. I 
have a theme that I use with our employees, which is everybody 
should walk a mile in a taxpayer's shoes, and you should really 
think about each person that comes in. What are their 
circumstances? How do we best deal with them as the Federal 
Government in a way that is fair, in a way that is efficient, 
in a way that has them leave feeling that we are competent, 
respectful, and all of those things?
    And so what we have tried to do is require people who can 
pay need to pay. But the law allows for a set of flexibilities 
around people who are struggling, people who aren't in a 
position to pay, people whose circumstances have changed. And 
over the last several years we have gotten funding to make sure 
that we have increased collection coverage, and this funding 
started before the recession started.
    But I put in place a number of measures, trying to walk in 
taxpayers' shoes. In 2009, we gave our people more discretion 
around not taking collection actions because somebody missed a 
payment. We allow people to get liens removed from houses if 
they were trying to refinance or sell, recognizing that the 
housing prices are one of the big things dragging the economy 
down. Last year we held 1,000 open houses for small businesses 
and individuals around the country. We brought in appeals 
officers, collection folks, customer service people, the 
Taxpayer Advocate Service, and tried to work out issues and 
come to resolutions with them.

                         FRESH START INITIATIVE

    Just last week I announced what I call our ``Fresh Start'' 
initiative, where I increased the threshold from which we will 
file liens, recognizing inflation. So we will be filing fewer 
liens going forward. We gave taxpayers the ability--and it was 
one of the things that the Taxpayer Advocate pointed out--that 
if they call and request a lien to be withdrawn, we will 
withdraw it, which erases it from their permanent record. Right 
now we release it, but a lot of taxpayers have said that a 
withdrawal actually helps them get on with their life better, 
get financing, those kinds of things. So once your tax debt is 
paid, we are fine with that. It is a little extra expense for 
us, but we have agreed to do that to try to help taxpayers. We 
have said taxpayers who enter direct deposit arrangement with 
us--there is very little default with electronic deposit for an 
installment agreement--we will withdraw liens. So we won't file 
a lien or we withdraw a lien if you take that extra step of 
hooking up electronically with us.
    And we have dramatically expanded our Offer in Compromise 
program, which is a program that says if there is no prospect 
of collecting tax now with your current assets and income, and 
you don't have prospects for income, we can settle your debt 
for less. We have loosened the criteria on that to allow more 
people to come in, get clean, get a fresh start, and move on.
    And so I am always trying to balance. If you owe taxes and 
you can pay taxes, you need to pay taxes. But if you are in a 
circumstance where you really can't pay, and there is not a 
prospect of payment, we need to find ways to work with you, 
again, to keep you in the system for the long term, and to make 
sure people have faith in the tax system.
    Mr. Serrano. Thank you.
    Mrs. Emerson. Ms. Lee.
    Ms. Lee. Thank you very much, Madam Chair.

                         EFFECT OF BUDGET CUTS

    Let me ask you a couple of things. One is following up on 
my colleague's question with regard to the earned income tax 
credit. In terms of the budget cuts that are being proposed, 
how will that impact low-income wage earners, the working poor, 
and the EITC program? Or will it?
    Mr. Shulman. I think it will probably impact both ends of 
the spectrum. Clearly we will have to make cuts in our outreach 
programs if the kinds of cuts being talked about are severe, 
and so we won't be able to do as much work with partners, and 
we won't be able to do as much communication and outreach. We 
are going to have to look at things like mailings and figure 
out are we sending out those automatic mailings or other 
automatic mailings. We already put a freeze on non-case-related 
travel at the Agency, and that freeze will have to get more 
severe, without any exceptions, and so we will limit people 
traveling out to do those outreach events. So I think on the 
outreach side, it will have an effect.
    It also will have a direct effect on compliance. 36 percent 
of our audits involve EITC cases, so I think you would see 
fraud and error go up in that, and other programs. So I think 
you would see change on both ends, both the compliance side, to 
make sure only people who deserve it or who are qualified get 
it, as well as on the outreach side.

                   EARNED INCOME TAX CREDIT OUTREACH

    Ms. Lee. I do a lot of these events in my district also to 
encourage EITC-eligible individuals to apply, and we in no way 
reach the numbers of people who are eligible, and so we are 
trying to reach more people who qualify. And it sounds like we 
will reach less people now if these budget cuts take into 
effect or go into effect as proposed. Or can you figure out a 
way to increase the recipients, the eligible people filing with 
less money? I mean, is there a way to do that? Because we want 
to make sure everyone files who is eligible for EITC.
    Mr. Shulman. As I said in my opening comments, if the 
budget as proposed right now in the House were passed, we would 
have to make a set of difficult trade-offs. So I can't tell you 
we have gone to the level of detail around EITC-specific 
outreach, how it would affect eligible taxpayers or even 
compliance. But I would tell you it is a big enough program 
that both ends of the spectrum would be affected.

          DIVERSITY OF THE INTERNAL REVENUE SERVICE WORKFORCE

    Ms. Lee. Let me ask the next question. As it relates to the 
diversity of the IRS in terms of people of color and women in 
your workforce, do you have any data that shows how you are 
doing, as well as with regard to minority contracting, whatever 
types of contracts you all let? Are you part of the 8(a) 
program, and how are you doing on that?
    Mr. Shulman. Yes on both fronts, on 8(a) and diversity in 
the workforce. You know, I am a believer in a strong diversity 
office with a set of requirements. For an agency like us, who 
interacts with every taxpayer in the Nation, if we are going to 
be good at service, and, frankly, good at compliance, we need 
to reflect the population. We must really engage, walking in 
the taxpayers' shoes.
    So, I really emphasize that diversity in the Agency is more 
than just a legal requirement. We need to meet legal 
requirements, but it is a strategic imperative for the Agency. 
I think in everything from diversity of race and gender, 
diversity of hiring people with disabilities, we stack up quite 
well against other Federal agencies. For targeted disabilities, 
we have the highest percentage of hitting the targets, and I am 
quite proud of that record. I spend a lot of personal time on 
this issue. Our Director of Diversity reports directly to me, 
and I am quite proud of where the Agency is in that regard.
    As far as 8(a) targets, I can get those to you. What I can 
tell you is we hit most of them. The ones we don't, we have 
specific plans to hit, and we have been getting better as an 
agency. And, again, I spend personal time on this.
    Ms. Lee. So you have a Diversity Officer. Do you have the 
data or the reports that we could access or send them to us?
    Mr. Shulman. Absolutely.
    Ms. Lee. Thank you.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Emerson. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chair.
    Thank you, Commissioner. Good to see you.
    Let me first thank Ranking Member Serrano for his statement 
about making sure that there is no intimidation. We also 
realize that we have a mandate or oversight which we take very 
seriously and he takes very seriously, and I know that if there 
were attempts of intimidation, we would all, including Mr. 
Serrano, would be as vocal as when he was, for example, when 
the President called the Director of the CBO to the White 
House. So I know that, and I thank him for bringing that up, 
because I know that we would all be as vocal at least as we all 
were when the President called the CBO Director to the White 
House. And as the ranking member said, clearly that is not the 
intention of this chairwoman.

                           INDIVIDUAL MANDATE

    I wasn't going to ask about the individual mandate, but I 
was kind of hit by a couple of statements. You mentioned before 
that because if the continuing resolution were passed as is, 
that you would have--less people would, in essence, means less 
enforcement, less revenue, correct? In essence. You mentioned 
about how the continuing resolution would affect your ability, 
and you would actually lose revenue.
    Mr. Shulman. That is correct.
    Mr. Diaz-Balart. Because you would have less enforcement 
people?
    Mr. Shulman. I think it would be for a variety of 
circumstances.
    Mr. Diaz-Balart. Yet correct me if I am wrong, but when the 
chairwoman asked you how many people you are going to be hiring 
for the individual mandate, you said not a lot of people, 
mostly technology. Is that also correct? Because if that is the 
case, then why don't you--if you can enforce with not a lot of 
people, with just technology, and you are saving money with 
that. And then why does it hurt you if you have less people 
from the CR? Which one is it? Why don't you then replicate what 
you are going to do with the individual mandates in other 
areas, which is you don't need a lot of people; you are asking 
money for technology anyway. Which one of the two is it? I am 
kind of confused.
    Mr. Shulman. One of my favorite statistics in the world of 
tax is that the Tax Code is four times as long as War and 
Peace.
    We obviously have a huge Tax Code with lots of different 
provisions, and I think each provision of the Tax Code has 
different characteristics and different needs as far as how we, 
as the tax administration arm, implement them. And so we could 
go line by line through the Code and think through what are the 
characteristics of it? What are the requirements put on us? 
What is the lead time against implementing that? How do they 
interact with other pieces of the Code? Each one would have a 
little bit of a different answer. And so while I recognize that 
the individual coverage requirement is a provision in the law 
that gets a lot of attention, I think taking comments about 
that and generalizing them to the whole Tax Code is not really 
apples to apples.

                                RESEARCH

    Mr. Diaz-Balart. I understand that, Commissioner. You have 
spent a ton of money on research. Have you looked at where you 
can replicate what you want to do with the individual mandate, 
which, according to what you said, is not going to take a lot 
of people, to where could you replicate that to other parts of 
the Tax Code? Or are you telling me that there are no other 
parts of the Tax Code where you can replicate that with less 
people in order to not lose revenue?
    Mr. Shulman. I look at that a bit in reverse. When a new 
provision is put in the Code, like the individual coverage 
requirement or another one, we look at our core programs and 
say, ``which of our core programs are most suited to that kind 
of requirement, and how would we do that?''
    We have a very big program called our Automated Under 
Reporter Program, which is basically a document-matching 
program that has a 22-to-1 return on investment. One of our 
bedrock principles is we don't send letters to you if we can't 
answer the phone call when you call and say, ``what is this 
letter about?'' And so the Automated Under Reporter Program is 
our basic W-2 matching program, which is something very similar 
to what the individual coverage responsibility would have. You 
say what your income is, we get a W-2. It automatically, if it 
doesn't match, sends out a bill to you.
    The vast majority of things get resolved through mail and 
correspondence. Depending on dollar amounts, sometimes somebody 
would show up and do face-to-face audits or do correspondence 
audits, and sometimes they wouldn't.
    The individual responsibility requirement actually starts 
at a very low dollar amount. I think it is $95; it ramps up to 
$695; it is 2.5% of annual household income when fully phased 
in. What I was expressing to the Chairwoman is those aren't the 
cases that get a lot of face-to-face interaction with the IRS.
    And so we are building on lessons learned to try to 
automate as much as we can. We have lots of document matching. 
And this one would be pretty simple: you have coverage, or you 
don't. There is indication you have coverage or you don't, and 
you get a letter. You think about it like a billing system.

                           TAX LAW COMPLEXITY

    Mr. Diaz-Balart. In a C-SPAN interview, you admitted that 
you use a tax preparer for your returns, which makes sense to 
me. I understand, and I do the same thing. You stated that ``I 
find the Tax Code complex. I use a preparer,'' which makes 
sense. I obviously agree with that. Now, it would seem to me 
that the health care bill would only seem to compound the 
complexity of the Tax Code.
    So how confident are you in your understanding of the 
health care law and the vast new responsibilities and the 
powers it is giving to the IRS because of that complexity?
    Mr. Shulman. I am quite confident that we have got a whole 
set of lawyers that have looked closely at the bill. We are 
very familiar with the immediately effective provisions. There 
are a variety of ones. There is lots of planning to go. So I 
think this Agency is incredibly confident at understanding the 
tax law.

                          INFORMATION SECURITY

    Mr. Diaz-Balart. There has been a lot of concern, and 
understandably so, about the new oversight powers of the IRS, 
given the health care law which would really give unprecedented 
access to U.S. citizens' information. And so what assurance can 
you give the American people and give us that that information 
would be kept secure? Now, that is not an issue with your 
agency, per se. We have seen the Wikileaks. So what sort of 
assurances could we have?
    Mr. Shulman. I think there has been some inaccurate 
commentary about the access that we will have to health 
information. I am very clear that as part of this law, the 
Affordable Care Act, our role is to administer the tax 
provisions, not to get involved with health care, per se; that 
you can think of us as the bank, where the money flows to put 
out credits, to collect money, to interface with insurance 
companies and get them payment.
    The only information we will have is fact of coverage, not 
health records, not medical treatment, not information about 
people's health situation. We will have your classic tax 
information about income. And then the only other piece of 
information we will have is fact of coverage: Do you have 
coverage, or don't you?
    Regarding how we safeguard that and other things, we spend 
a lot of money--in our requests every year, we ask for some 
more--around data security. Some of the money in this health 
care request is around our data security office and our 
safeguards office to make sure we not only safeguard the data 
that is within our four walls, but we go out and do aggressive 
oversight of the data, the tax data, that we share with anyone 
else around this law.
    I tell everybody, within my first 2 hours on the job, I got 
sworn in, had a couple of other things happen, and then the 
person who talks about data security and taxpayer privacy came 
and gave me an hour briefing. I mean, this agency takes 
taxpayer privacy and data security very seriously. But it is 
tax data, and the only new data we will get because of the 
health care law--there will be a variety of other tax-specific 
things and financial data at which we are quite adept--will be 
fact of coverage. We are not getting involved in health care 
decisions, health care choices, data about people's health.
    Mr. Diaz-Balart. Madam Chairwoman, if I may, just another 
question. Really it is a two-part question.
    Mrs. Emerson. Certainly.

                                RESEARCH

    Mr. Diaz-Balart. The IRS spends a vast amount of money on 
research, I believe, I was told. And I am curious as to if you 
are doing research and how much you are focusing on the--kind 
of piggybacking on the previous conversation we just had about 
the individual mandate, about using technology less, are you 
doing research into where you can do more of that, if there 
areas that are applicable that you can do more of that? And 
really the bulk of my question is are you also doing research, 
and what kind of research, to prepare for fundamental tax 
reform? I mean, for years, I guess for generations, we have 
been talking about fundamental tax reform. Are you doing any 
research on that as to what that would mean, how that can be 
done, et cetera?
    Mr. Shulman. We have a very robust research operation. We 
run the statistics of income data operation, which is used 
across the government and by lots of researchers. It is data 
about income in the United States, and it is used for a variety 
of non-tax-related research. Then we have our National Research 
Program (NRP), which really looks at compliance, what are 
trends of compliance. It is a very interesting and complicated 
study about what leads to noncompliance: what is accidental? 
What is because the Code is so complex? What is advertent? How 
do you stop people who are purposely doing that? A lot of our 
planning is informed by that research. I am a big believer in 
being forward-leaning, being innovative, seeing around corners, 
trying to position the Agency long term.
    Kind of sadly, we have gotten quite adept at quickly 
implementing tax law changes at the last minute. I think--and 
you look at fundamental tax reform--I think the President and 
lots of leaders in Congress, both parties, both Chambers, talk 
about the need for simplification. You know, we are big 
cheerleaders for that. The simpler it is, the easier it is for 
us to engage with the American people. So we do a variety of 
planning around that as well.
    Mr. Diaz-Balart. Thank you.
    Mrs. Emerson. Thank you.

                         REFUNDABLE TAX CREDITS

    How many people do you think, or do you know specifically, 
work on refundable tax credit issues or any kind of tax credit, 
whether it is the earned income, education tax credits, or 
child-related tax credits? How many people are currently, even 
approximately, in the IRS are doing that right now?
    Mr. Shulman. We have a dedicated refundable credit office 
who spends a lot of time doing outreach, looking at it, et 
cetera, and I would have to get back to you on the exact 
numbers in there.
    Part of the budget request includes funding for a 
Refundable Credit Compliance Office, recognizing that we need 
to keep making sure that we get the right algorithms, et 
cetera, and we are tightening around that.
    A lot of the rest of the credits are very hard to break 
down because they flow through. It is all part of your tax 
return. As I mentioned before, your income, the deductions you 
take, some of them are stand-alone refundable credits at the 
end of the return, what are called below-the-line items; some 
of them are above the line and flow through.
    We really are organized more around individual taxpayers, 
business taxpayers. We have a Large Business Division, a Small 
Business Division, an Individual Division, and a Tax Exempt 
Division. And then our process flows for both service and 
compliance are more towards the type of taxpayer, to deal with 
all of their tax, their income, their deductions, and their 
credits. We don't really have it broken down that way.
    Mrs. Emerson. But yet when you made your request for the 
refundable credit compliance office, you very specifically 
asked for, $473 million. No, that is for all health care. $213 
million and 453 FTEs, just to implement the refundable health 
care premiums assistance tax, right?
    Mr. Shulman. I was actually referring to something 
different. We requested, I believe, in the $20 million range 
for an office that would loop in EITC and some of the 
refundable education credits, as well as this. As refundable 
credits become something that there is more of, and because 
they are refundable, we want to make sure there is not fraud. 
That is really about research, compliance, filters, technology 
to stop.
    The other thing we are talking about, the infrastructure 
for refundable credits, is really complicated. To give you the 
best example, right now every taxpayer focuses on AGI, 
adjustable gross income. There is no concept of household 
income. So we actually have to take our database of all 
taxpayers and figure out how to link households together, which 
is the eligibility requirement of this new refundable credit. 
And so that request is not for the Office, per se; that request 
is just to get the basic infrastructure up and running. The 
bigger numbers in this budget request are really technology and 
infrastructure.
    Mrs. Emerson. For the refundable credit compliance office, 
that is specific to health care, you have asked for $213 
million and 453 full-time employees. Then for this new office 
to administer all the other refundable tax credit programs, you 
have asked for $31 million and 314 FTEs. So it is kind of weird 
that you have got $213 million and 453 FTEs, and then $31 
million and 314 FTEs in the new office.
    I am just a little bit confused how it is all going to work 
together. And are there not people already working on the 
refundable tax credit, the EITC?
    I will say that I have so many of my own constituents who 
are eligible for EITC. Joe, you may be interested to know, just 
kind of an aside, I actually did an event with the IRS free tax 
file service at a lot of my community hearing organizations 
over the break. At three different locations, we 
teleconferenced or videoconferenced the event because so many 
people and organizations, who help them, want to understand if 
they qualify for EITC. In my district, we have a large amount 
of people who are potentially eligible for EITC.
    But I guess my concern is if you already have existing 
staff working on refundable tax credits, can you not just use 
the same infrastructure? Expand it, if you need to for purposes 
of this health care-related refundable tax credit; can you not 
just do that? Or is it going to be a whole new, separate--or 
does it need to be separate?
    Mr. Shulman. So, let me try to explain. I probably didn't 
explain it as well as I could.
    The refundable credits office that we are trying to stand 
up----
    Mrs. Emerson. That is the $31 million one?
    Mr. Shulman. Yes. That came not as a result of health care; 
it came as a result of me, as Commissioner, saying that we had 
spread refundable credits through the Agency. We definitely 
will pull people in through outreach, but we didn't have a 
dedicated office, we didn't have dedicated research, we didn't 
have dedicated filters, and people who--what they worried about 
was fraud and abuse in refundable credits going out. We will 
definitely pull some people in, but we didn't necessarily 
have--we had a lot more outreach folks spread around. The other 
people were spread through our compliance functions. They will 
eventually be assigned to study the $400 billion in refundable 
credits enacted as part of the Affordable Care Act, to think 
about compliance trends, et cetera. But that is not necessarily 
the direct effect. You know, this Refundable Credits office 
wasn't created as a result of the Affordable Care Act (ACA). It 
is a subset of the initiative to deliver credits accurately, 
which includes the funding to implement the new credits from 
the ACA.
    The refundable credit budget request for the Affordable 
Care Act, which is--the line item is: Ensure accurate delivery 
of the tax credits. There is a small business tax credit that 
is in place that we need to make sure we have some coverage 
around, so we are getting it to the right people and not 
getting it to the wrong people. That credit is a pretty small 
chunk of that request. The large number you are pointing at, 
and I would ask our staffs to reconcile numbers, but I am 
looking at $227 million which includes some additional 
downstream ACA implementation costs. And so you had said----
    Mrs. Emerson. $213 million dollars, and with the 453 FTE.

                      AFFORDABLE CARE ACT CREDITS

    Mr. Shulman. Okay. That number. That is what I was 
describing to you, or I tried to describe to you before. That 
is the funding to implement the $400 billion in refundable 
credits that are in the ACA that will go out over 10 years 
through up to 50 State exchanges, maybe less, as the President 
talked about depending on qualification.
    When people show up at the exchange, they are going to 
figure out whether they are eligible or not right there at the 
exchange. So we need to build technology to interface with 
them. First, we need to build the household income database. 
Then we need to get in real time, and, as Mr. Diaz-Balart 
talked about, we need to do it in a way that is secure, that 
has the appropriate safeguards. We need to determine 
eligibility. We then are going to need to work to have monthly 
payments going to insurance companies, and so we need 
interfaces with all the different insurance companies in the 
country. Then we are going to have to work out protocols with 
the exchanges around change in circumstances: how we change 
that, how we verify that through our systems. And then that 
refundable credit is actually an advanced payment in--take 
2014--on your 2014 income. So you will, in 2013, figure out 
what health coverage you will have for the year based on 2012 
or 2013 income. This will happen throughout the year, and then 
there will be a reconciliation in our systems on the back end 
to figure out what you actually owe.
    That $200-plus million is to do the planning, do the 
interface work, start to build that system that is going to 
have all those different complex interchanges with insurance 
companies, with employers sending in some money, with the 
exchanges. So that is actually a technology infrastructure 
build. It is separate from this data analytics group that is 
doing pure compliance around refundable credits.
    [The Refundable Credit information follows:]

                     Refundable Credit Information

    The IRS budget has several figures related to credit compliance. 
The figures discussed include the 453 FTE and $213.5 million budgeted 
for ensuring compliance with the ACA credit. The bulk of this 
investment is to expand the IT infrastructure to properly administer 
the new premium credit to subsidize the cost of health insurance for 
Americans who do not have access to affordable care. This amount is a 
subset of the $473.4 million and 1269 FTE requested for implementing 
all the provisions of the Affordable Care Act (PL 111-148) for which 
the IRS is responsible.
    The FY 2012 budget request also requests 314 FTE and $30 million to 
establish a Refundable Credits Compliance Office. This office will 
develop a comprehensive and integrated compliance strategy for 
administering refundable credits and rapidly address refund schemes 
through pre- and post-refund enforcement. Establishing an office 
dedicated to refundable credit work allows the IRS to address non-
compliance and fraud trends that emerge from existing and future 
refundable credits.
    The IRS also maintains an Electronic Tax Administration and 
Refundable Credits Office (ETARC). The current staff dedicated to 
Refundable Credits has a staff of 43 and provides oversight and 
strategic direction across twenty-two service-wide program areas across 
the IRS. These figures only represent dollars and FTE dedicated to 
refundable credit work. They do not capture the employees who may spend 
part of their time reviewing and auditing claims for credits, 
developing forms and instructions for claiming the credits, and 
programming the necessary systems to deliver the credits, which is a 
much larger figure. Since the credits are claimed at the time of 
filing, much of the work is part of the IRS's normal work stream, and 
not separately captured.

    Mrs. Emerson. So will all 453 full-time employees that you 
need to at least set up this whole new system--actually will 
you need all of those people throughout the entire 10 years as 
you just said?
    Mr. Shulman. Not necessarily. Our personnel needs will 
likely decrease as we ``stand up'', which is why we will use a 
lot of contractors in addition to IRS personnel, so we will 
contract some build. This will be program offices, project 
managers, coders, certain folks. The average number I use from 
my private sector experience is that the drop-down cost of 
technology is anywhere from 20 to 30 percent of development 
cost. So you have your development cost. Then you have got your 
operating costs and infrastructure.
    I don't know how much of this will be in production for the 
long term, but this set of people we need to do the ramp-up 
won't be the same set of people we need to run the operating 
environment long term.

                   AFFORDABLE CARE ACT RECONCILIATION

    Mrs. Emerson. I can't remember if the language was specific 
enough in the health care law, even though I actually read it a 
couple of times, with regard to the reconciliation at the end 
of the year. I mean, suddenly Joe is going to get a bill here, 
just hypothetically, for $453 that he is going to end up owing? 
Have you figured that part out yet? I am just curious.
    Mr. Shulman. I am very focused on this reconciliation 
because it is actually a new concept in the tax system, paying 
this back. And Congress has and is talking about certain caps 
on it, and those caps have been expanding. Bottom line is you 
are going to get money, and then you may owe a chunk back. And 
if you go over the cliff, the chunk could be relatively 
substantial. And so we are needing to set up systems around 
that.
    Mrs. Emerson. And it seems to me that the complexity only 
gets exacerbated by the fact that your income status could 
possibly change dramatically, either to the positive or the 
negative, depending. And then is the onus then on me, the 
individual, to let you all know that suddenly I got this 
gigantic bonus, and I have a huge raise, and suddenly I don't 
qualify for this? I mean, whose responsibility will it be to 
tell you? Or will it just come at the reconciliation at the end 
of the year?
    Mr. Shulman. As I understand, it is a two-step. And so I 
don't know all the plans because it is the exchange's 
responsibility to know shift of income, and we will have some 
interface with that. But I think the first step is when there 
is a change in income, alerting the exchange and adjusting. But 
regardless what happens there, it will be on your tax form what 
your final income is, what tax credits you got, and if there is 
a delta, there will be an assessment on that.
    Mrs. Emerson. It is going to prove quite interesting, to 
say the least.

                             SIMPLE RETURNS

    I will shift gears. We have talked several times about the 
President's campaign pledge to have the IRS perform tax 
preparation or simple returns. As you know, there still is, and 
probably more so now, significant bipartisan opposition to this 
concept, at least in the House. I know we have talked often 
about it, and you have told me that there are no plans to move 
forward or spend taxpayer funds to create this program. But I 
keep hearing, every so often, that the IRS is going to do this. 
And it is not from conspiracy theorist e-mails. I just hear it 
around. I also know that this concept comes not from you, but 
rather from those who are perhaps above you in the chain of 
command.
    I just want to make sure, is it still your position that 
the IRS is not moving ahead on implementing simple returns?
    Mr. Shulman. Yes. I get to decide what the IRS does and 
doesn't do, and we are not working on simple returns. So I will 
tell you that.
    Mrs. Emerson. Not even as a pilot?
    Mr. Shulman. We don't have a pilot program. What I always 
say is, whether you like it or not--compared to places I came 
from before, which built stock exchanges and did complex 
surveillance--the money we spend in technology investment money 
is very small. And so even though for 2011 and 2012 we have 
asked for an increase, as a percentage of total budget those 
are still incredibly small, especially if you look at other big 
financial institutions who move the kind of money we move. We 
would have a long way to go, even if we wanted to do it, to get 
our core database done, get the technology done, get the 
security done, and put all these pieces together. And so it is 
not something that is in our planning pipeline.
    Mrs. Emerson. I appreciate it.
    Joe.
    Mr. Serrano. Thank you.
    So you think some people will stop now saying that he is 
going to do it? Besides, it is not an e-mail; it is on radio. 
Anyway, and I am going to get a bill at the end of the year, 
you said?
    Mrs. Emerson. Hypothetically, yes.
    Mr. Serrano. I hope not.
    Mrs. Emerson. Well, I guess you would have to be in the New 
York exchange, so you won't qualify for any refundable tax 
credits.
    Mr. Serrano. Okay.

        EFFECTS OF BUDGET CUTS AND RETIREMENTS ON THE WORKFORCE

    Commissioner, we know that there could be, unfortunately, 
some very serious cuts coming to every Federal agency, 
reduction in workforce. But we also know that, according to the 
Treasury IG for Tax Administration, that they predict that 30 
percent of all IRS managers and 47 percent of IRS executives 
are eligible to retire. So how does one play into the other? 
And what preparations are you making for the fact that you have 
this many people that are eligible for retirement? How do they 
play into each other, I meant do you absorb then some of those 
cuts through some of the people you hire, or do you cover those 
and start at the bottom where you would have entry-level people 
coming in through the system?
    Mr. Shulman. In general around this retirement issue and 30 
percent of people being eligible, I have been very focused on 
workplace issues. I believe, as a leader of a large 
institution, if you get people to show up every day engaged 
with the right skill sets, you promote and create career paths 
for your good performers and you weed out poor performers. If 
you take care of those sets of issues, you can execute 
strategy. If you don't take care of those sets of issues, you 
can have the best strategy in the world, and you will never 
execute it.
    So I created this Workforce of Tomorrow Task Force. We had 
a whole program around it. The Agency, over the last 2 years, 
was the most improved in the Best Places to Work in Government 
survey, which surveys all Federal agencies. It is something on 
which I and my senior leadership team spent a lot of time and 
are quite proud of.
    I think this retirement wave creates challenges and 
opportunities. I think the challenge is really good subject 
matter experts who know the tax system, who know their specific 
area, are going to leave. It also creates career opportunities 
for younger people, some fresh blood to come and keep 
innovating as an Agency.
    We have been working department by department to make sure 
there is good succession planning, that we challenged our more 
mature workforce to take it upon themselves to mentor the next 
generation. And so I view this as it is--a fact. We have got in 
front of it early, so it is not a crisis. It is one of these 
things--you deal with the facts on the table and you manage it. 
And I think we are pretty far in front of it.
    I think regarding cuts and layoffs, the first move would be 
to allow--we wouldn't replace attrition. I can talk about being 
in a 2010 CR, given that there was inflation increasing the 
cost of contractors, increasing the cost of real estate, et 
cetera, we are having to tighten our belt right now. So we have 
an exception-only attrition freeze, where people are coming to 
me or my deputies if they want to replace attrition right now. 
So attrition is your first move, and we will have some people 
retire. But if the cuts in magnitude we are talking about 
materialize, we would also need to do RIFs or furloughs. I 
mean, attrition would not take care of meeting those kinds of 
cuts.
    Mr. Serrano. So you can deal with it as it is now through 
attrition, but any more dramatic cuts then would create a 
problem; is what you are saying?
    Mr. Shulman. I mean, it is a sliding scale.
    Mr. Serrano. I don't want to get you in trouble.
    Mr. Shulman. No. What I was going to say is you said ``any 
more dramatic cuts.'' So cuts of the magnitude that the House 
is talking about, we would definitely have to do that. There is 
a scale.
    Mr. Serrano. We are going to get more dramatic cuts. It is 
no government; just the legislative body. And even that is in 
question.

                          INFORMATION SECURITY

    Let me ask you about the issue of identity and the security 
behind that. I know you spoke about the health care bill and 
the law and how that plays into it, so that you would have some 
information, but not all information. There is always an 
ongoing issue of how much the IRS knows about you and how much 
should it know. So what are we doing to deal with this fact and 
trying to make sure that the IRS is where it should be, an 
agency that has certain information, but not harmful 
information?
    Mr. Shulman. I guess the first thing I would say is the 
information that we have is the information that Congress 
prescribes in the laws it passes. So Congress tells us what the 
tax law is, and we collect the information as appropriate. So--
--
    Mr. Serrano. You wouldn't be the first agency to have more 
information than Congress told them to get. I am old enough to 
go back to the 1960s on those issues.
    Mr. Shulman. And the second is, as I mentioned earlier, one 
of the fundamental tenets of tax administration is data 
privacy, taxpayer privacy. It drives some Members of Congress 
crazy, frankly. I get calls and letters asking for information 
on taxpayers and what we did with them. The law prohibits it. 
It is a felony to share that information. We, every year, 
educate our people on that. Every year we fire people who 
breach or look at information.
    Everyone in the agency knows that we take security of data 
and taxpayer data very, very, very seriously. And so we have 
awareness training. When I first got here, and every couple of 
years after that, we did what we called Code Red, where we 
stood everybody down for 2 hours to talk about what information 
do I have access to? What is in technology? What is on desks? 
What is on e-mail? What can we do to tighten it up? It starts 
with employee awareness. And we have robust technology and 
computer security, both on our perimeter, as well as 
internally, around who has access controls.
    I made a commitment, and have been working with our 
Inspector General to make sure we have detailed logs of 
technology, and on any new technology we put in the appropriate 
logs, so we can do oversight of who accesses what technology. 
It is a big, complicated task, and I would never tell you we 
are done. This is just going to be ongoing. And the advent of 
technology, the kind of information we have, I think it is a 
challenge for everyone. But there is a culture in the Agency 
that is very locked down and very serious about data security 
and about privacy.
    Mr. Serrano. Thank you.

                     EFFECTS OF GOVERNMENT SHUTDOWN

    One other question. We don't want to mention this word too 
much, but there is a possibility somewhere along the line of a 
government shutdown. And if it happens during a certain part of 
the season, and you have seasons more than anyone else, people 
worry, well, what does that mean? What does that mean for tax 
collection? What does it mean for tax refunds? And that is a 
huge issue, because we are not only talking with a shutdown 
about the fact that people won't be paid or people will not be 
working. Or I remember in the last shutdown, one of the bills 
that hadn't been passed was the Interior appropriations bill, 
and the last thing I expected was important to a lot of people 
were people coming to our office here in Washington and saying, 
how come the monuments are closed? Or, I can't go to this 
particular park. It may not sound important to a lot of folks 
in terms of the whole picture, but if you planned a trip to 
Washington and found the monuments not open, you want to know 
why. And they had no idea what is going on.
    But a tax refund is a very serious issue in addition to tax 
collection. Do you know at all how it would affect you?
    Mr. Shulman. Let me start where I think where you started, 
which is the President has been clear that he is optimistic 
that Members of both parties and both Chambers will avoid a 
shutdown, because that is not going to be good for anyone.
    Mr. Serrano. By the way, for the record, because I don't 
want anyone to think that we are being partisan here all the 
time, we are very little, Jo Ann and I, but I think that 95 
percent of Members of Congress of both parties know that this 
is a dangerous thing, and they don't want to go that way at 
all.
    Mr. Shulman. So I start by saying I think I am equally 
optimistic, and think people recognize a government shutdown is 
not in the interest of the American people.
    Second, the date matters to the tax system and to the 
definition of essential functions of government. And so we are 
still looking at this, we are still working with OMB. Our 
general guidance would be to follow the plan we have had in 
place since the 1980s. In 1995, we deposited money but didn't 
process refunds. I think that is what you could expect in 
something that was short term and close to now. But as we get 
closer and closer to April, I think this is dynamic, and we are 
still having discussions and still looking at the issue.
    Mr. Serrano. Thank you.
    Mrs. Emerson. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chair.

                        MULTILINGUAL INITIATIVES

    Actually, I have a basic question as a new one here. And I 
am almost reluctant, I should have asked you this when we met 
privately, particularly when we have one of the country's 
foremost leaders on Hispanic access and empowerment issues, and 
that is Mr. Serrano. I apologize to you, sir. This is a very 
basic question, and I could have asked you, or I could have 
asked you, but I might as well take that.
    In south Florida, the IRS has a job in making sure that you 
have people that speak different languages there. And, by the 
way, you have some wonderful people who are always accessible, 
and they will meet with anybody who has an issue, and they will 
do so in the language of the people who--you know, we have 
those large communities.
    My question really is in other parts of the country, and in 
particular parts that are--you know, when you look at the 
census now, the growth of the Hispanic community in places 
where, frankly, a lot of people didn't know they were there. 
But I guess you are ahead of the census because you deal with 
this every single year. What are your challenges in dealing 
with language minorities? Do you have an issue finding people? 
Again, I know that in south Florida you do a really good job 
there, but in other parts of the country, particularly those 
that are relatively new as far as either Hispanic or minority 
populations, how do you do there? How are you doing? What sort 
of programs do you pursue to do that?
    I ask that, and I know it is a relatively simple question 
particularly in front of--a lot of people think that Mr. 
Serrano and I have great differences, and we do. But there is 
no doubt that not only I, but everybody in the country 
recognizes him as one of the great leaders of the Hispanic 
community.
    Mr. Serrano. Thank you. And I really appreciate those 
words.
    South Carolina was my biggest surprise in Hispanic growth. 
What was yours?
    Mr. Diaz-Balart. Frankly, everywhere. I mean----
    Mr. Serrano. Now I know why.
    Mr. Diaz-Balart. There are some areas that, frankly, even 
though numberwise are not huge, but there are areas where you 
wouldn't expect it at all, and that is really where I was more 
impressed. And so the point the ranking member was making is 
the fact that those are the places where it has got to be more 
difficult because you don't have the synergy of those 
communities anyway. So with that, I kind of posed that 
question.
    Mr. Shulman. It is a great question. I start with the basic 
premise that we are the one government agency--and I remind our 
people of this all the time--that interacts with most adult 
Americans every year. And we really do have an obligation to 
meet people where they are coming from, right? And so we, I 
think--I can't compare it to others, but I have been told--have 
one of the best, if not the best, in government multilingual 
sets of facilities, programs, and outreach, everything from 
Spanish speakers to Vietnamese speakers to Chinese speakers, 
Creole. The list goes on.
    I think it would be fair to say that areas of the country--
take Spanish speakers as an example. Areas of the country where 
there are large Spanish-speaking populations, where it is a 
large percent of the population, we probably, in our in-person 
sites, staff very well. I am sure there are areas of the 
country where we are not as well staffed if the numbers aren't 
as great, because we have to figure out the cost-benefit of 
this. But then we always have backups. And so we have a big 
phone operation that answers 35, 40, up to 50 million calls a 
year. So if somebody walks in, we make sure we have 
multilingual literature, all of our outreach materials. We have 
a Spanish Web site. And then we have the ability to connect 
somebody over the phone to work through their issue or to 
connect them to an office.
    And so we take it pretty seriously. And I would point out, 
this year you might have seen we have an iPhone app for 
``Where's My Refund?'' for the younger generation. And so we 
really do think that as we evolve, we need to figure out how to 
deal with every taxpayer based on how they walk in or how they 
want to deal with us, and we are going to be focused on the 
whole service agenda of the IRS.
    Mr. Diaz-Balart. Thank you.
    Mr. Serrano. Can I comment on that a second? And I want to 
be careful about this. Mr. Diaz-Balart and I are strong 
supporters, as are all members of the Hispanic Caucus, of the 
use of the English language as our language in this country. 
But there is the fact that there are a lot of people who are 
older who may have deficiencies in the language. And so this is 
a service that is very important, and it is to our benefit. We 
are going to pick up the tax dollars in the long run.
    I say that because I know that part of what is happening in 
Congress now is that a lot--some Members are looking at Web 
sites that use a language other than English, and they have 
been targeted to be done away with, and I think that may be in 
the long run foolish.
    As far as the IRS goes, if I make an attempt at a joke, 
which sometimes I do very badly, it is tough enough dealing 
with the IRS in English. Try having it as a second language and 
dealing with the IRS. It can be difficult. So I encourage you 
and I congratulate you at the same time on this approach 
because I agree with Mr. Diaz-Balart; it has been a great 
service, you do it well, and you should continue to do it. 
Thank you.
    Mrs. Emerson. Mr. Womack.
    Mr. Womack. Thank you, Madam Chair.
    And I enjoyed the dialogue between my colleagues that have 
tremendous minority populations and deal with that. Let the 
record reflect, though, that the greater Third District of 
northwest Arkansas has indeed its own growing share of minority 
population. And particularly the issues that you espoused about 
the language barriers, we are experiencing those same things. 
So I am interested in the ongoing efforts of your agency and 
other Federal agencies in what we are doing to, shall we say, 
provide for some assimilation-related activity in that 
ethnicity.

                     SIMPLIFICATION OF THE TAX CODE

    A couple of very basic questions. Really, how would 
simplifying the Tax Code, making things a little easier for 
those of us--as was already mentioned, dealing with the IRS in 
plain English is somewhat difficult at times, but if we were 
able to simplify forms and close loopholes, what overall effect 
would that have on your need to squeeze more resources out of 
the taxpayers so that you can prosecute your duties, both on 
the enforcement and service?
    Mr. Shulman. We were talking a little bit earlier about 
simplification of the Code, and I shared with some of your 
colleagues one of my favorite statistics is that the Tax Code 
is four times as long as War and Peace. And so, clearly, the 
more complexity there is, the more confusion there is amongst 
taxpayers, the more we have to answer questions, the more we 
get into correspondence with people around honest mistakes that 
they make.
    I talked about international before. I would say where 
there is complexity, there is always more room for 
noncompliance and evasion. I came from the capital markets 
regulation before this job, and the international area is a 
great area where you start getting things complex. It is where 
people who want to push the envelope can push the envelope.
    So the simpler the Tax Code, the more people clearly 
understand it, the easier the interactions are with us, and the 
more compliance I think there generally would be.
    Mr. Womack. I understand before my arrival that the 
chairwoman and my colleague from Florida talked a little bit 
about enforcement staffing and spending. It has been argued, 
somewhat convincingly, that an increase in enforcement spending 
and staffing has little, if any, effect on enforcement 
revenues. The larger question is what is the correlation 
between enforcement spending and staffing and enforcement 
revenues?

         RELATIONSHIP BETWEEN STAFFING AND ENFORCEMENT REVENUE

    Mr. Shulman. You know, our job is to administer the tax 
laws, ensure compliance, which has a service element. And while 
the Congressional folks, the staff who scores things, doesn't 
put a score on service, I, in my mind, put a score on service. 
When you answer a phone call, answer a question, you get the 
proper amount of tax filing. When you get technology that 
allows you to electronically file, people send it in. There 
aren't transcription errors, and you don't have issues.
    So if you look at our overall budget, you can look at the 
numbers in a variety of ways. You can say that we affect 
indirectly all the money that comes in. For every dollar spent 
on the IRS, about $200 flows in to the Federal Government, 
which I think is a number that is worth thinking about.
    [The information follows:] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    I think for direct enforcement, for every dollar spent 
broadly on IRS enforcement, last year we brought in $57 billion 
from direct actions: audit adjustments, collection actions, 
cases in court, et cetera. And then we broke it down by program 
very specifically, and I would be happy to get you those 
numbers. Some of our enforcement programs have a 3 to 1 return, 
and these are returns that GAO and OMB have agreed on. They 
have looked retroactively back 10 years, about activity and 
revenue that comes in around them. The 200 to 1 and whether or 
not answering a phone call brings in money, people will argue 
about that. Nobody argues about these direct revenue effects. 
On what we call our Automated Under Reporter, which is our W-2 
matching--where you didn't have the right amount of income 
reported, you file something, the W-2 gets sent out to you, it 
reports it to us--and that is about a 22 to 1 return.

                          DIMINISHING RETURNS

    Mr. Womack. Finally, along that same line, I know our 
entire Congress, both sides of the aisle, are honed in on the 
concept of diminishing returns. At some point in time, when 
does more money thrown at any issue cease to produce the 
desired results? And so I guess I would leave you with the 
challenge, and I am sure you do in your capacity, to ensure 
that we don't ever exceed that point of diminishing returns.
    Thank you very much for your testimony.

                     BUSINESS SYSTEMS MODERNIZATION

    Mrs. Emerson. Let's talk a little bit about something that 
I know is near and dear to your heart, and that is the business 
system modernization. For our colleagues who are new to this 
subcommittee, and because of the critical importance of the 
whole BSM and the ability for you to venture IT modernization, 
the cornerstone of this is this CADE-2. I probably need to 
actually come down and see your operation firsthand, at least 
this piece. You are going to deploy the CADE-2 in less than a 
year probably, right? So describe to me how the current CADE is 
different from CADE-2, first of all.
    Mr. Shulman. Sure. First, we would love to have you come, 
as I told you privately, and would love to have any Member of 
the Committee come to meet the public servants at the IRS.
    So I think the best way to describe it is when I started 
this position 3 years ago, I came in and there was a plan to, 
year by year, add 5 to 10 million taxpayers into the core 
database, and at the same time update all of our different 
downstream systems. So, take the system that is pulled up 
before our phone operators, and plug that into the database 
incrementally; the system that feeds into our collection 
operation, and plug that into the database; our financial 
systems, and plug that into the database. So it was, the way I 
would describe it, incrementally getting to a big bang that did 
both the database and all the technology applications that 
people use. And the end--I kept saying, ``when is the end 
date'' and I got dates like 2020, 2021, 2022.
    I came from overseeing big technology. I put some stock 
exchanges on line and other things, and I had a couple of basic 
beliefs about technology. One is you need to have very clear 
value-added deliverables in a short enough time frame that you 
could have a team focused, rally around it, plan, work through 
problems, and deliver. And my time frame is 2 years, 3 years 
maximum, not 10 years, because there is always going to be 
turnover of leadership people, teams, et cetera.
    Second of all, my belief is that the leader of the 
organization, not the technology people--I love them, I call 
them geeks--but it is not the technology people who are going 
to be accountable at the end of the day to the U.S. Congress 
and the American people to have wise spending. It is the leader 
of the organization. So I basically said, I want a plan to 
deliver value in the time I am here that really gets our 
modernization over a hump.
    And so we went back to the plan because I said I am not 
going to go to Congress and talk about 2020. We came up with a 
plan that said the data is key. In this day and age, it is all 
about the data. So if we can have a core taxpayer database done 
by the 2012 filing season that has integrity and the 
information you need for your service, for your enforcement, 
you get off of what is called the ``batch cycle,'' which runs 
every week or 2 weeks, and have the data run real time. We 
could achieve everything that we started and said we wanted to 
achieve in 1988, when modernization, this concept of IRS 
modernization, began, which was faster refunds for everyone, 
integrity of the data in a way that knocked down material 
weaknesses. No 2-week lag in the data between our database and 
what a taxpayer actually sent in. Because it used to be you 
called and said, ``I sent you the check.'' And I said, ``well, 
the data doesn't show that.'' And then you would have these 
cycles of--our people called it the death spiral, where we are 
writing, they are writing back at the same time, and you can't 
catch up. And so this would achieve all of this.
    And so, in short, the thing that was called CADE, and we 
called this CADE-2, originally was incrementally adding to the 
database over time while building the systems in. We basically 
cut and said we will get the database done, and we will have 
our core service technology, which is our phone support, linked 
into the database when we go live. But we are not going to have 
this kind of field of dreams at the end of the day. We are 
going to have deliverables that get us over the goal lines that 
deliver real value.
    Mrs. Emerson. So by the time everything is put in place, at 
least for the foreseeable future, because technology then 
changes too quickly, but let's just say this is all done by 
2012, will that enable you all to have fewer people then within 
the organization? Does the completion of the business systems 
modernization mean more efficiency, fewer people? Or does it 
just mean more efficiency, the same number of people, that you 
can foresee?
    Mr. Shulman. So I alluded to my view that we are like the 
big financial operations. We have 140 million individual 
customers, tens of millions of businesses, every year another 
act, a very complex Code, $2.3 trillion running through it. And 
there is no other financial institution of that magnitude in 
the country with those exact characteristics and numbers. Big 
banks, big brokerage firms, all which I seem to be inside of, 
they have 10 to 20 percent capital investment a year in 
technology. We went up from 1\1/2\ percent. We are running at 
1\1/2\ percent because we are running under a 2010 CR, and 2012 
our request gets us up to 3 percent. So when I went and talked 
to some of my colleagues in the Administration, I said, I 
understand these are big numbers, but from where I come from, 
and objectively, we have been incredibly underfunded. And so 
this gets you to a place that is not even that respectable from 
a private-sector comparison.
    What I would say is we need to continue--and I have been 
very clear about this--being more about data analysis, 
information matching, and less about feet on the street as the 
tax system goes forward for the next 5, 10, 15 years. And this 
just starts to build the infrastructure.
    So I wouldn't tell you that once we get this thing done, 
that the IRS isn't going to have to significantly invest in 
technology.
    Mrs. Emerson. I appreciate that.
    Let me say I have got some questions that I would like to 
submit for the record.
    Mr. Serrano. I have some, too.
    Mrs. Emerson. And I am sure my other colleagues do, too.

                     HISTORIC PRESERVATION CREDITS

    Mrs. Emerson. And I just want to mention one thing before 
we finish up. My office has heard several complaints about the 
administration of the Federal Historic Tax Credit or the 
Preservation Tax Incentive program. And I just wondered if you 
all could look into that for me and get back sometime in the 
near future? I would really appreciate it.
    Mr. Shulman. Absolutely.
    [The historic easement information follows:]

                     Historic Preservation Easement

    You noted you have heard complaints about the administration of 
historic easement donations. The IRS recognizes that donations of 
conservation easements play an important role in preserving historic 
property. When taxpayers meet statutory requirements and the easement 
is properly valued, taxpayers can claim a deduction for the charitable 
contribution on their tax returns.
    A historic preservation easement, commonly referred to as a facade 
easement, is a contribution of a partial interest in real property. The 
deduction may be permitted if the contribution is: 1) of a qualified 
real property interest, 2) to a qualified organization, 3) exclusively 
for conservation purposes. The taxpayer must adequately substantiate 
the deduction with a qualified appraisal and other documents.

    Mrs. Emerson. With that, then, we will conclude. Thank you 
very much for coming, and we will look forward to getting the 
answers to our questions, hopefully within 2 weeks. Okay?
    Mr. Shulman. Thank you very much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                            Friday, April 15, 2011.

           TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION

                                WITNESS

HON. J. RUSSELL GEORGE, TREASURY INSPECTOR GENERAL FOR TAX 
    ADMINISTRATION
    Mrs. Emerson. Thank you so much, Inspector General, for 
being with us today. We really are grateful to you. Hopefully, 
my colleagues will come in and out. We have got these votes 
going on, so once an hour, we will have to race downstairs to 
do a vote and then come right back up. Since we are here in the 
Capitol, we will try our best to keep the hearing going. I am 
hoping that my other colleagues will get here sooner rather 
than later.
    TIGTA was originally scheduled as our first hearing for the 
112th Congress back in February, but with all the continuing 
resolutions that we were working on, we have had to delay until 
today. So thanks for your forbearance, we are very, very 
grateful. It seems rather fitting that not only would we be 
celebrating Jackie Robinson, but we would also be delaying this 
hearing until April 15th, tax day. It is not many people's 
favorite time of the year. Certainly, not for those of us who 
have to pay taxes.
    Anyway, as we all know, we have a very difficult challenge 
in front of us with the debt at almost $14 trillion. It is 
really important that we build a foundation for living within 
our means. The Appropriations Committee, and certainly our 
subcommittee, has been tasked to make tough decisions ahead. 
And in so doing, I feel very strongly that you have to be very 
strategic in the reductions that you make. Therefore, we have 
to learn as much as we can about the agencies under 
jurisdiction in order to make these decisions.
    Inspector General George, you have a daunting task of 
overseeing the IRS, which is an enormous organization that 
touches the lives of most Americans and with 100,000 employees 
and a budget of more than $12 billion, you have your hands 
full. If this subcommittee is going to reduce spending for the 
fiscal year and try to get back to 2008 levels, we are going to 
have to identify some savings in the IRS budget.
    I want to do our best not to reduce service that the IRS 
provides taxpayers preparing their tax returns, nor do I want 
to jeopardize anything that would help us detect tax fraud so 
that we can get as much revenue in as possible. Hopefully, you 
will help us wade through some of these questions.
    I welcome you back, Inspector General George, and so 
appreciate your being here, and look forward to your testimony. 
And now to my friend, Mr. Serrano.
    Mr. Serrano. Thank you, Madam Chair.
    And I, too, join you in welcoming the Treasury Inspector 
General for Tax Administration on April 15th, which is a great 
day, J. Russell George, before the subcommittee today.
    Inspector General George, you have an important job in 
helping ensure that the IRS is running our Nation's tax system 
in an effective and efficient manner. I am interested in 
learning more about your views of the current challenges that 
the IRS faces in both the fair administration of our tax laws 
and in the management challenges that the IRS itself faces with 
an aging workforce.
    Additionally, I should have mentioned that we are in the 
process of finishing the fiscal year 2011 budget process. In 
fact, did the President sign it yet?
    Mrs. Emerson. I don't think so.
    Mr. Serrano. Soon.
    The final bill, as you know, flat funds the IRS at the 
fiscal year 2010 level. I am interested to hear your views on 
the impact this will have on IRS efforts to close the tax gap 
and whether there are areas of vulnerability as a result of the 
funding level. We look forward to your testimony. And I am 
sorry you are a Mets fan, but that's not the right thing to say 
to me.
    Mrs. Emerson. At least he is from New York, gosh.
    Mr. Serrano. There is a big difference.
    Mrs. Emerson. I bet the tickets for the----
    Mr. Serrano. I am only kidding.
    Mrs. Emerson. The Mets have a new stadium, a newish 
stadium. How much does it cost for Mets tickets?
    Mr. George. I have yet to visit it so I don't know the 
answer to that, Madam Chairwoman.
    Mr. Serrano. We cannot afford it, trust me.
    Mrs. Emerson. I know. Both my son and husband are West 
Point grads, and we went up to the West Point-Notre Dame 
football game at Yankee Stadium because it was kind of a fun 
thing to do, and those tickets were $175. I had actually gotten 
six because we were taking some friends, and I had no idea. I 
looked at the Visa charge, I mean, I figured they were probably 
$75, $80 which was still a lot for a football game, that we 
lost particularly. But nonetheless, Mr. Serrano tells me that 
the tickets are really about $475 for a decent seat.
    Mr. Serrano. $1,250 for a front row seat.
    Mrs. Emerson. Do they serve you food and drink or something 
for that $1,250?
    Mr. Serrano. They don't even guarantee you they are going 
to win. I don't know.
    Mrs. Emerson. We can have lots of fun at this hearing, but 
we really do need to try to get down to business and kind of 
going back to the whole issue of the country's debt. And I 
think all economists--I started getting carried away. We would 
like to hear from you.
    Mr. George. If you would like to, I mean it is very brief.
    Mrs. Emerson. Absolutely, please go ahead and do that.
    Mrs. Emerson. We start getting carried away, and then I 
forget so I apologize. I apologize.
    Mr. Serrano. Baseball gets in the way.
    Mr. George. Well, listen, hey, Tom Seaver.
    Mr. Serrano. The Franchise.
    Mr. George. There you go, 1969 Mets and all that.
    Chairwoman Emerson, Ranking Member Serrano, Members of the 
Subcommittee, thank you for the opportunity to appear today to 
testify on the issues confronting the Internal Revenue Service 
and helping hold it accountable as it administers the Nation's 
tax laws.
     I represent the office of Treasury Inspector General for 
Tax Administration, commonly referred to as TIGTA. An 
organization consisting of approximately 800 men and women 
spread across the country, all of whom are dedicated to the 
mission of protecting the integrity of our Nation's system of 
tax administration. We do this by conducting independent 
audits, investigations, and reviews of IRS programs and 
operations.
    We are a very unique Office of Inspector General in that 
our mission, which dates back over 50 years, includes the 
mandate to protect the Service from both external as well as 
internal threats to its personnel and operations. In the 
current threat environment in which the Nation finds itself, 
this responsibility takes on an even more important role.
    Now as I indicated earlier to you, Madam Chairwoman, I am 
not a stranger to the longstanding challenges confronting the 
IRS. I served as staff director to Mr. Steve Horn, Government 
Management Subcommittee and then under--again, Steve Horn, who 
had a particular interest in the performance problems 
confronting the Internal Revenue Service, and it is unfortunate 
to say that some 16 years later, some of the very same problems 
persist.
    As you indicated before, the IRS has a budget of over $12 
billion with 100,000 employees, and it is one of the largest 
and most important components of the Federal Government. Each 
year, it collects over $2 trillion, and returns to the 
taxpayers approximately $400 billion in refunds. It is 
responsible for administering a very complex and lengthy tax 
code, which contains many new and sometimes temporary 
provisions. For the most part, the IRS administers these 
provisions in an effective manner. However, as I will note in a 
moment, it falls short in its administration of other areas.
    Since 1999, my organization has identified cost savings and 
recommended efficiencies that, if adopted, would bring 
additional revenue into our Nation's treasury. As an aside, we 
estimate those savings and cost findings of additional revenue 
at over $223 billion.
    I am statutorily required to identify the most serious 
management and performance challenges confronting the Internal 
Revenue Service pursuant to the Reports Consolidation Act of 
2000. The issues identified in that report range from security 
of IRS employees and infrastructure, and the modernization of 
its information technology systems, to human capital, taxpayer 
rights, and erroneous and improper payments and credits. In the 
latter category, we released in February a report on the Earned 
Income Tax Credit. That report reveals, among a number of 
things, that the IRS failed to comply with the requirement that 
it provide quantifiable targets to reduce improper Earned 
Income Tax Credit payments. Out of a $50 billion appropriation 
for that program, the IRS itself estimates that 23 to 28 
percent of these credits, the EITC, are wrongfully paid each 
year totaling $11 billion to $13 billion. That amount equates 
to the entire operating budget of the IRS.
    Another example of a refundable credit that is not being 
implemented effectively is the Additional Child Tax Credit. In 
2009, we reported a significant increase in the Credit by 
filers who are unable to obtain Social Security numbers. 
However, they filed for the Credit and received it. For tax 
year 2000, these individuals received $62 million----
    Mrs. Emerson. Excuse me, will you just say that last 
sentence again?
    Mr. George. Certainly. In 2009, we reported a significant 
increase in the number of Additional Child Tax Credit filers 
who were unable to obtain Social Security numbers.
    Mrs. Emerson. So the credits--excuse me for interrupting 
you, but I want to pursue this very quick. So they filed for 
the child tax credit but provided no Social Security number, 
and they still got it?
    Mr. George. That is correct, this is correct.
    Mrs. Emerson. We will pursue that in a little bit. Thank 
you.
    Mr. George. Now, for tax year 2000, these individuals 
received $62 million. For tax year 2007, the amount of the 
applicants for this Credit that was received increased to an 
astounding $1.8 billion. This is something, notwithstanding the 
fact that my auditors identified this as a problem and a 
possible approach to contain it, the IRS has failed to act.
    Now as you both noted, and welcome Mr. Bonner, since today 
is traditionally the deadline to file taxes, and as you know, 
because of the holiday in the District of Columbia, it is 
extended until the 18th, I will close my oral comments with an 
assessment of the current filing season. We will be issuing our 
interim report on the filing season officially next week, but 
it will show that as of March 4th, the IRS received just over 
60 million returns. Of those, 53.9 or 89 percent were 
electronically filed, and nearly 6 million to 7 million or 11 
percent were filed on paper, a decrease of over 30 percent from 
this time last year. That is a good news story.
    Mrs. Emerson. A decrease in the paper?
    Mr. George. Correct, that is correct. As you well know, 
electronically filed costs the IRS much less to process than 
those which are filed by paper.
    In addition, nearly 52.6 million refunds totaling 
approximately $161 billion has been issued as of March 4th. Our 
report found that overall the IRS is doing a better job of 
intercepting and preventing fraud this year. I am sure you may 
want to delve into this later, we recently issued reports about 
prisoners receiving tax refunds they were not entitled amongst 
a host of other people. Since those reports were issued, the 
IRS has changed its procedures and is doing a much better job. 
We still have found that there are some improper credits still 
being paid, and they still have some issues as they relate to 
customer service that need to be addressed.
    And I just want to close in my opening statement by saying 
Members of the Subcommittee, our Nation, notwithstanding the 
items that we will discuss today, which are we are here to 
focus on the problems that need to be addressed, we nonetheless 
have the best system of tax administration in the world. And it 
is my challenge and my organization's challenge to help the IRS 
identify ways to ensure that that remains the case. We commit 
to do our level best to achieve that goal. That concludes my 
opening statement, Madam Chairwoman.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Emerson. Thank you so much, Mr. George.
    And thanks for being here, Jo.
    I am going to go out of order now because I want to pursue 
this child tax credit and ask, how is it possible that you can 
file for a tax credit and not provide a Social Security number? 
I mean, I am just curious. It sounds like not having to have 
any income and getting $200,000 mortgage when you make $35,000 
a year. How is that possible?
    Mr. George. By a multitude of actions and/or inactions. 
One, Congress was silent on this issue. Unlike the EITC, when 
years ago we identified similar problems, Congress passed 
legislation that mandated that anyone who applied for EITC had 
to supply a Social Security number. Then the IRS's contention 
is that for the Additional Child Tax Credit, the law is silent 
on that issue and that it does not necessarily need to deny 
these credits.
    As you know, with a refundable credit, it is very difficult 
for the IRS to anticipate problems. In effect, they have to 
wait until people apply for it, receive the credit, the refund, 
and then in a very inefficient way, doing a cost-benefit 
analysis, go after money that has already gone out of the door.
    We recommended that the IRS receive what is known as math 
error authority, which would give them the ability when they 
identify problems before the money has gone out the door, that 
they can in effect change the taxpayer's tax form and prevent 
it from going outside, from being submitted. Because once it is 
submitted or returned to the taxpayer, it becomes, in their 
argument, cost prohibitive to go after it; it is cost-benefit 
analysis. Do you go after a $500 tax refund when it would cost 
$1,000 in manpower and what have you?
    Mrs. Emerson. So we would have to probably fix that 
legislatively?
    Mr. George. Yes, that would require legislative action. And 
we have made recommendations to that effect.
    Mrs. Emerson. When you submit the report to the 
commissioner, is the traditional process that the commissioner 
then gets together with you to discuss all of these items and 
ways to work on them, or how does the process work when you 
submit your findings?
    Mr. George. That is a great question. First of all, what we 
do is, in advance of any final report, we give the IRS an 
opportunity to comment on it, to make sure, in all candor, we 
are not misstating things and, if we have, to have a discussion 
with them regarding that. The Department--and this has been the 
case since I have been the Treasury Inspector General, and I 
served under three Secretaries now--the Secretaries have 
delegated substantive tax policies to the Office of the 
Assistant Secretary for Tax Policy. And so I am truly, both by 
the directive as well as by the Inspector General Act, I am 
prohibited from engaging in substantive tax policy. I can 
comment on it, but I really can't create it. That is for 
Congress and that is for the Administration.
    Mrs. Emerson. Right.
    Mr. George. So that Commissioner and my staff, we will 
discuss issues, findings, especially ones they disagree with, 
but we don't in advance decide this is the best way you should 
recommend to Congress or to the Administration, unless that is 
a formal part of the recommendation in the report.
    Mrs. Emerson. If some of the recommendations that you all 
made are not agreed to, then do you re-pursue those?
    Mr. George. Yes, that is a great question. The Department 
actually has a process in place where every recommendation that 
we make and every audit report is put into a data bank. And 
that data bank is something that is available to the department 
heads, to the Commissioner and to ourselves. And so, 
periodically, we issue over 120 audit reports a year, if not 
more, and hundreds of recommendations. So we have a certain 
process for doing so in terms of revisiting them. So we do 
revisit them, but we can't do it every month or every 6 months, 
just because of resources and other priorities.
    But the bottom line is something along the lines as 
important as this, we certainly would bring to the attention, 
and I have to both the Secretary and to the Deputy Secretary.
    Mrs. Emerson. Let me talk about the EITC, because I have 
many, many people in my congressional district who are 
fortunate enough to take advantage of this, and it is their 
safety net, if you will, in many cases.
    But can you go over just a little bit in further detail the 
issue of the erroneous payments and the fact that the IRS 
doesn't seem to have a quantifiable means by which to make 
corrections?
    Mr. George. Yes, if you have a very detailed response to 
that. Just speaking off the cuff, Madam Chairwoman, as you 
know, the Earned Income Tax Credit is a refundable Federal 
income credit for low- to moderate-income working families and 
individuals. To qualify, taxpayers must have earned income from 
employment, self employment or another source and meet certain 
rules. In addition, they must either meet the additional rules 
for workers without a qualifying child or have a child that 
meets all the qualifying child rules.
    The IRS reported 24 million taxpayers received $55 billion 
in Earned Income Tax Credits for tax year 2009. GAO has listed 
the EITC programs having the second highest dollar amount of 
improper payments of all Federal programs.
    Now there was an Executive order issued by President Obama 
in November 2009, which said reducing improper payments was 
supposed to increase the pressure on Federal agencies to hold 
departments more accountable for reducing improper payments. 
And as it relates to the IRS, the IRS is required to provide 
TIGTA with a report on four action items: the methodology for 
computing the error rate, and they have done that; the 
reduction target and plans for meeting improper payment 
reduction targets, and they have not done that; plans to ensure 
program access and participation by eligible beneficiaries, and 
they have not done that; and a quarterly reporting requirement. 
Now the problem as it relates to that, and this is something 
that is not within the jurisdiction of this committee, it is 
Title 26 Section 6103 of the Internal Revenue Code or the tax 
code prohibits the IRS, myself, the Secretary from revealing 
taxpayer information under penalty of both jail time as well as 
a fine. So there are just certain privacy restrictions on what 
type of information they can report. So that may be the reason 
why that quarterly report has not yet been submitted to us.
    We have observed that the IRS has made little progress in 
reducing EITC improper payments since being required to report 
these estimates to Congress. The IRS continues to report, 
again, the figure of 23 to 28 percent of improperly paid each 
year, and we believe that the IRS is not in all honesty 
responding to the President's Executive order in an effective 
manner.
    The IRS has contended, and rightfully so, that the some of 
the changes that they are initiating as it relates to paid 
preparers will be helpful in helping to reduce the number of 
erroneous EITC payments.
    Part of the problem, Madam Chairwoman, is the tax code, tax 
forms are difficult. I am an attorney, and there are times when 
I have to call an accountant and/or the IRS to figure out how 
do I respond to a particular question on the tax form, let 
alone somebody who has not yet had that type of training. So we 
agree to pay tax preparers, especially once the IRS initiates 
this program, to register them, to test them, and to ensure 
that they have the credibility and the training as the first 
line of defense in the IRS and our efforts to help administer 
an effective and fair tax system.
    Mrs. Emerson. But realistically, how many folks who are 
qualified for the EITC can afford a paid tax preparer?
    Mr. George. Great question, I don't know the direct answer 
to that. But I can tell you and I am sure you are aware of, 
there is the free file program. There are a number of new ways 
that the IRS and others have worked together to help people 
comply with their tax obligation.
    This is a point, and I am glad you opened up this area of 
discussion, I believe, Madam Chairwoman, that it is the 
obligation of the Internal Revenue Service to make it as simple 
as possible for people to comply with their tax obligations. 
And it is my contention, although I don't have any empirical 
evidence to follow it up, but it is my gut that says, you make 
it easy for people to comply, they will. Obviously, there are 
bad apples out there and people who just will do the wrong 
thing one way or the other. But if it is simple to comply, 
believe me--and I don't advocate this, because, one, it is a 
policy issue--but if the government, like some countries, were 
to--and actually some States--were to fill out the forms for 
you and in effect you just confirm their numbers and sign and 
send a check or just validate the refund, you would have a much 
higher compliance rate.
    Mrs. Emerson. I know that is somewhat controversial in some 
areas, but the Free File is a program that I embrace 
wholeheartedly, as a matter of fact I actually did a seminar, 
Webinar if you will, with some of my community organizations 
throughout my district so that they could get more people to 
use the Free File and/or help some of their customers and/or 
clients do that. I know that makes a big difference.
    About the online services, it is one thing to pay $29.95 or 
whatever it is these days, but to hire an accountant is, you 
know, rather expensive. But the Free File does work, and 
obviously for those folks within this income range, that is 
available. And those are all good programs. So I appreciate 
that. In the interest of time, so we all have an opportunity to 
ask questions, I am going to go to Mr. Serrano.
    I called on you to ask questions.
    Mr. Serrano. I was trying to figure something out here.
    Just to follow up on this issue of folks without Social 
Security numbers. Now my understanding is that you can have a 
business in this country and pay taxes without being here with 
proper documentation. I would suggest the IRS doesn't care who 
it gets money from is the bad joke. Now is that also related to 
the possibility of people applying for the tax credit without a 
Social Security number? Because as you know, the flip side of 
that is that America's worst kept secret is the number of 
undocumented, or some would call them illegals, who are working 
with shall we say an improper Social Security card, paying into 
Social Security, but will never ask for a penny from the fund 
because they can't come out in public to do that. And so in a 
very bizarre and strange way, they are paying for the rest of 
us in so many ways. So how can that be related?
    Mr. George. That is a very important point that you raise, 
sir.
    I would only quibble with the word improper number for 
organizations the way you pose it in your question. Because the 
Internal Revenue Service has established what they call an 
individual taxpayer identification number, which is not a 
Social Security number; it is a number literally made up by the 
IRS to give individuals in that particular--individuals and 
entities--it could also be an individual who has a tax 
obligation because they have business transactions in the 
United States and yet who don't qualify for a Social Security 
number and so nonetheless would like to comply and should 
comply with their tax obligation. But that number, the ITIN----
    Mr. Serrano. When I was referring to improper--and then 
there is another group that does have a Social Security card, 
but it has been said for years, I have no proof of this, that 
those cards were gotten improperly--initially.
    Mr. George. Well, if I may, because I think it is a 
slightly different issue, there are very limited number of 
circumstances in which a Social Security number can be issued 
for the purpose of paying taxes but not for the purpose--not to 
say, though, that you are a U.S. citizen and not to say that 
you are entitled to any benefits under Social Security. One of 
my colleagues here can really delve into that more deeply if 
necessary.
    You are exactly right, there are a number of undocumented 
aliens or I am not sure what term you prefer nowadays, but the 
bottom line is, who do believe if they comply with their tax 
obligation, it may in the long run help them if they decide to 
apply for legal status in the country.
    But the bottom line is the law, especially as it relates to 
the Additional Child Tax Credit, does not allow these people to 
benefit from that credit.
    Mr. Serrano. From the credit.
    Mr. George. But it is nonetheless accepting the ITIN in 
that way, and they shouldn't be doing so.
    Mr. Serrano. Okay. The other thing was, just again, it is 
another aside, that on the EITC, some years ago, we discovered 
that 17 percent of all tax filers claimed the EITC, but 37 
percent of audits were on this particular group at one point. I 
was making the point at that time that, okay, I understand that 
IRS has to audit who it has to audit, but auditing EITC at 37 
percent and not auditing some higher income folks at the same 
percentage may not be getting a good bang for the buck.
    Mr. George. Sir, again, that predated me. But you were 
right in terms of my understanding as to how it was done 
historically, but that has definitely changed under the current 
Commissioner Shulman and under Everson, I believe, it started, 
and that now the focus is more so on high-end earners. And in 
all honesty, to get the biggest bang for the buck is to go 
after those people who earn the most money. And they have 
changed processes, both of in terms of domestic taxpayers but 
even much more important, international, foreign tax--
corporations and individuals, in terms of dollars that they are 
hiding or keeping overseas and not declaring on their U.S. tax 
forms.
    Mr. Serrano. Let me ask you a question about your budget. 
You have a unique perspective in your role as Inspector General 
For Tax Administration. In addition to receiving a fine 
education in New York City public schools, the Chancellor will 
love this, you served on the Committee on Government Reform and 
Oversight and on the Government Management, Information 
Technology Subcommittee. You have conducted exactly the type of 
hearing that we are holding this morning, including oversight 
of Inspector Generals across the government. In addition, you 
have been in your current position for almost 7 years.
    What can you tell us about the responsibilities of your 
office? You have a staff of roughly 827 FTEs and you make 
important decisions about how to deploy that staff to conduct 
oversight of the IRS. How do you make those decisions?
    Mr. George. A wonderful question. And thank you for the 
plug on the New York City public school system, because it gave 
me great opportunities. The bottom line is we have to be, 
unfortunately, a very reactive organization, Congressman. It 
depends on the day of the week. The largest component of TIGTA, 
and we are approximately the fourth largest Inspector General 
in the Federal Government, is again to protect the 
administration of our Nation's tax system. And this is, as I 
indicated in my opening statement, something of longstanding 
responsibility. We were initially called the Inspection Service 
set up over 50 years ago. We were the Internal Affairs Division 
of the Internal Revenue Service, and it was with the 
Restructuring and Reform Act of 1998 that we stood up 
officially as an Inspector General.
    The role of an Inspector General--to root out waste, fraud, 
and abuse--is very different than the role of the protector of 
the system of tax administration. So more than half of my staff 
literally consists of Special Agents spread all over the 
country, who when threats are made against the system of tax 
administration writ large, namely tax, IRS employees or other 
people who are engaged in the system of tax administration, 
they literally rush out to the scene in any part of the country 
and world and either effect arrests or conduct investigations.
    The irony is that we have the responsibility if a threat is 
made against a criminal investigation employee of the Internal 
Revenue Service, it is my agents who, at 2 o'clock in the 
morning, rush to the scene and provide whatever assistance is 
needed. Case in point, when that person flew an airplane into a 
building in Austin, Texas, and murdered Vernon Hunter, an 
innocent IRS employee who was just doing his job, and just by 
the grace of God, his plane hit a support beam as opposed to 
going just 3 feet lower and would have gone into the atrium, 
and there would have been massive casualties had that happened. 
So that is just one example of where my Special Agents go after 
that type of matter. I could go on and on, sir.
    But as it relates to audits, in every aspect of the system 
of tax administration, if someone makes an allegation that a 
tax employee of the IRS is soliciting a bribe, we will send out 
people and we will use whatever means necessary, legally of 
course, but to find, root out, identify that person, to prove 
or disprove the allegation and to then refer it to the 
appropriate prosecutorial entity. And vice versa, if a taxpayer 
solicits a bribe from an IRS employee, and believe me, that 
happens a lot, fortunately--and again, I can't say completely 
that every IRS employee will report that, but I am 
extraordinarily proud of the number of IRS employees who do 
come to us and say, this taxpayer offered me $10,000 to reduce 
their $100,000 tax obligation. And so we literally, whether it 
is using some of the investigative technologies that we have, 
hopefully investigate those and again pass them along to 
prosecutors.
    Mr. Serrano. Thank you.
    Madam Chair, I will stop here so our colleagues may ask 
questions.
    Mrs. Emerson. Thank you.
    Mr. Bonner.
    Mr. Bonner. Mr. George, welcome.
    Mr. George. Thank you, sir.
    Mr. Bonner. I was conflicted about whether I would be able 
to make this meeting until my wife told me last night how much 
more we owe in taxes. So I thought I would take advantage of 
this opportunity. I don't blame you.
    Mr. George. I don't set the rates.
    Mr. Bonner. I came with three questions, and I am going to 
try to get to them, but your response to the chair and to the 
ranking member has actually now raised a few additional 
questions.
    You said, I don't think you would get any disagreement from 
anyone here, certainly not from this member, that our tax forms 
are too difficult and that even with that great education from 
New York City public schools and Howard University and Harvard 
Law School, that you, too, have had to seek professional help 
to fill out your forms.
    Has the IRS ever done a survey of their employees--how many 
employees are there, 110,000?
    Mr. George. Roughly, roughly. Depends, during the filing 
season, it goes up slightly more than during nonfiling season.
    Mr. Bonner. Have they ever done a survey to find out how 
many of the employees of the Internal Revenue Service have to 
seek help either from a professional accountant, Turbo Tax, H&R 
Block, someone like that?
    Mr. George. Not to my knowledge.
    Mr. Bonner. That would be really interesting. I don't know 
if that would fall in your jurisdiction or if we need to bring 
that to the commissioner. But I think it would be fascinating 
to know.
    Mrs. Emerson. If you will yield for a minute, perhaps that 
would be something that we could just encourage in report 
language in our bill. It wouldn't cost any money because you 
can do it on e-mail with the fancy new computer system there 
that exists now.
    Mr. Bonner. Well, it is just a suggestion, and I would 
certainly welcome the chair's help in making that happen.
    The other comment you make, which I certainly agree with, 
is that it is your opinion that the IRS should have an 
obligation to make filing and paying your taxes as simple as 
possible. In your position, what grade would you give service 
in terms of doing just that?
    Mr. George. That is a very, very--and you put me on the 
spot because Mr. Steve Horn, as you may recall, used to issue 
report cards on the status of Federal agencies as it related to 
Y2K and financial management issues.
    Mr. Bonner. I will give you a chance to think about it 
because I didn't mean to put you on the spot, but I want to 
tell you why I ask that question. We all have the privilege of 
serving on this committee, and as such, we serve on different 
subcommittees. And earlier this week, we had an opportunity in 
the Defense Subcommittee to meet with Dr. Ashton Carter, who is 
the head of procurement for the Department of Defense, a very 
smart man like yourself, someone who could be doing so much 
more in the private sector, but you dedicated your life and 
certainly this chapter of your life to serving your country in 
this role. And so we thank you and we thank people like Dr. 
Carter as well.
    When asked by one of our colleagues how many people worked 
in procurement at the Department of Defense, he said 
approximately about 140,000. So actually more people work in 
that than work at the Internal Revenue Service. So one of our 
colleagues said, well--and the example was when we were talking 
about Defense is that sometimes it takes 7 or 10 or 12 years 
just to get what should be a pretty simple system underway and 
funded and then into service. How many of those 140,000 people 
are really good at what they do? And his answer was not enough.
    So I don't say this to put a black mark on any of the 
110,000-plus men and women who are dedicated and who are doing 
their work. But to your point that I agree with, it should be 
the obligation of the Service to make it as simple as possible 
to comply with the laws that this Congress passes and previous 
Congresses. I would just like to know if you would care to give 
a letter grade?
    Mr. George. I would, I would. And again, it is risky to do 
this, but in all fairness to the IRS, they get a B in terms of 
giving decent and accurate information to taxpayers. And that 
wasn't always the case. It really did take the hearings in the 
late 1990s to help bring some sanity in some areas. A lot of--I 
know many of my colleagues who were around back then--and Mrs. 
Emerson and Mr. Serrano, you may have been two of them--some of 
the claims made against the IRS were exaggerated, as proven 
later on. But nonetheless, certain changes were implemented, 
including the standing up of TIGTA, that have assisted the 
Commissioners of the IRS, the Secretaries of the Treasury and 
the American people have a more efficient and effective system 
of tax administration.
    Former Commissioner Mark Everson used to say that 
compliance equals enforcement plus customer service. And so 
there was that balance between making sure that people got 
telephone calls answered in a prompt fashion, who went to 
taxpayer assistance centers and got accurate information and 
then----
    Mr. Bonner. Accurate and consistent.
    Mr. George. And consistent, that is exactly right, because 
as you are suggesting, when we first started doing 
examinations, we found we would send people undercover to 
taxpayer assistance centers, and literally, the accuracy rate 
of the tax return was zero percent. Not a single tax return was 
correctly filled out by people who were IRS employees paid to 
do this. And our most recent examination, again, it was a very 
limited sample, a much smaller number, because there are 
hundreds of taxpayer assistance centers, the accuracy rate was 
100 percent.
    Mr. Bonner. That is great.
    Mr. George. They made very good progress in that regard. Is 
there perfection? No, you are right. They call one number one 
time and get a different answer than they may get the next 
time. That is still a possibility. Human nature; people make 
mistakes. But I would give them a B.
    Mr. Bonner. Well, I am going to submit two of the questions 
for the record. But I want to get the last question in that 
really is something that has been a pet peeve of mine for 
years. I was a staffer up here for 18 years. I have only been 
elected in the House for 9 years. I don't know that I will ever 
be a good Congressman; I was a great staffer, if I say so 
myself.
    Mr. Serrano. You are a great Congressman.
    Mr. Bonner. You are very nice. Thank you.
    Mrs. Emerson. Yes, you are.
    Mr. Serrano. Is it shrimp time----
    Mr. Bonner. Two, weeks, 2 weeks.
    Liberal groups, conservative groups, this crosses the 
spectrum: Senior citizens throughout our country get letters 
just like this, dear senior citizen, send us your money, so we 
can go to Washington and keep Congress from destroying Social 
Security, destroying Medicare, destroying whatever it is. And 
it struck a raw nerve for me when a 92-year-old lady in my 
district who is suffering from dementia and who actually has 
relatives in a colleague's district who notified me about this, 
that she drained every penny of her savings.
    And Mr. George, I don't know about Mr. Womack or Mr. 
Serrano or Mrs. Emerson, I have never seen any of these people 
in the 18 years I was on staff and the 9 years I have been in 
Congress who have actually come in to my office and say we are 
here to keep you from destroying Social Security or Medicare.
    Now I ask this because the Internal Revenue Service, as I 
understand it, has oversight responsibilities for these 
501(c)(4) groups. If that is true, how well is the Service 
performing in their oversight? I know we have the First 
Amendment. We celebrate the First Amendment. We are a better 
Nation because of the First Amendment.
    But it is just unconscionable to have companies, groups 
that are able to use the current deduction system to fund 
themselves to go out and become a plague on the senior citizens 
of our great country. And with that, I will yield to your 
answer and thank the chair for the opportunity to ask some 
questions.
    Mr. George. A very important question, Congressman. 
Initially, I thought where you were going with this are these 
tax schemes being perpetrated by many people from foreign lands 
and even people domestically, who say you have won a lottery, 
all you have do is pay the tax and we will send you a check for 
a million dollars, and you would be surprised how many people 
fall prey to that.
    Mr. Bonner. We have a number in our district as well. That 
was a different question.
    Mr. George. But as it relates to this, when you say 
oversight of 501(c)(4)s, we actually did conduct, at the 
request of Congress, two reviews, and because of privacy and 
tax restrictions, I can't say which groups we looked at, but 
they were prominent, and you can probably guess which ones they 
were. What we were only able to do, sir, is to look at the 
processes within the Internal Revenue Service for overseeing 
complaints against these types of people, groups, rather, and 
how the IRS handled those things. Because again, the 6103 would 
put me in jail if I were to reveal particular tax groups, 
individuals and/or organizations, and at this stage, I don't 
want to lose my job.
    But what I can do is, one, commit that we will share the 
report with the committee as well as with you in response. I 
don't know--it won't answer your question spot on, but it will 
give you a better sense of what the IRS has and has not done. 
Actually, they are getting two reports, and they are both 
issued within the last year, year and a half.
    Mr. Bonner. Thank you.
    Mrs. Emerson. Thank you. And I will tell you one of the 
things I do, because this just annoys me to death and scares me 
because I have so many seniors who do, in fact, do that, but 
every time that we do any kind of mailing, any time we answer 
any kind of letter, most every time, to seniors, I put a little 
thing in if somebody is asking you to pay $10 to help save your 
Medicare and Social Security, do not send, do not, throw it 
away and don't send any money in. In many cases, especially 
with high gas prices, that $10 can make it, give you enough gas 
to go back and forth at least to the grocery store.
    With that, Mr. Womack.
    Mr. Womack. Thank you, Madam Chairwoman and Mr. Inspector 
General. There is not an ad on television that upsets me any 
more than an ad that comes on and says, if you want to have 
some help in gaming this country by saving on your debt 
obligation to the United States of America, it is that ad. We 
have all seen them. I think you touched on this a little 
earlier. Help me out; how does that work?
    Mr. George. The IRS has a formal program which is entitled 
Offers and Compromise, which any citizen, with or without the 
help of a third party, has a right to go and petition the IRS 
for, in effect, an agreement if they are having problems paying 
their tax obligations.
    Congressman, you hit the nail on the head. Over 2 years 
ago, and one of my colleagues directly behind me will attest 
that I requested that we take a look at some of these things 
and find out, Tax Masters and Roni Deutch and all these others, 
when they were making these claims, we will reduce $50,000 
obligation to $5,000, were they telling the truth or not? And 
once again, we have a report, happy to share with you, I don't 
recall all the conclusions, but at the same time, I do know 
that under the State Attorney Brown, before becoming Governor 
of California, he filed suit against Roni Deutch making 
allegations of criminal wrongdoing and these types of 
solicitations. I believe it is ongoing, so I don't know what 
the final result is of that, but that is something that is 
still on our radar.
    In some instances, there have been proven allegations that 
people are getting ripped off, for lack of a better word, but 
that is something that I am also very concerned about. But 
again, the bottom line is the IRS does have a legitimate 
program which does, in effect, allow that. And I think, my 
understanding is and I may ask him to come up and address this, 
that in the limited cases that we looked at, the allegations 
that were actually made in the TV ad were accurate.
    Is that the case? So, yes. I was just told by staff that it 
was valid what this particular business was claiming in terms 
of how they handled a particular case. But that may be just one 
out of thousands as opposed to every single client receiving 
that type of benefit.
    Mr. Womack. I understand the need to have some negotiated 
process on potentially doubtful and uncollectible accounts. But 
depicted in these ads, and I know a lot of it is just style and 
verbiage, but depicted in these ads are people who obviously 
have lifestyle levels that are suggested to be through the ad 
greater than the average American. And there is no more of an 
outrage--and I think I speak on behalf of most Americans when I 
say for those who, like me, pay my taxes and probably could do 
a little better for ourselves if we looked here and there for 
better deductions and this sort of thing, it is just, to me, 
not really worth the effort all that much. But on behalf of 
taxpayers across America who pay their taxes and pay them on 
time, there is no more outrage that I feel, perhaps except for 
those who are willingly selling their homes because they are 
under water--or letting their houses go into foreclosure 
because they are under water, even though they never missed a 
payment and still could make those mortgage payments, but we 
will save that for another discussion.
    I want to go back to the EITC for just a moment, because I 
come from an area in northwest Arkansas that has been impacted 
by illegal immigration, and I would like to know if there are 
accurate numbers out there that have impacted our Federal 
Treasury of people who are not entitled to the EITC but 
nonetheless are collecting that credit.
    Mr. George. The short answer is, yes, there are. I am going 
to turn to my staff. Do we have numbers? Number of illegal 
aliens receiving the EITC?
    Mr. McKenney. Yes, our primary concern is the EITC--the 
EITC is about 2 million.
    Mr. Womack. Two million.
    Mrs. Emerson. Excuse me, can you just identify yourself 
please for the court reporter?
    Mr. McKenney. Michael McKenney, Assistant Inspector General 
for Audit.
    Mrs. Emerson. Thank you so much.
    Mr. Womack. We will submit for the record, I would like a 
little bit more detail on what we know and what we don't know, 
so that I can intelligently answer those questions with 
constituents of mine who pay attention to these sorts of 
things, and I think we all should pay attention.
    We have got people gaming the system across the spectrum of 
the Tax Code, but in particular with EITC, we have a lot of 
gamers out there?
    Mr. George. We do. Again, Mr. Womack, I don't know if you 
were here when I was introducing myself. I, too, served on the 
Hill as a staffer over 16 years ago. When we first looked at 
this issue, it was then estimated that the annual improper 
payment rate was in the $20 billion a year range. And so 
subsequently, through, again, oversight hearings that Congress 
held and later action by the administrations----
    Mr. Womack. That was about what year?
    Mr. George. That was 1995, 1996 timeframe. So it is now 
roughly $11 billion to $13 billion a year. Still an outrageous 
amount of money, but obviously, the trend seems to be in the 
right direction. Again, that is just EITC.
    As my colleague alluded to a moment ago, there is an 
additional tax credit on the Additional Child Tax Credit, which 
has similarly been very large numbers of improper payments and 
that literally the Congress, because of inaction of Treasury, 
IRS, state that they are not in a position to address it. That 
is something that could be fixed by Congress, and that is 
something we discuss in detail in my written testimony.
    Again, I have to again, sir, I don't think you were here, I 
have limitations on the substance of tax policy that I can 
advocate in my role as the Inspector General, and it is the 
Assistant Secretary for Tax Policy that the Secretary has 
delegated that responsibility to. But he, too, Michael Mundaca, 
is aware of that issue.
    Mr. Womack. Thank you. We would like to see some more 
detail on the reporting.
    Madam Chairwoman, our country is a great country with a 
terrific system in place, albeit with its flaws and its 
complicated tax codes, but there is, I will say again, no more 
outrage that I could have than to have people who game our 
system and take advantage of things to which they are not 
entitled that over time adds up to billions and billions and 
billions of dollars at a time when our country is faced with 
the financial distress that we face.
    With that, I yield back.
    Mrs. Emerson. Well, thanks.
    And I totally agree with you, particularly when we can 
actually touch and feel where this fraud is being perpetrated, 
and that is very, very frustrating. Because what it does is 
hurt the people who actually need to take advantage of these 
types of tax credits, where it helps them be able to put food 
on the table or even maybe even save a little bit for school 
supplies and stuff. It is very, very frustrating. There are 
some things that we might have the opportunity to do, and we 
will engage you on those.
    Mr. Serrano. I would like to comment on this because every 
so often, we are going to find issues where both sides, 
Democrats and Republicans, can agree on.
    There is another side to this that has to be looked at. In 
my district, in the Bronx for instance, around tax time, a lot 
of places we know by name open up storefront operations to do 
taxes. They have the whole issue of basically we think--can I 
prove it? I guess I am within the bar of the House, but we 
suspect in some cases, they are telling folks to fill out this 
and fill out this and go for this and you can get that. And the 
person is either a person with less education about these 
matters and goes along with it, or in some cases, it might be 
undocumented folks, who are afraid of their shadow, who want to 
pay taxes, because you are right, they know, one, it is the 
right thing to do; two, it could help years from now. Whenever 
we talk about any kind of immigration reform, the first thing 
we say is pay your taxes, learn English and so on. So a lot of 
that is going on.
    Then you have the other addition, which is these folks will 
advertise that on the day they fill out your form, they will 
give you a check--a loan, not a check, a loan for the return. 
These folks think they are getting a check from the IRS. They 
are not. They are getting a discounted amount because this 
person is making a loan. It may be one of the few issues you 
will find, actually many, but one of the glaring ones we will 
find where conservatives have a reason to be angry and liberals 
also have a reason to be angry, and we can work on it.
    Mrs. Emerson. We found some new opportunities to hopefully 
save money.
    Mr. George, did you have something you wanted to say while 
everybody else was making small talk?
    Mr. George. As it relates to Mr. Serrano's comment, it is, 
again, the commissioner's thinking that by registering and in 
some way validating these paid tax preparers, we may be able to 
root out the less scrupulous ones and to bring in people who 
will help avoid that situation.
    Mr. Serrano. I don't know if this happens in your district, 
but in my district, it is amazing, they dress up like mascots. 
They hire local folks who dress up in these outfits to stand 
and give out and say, down the block, we will get your taxes 
done.
    Mrs. Emerson. I live in a rural area. It is not done quite 
the same, but we do have----
    Mr. Serrano. They stand by the highway and wave?
    Mrs. Emerson. With the signs ``free taxes'' or ``discounted 
taxes.''
    One of the things that the IRS has helped us do that I find 
positive is that we have all these volunteers that go to our 
senior centers and nutrition centers to help seniors, free, 
fill out the forms. And they have got the computers there. That 
is a terrific system that has helped multiple numbers of 
people. However, then you get the ones who have no more 
business than I do in trying to fill out people's taxes.
    Mr. George. If I may, Madam Chairwoman, as I indicated, we 
went to these private organizations--the tax centers--and had 
100 percent accuracy rate. Some of the VITA programs, they have 
had some problems in terms of accuracy in terms of filling out 
taxpayer forms. That is something I would suggest this 
committee--as we are going to be a little more aggressive have 
on.
    Mrs. Emerson. Well, I appreciate that because I visited two 
of those centers in my district, and I guess--and I had IRS 
folks there with them. I am not sure how many hours of training 
each of these individuals has had to have.
    Mr. George. The groups are the ones that support that.
    Mrs. Emerson. Just keep our eye on this one, too, okay.
    Mr. George. Lastly, to Mr. Serrano's point, with the First-
Time Home Buyer Credit, it was the same situation. You had 
people literally telling people hey, come into my office, pay 
me X amount of money, I will fill out the tax forms for you and 
help you with a refundable credit. Until our audits identified 
many of the problems associated with that, namely 4-year-old, 
people who hadn't actually purchased homes or people who had 
purchased homes prior to the implementation of the legislation, 
these unscrupulous tax preparers and taxpayers were getting 
away with it.
    Mrs. Emerson. This is a very good discussion. I think it is 
really helpful. I want to move to a different subject, if that 
would be all right, just because apparently we are going to 
have soon three votes, and if we could try to get finished with 
the real questions that we want to ask so you don't have to 
wait around. I hate to have you do that, Mr. George, because a 
10-minute sequence of votes ends up taking an hour because 
people chitchat and don't vote.
    On Monday, I was down at IRS headquarters with the 
Commissioner and his staff discussing the new IRS taxpayer 
account database. There is no doubt that this really has--there 
is an opportunity to immeasurably improve the IRS customer 
service and tax return processing. I know my children, who file 
their tax returns want those tax refunds back immediately. It 
is certainly much better since they do it electronically.
    But I want to know how much confidence you have in the IRS 
to meet its goal of launching the database by next January so 
it can support the 2012 filing season. And then, after 50 years 
of working with a database that gets updated on a weekly basis, 
IRS employees are going to have to use a database that is 
updated on a daily basis. Are employees prepared to have their 
schedules totally disrupted in order to maintain this huge 
investment that we all have made?
    Mr. George. The short answer is, I have been told by my 
staff who have actually conducted the audits on the ground that 
the IRS is making very good progress in anticipating the 
implementation of the customer account data engine version 2, 
CADE 2. CADE 1, as you know, is still a work in progress. But 
it is still the master file, what the IRS has been relying upon 
for over 50 years, that is what the IRS employees have to rely 
upon. I have to admit my view and my response is somewhat 
clouded, I think is the word, by their experience with the tax 
system modernization effort that you may recall started in the 
mid 1990s. They spent $2.5 billion on a system that was behind 
schedule, didn't produce what was promised, and ultimately just 
completely thrown away. And so $2.5 billion were wasted. As my 
former boss, Mr. Horn said back then to Commissioner Rosatti, 
after $100 million, couldn't you realize this wasn't working? 
Why do you have to wait until it gets--I am told it is actually 
closer to $3 billion that was completely wasted.
    So I am from the Show-me State on this one. So I really 
have to see it to believe it. But I have been told that they 
have learned from the past mistakes. And I am reasonably 
optimistic that they will be able to achieve a lot of what they 
promised. Now will it be done on time? I have no idea. I can't 
predict the future. But I do know that they have made changes 
that are somewhat disappointing because at one point their goal 
was to have a system similar to what you do when you encounter 
your credit card companies, you call in and you can just input 
your credit card number, or, in this case, your Social Security 
number or whatever it would be, and then how much money have I 
paid into the system, how much money do I owe, when do I owe 
it, so on and so forth.
    I think it was being called MyIRS. And it was supposed to 
be this really high tech or avant garde type of situation. And 
they have abandoned that. Not necessarily their fault. The 
resources that they received were cut back and so they have to 
make choices between what to provide and what not to provide, 
given the limited resources that they have. And then added 
obligations that I am sure you will talk about in a moment.
    Mrs. Emerson. I am certainly hopeful that it does work. One 
of the questions I asked them was: well, if you aren't here in 
2 years or 3 years when it is completed, how can you ensure 
that this gigantic investment we have made will actually be 
carried forward, to which, of course, nobody can answer that 
question because you can't see into the future. But this does 
worry me, given the fact that I think the entire government has 
done a horrible job across the board on IT modernization and we 
just haven't kept up. Unfortunately, it does require an 
investment. It needs to be done much quicker than--and we dole 
out moneys a little bit at a time. By the time you have 
finished it, it is already obsolete.
    Anyway, hopefully we can get it underway. So I guess the 
original estimate was that this whole modernization was going 
to take about 15 years and it was going to cost about $8 
billion. So we are in the 12th year and how much money have we 
spent on this altogether?
    Mr. George. They are below the budget. So $3.25 instead of 
$8.
    Mrs. Emerson. I know the Commissioner suggested that if we 
were able to give them about $111, $112 million over the next 2 
years, they thought that would do the trick to get it 
completed. Do you all have any sense of whether or not that is 
a real number? Am I putting you--will you identify yourself.
    Mr. Duncan. Alan Duncan, Assistant Inspector General for 
Security and Information Technology. We have been looking at 
this project for quite some time. Every year, we issue a 
business system modernization assessment. And in looking at 
that, CADE 2 is really in a three-phase installation plan. The 
first phase of CADE 2 will be implemented, as they have 
planned, in January of 2012. There are two additional phases 
for that project. So that may be the money that you are talking 
about to finish the existing database to get us an 
authoritative database that will have all individual taxpayers 
accounts.
    Mrs. Emerson. Rather than using the tapes that they 
currently use, like the old-fashioned way. Everything would be 
on one database.
    Mr. Duncan. That is correct. That is on schedule. We have 
been reviewing this very extensively. We have four audits 
currently in process, including your reference there to the 
daily processing, which is not just a technology issue, it is 
also an individual employee issue because they have to be ready 
to go from a very extensive process that they have to do before 
they know what your account looks like to every day it will 
updated, which is with what we should be expecting as a 
taxpayer. I think they are on track to do that and to have that 
first phase in place for the filing season next year.
    Mrs. Emerson. So, if, in fact, you have phase 1 completed--
and I didn't really go into all of the details about phases 2 
and 3, only hoping they could get phase 1 finished on time.
    Mr. George. Yes.
    Mrs. Emerson. And somewhat close to budget. How long are 
the additional phases to take?
    Mr. Duncan. We are looking at 2014 for the full 
implementation and the elimination of the redundant systems 
that are currently processing. This would then give us the 
opportunity--and the 2012 is important because it sets the 
baseline upon which then we will be able to go forward. They 
must meet that.
    Mrs. Emerson. So it is much easier to do once you get phase 
1.
    Mr. Duncan. If they can get 2012, I believe they will have 
a very good opportunity to then complete the other two phases 
in the budget that they have set forward.
    Mrs. Emerson. As an IT expert, which I assume you are since 
you are in charge of this, do you--well, we all know that some 
people get promoted into positions because somebody at the 
lower doesn't want them. Been there, done that in the private 
sector.
    Is this a good system?
    Mr. Duncan. We believe the change that they made 2 years 
ago to redesign for the Commissioner to endorse this particular 
approach, which is a major change in the way they have been 
doing business system modernization, is a correct approach. And 
I did do a lot of work on the commercial sector before coming 
here. This type of an approach is the type of approach, as we 
move into the Web environment and the portal environment, which 
will allow all of our taxpayers to really be able to get the 
type of information, the processing that they require. We 
believe that they are on the right track at the moment. They 
need to follow through. And you already touched on it--the 
executives to stay in place. We have had a serious concern. If 
you continue to change executives at the top level and they 
bring in their own ideas and their own approach, then we may 
have a problem as we go forward.
    Mrs. Emerson. Would you design a system like this yourself?
    Mr. Duncan. Yes, I would. This would be the approach that I 
would take.
    Mrs. Emerson. I know that you--and then I am going to turn 
it over to Mr. Serrano. Mr. Alexander just came in--you and GAO 
both have found a little bit of security weaknesses.
    Mr. Duncan. Yes, ma'am.
    Mrs. Emerson. Have those been addressed?
    Mr. Duncan. They have a material weakness that has been 
reported in the security arena. We believe, again, that this 
project that they are called CADE 2 will help to address--not 
saying it will resolve it--but help to address some of the 
major issues that have been reported in the past on security.
    Mrs. Emerson. I think perhaps we will have that discussion 
in a private session.
    Mr. Serrano.
    Mr. George. Madam Chairwoman, as you indicated at the 
outset of this questioning, with the rapid transition in 
technology, again, something that looks good now, 2 years ago 
may be antiquated. I just want to make sure I made that point.
    Mrs. Emerson. I know. It scares me to death.
    Mr. George. I just wanted to make sure I made that point.
    Mr. Serrano. Yesterday, we voted on the budget that keeps 
the IRS at fiscal year 2010 levels. Given the cuts in the IRS 
budget, where do you feel the budget is most vulnerable? What 
accounts worry you the most as far as these cuts go?
    Mr. George. Great question. It hasn't come up yet, but of 
course with the Affordable Care Act having passed, and is law, 
and the key role that the Internal Revenue Service is going to 
play in this implementation, unless additional resources are 
provided to the IRS, they are going to have to take away from 
either the enforcement side of the house or the customer 
service side of the house in order to meet some of the 
obligations they have under the ACA.
    It is almost a zero sum game, Congressman, because, again, 
unless the IRS gets much more resources, they have such a 
massive responsibility, that is namely the tax revenue entity 
of the most powerful Nation in the world, they are just going 
to have to make some tough choices, and most likely the 
sacrifices will be on the customer side of the house.
    Mr. Serrano. So you may be on your way to answering the 
second question, which is how does the IRS even begin to close 
a tax gap with fewer resources than it has currently? I am just 
saying that they have to make a decision since health reform is 
the law.
    Mr. George. It is not only health reform, it is really any 
new requirement change to the Tax Code, which, unfortunately, 
many times comes so late in the year, too, that it requires the 
IRS--it is almost like the Army. They will get it done. It may 
not be pretty, but they can get the job done. And that is the 
case--that is been the case for the AMT and a few of the other 
tax provisions.
    I carry around a card with me everywhere I go. And this is 
very telling. And it is just a few seconds. Let me read this, 
if I may. Third party reporting. And this is really IRS 
information-based information. There is such a high correlation 
between tax compliance and third-party information reporting 
and withholding. The IRS estimates individuals whose wages are 
subject to withholding report 99 percent of their wages for tax 
purposes. Self-employed individuals who operate nonfarm 
businesses are estimated to report only 68 percent of their 
income for tax purposes. But the most telling figure, self-
employed individuals operating businesses on a cash-only basis 
are estimated to report only 19 percent of their income.
    And what I am suggesting is I know Congress recently took 
action as it related to the 1099 and the $650 business 
transaction figure. But these numbers are telling. When you 
have someone else reporting how much money you earn, you are 
most likely going to be honest with the IRS as relates to money 
you earn. Obviously, the reverse being the case.
    A way to address that tax gap is more third-party 
information reporting. That is a way. And so how to make it as 
least burdensome on taxpayers, that is the challenge that 
Members of Congress have before them.
    Mr. Serrano. It is interesting you say what you just said 
because part of what we hear a lot these days, and I say this 
with all due respect, is we have got to reduce the size of 
government, we have got to have less government, and let 
American small business take care of the economy. I guess what 
you are saying is yes, and then make sure they pay taxes. That 
would help the economy.
    Ms. Emerson. And I will just give you a perfect example. My 
husband is an attorney. He is a partner in a small law firm in 
Missouri. He is very good about paying his quarterly taxes, but 
they don't have withholding. For the clerical help, yes. But 
for the partners, they just get a big old check and it is up to 
you to go ahead and be responsible and pay your taxes. But I 
can see how easily it would be for some people who chose not to 
pay their fair share, even in spite of the fact that those 
schedule K-1's that the businesses have to file anyway as a 
business tax return basically indicates how much the firm has 
made. But you would have to have somebody rat on you, almost, 
to necessarily put that at the top of your list for 
investigations.
    Mr. George. Again, it makes common sense why people will 
say, If you pay me cash, I will give you a lower figure for the 
item that you are buying.
    Mrs. Emerson. Although, when you go to the hospital and you 
work a deal with them that you don't pay it through the 
insurance company, they will, in fact, give you a big discount.
    Mr. Serrano. Am I supposed to be hearing all this?
    Mrs. Emerson. No, no, no. Any hospital administrator will 
tell that of.
    Mr. Serrano. I am looking at Mr. Womack. And I have got 
great respect for him and his background both as a mayor and a 
colonel. A mayor and a colonel. Not a major. How do we treat 
our men and women in uniform? I remember when I was in the Army 
1,000 years ago for a very underwhelming small career, I used 
to get these letters from New York State when I was stationed 
somewhere, saying, ``You didn't pay.'' I said, ``No one told 
me.'' It was ahead of time and so on. And no one seemed to know 
where men and women in uniform were supposed to be paying taxes 
or not. No one told us.
    What happens with that now?
    Mr. George. When I first became the Inspector General, we 
had a review of that very situation where the servicemen and 
women were not being informed of their right not to have to 
submit tax returns on a particular date. And I don't recall the 
exact, because the laws have changed and that was literally 7 
years ago, 6 years ago. But we issued a report and the IRS did 
take action in that regard.
    Mr. McKenney. They are better on following up on that. They 
have an indicator on servicemembers' accounts so that they know 
that they are military. They have obviously their combat zone 
pay is exempt and they have extensions of time to file. So we 
think they are doing better at putting the indicator and making 
sure their----
    Mr. Serrano. The worst thing in the world--and now I am 
going to sound not like a liberal--liberals don't get credit 
for saying anything nice about the military. The worst thing in 
the world is to be serving your country and then to have a tax 
issue because somebody didn't tell you what you are supposed to 
do or not to do.
    If you are in a combat zone, that pay is exempt.
    Mr. George. Correct.
    Mr. Serrano. Is it up to every State to determine whether 
they will----
    Mr. McKenney. I couldn't tell you. I assume most States 
follow the Federal. But I am not certain of that.
    Mr. Serrano. Do you know, Mr. Womack?
    Mr. Womack. Not specific to that question, although I 
think--correct me if I am wrong; these guys will know more than 
I do--I think the amount of pay is exempt up to and including 
the pay equal to a Sergeant Major in the Army. I think there is 
a difference for higher-ranking personnel. It has been a while 
since I have looked at the income levels of the various 
servicemembers, but I think somewhere at the senior captain 
level, captain level, and above, not all of that pay----
    Mrs. Emerson. I would agree, with a son who is a captain in 
the Army, that when he was in Iraq--he made captain in Iraq, so 
he started--it started costing him a little bit more.
    Mr. Serrano. I don't think anyone who is in a battle zone 
should pay a penny of tax. How is that? That is my statement 
for the day.
    One last question, given these cuts, how will your office 
respond? Are there vulnerable areas of IRS that will receive 
more attention from your investigators?
    Mr. George. As I indicated in response to an earlier 
question, Mr. Serrano, it really will depend on circumstances. 
If there are threats that are issued because of anti-tax 
protestors that would require us to have people in, whether it 
is New Hampshire or----
    Mr. Serrano. Anti-tax protestors?
    Mr. George. Believe it or not. But there is no question 
that some hot-button issues as is relates to business systems 
modernization as it relates to a lot of the refundable tax 
credits, and then, again, the American--the Health Care Act, 
those are things that we would want to bring--highlight our 
focus on to make sure that they are implemented effectively.
    We have found, again, that it is much more beneficial for 
the IRS and for the American taxpayer for us to identify 
problems before they really manifest themselves or before the 
money goes out the door, because it then becomes so much more 
difficult and costly for the IRS to try to recover that, and in 
many instances, they just give up.
    Mr. Serrano. Well, I thank you.
    Madam Chair, I have a few questions I will submit for the 
record. I thank you for your service. I think that we all, 
whether inspector generals or direct IRS employees, should make 
it easier for the taxpayer to file and pay their taxes. It 
should not be something where people feel threatened or 
intimidated. And so anything we can do in that direction helps.
    Lastly, I don't think even a major tax break will help the 
Mets this year. I don't think there is anything you can do for 
them.
    Mr. George. Thank you for your service. I will leave it at 
that.
    Mrs. Emerson. Mr. Alexander from Louisiana would like to 
ask a question.
    Mr. Alexander. Not ask a question, but would you read the 
little card to us again?
    Mr. George. Yes. And I will just skip right to the relevant 
questions. IRS estimates individuals whose wages are subject to 
withholding report 99 percent of their wages for tax purposes. 
Self-employed individuals who operate nonfarm businesses are 
estimated to report only 68 percent of their tax for tax 
purposes. And self-employed individuals operating businesses on 
a cash-only basis are estimated to report just 19 percent of 
their income.
    This is IRS information.
    Mr. Alexander. Do we have a guesstimate at what those 
numbers would be, the number of self-employed out there and 
what the magnitude of that lack of income to the government 
would be?
    Mr. George. Well, again, the official numbers that the 
Internal Revenue Service issues, and these are as of 2001, are 
$345 billion each year not paid to IRS on time and in full. We 
believe that is a lowball estimate. It does not--we believe it 
does not include in its totality the number of international 
entities that--money to the U.S. Treasury. Our guesstimate is 
it is closer to $500 billion a year that should be paid that is 
not paid. But there are even some that think the figure is much 
higher than that.
    The IRS is doing--it is called the National Research 
Project--and the IRS is currently in the process of updating 
that, looking at subchapter S corporations and whether or not--
what the compliance rate is with those. As you know, many 
businesses, small businesses especially, and some large ones, 
incorporate under subchapter S, which affects how much money 
they can claim that the owner and/or the business has actually 
earned.
    Mr. Alexander. I am just interested in why would you say 
self-employed non-farmers? Would the farmers be subjected to 
something different from other self-employed?
    Mr. George. I will defer to my colleagues on that one.
    That is just the way the IRS has captured the information.
    Mr. Alexander. Okay. Thank you.
    Mrs. Emerson. Thank you so much, Mr. Alexander.
    I have some questions I would like to submit for the 
record, one including--I heard some complaints about how the 
IRS administers the Federal Historic Preservation Tax Incentive 
program. Hopefully, you can get back to us on that. If any of 
my other colleagues--we will submit all the questions for the 
record.
    Thank you so much for being here. It is really a privilege 
to have you. Your experience on both sides, I think, makes you 
an exceptional person for this position. You have insights that 
others do not. I am grateful for your service and that of all 
of your staff. Thank you all for the work that you do.
    Mr. George. Madam Chairman, it is really the work of the 
people all over the country who work with me. It has been an 
honor. They are talented.
    Mrs. Emerson. Well, we would be nothing without our staff, 
too. We don't give them enough credit. Quite frankly, we may 
get the glory, but they are really the people who do the work. 
Some of us actually really work, too. But our staff----
    Mr. Serrano. Be careful how you say that.
    Mrs. Emerson. We couldn't do it without our staff. We are 
all a team and it is very important.
    I just appreciate you all looking out for taxpayer money 
and for doing that tough job. Thanks so much.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                         Wednesday, March 16, 2011.

                       DEPARTMENT OF THE TREASURY

                                WITNESS

HON. TIMOTHY GEITHNER, SECRETARY OF THE TREASURY
    Mrs. Emerson. The hearing will come to order.
    Thanks to all of the subcommittee members for being here. 
And, Secretary Geithner, thank you so very, very much. As we 
speak, numeral doctoral theses about your tenure at the New 
York Federal Reserve Bank and the Department of the Treasury 
are being written. Both TARP and Dodd-Frank have made an 
indelible mark on financial markets, government policy, and 
U.S. history.
    In January, the Special Inspector General for TARP 
concluded that while TARP prevented the failure of one of the 
world's largest banks, it also insulated risk takers from the 
consequences of failure, and thereby encouraged future high 
risk taking behavior. Whether Dodd-Frank can successfully 
address the moral hazard introduced by TARP remains to be seen.
    For fiscal year 2012, the Treasury Department requests $14 
billion of which $13.3 billion is for the Internal Revenue 
Service. The remaining $754 million is for, among other things, 
the offices of three inspectors general, the Community 
Development Financial Institutions Fund (CDFI), the routine 
cash and debt operations of the Federal Government, and various 
policy offices that oversee counterterrorism, anti money 
laundering, financial regulatory reform, housing finance 
reform, and small business initiatives.
    The decisions made by these policy offices have an effect 
on American lives and businesses disproportionate to the level 
of appropriated funds that they receive. As such, the committee 
will review their funding levels and activities with great care 
and in great deal.
    The Federal government's gross debt currently exceeds $14 
trillion, and the administration's budget will lead to debt in 
excess of $26 trillion or 107 percent of GDP in 2021. In light 
of these estimates, the administration's lack of leadership to 
steer us towards a sustainable spending trajectory is 
disappointing. Inaction is unacceptable; and as such, this 
committee is going to do what it can within its jurisdiction to 
significantly reduce spending.
    Once again, many, many thanks for being here, Secretary 
Geithner, and I look forward to your testimony. Now I recognize 
my colleague in arms, Mr. Serrano, for any opening statements 
he would like to make.
    Mr. Serrano. Thank you, Madam Chair.
    I would also like to welcome the Secretary of the Treasury, 
Timothy Geithner, to this hearing of the Financial Services and 
General Government Subcommittee.
    For 2012, the Treasury Department is requesting authority 
to spend a little over $14 billion, an increase of $562 million 
or 4.2 percent above 2010. As you know, I have been a long time 
supporter of strong funding for the Community Development 
Financial Institutions Fund. The CDFI fund has played an 
important role in increasing economic opportunity and community 
development in our most disadvantaged communities. I am also 
pleased that in your budget request, you are trying to find 
innovative ways to help our small businesses and to increase 
their ability to access credit.
    Small businesses play a crucial part in job creation; and, 
thus, our continued economic recovery. With the passage of the 
Dodd-Frank Act, you were given many new responsibilities 
designed to help stabilize our financial system and prevent a 
repeat of the economic crisis. I am interested to learn more 
about how you are moving forward in carrying out these new 
mandates. I also want to make sure that you have included 
sufficient resources in your proposed budget to allow you to 
successfully implement these new requirements.
    The Treasury Department also has an important role to play 
in stabilizing our housing market. We need to make sure that 
affordable housing options continue to remain available, and 
that our consumers are better protected from risky financing 
packages. I know that you are very involved in trying to find 
solutions to improve the health of our Nation's housing 
financial system, and I am hoping to discuss these important 
efforts with you today.
    I would also note that you are seeking to fund the IRS in 
fiscal year 2012 in a very strong way. Taxpayer services and 
enforcements are a vital part of our effort to reduce the tax 
gap and stop those who seek to cheat the United States 
Government. Unfortunately, H.R. 1, the Republican continuing 
resolution, would cut more than $600 million for IRS 
operations.
    IRS Commissioner Shulman was here just a couple of weeks 
ago and told us that this cut would mean that the United States 
would lose more than $4 billion in revenue from delinquent 
taxpayers. Cutting IRS funding in this manner makes little 
sense to me since the IRS provides the very funding that the 
rest of our government uses to operate. The Treasury Department 
has an important role to play in helping to address the 
concerns of everyday Americans in the areas of tax assistance, 
small business credit, mortgage relief, and the creation of 
economic opportunity.
    I look forward, Mr. Secretary, to discussing your important 
work in all of these areas. I thank you before we begin for 
your service to our country.
    Thank you.
    Mrs. Emerson. Thank you, Mr. Serrano.
    I would now like to recognize Secretary Geithner. If you 
can keep your statement to 5 minutes, that will give us more 
time for questions.
    Secretary Geithner. Thank you, Chairwoman Emerson, Ranking 
Member Serrano, and members of the committee. Thank you for 
coming here today. I just want to say at the beginning that I 
very much respect the process of oversight you are engaged in. 
I think it is a great thing for our country that you subject 
all of the actions of the executive branch to rigorous 
oversight and review. That is what you should be doing, and it 
is my privilege to participate in that process. I think this is 
my 51st testimony today during the time as Secretary. I know it 
is a necessary part of what we are doing, particularly at a 
time when we are involved in so many difficult, complicated 
problems.
    Our core priority in the Treasury budget is to help 
strengthen the recovery and help put more Americans back to 
work. We are undertaking a variety of initiatives to support 
those objectives. Let me just list a few.
    We are providing help for small businesses through tax 
incentives, through the small business lending fund, the 
States' small business credit initiatives through the new 
market tax credit and the CDFI program. All of these share one 
feature in common as a strategy. They are designed to provide 
substantial leverage for any dollar of taxpayers' money we put 
at risk to leverage private resources alongside the taxpayers' 
money. So we are working with the market to help catalyze 
private investment.
    Second, we are continuing our efforts to help repair and 
reform the financial system, not just the housing markets, 
housing finance market, but the broader financial system. And 
we are working to shape and design a broad reform of the 
corporate tax system that would lower the rate, broaden the 
base of revenue neutral tax reform, that would help improve 
incentives for business investments in the United States.
    Of course, alongside these efforts, we play a critical role 
in helping advance U.S. security interests, and our national 
security interests abroad. Our budget request includes funding 
for implementing our targeted economic and financial sanctions 
programs against foreign threats to the United States, and I 
know these are very important to many of you on this committee.
    In this year's request, as in the past, the overwhelming 
bulk of the resources we are asking Congress to appropriate are 
designed to support or directed to support the talented public 
servants who are charged with Treasury's important economic and 
financial responsibilities. Salaries and operating costs make 
up 96 percent of our budget. We are a little unusual in that 
context relative to other agencies. The rest of the budget is 
mostly for investments in technology that those public servants 
need to do their jobs.
    Now in our request, we have asked for just above $14 
billion for the Treasury; $13.3 billion, the overwhelming 
majority is for the Internal Revenue Service. Now, I just want 
to emphasize that we are very committed and very successful in 
finding ways to save resources and improve efficiency in the 
basic Treasury programs. In the last three budget requests, we 
identified more than a billion dollars in savings and offsets.
    In this budget, we have identified another $1 billion in 
savings, of which there is about $336 million in direct cost 
savings and efficiencies. The balance of that, the roughly $630 
million in offsets, is through assets seized as a result of 
violations of U.S. sanctions.
    These savings help us finance what we think are targeted, 
valuable, investments that have a very high return. Let me 
mention a few. Investments in customer service and enforcement 
programs at the Internal Revenue Service generate revenue at 
many times the cost to the taxpayer. Every dollar invested in 
the IRS yields roughly $5, and that is a pretty conservative 
estimate, in additional revenue from non-compliant taxpayers.
    Our judgment is that the modest targeted investments in 
this budget that we are proposing for the IRS are expected to 
produce more than $1.3 billion in additional revenue once fully 
implemented in 2014.
    We are also working to improve efficiency by moving to a 
more paperless transaction system, from automated debt 
financing to greater electronic filing of taxes. Overall, these 
paperless transaction initiatives with the public are expected 
to produce more than $500 million in cost savings and 
efficiencies over the next 5 years.
    So we have designed our request to save as much as we can 
while preserving critical functions and programs. In our 
judgment, any substantial cuts to the IRS budget would hurt 
both our ability to collect enough revenue to meet our 
obligations and hurt our ability to serve taxpayers more 
quickly and efficiently. Cuts to our remaining programs would 
weaken our ability to support reforms that are very important 
to the economic recovery and the ongoing challenge of repairing 
our financial system.
    Finally, cuts to the CDFI Fund would substantially damage 
our ability to attract private investment to communities hurt 
most deeply by the crisis, which are still suffering because of 
the broader damage caused by the crisis.
    Now, I want to end by noting, as Madam Chair you did, that 
it is important to recognize the strategy that we embrace to 
address the financial crisis has been much more successful and 
at a much lower cost than we initially anticipated. Let me just 
give you a few facts on that.
    On relatively conservative estimates about the future of 
the economy, over the next 10 years, we think the total costs 
of the taxpayer support to Fannie and Freddie will fall by 
about $61 billion, or 45 percent from the initial estimates. 
Since the August 2009 midsession review, the projected cost of 
TARP has declined by $293 billion, or 86 percent. Today I can 
say that based on the expected additional repayments we expect 
from several financial institutions, taxpayers will have 
recovered more than 99 percent of the funds disbursed for the 
TARP's bank programs.
    In fact, outside of housing, the programs designed to help 
give Americans the chance to stay in their home, outside those 
programs, the TARP programs in banks, automobile companies, 
even in AIG on balance will show a significant positive return 
for the American taxpayer.
    Now these savings, these hundreds of billion dollars in 
lower expected cost of TARP means we are returning hundreds of 
billions of budget authority unused and that creates greater 
room for us to meet our future challenges and reduce our 
deficits.
    You are right, Madam Chair, to point out that when 
governments act to put out a financial fire, by definition, 
they create the risk of adding to moral hazard in the future. 
And the big test we face is the broader reforms in Dodd-Frank 
will be effective in helping limit that risk. I can tell you 
that I am very confident that those reforms will, if we are 
able to put them in place, allow us to substantially reduce the 
risk of future crises, and substantially reduce the risk of 
moral hazard that exists in any financial system.
    One final word in closing. I have the privilege of working 
with a remarkably talented team of career professional service 
individuals at the Treasury, working very hard in the face of, 
I think, some of the most challenging economic and financial 
problems we have seen in generations. They have played a vital 
role in helping bring this economy back to growth, help restore 
financial stability, and I think we owe them a debt of 
gratitude and some recognition for their hard work and their 
commitment to public service. I want to say again how much it 
has been a privilege to me. Once a career civil servant in the 
Treasury, to have a chance to work with them again.
    Thank you. I am happy to answer your questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Emerson. Thank you, Mr. Secretary. We, too, would like 
to thank all those who work with you. They make lots of 
sacrifices.
    I am going to try to keep my questions to 5 minutes just so 
we have an opportunity to have as many questions as possible.
    Shortly after the passage of Dodd-Frank, Mr. Secretary, you 
said that the Act would ensure that the risks undertaken by 
banks would not ``threaten the health of the economy as a 
whole.'' But you also told Special Inspector General for TARP 
that it wasn't possible to create effective and objective 
criteria for evaluating systemic risk, but rather ``you just 
don't know what is systemic risk and what is not until you know 
the nature of the shock.''
    In the absence of objective criteria for evaluating 
systemic risk, is systemic risk something you just know it when 
you see it? If so, how can the government and private 
businesses identify and remedy Too Big to Fail?
    Secretary Geithner. An excellent question, and very 
important question. Let me try to give you my own personal view 
on how to think about this.
    The most effective things you can do to reduce moral hazard 
risk in the system are really these two: One is to make sure 
that you have the authority to force financial institutions to 
hold more capital against the risks they run in their 
businesses. That is essential to reduce the risk of failure by 
large institutions. In general, our view has been we want to 
make sure that the largest institutions, the one whose mistakes 
can cause the most collateral damage, are held to a high 
standard in terms of risk management and higher capital. But 
that is not enough.
    Even if you do that, to effectively reduce moral hazard 
risk, you have to have a system which allows you to allow 
institutions to fail. In fact, what this law does is prevent 
the executive branch or the Federal Reserve from coming in and 
intervening to help an insolvent institution survive, to live 
for another day.
    What the law does is force us to, in effect, to unwind an 
institution whose failure has brought it to the edge of 
collapse, but unwind it in a way that we reduce the risk of 
loss to the taxpayer and reduce the risk of collateral damage. 
Those are the two most important things to do about moral 
hazard, and the law gives us the authority to do that. We did 
not have that authority before.
    Now, you began with a very important question which is how 
do you judge what is systemic, what type of institutions might 
pose systemic risk to the system as a whole. I just want to 
make it clear that you cannot make that judgment with 
confidence without knowledge of the circumstances you are in at 
the time.
    I will just give you an example. Bear Stearns, the first 
significant institution to really fail in this crisis, come to 
the edge of failure in this crisis, was not a very large 
institution. Why was it so consequential? Why was its failure 
so threatening to the system? It was, in part, because of the 
nature of institution, its business and how connected it was to 
other institutions. And it was, in part, because we were at 
that stage where the U.S. economy was heading into a very 
damaging recession. In an environment where there is much more 
risk of recession, much more risk of broader financial 
collapse, and even institutions that themselves don't look 
particularly large in that context, could cause a lot of 
collateral damage and could accelerate a run. That is why I 
made the observation you quoted at the beginning in that you 
cannot know in advance of a crisis what particular types of 
risks might threaten a collapse of the system as a whole.
    Mrs. Emerson. A quick follow-up to that, if you knew that 
the nature of a shock was a scare from a municipal bond 
default, for example, how would Dodd-Frank protect the 
financial system or the economy in that situation?
    Secretary Geithner. Again, the most important thing to do, 
to reduce the risk of future crises, is to make sure that the 
institutions at the center of the payment system, the ones that 
are central to the capacity of businesses to borrow and fund 
themselves, central to the housing finance system, to make sure 
those institutions hold much more capital against risk than 
they were required to hold before the crisis.
    You need to make sure that you can impose those types of 
requirements on leverage, on capital, on institutions that look 
like banks and are performing banking functions even if they 
aren't in a legal sense banks. So, for example, in our crisis 
before Dodd-Frank, in our system we had regulations for capital 
over banks, but there was an entire parallel financial system 
composed of investment banks, finance companies, you could say 
GE, Fannie and Freddie, that were larger in the aggregate than 
the banking system as a whole, but no effective capital 
regulation to limit leverage. So what Dodd-Frank allows us to 
do for the first time is not just have more conservative, 
better designed capital standards for what we call banks 
traditionally, but make sure that we could extend those to 
institutions that are effectively doing the same thing and play 
that critical role in the payment system, in the financial 
system that causes the risk of broader collateral damage if 
they make mistakes.
    Mrs. Emerson. Of course, then you could say those 
municipalities don't often have to when you are doing bonds 
actually put their assets out on the table. And with the crises 
that we see happening in so many States with pension funds and 
the like, there is here another risk that I think needs to be 
taken into consideration.
    Secretary Geithner. I think you are right to point out that 
ultimately the overall risk to an economy, to the financial 
system as a whole depends a lot on things like whether the 
fiscal foundation of the government, State and Federal level, 
is on a sustainable path. Absolutely. That affects the overall 
environment.
    But I just want to emphasize one point again that no one 
will know with confidence in advance of a crisis what 
particular type of shock, mistake, source of risk, could cause 
a lot of damage. And since you can't know and fully anticipate 
that, we need to make sure that the system just runs with 
thicker cushions, thicker shock absorbers in terms of capital, 
again because you can't predict with confidence where they are 
going to come from.
    Mrs. Emerson. Mr. Serrano? Okay, I will go to Mr. Rogers, 
our big chairman.
    Mr. Serrano. I would rather you go, Mr. Chairman. I am not 
trying to be nice to you for any other reason than friendship 
because we don't have earmarks anymore.
    Mr. Rogers. Thank you.
    Mrs. Emerson. Please, Mr. Chairman, if you would like to 
make some opening remarks, please do.
    Mr. Rogers. Thank you, Madam Chair, for the courtesy, and 
my dear friend from the Bronx.
    Welcome, Mr. Secretary. It is good to see you again.
    Including stimulus funding, we have increased spending by 
84 percent in the last 2 years. The deficit this year is $1.65 
trillion or so. That over $14 trillion. We are in a deep hole. 
You agree with that. And we are borrowing 42 cents on the 
dollar we spend which troubles all of us. I was a little bit 
surprised the other day to see a Chinese government official 
quoted to the effect that they would have to reexamine their 
willingness to loan money--any more money to a country that 
might not be able to repay it. Did you happen to see that 
remark?
    Secretary Geithner. I don't think I saw that particular 
remark. I wouldn't be particularly concerned about any remark 
that I hear from any foreign official about the United States 
because no one is going to care more about the basic challenge 
of restoring fiscal sustainability than the people in this room 
and the people who hold my job. We care about our fiscal 
position and how we dig out this deep hole because of how 
important it is to Americans, to sustain confidence of American 
investors, not just foreign investors, and in our capacity as a 
country to go back to living within our means.
    Mr. Rogers. Given the amount of money that we borrow from 
China, those remarks troubled me not only because of the fiscal 
question involved, but really the sovereignty of the country. I 
mean, if we get into some spat with China, for example, over 
Taiwan or whatever, I am worried that they would be able to use 
the leverage that they have because of the mortgage that we 
have given them, to affect our policy. The public is on to 
this. I think they said last November cut spending, discipline 
your spending.
    The Chairman of the Joint Chiefs has told us of the 
importance of this to the Nation's security. The Chairman of 
the Federal Reserve says it is terribly important; and you, 
yourself, of course, have said so.
    And yet we get the President's 2012 budget and it is long 
on rhetoric but it is lean on spending cuts. We are dealing 
only with 14, 15 percent of the budget which is discretionary 
appropriated spending, half of which is military or DOD. If we 
zeroed out all appropriations for the whole year, as we did 
last year, because we didn't pass a single bill, if we zeroed 
out all of the appropriations bills, we would still be deeply 
in the red.
    Now there is talk about tackling the entitlements where 65 
percent or so of the money is. What do you think?
    Secretary Geithner. Let me just say that it is absolutely 
imperative that we find a bipartisan solution that will lock in 
the types of changes in policies that will bring down our long-
term deficits dramatically over the next several years. It is 
critically important we do that. If we don't do that, then we 
will face the risk of broader erosion of confidence in ways 
that might hurt the sustainability of this expansion. So I 
welcome very much the importance you've brought to that issue, 
and I think you are right to highlight it today.
    Now, that will require not just demonstrating that we are 
able to find a way to reduce spending in the discretionary part 
of the budget, that is necessary but not sufficient. Alongside 
those changes, and we are hopeful we can come to a bipartisan 
solution on how to make sure we demonstrate the necessary 
restraints in spending, we will have to go beyond that if we 
are going to bring down the long-term deficits.
    In the budget you referred to, we proposed a detailed set 
of policies, revenues, entitlements, and discretionary spending 
that would reduce our deficit from 10 percent of GDP to roughly 
3 percent of GDP over the next 5 years. 3 percent of GDP is the 
point at which you achieve primary balance, meaning revenues 
equal expenditures minus interest. And that is an important 
threshold because when you achieve that, then you stop the debt 
from growing as a share of the economy. If we are able to work 
together to develop constraints on Congress to live within that 
deficit reduction target, then our overall debt burden would 
stabilize as a share of the economy in roughly the range of 70 
percent of GDP. Between 70 and 80 percent of GDP. Now that is 
high, higher than we would be comfortable with, but it is an 
acceptable range. Now, even if we achieve that, that is not 
sufficient because even if we stop there, because of the rate 
of growth in health care costs, even with the Affordable Care 
Act, our long-term deficits will start to grow again over the 
succeeding decades, so that has to be viewed as just a down 
payment.
    But again, I would not underestimate the value to broader 
investor confidence and to confidence of the American people 
and the capacity of this town to work in putting in place 
multiyear constraints which would achieve that level of deficit 
reduction over time. You are very right, Mr. Chairman, to 
highlight the fact that you can't do that by focusing only on 
the discretionary part of the budget, certainly not on the 
nondefense discretionary part of the budget.
    Mr. Rogers. You know both, the White House and Members of 
the majority party in the House now, both groups have said 
almost the same thing, that we have to tackle the entitlements. 
It is as if, though, each is waiting on the other to take the 
first step and perhaps engender an attack. How can we get over 
that?
    Secretary Geithner. Well, I think you are right to point 
that out. But I just would observe in the Affordable Care Act, 
in the judgment of the Congressional Budget Office, which is 
the nonpartisan, neutral scorekeeper we all rely on, they show 
unreasonably conservative assumptions that the Affordable Care 
Act, if left in place, reduces the deficit by $140 billion 
roughly over the next 10 years and another trillion over the 
next decade beyond that.
    So in our judgment, we have already put in place the 
largest reform that affects the rate of growth of health care 
costs, the biggest part of our long-term deficits than we have 
done in generations. Of course, we recognize that is not 
enough. But we feel that is a pretty good foundation on which 
to build. Now I agree with you, and I know the President does, 
to do this, to do a broader, comprehensive multiyear deficit 
reduction program, we have to do it together. We can't 
legislate this just with Democrats or Republicans. We have to 
do it together, and it is going to require us to come together.
    We laid out a proposal. I know there are some on your side 
who want to go deeper in deficit reduction even in the near 
term, and I know that Chairman Ryan will have a chance in the 
next couple of weeks or so to lay out a 10-year budget 
resolution, in some sense giving the view of the House 
leadership, what an alternative strategy is to the one we laid 
out.
    Our view is we have a moment, and I will take the 
optimistic side of this, there is a lot of support now on both 
sides of the aisle, both houses of Congress, to try to find 
something on a bipartisan basis that will make a very 
substantial contribution to reducing the deficit. We would like 
to find a way to do that on common ground. Of course, it is 
going to be important to us, as I assume it will be to you, to 
make sure that we do that in a way that doesn't hurt the 
economy.
    One of the reasons why you have to do this on a multi-year 
basis is because if you pull it all forward, then you will do a 
lot of damage to the recovery. You can't do it by making that 
gradual path, something we try to do in 1 or 2 years. It has to 
be gradually phased in over time. Otherwise, you hurt growth, 
hurt revenues, and future deficits rise, even apart from the 
effect that we have on things that we believe are important to 
our capacity to grow in the future, like education or 
incentives for innovation and incentives for investment and 
things like that.
    Mr. Rogers. Well, as you say, we have both heard 
Republicans and Democrats say virtually the same thing, that we 
have to do this. And we are all worried about who gets blamed 
for taking the first step.
    Secretary Geithner. I think it is fair to say that we are 
all going to be blamed.
    Mr. Rogers. Let me suggest, why don't we meet at the top of 
the Empire State Building on June 3 at 12:03 and see who jumps 
off.
    Secretary Geithner. I agree with you, there is no way to 
solve this problem which is not going to leave everybody 
somewhat unhappy, and everybody unhappy with us. But that is 
our obligation in some sense. That is what governing is about. 
And if we don't act, if we don't do something together, we will 
face the risk that we will see a broader erosion of confidence 
that could really hurt.
    Mr. Rogers. Is the Erskine Bowles-Simpson Commission 
suggestions a starting point or an ending point?
    Secretary Geithner. I think what they did was a remarkably 
important accomplishment. They put a lot of good ideas on the 
table, and a lot of innovative ways to solve some problems that 
we have had a hard time thinking about in the past. So I think 
that that report, combined with--there is another report by 
what we call the Rivlin-Domenici Commission that has a lot of 
ideas that I think any group would want to draw from to find 
something that we can get the votes for.
    That is our challenge. Our challenge is to find something 
that we can get the votes for. I hope we can take advantage of 
this moment where there is so much commitment on both sides to 
try to do something; and again, not just to reduce spending on 
that 12 percent of the budget, but reduce deficits, lock in 
deficits long term as well.
    Mr. Rogers. Mr. Serrano, can you see the Bronx from the 
Empire State Building?
    Mr. Serrano. I was going to comment that if June 3 is a 
Sunday, I can't join you in the jump. That is the Puerto Rican 
Day parade. I won't be able to join you for the jump.
    Mrs. Emerson. Mr. Serrano, go ahead.
    Secretary Geithner. Usually we use the boat analogy. If we 
are going to step into the boat, we have to step in all 
together.
    Mr. Serrano. That is for the Interior Committee.
    Mr. Secretary and Madam Chair, a lot of people would be 
disappointed if I didn't ask this question first, knowing me. 
And out of respect for my friend, Mr. Diaz-Balart, I will ask 
this question first.
    Mr. Secretary, I was pleased to hear the President announce 
a policy change concerning the Cuban embargo. A policy change 
in the final rule from OFAC indicated a commitment to allowing 
much freer travel and trade between the United States and Cuba. 
It has now been 2 months since the initial announcement, and we 
have not seen the final guidelines setting out how people will 
apply to travel.
    Two quick questions: When can we expect to see these final 
guidelines? Are there particular problems hindering the release 
of these guidelines? Do you expect that the final guidelines 
will reflect the openness indicated in the President's original 
announcement and allow regular hassle-free travel for those 
authorized to do so?
    Secretary Geithner. Yes, we will meet the policy objectives 
set out in the President's announcement. In terms of timing, I 
will only say ``soon.'' There is no date in soon, but my 
expectation is relatively soon. I have not yet heard of any 
particular problem that we face in finalizing the guidelines. I 
will consult with my colleagues and see how things are going.
    Mr. Serrano. I would appreciate finding out what the 
problem is other than 10,000 phone calls coming in perhaps 
telling you not to do it once the President decided to do it.
    Secretary Geithner. As you know, we take the obligation to 
make sure that we not just meet the test of the policy, but the 
constraints of the law very carefully. We are very careful in 
refining these things. Again, my expectation is we will move 
forward reasonably quickly.
    Mr. Serrano. Mr. Secretary, you have proposed two 
initiatives from the CDFI fund that were proposed last year but 
not acted upon: $50 million for the Bank on U.S.A. initiative 
to promote affordable financial services and credit to those 
without bank accounts; and $25 million to increase availability 
of healthy, affordable foods in underserved urban and rural 
communities. Can you give us details on how these programs will 
be run and how they differ from existing programs at Treasury 
and other agencies?
    Secretary Geithner. I will be happy to do that in writing 
in more detail. But let me respond briefly now. The Bank on 
U.S.A. initiative that you referred to is very important. I 
think anybody who looks at what happened in the United States 
over the last 10 years to the financial system, you can see why 
this is so important.
    One reason why so many Americans were vulnerable to 
predation, abuse, and fraud by financial institutions was 
because they operated outside the banking system without even 
the protections which existed with respect to people who had 
relationships with banks. I think it makes a lot of sense not 
just encouraging more responsible saving behavior, more 
responsible use of credit, it is more efficient, often less 
expensive to deal with banks, but we are better able to make 
sure that those individuals enjoy the protections that come 
with consumer protection in that area.
    So that is a very important and the kind of initiative that 
has a very high return in terms of reducing future costs.
    Now, in terms of the healthy foods initiative, this is a 
program that uses the combined instruments of new market tax 
credit and CDFI fund proposals to try to make sure that in 
parts of the country where there are no supermarkets, no access 
to affordable, reasonably nutritious healthy food options, that 
we are making sure that some of those resources go to help 
catalyze private investment in those communities.
    Again, for those of you new to these programs, these are 
programs that at their core rely on the strategy of trying to 
leverage private capital to catalyze and attract private 
investment to communities where investors are often reluctant 
to go without that additional support.
    Mr. Serrano. Briefly, Madam Chair, on the Healthy Food 
Financing Initiative, I think it is important to note that more 
than 23.5 million people, including 6.5 million children, live 
in low income metro areas that are more than a mile from a 
supermarket, and 2.3 million people in low income rural 
communities live more than 10 miles from a grocery store. We 
are not just talking about access to healthy food, but we are 
also talking about access to food, period. As I understand it, 
entities like farmers' markets and bodegas will be considered 
partners in bringing food to underserved communities, as 
appropriate. Can you comment on the proposed implementation of 
this initiative? How are you working with other agencies to 
accomplish the Healthy Food Financing Initiative?
    Secretary Geithner. This is something that we are doing in 
close cooperation with USDA, and others, and I will be happy to 
give your staff a more detailed report on how things are going. 
Again, and you said it very well, the basic idea is in 
communities where investors have been reluctant to come and 
establish what most Americans would view as like a normal part 
of a neighborhood, to try to make sure that those investments 
come on terms that have a very good record. These programs have 
a very good record for the taxpayer. We think that they justify 
your support.
    Mr. Serrano. Madam Chair, in closing, let me just say that 
I never cease to be amazed at the fact at these hearings we 
learn so much about each other. Chairman Rogers and I always 
comment on the fact that we represent two of the poorest 
districts in the Nation, and they are totally different from 
each other. I thought our situation in the Bronx and other 
urban areas was tough. I had no idea that some folks don't have 
a grocery store anywhere near 10 miles from where they live. 
These are issues that this great Nation should address, and 
address now once and forever.
    Mrs. Emerson. You need to come down to rural Missouri where 
I live where people live 50 miles, in many cases, from a 
grocery store.
    With that, I will take it to Mr. Womack from Arkansas.
    Mr. Womack. Thank you, Madam Chairwoman. Thank you, Mr. 
Secretary, for your appearance here today. I look forward to 
your visit to the great State of Arkansas in a little over a 
week. We will roll out the red carpet for you and make you feel 
welcome and show you the great things we are doing in that 
region of our country.
    Secretary Geithner. No red carpets.
    Mr. Womack. No red carpets, okay. We will save on that.
    It didn't take long for Madam Chairwoman in her opening to 
talk about TARP. That is the subject of my first question. It 
is a controversial topic, and I am not here to judge 
necessarily. History will judge that program. But you have 
articulated that it has presented about a 99 percent payback I 
suppose, and if you take the housing out of it, it operates in 
the black. We understand the numbers that you have articulated 
here today.
    What is left for TARP to do? There are still a number of 
people involved in TARP. We spoke with someone earlier this 
week, and it came to our attention there are new contracts and 
extensions of already existing contracts. Why are there still a 
significant number of people working TARP?
    Secretary Geithner. That is a very good question. I am glad 
you raised it. We still have a very substantial investment 
outstanding in--most of these are now common equity, but not 
just common equity in, for example, GM, Chrysler, AIG. We want 
to make sure that we get the highest return for the taxpayer in 
those investments. These are very complicated transactions to 
deal with. So part of the resources still remaining are 
designed to make sure that we can manage our remaining 
investments down carefully at the highest possible return to 
the taxpayer. There are a bunch of programs which have a 
slightly longer fuse in terms of the investment profile, and we 
want to maximize return. We are still trying to make sure that 
we can reach as many homeowners as we can through the housing 
programs.
    As long as we have a dollar of taxpayer money outstanding 
and at risk, we want to make sure that we keep in place a core 
group of people who can manage that risk carefully. So even 
though on the overall numbers we are way ahead of any 
reasonable expectation in terms of getting the money back for 
the American taxpayer and getting ourselves out of those 
companies, we still have enough of a residual investment left 
to justify the need for a staff of people over time.
    Now the numbers we have at Treasury today I am quite 
confident will be the peak in terms of staffing. In fact, we 
have been discussing a little bit what is a reasonable pace in 
which to start to wind that down. I can give you more details 
on that if you would like. Of course, we want to make sure that 
we are keeping talented people there as long as we need them. 
So we have to manage those things carefully. But those 
resources are coming down, and they are very modest.
    Mr. Womack. We all understand the concept of diminishing 
returns. As I drill down on this subject, I want us to be 
careful of, while there may be funds outstanding, there are 
staff allocations dedicated to getting as you say the best rate 
of return. But at what point in time do we achieve a state 
where we are in diminishing returns?
    Secretary Geithner. Again, an excellent question. That is 
something we take very seriously. Let me explain a little bit 
again why with the overall amounts coming down dramatically, 
the complexity of the challenge still does not diminish quite 
as much as that. Again, we are a very large country, very large 
financial system. Even though we have gotten most of the money 
back, we still have resources outstanding in a lot of programs 
and in a lot of individual institutions.
    We want to be very careful to make sure that we are doing 
as good a job as we can for the taxpayer. But the people 
managing this program have done a remarkably effective job; a 
clean audit on a complicated program, and we want to make sure 
that we hold to the highest possible standards.
    But we are not going to be in these institutions a day 
longer than we need to be. Again, I believe we will be able to 
start to gradually wind down the resources we have in these 
programs as quickly as we can.
    Now, I should point out that this is not really the best 
measure of the complexity of the challenge, but if you look at 
what the oversight bodies have asked for in terms of resources, 
if you look at SIGTARP's proposed budget, for example, you can 
see from the people doing oversight, in their budget requests, 
they still see a very substantial oversight need, and that is 
another measure of the complexity of the challenge.
    Mr. Womack. Fannie and Freddie. What is the government's 
role in the mortgage industry?
    Secretary Geithner. Today, because the crisis caused this 
huge, the private market to recede completely from writing new 
mortgages, Fannie and Freddie, the FHA, USDA and VA are about 
90 percent of the market for new mortgages today, and that is 
untenable for the long term, of course.
    Our basic strategy is to gradually wind down the 
government's role, wind down Fannie and Freddie completely, and 
gradually have the government recede and have private capital 
come in and replace the government's role. And we will do that 
through a carefully designed program of lowering conforming 
limits, raising guarantee fees, and toughening underwriting 
standards so that the private market can come back in again. 
For that to be possible, we need to make sure that these 
financial reforms, for example, capital requirements, 
underwriting standards, servicing standards, risk retention, 
disclosure requirements and securities markets, those all are 
laid out and put in place so that the investors have clarity 
about what the rules of the game are in the future. Those are 
sort of two conditions you need to meet to get private capital 
to come back in again.
    Mr. Womack. What is the overall impact of doing away with 
GSEs?
    Secretary Geithner. If you tried to turn off the lights 
tomorrow, you would have catastrophic damage. Taxpayers would 
lose billions and millions of dollars, more than we expect to 
have to absorb, and you would have a huge increase in the cost 
of borrowing for homeowners; the risk of substantial further 
reduction in house prices, and that would be dramatically 
damaging. I don't think there is any credible argument that 
would be a responsible path for us to take.
    We do think, though, that over a gradual period of time, 
perhaps 5 to 7 years, we can have the private sector come back 
in and take over that market and return to a market in which 
they are a dominant provider of mortgage finance.
    Mr. Womack. My last question is on corporate tax reform; 
where are we going?
    Secretary Geithner. It depends a little bit on what we find 
up here in terms of receptivity. But I have been consulting 
very broadly with your colleagues on the tax writing committees 
in this body and in the Senate, and with the business 
community, of course, and we think that we have a reasonable 
chance of getting people to come together on a comprehensive 
reform that would lower the corporate tax rate quite 
substantially.
    Mr. Womack. Do you have a number?
    Secretary Geithner. Not yet. It would broaden the base, do 
so in a revenue-neutral way, and leave us in a position where 
we have a more competitive tax structure, better able to help 
support investment, and incent investment in the United States.
    I think we have a chance to do this. Some people say you 
can't do this unless you do individual. I don't agree with 
that. I think there is a chance you can do it without doing 
individual. And some people think it is something we should 
wait on. I think it is worth taking a run at. Again, we are not 
going to be able to solve all of the problems facing the 
country. We are going to disagree on a lot of things. The 
country is still very divided on some basic things governments 
do. It is good for us to find some things we can try to do 
together to help the economy. I think corporate tax reform is 
one of those.
    Mr. Womack. Thank you, Mr. Secretary. I yield back.
    Mrs. Emerson. Ms. Lee.
    Ms. Lee. Good afternoon, Mr. Secretary. It is no secret 
that I want to talk to you also, like other officials about 
earmarks, from the administration. I know that is not a popular 
word around Washington, D.C.; but back in my district and in 
some of our communities throughout the country, 
congressionally-directed funding, earmarks, provide jobs and 
services where these gross disparities exist. The reality is 
that communities who are in most need of help, whether they 
face high rates of poverty or lack of economic opportunity, are 
also the least well equipped to apply and compete for Federal 
grant opportunities. We also know that earmarks are 3 percent 
or less than 3 percent of our budget. So in terms of deficit 
reduction, which we all want to see take place and know has to 
happen, this is a drop in the bucket.
    Now, it is not because these programs don't do great 
things, but it is because the knowledge and expertise required 
to navigate the grant-making process is expensive to hire or to 
develop, and most of these programs spend every dollar they 
have in helping others creating jobs and providing services. 
Also, they leverage millions of dollars. One earmark of 
$250,000 to a nonprofit to create jobs and to provide services 
where these gaps exist can and do leverage millions of dollars 
in private sector funding and in foundation funding. I know 
that these are programs in communities that the President 
supports and wants to reach out in helping. These are 
communities that I know the President and your administration 
and you want to provide a pathway out of poverty into 
prosperity. So let me ask you, in terms of this decision to 
support a total or to lead a total ban on earmarks, did anyone 
at Treasury do an analysis of the economic impact of 
eliminating earmarks and what it is going to do in terms of the 
loss of jobs and the loss of services in many of our districts 
around the country?
    Secretary Geithner. We at Treasury have not done such an 
analysis. But we do have a substantial number of programs in 
the President's budget that he has proposed, and many of those 
are the ones which we have referred to that are before you 
today, which go directly at the type of problem you are trying 
to solve. The programs that we are responsible for, at the 
Treasury, including not just our housing programs, but the CDFI 
fund, new markets tax credit, and a range of small business 
credit programs, those programs are designed to do exactly what 
you are concerned about, which is to make sure in communities 
that are hardest hit by the recession, that are at greater risk 
of taking a much longer time to come out of this, get private 
investment in there more quickly to help mitigate those 
problems. We very much share that objective. And I think we 
have a comprehensive set of programs in the President's budget 
that would help advance those objectives.
    Ms. Lee. Mr. Secretary, you have targeted CDFI for some 
cuts, as well as some of these other programs.
    Secretary Geithner. We absolutely are in a period where we 
have limited resources. We have to recognize that. So we are 
proposing savings in a variety of areas. But the request we 
have for CDFI is a very strong funding request. It would leave 
us somewhere between, if I am not mistaken, two and three times 
the funding level at the end of 2008. H.R. 1 would cut it to 
half the level. We are proposing in the 2012 budget what I 
would regard as a very strong funding level for CDFI. Maybe not 
as much as you would like.
    Ms. Lee. But given the lack of earmarks and the ban on 
earmarks and cutting CDFI, as well as some other cuts, I think 
that is going to make matters worse.
    Secretary Geithner. It may. It is a good question. Again, 
my impression is if you look at, and let's take these types of 
programs that are designed to target low income communities 
with tax incentives, guarantees, credit programs, things like 
that. My sense is, if you look at the combined size of the 
programs, as proposed in the President's budget, we have, even 
after the Recovery Act expires, very, very substantial funding 
levels relative to certainly where we were in 2008, which is 
appropriate because I think the returns are very high in those 
programs.
    Ms. Lee. Mr. Secretary, with regard to the programs, and I 
know again that you and your President, this administration 
gets it and understands that these communities need jobs and 
the support. What is happening and will continue to happen is 
that the organizations and the nonprofits that congressionally-
directed earmarks are addressed toward, they are going out of 
business. They can't compete. They don't have lobbyists, Mr. 
Secretary, and they can't do these grant applications. They 
can't do these competitive packages. I mean, this is hard stuff 
to do. They do the work with seed money or a little bit of 
funds from the Federal Government as a foundation.
    They are able to maximize the Federal tax dollars that go 
into these areas. I don't know how you are going to backfill 
this and make sure that jobs aren't lost and services aren't 
cut.
    Secretary Geithner. I understand that concern, and I think 
it is definitely a reasonable concern. But let me try it from 
another perspective. And you know the President's view on this. 
But think about it this way. We are living in a period where we 
have unsustainably high deficits, limited resources. It is 
going to be very hard for us to get these deficits down to a 
sustainable level over time. It is going to require cutting 
things that many people believe in and have a huge record of 
success over time.
    In some ways our ability to convince the American people 
that investments in these programs are necessary and important, 
does depend in part on our willingness, our ability to 
demonstrate that by doing earmark reform, we can demonstrate 
more confidence to the American people that the decisions we 
are making about where these resources should be spent meet the 
highest test first.
    Ms. Lee. Mr. Secretary, this is less than 3 percent of, 
first of all, of the budget. Secondly, if you look at a 
400,000, 300,000 earmark, you are talking about $3 million, 
perhaps.
    Secretary Geithner. I completely agree with you about that. 
And I think even Chairman Rogers says this. You are not going 
to balance our budget on the backs of discretionary spending. 
It is just not going to happen. But I was making a slightly 
different point which is that if we are going to be able to 
demonstrate to the American people at a time of 10 percent of 
GDP deficits, these programs we think are so important to 
justify their support, then we have to be able to demonstrate 
we are willing to reform how we make these decisions over time, 
because they will be more confident that these are decisions 
that we made on the basis of what is in the interest of the 
country as a whole. That is one of the rationales for earmark 
reform.
    But you are right to point out that in many of these, we 
are talking about very small pieces of the budget, very good 
records of return, very strong cases for doing it. We are not 
going to have reasonable recovery in the United States across 
the country as a whole, until we get the unemployment rate 
down. Even though unemployment is at roughly 9 percent 
nationally, that dramatically understates the level of 
employment in many, many parts of the country.
    Part of our success in restoring confidence in this country 
is to demonstrate that across the country in communities most 
affected with high poverty and high unemployment, that we are 
going to make as much progress there as we are across the 
Nation as a whole.
    Ms. Lee. Thank you, Madam Chair. Thank you, Mr. Secretary.
    Mrs. Emerson. Mr. Alexander.
    Mr. Alexander. Thank you.
    Mr. Secretary, many of my community banks have expressed a 
concern over the recent proposed Fed regulation for the 
interchange fees that would cut into their profits and into 
their capital. Should there be a concern over the effect this 
might have on the credit available to small businesses?
    Secretary Geithner. Congressman, that is a very important 
question. I have heard that concern from lots of different 
people.
    This was a requirement of law that was imposed on the Fed. 
The Fed tried to design a rule that complies with the law. They 
have had a lot of feedback advice on how best to reduce the 
risk you have referred to. And I don't have a sense yet about 
whether they feel that they have the scope within the law to 
help mitigate that risk.
    Mr. Alexander. So you don't know if there was ever a study 
made by anyone, then, to gauge the potential effect of this 
law?
    Secretary Geithner. I know there were a lot of 
congressional hearings around this whole issue before this 
amendment passed. But the law establishes an obligation on the 
Fed, and the Fed is trying to figure out how to comply with 
that obligation and how to do so in a way that minimizes the 
impacts to which you referred. I don't know how much 
flexibility they have.
    Mr. Alexander. I appreciate your honesty there. There is a 
lot of talk about a potential vote in the future for raising 
the debt ceiling. What happens if that doesn't pass?
    Secretary Geithner. Congress has to do it. There is no 
alternative. It would be catastrophic for the United States for 
us to default on our obligations as a country. It would be 
catastrophic in terms of the effect on growth and borrowing 
costs for all businesses and families. I laid this all out in a 
lot of detail in a letter early in the year in response to a 
request from the Congress. I would be happy to walk through 
that again. But there is no alternative.
    I very much welcome the statements made by leadership on 
both sides of the aisle, both Houses, recognizing that we are 
the United States of America. We meet our obligations, and it 
would be unthinkable for this country not to make sure that we 
have the continued capacity to meet our obligations.
    Mr. Alexander. Do you think the financial crisis now taking 
place in Japan will have an effect on that? Will that mean that 
we----
    Secretary Geithner. On our recovery here?
    Mr. Alexander. Yes.
    Secretary Geithner. Oh, I think that is a hard judgment to 
make a decision. I think our focus now is, as it should be, on 
trying to do as much as we can to help them mitigate the 
humanitarian cost of the catastrophe. Of course, we will offer 
them every assistance we can and help make sure, again, that 
they can--that the restructuring effort itself is handled as 
carefully as possible.
    Mr. Alexander. I have got one other question. The Treasury 
Department has--one of the duties under the law is to certify 
and oversee payments from the Judgment Fund, a law passed in 
1956 by Congress to make payments for judgments rendered 
against the Federal Government. The Judgment Fund is one of the 
main sources of funds to use to pay litigation costs of 
settlements against the government. Can you provide us with a 
record of an explanation of the Judgment Fund and how it is 
funded and maintained at some point?
    Secretary Geithner. I would be happy to do that.
    [Clerk's note.--The Department of Treasury is either 
incapable or unwilling to answer this inquiry and provided no 
response.]
    Mr. Alexander. And it seemed to me like if you look at 
Article I, Section 9 of the Constitution, it provides that a 
regular statement and an account of receipts of all public 
money shall be published from time to time. It is what seems 
like the Constitution prohibits the current management of this 
Judgment Fund since we don't know for sure what goes on in that 
Judgment Fund, it is not transparent.
    Secretary Geithner. Well, again, I would be happy to make 
sure I understand your concern in more detail and be as 
responsive as we can.
    Mr. Alexander. Thank you.
    Mrs. Emerson. Thank you, Mr. Alexander.
    Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Madam Chairwoman.
    Mr. Secretary, it is good to see you again. You said that I 
think you have been through 51 of these hearings.
    Secretary Geithner. This is my 51st, I think.
    Mr. Diaz-Balart. I have been with you on a couple of them, 
and rest assured, you are getting better and better at it.
    Secretary Geithner. I think only in a small fraction of 
them actually.
    Mr. Diaz-Balart. That is exactly right, that is exactly 
right.
    A couple issues, and first I wasn't going to talk about it, 
but since it was brought up by Mr. Serrano, there is no secret 
that he and I have serious differences on the issues of Cuba. 
By the way, those disagreements are always respectful and 
debated with the great respect, as should happen in a 
democracy. But what is clear, and what is more important than 
whether he and I may have differences, is what Congress has 
stated than what the law is. And you said it, and the President 
has stated it, that obviously tourism is not permissible, it is 
unlawful.
    You were very kind and when you stated in a previous 
subcommittee hearing, a different subcommittee of 
appropriations, that if I-- I am paraphrasing it, but we talked 
about if I saw a violation, a possible violation, of law, to 
bring it to your attention, and that you would obviously 
enforce the law. And so I obviously don't have to hold you to 
your word because I know that you are a man that will hold 
yourself to your word, and I just want to thank you for that 
courtesy.
    I have some serious concerns regarding some proposed 
regulations against the IRS, which I guess somebody talked to 
you about it, that would require U.S. bank deposit interest 
paid to any non-U.S. resident to be reported annually to the 
IRS. Now, according to the IRS, the IRS says that it is solely 
for the benefit of the foreign governments where those people 
come from.
    Now, you know, I represent south Florida. Obviously there 
are a lot of reasons why I think we could be concerned about 
that, about capital risk, the potential of what that would do 
to our banks. But more specifically and more directly let me 
use the case, for example--and we could use others, Venezuela. 
We all know the issues going on in Venezuela where, you know, 
the Chavez government has nationalized a number of companies; 
they have closed down the press; they have closed down 
television stations, Globalvision; they have arrested judges 
for being judges, and then they have mock juries and mock 
trials for those judges that they don't like. So I don't have 
to tell you about the issues in Venezuela.
    So my concern is imagine if now and in south Florida where 
we have thousands of others, but also Venezuela, nationals who 
are business people, jurists, journalists, whatever, who have 
homes and bank accounts, if that information goes back to Mr. 
Chavez, what nefarious purposes could that be used for to hold 
against them, to blackmail them, to confiscate. So that is 
obviously a concern that not only I have, but I think all the 
banks in the region have that concern. If you have any comments 
or suggestions on that, obviously those rules are now being 
promulgated.
    Secretary Geithner. As you said, this is about preventing 
tax evasion and preventing money laundering. We believe we have 
a very strong set of protections to protect the confidentiality 
of any such information. I would be happy to ask my staff to 
review those with your colleagues so that you can judge those 
for yourself. We think we found a reasonable balance. What we 
are trying to do is to make sure that we--and this is our 
obligation under the law, too--that we are taking every step we 
can to reduce the risk of broader tax evasion or money 
laundering for reasons that I know you respect. We would be 
happy to explain why we think those protections are adequate 
and listen to any concerns you have with them.
    Mr. Diaz-Balart. And again, Mr. Secretary, I appreciate 
that, because obviously you do understand the concern of those 
banks and, frankly, more so the individuals who are highly 
concerned, and these could be issues, I hate to put it in these 
terms of life or death, for some of these individuals if we 
don't get it right. And so we just need to make sure we get it 
right.
    Very briefly you mentioned that in many instances the 
President said as well that we are on an unsustainable path. 
And I am a simple-minded guy, I just want to make sure. You 
have gotten so good at these hearings, I want to make sure I 
understand what you are saying.
    Is it possible to solve our problem without reforming 
entitlements?
    Secretary Geithner. No. We have two types of fiscal 
problems. We have a big problem, a deep big hole to dig out of, 
over the next 5 to 10 years. And beyond that we have a very 
different, much more severe long-term fiscal problem. We have 
to solve both those problems.
    The long-term problem is driven by the rate of growth in 
health care costs and, to a much smaller extent, by a very 
modest gap in Social Security. The 5- to 10-year problem is a 
huge problem, and it is not driven by entitlement costs; it is 
driven by just too large a gap between commitments and 
resources and the rest of our budget. That is why in the 
proposed budget to the President we lay out a path to bring 
those deficits down very dramatically over the next 3 to 5 
years, down to level where we stop the debt growing as a share 
of the economy. That is the minimum necessary thing to try to 
do. And you will find, of course, that that is a very hard 
thing to do. That is necessary, but not sufficient.
    Mr. Diaz-Balart. It is not sufficient because, as you just 
stated then, again it starts shooting right back up.
    Secretary Geithner. It starts shooting right back up.
    Mr. Diaz-Balart. So we can either, to use the President's 
analogy, kick the can down the road, or we can look at, you 
know, where we have to go. And again, I think you have 
answered, but I just want to make sure I understand. You can't 
do that without looking at it and----
    Secretary Geithner. You have to do both those things. And 
again, it is very important to--it is better to do it sooner 
rather than later, because you need to give people time to 
adjust, businesses and individuals, to adjust the big changes 
in policies over time. You need to be able to phase them in 
gradually over time, like we did, for example, with the 
commission on Social Security that President Reagan initiated 
some time ago.
    So there is a lot of value in trying to reach consensus on 
these kind of things ahead of the point where they start to 
escalate dramatically.
    Mr. Diaz-Balart. Thank you, sir.
    Thank you, Madam Chairman.
    Mrs. Emerson. It would be nice to be able to get bipartisan 
agreement on this so that one side doesn't beat up the other, 
wouldn't it?
    Secretary Geithner. Well, we can't do it without bipartisan 
agreement. And as I said before, we can be confident that 
whatever we agree on is going to be unpopular with people on 
both sides of the aisle.
    Mrs. Emerson. Indeed.
    Mr. Bonner.
    Mr. Bonner. Thank you, Madam Chair, Mr. Secretary.
    I would like to go back to the big chairman first, with a 
statement he made, because I want to make sure I understand 
that.
    Could you repeat, Mr. Chairman, the amount of money, the 
increase in spending that we have seen over the last 2 years?
    Mr. Rogers. The last 2 years spending has increased by 84 
percent.
    Mr. Bonner. Mr. Secretary, do you disagree with that 
number?
    Secretary Geithner. Oh, I mean, there is--no, it is black 
and white. There is no doubt we have, as the chairman said, a 
deep hole, completely unsustainable fiscal position. Our 
deficits are roughly 10 percent of GDP, the highest level in 
generations. The deficit is, of course, the product of lots of 
things. They are the product of the choices made the last 
decade on taxes and spending, including entitlements. They are 
the choices made in terms of how we dealt with two wars. They 
are the product of the recession, and they are the product of 
the short-term emergency cost of fixing the crisis. And they 
are the products of some other things that are in the budget, 
too. But those are the most important drivers of the near-term 
deficits.
    Mr. Rogers. Would the gentleman yield?
    Mr. Bonner. I would be happy to.
    Mr. Rogers. The 84 percent is an increase in discretionary 
spending. It doesn't take into account the increases in the 
entitlement spending programs. But just in the 33 percent of 
the budget that is discretionary spending, we have increased it 
by 84 percent in 2 years.
    Mr. Bonner. Well, I know there are a lot of things in the 
past that have contributed to it. Certainly you can't increase 
spending 84 percent just over 2 years and that contribute to 
all of the problems that we are facing. But I guess the logical 
question that our constituents in Alabama, Kentucky, New York, 
wherever, might have is can we spend ourselves out of this 
hole?
    Secretary Geithner. Absolutely not. But in some ways the 
harder question is how we reduce spending and reduce deficits 
without killing the economy.
    Mr. Bonner. Well, and that raises a good point. Senator 
Kyl--and House Members are not prone to quote Senators unless 
we are running for the Senate, and I am not--Senator Kyl this 
weekend brought an analogy. You know, Washington, I think--
maybe you disagree--I think this city is so disconnected from 
real America because we talk about billions and trillions. Most 
of us don't even know millionaires in our communities; we 
certainly don't know many billionaires. And so Senator Kyl put 
it in perspective that a family that is dealing with a budget, 
$10,000, 40 percent of that borrowed money, and yet the amount 
of money that we are trying to cut through H.R. 1, that we have 
gotten very little support from our Senate colleagues on the 
other side, although the Republican plan got more votes than 
the Democrat plan did, but if you cut--to give the analogy that 
most people can relate to, that would be a $28 cut out of a 
$10,000 budget. That is something most people in Camden, 
Alabama, where I grew up, can appreciate better than the fact 
that last month we recorded a $223 billion deficit for 1 month.
    So you agree, you can't spend yourself out of this, and yet 
I believe as just one Member that the President and the 
administration has been very timid to embrace even the 
President's own--he was the one who appointed the commission, 
and yet we have seen very little vocal support for the tough 
choices that are going to have to be made. Chairman Rogers 
mentioned that in his questioning. I am just curious from your 
perspective because you have a very important seat at the table 
as the Secretary of the Treasury.
    Secretary Geithner. Well, the President believes, and I 
believe, and we both believe this very strongly, that we need 
to take advantage of this opportunity to find a bipartisan 
consensus on ways to lock in changes in policies that would 
bring our deficits down over time. As you said, and the 
chairman said, you can't do that by focusing only on what we 
call nondefense discretionary. And you don't want to do that, 
because if you only allow nondefense 2 percent of the budget to 
carry all of the burden for deficit reduction, then you will 
end up, as some people say, eating our future.
    You know, a family living within its means is not going to 
cut tuition payments for its kids before it cuts spending on 
things that are really a luxury.
    So we have to make those choices together, but I think you 
are right to emphasize that you have to--for us to do this 
sensibly over term, it has to be a multiyear plan, it has got 
to be broader, it has got to involve policies beyond that very 
small slice of budget. I completely agree with that.
    Mr. Bonner. Just one last question. I want to go to follow 
up. Mr. Womack started this in terms of Fannie and Freddie and 
the GSEs. In the report that the Treasury Department issued on 
February 11th, as I understand it, you lay out three options 
for reforming the GSEs. But with respect to the second option, 
how is the backstop different from the implicit guarantee 
exploited by Wall Street in this recent crisis? And is this 
middle option, which the report appears to position as the most 
acceptable mandate response between the two extremes, how is it 
different from the status quo?
    Secretary Geithner. Well, it is not positioned as the more 
attractive option. I wouldn't actually view it that way. Each 
of those three options we try to frame neutrally, and they each 
have merits and disadvantages. I will try to explain what the 
difference is both from the status quo and from the other 
options.
    In the current system, private shareholders in these two 
public companies were able to benefit from an implicit 
guarantee. The government did not charge for that guarantee. It 
was not compensated for that guarantee. Taxpayers who end up 
holding the bag for what I said was ultimately tens and tens of 
billions of dollars for losses, that is a completely 
unacceptable way to run a financial system, and none of it 
should be--will not be supported in the future.
    Now, what we proposed among the options we considered was 
an option where alongside what the Federal Housing 
Administration would do in providing support for affordability 
to low- and moderate-income Americans, which I think there is 
broad support for, as a complement to that--and that is a 
guarantee, but the government charges for that guarantee, and 
there is a bunch of tough conditions on that guarantee. But you 
would complement that by something you would deploy only in an 
emergency to make sure that housing finance didn't dry up 
completely in a crisis. And that is a very important thing to 
do, because if you don't do that, then the risk is that even a 
modest recession would turn into deep recession because people 
would not be able to borrow to finance a house, house prices 
would decline, costs of borrowing would go up, and you would 
have a lot more damage as a whole.
    So in that type of model, which is just a backstop in 
emergencies, the government would charge for the guarantee. It 
would only be available to ensure there would be financing and 
financing wouldn't dry up completely. So it is a very different 
system than the system we have with the GSEs.
    Even that, though, would be challenging to design. All 
these options are very complicated to design in part because of 
the risk that we allow political factors to color the judgment 
about how to price the guarantee, how to set the eligibility 
criteria. And so you need to take the politics out of it to 
have any chance of getting it right.
    Mr. Bonner. Madam Chair, I said that was my last question. 
The only thing I would ask the Secretary in closing, do you 
think that the economy has recovered to the point where--I 
mean, new housing starts were down last month, what, 30 
percent? Something like that. It flashed up on the TV today as 
I was meeting with Alabama Home Builders. Do you think that 
people in rural America can go out and borrow money to buy a 
house or start home construction?
    Secretary Geithner. Well, two slightly different issues, 
and you are right to say housing is still weak, and 
construction is very weak. Housing starts are very weak in part 
because there are too many houses out there relative to demand. 
It is going to take several more years to heal the damage 
caused by this crisis.
    If you look at the cost, the ability to borrow to finance a 
house now, under the limits set by Fannie and Freddie and FHA, 
mortgage finance is very attractive now; in fact, much lower 
than it was, has been, over the last several years. That is a 
good thing.
    It is a little different for a builder, and in commercial 
real estate it is still very hard and very tough financing out 
there still. Just all again, just the echos and the aftershocks 
of the initial crisis, and that is going to take some time to 
heal. That is one reason why you want to make sure we move very 
carefully in reforming the housing finance market, because if 
we are going to get the market, the private market, to come in 
and replace the government's role, we need to move cautiously.
    Mr. Bonner. Thank you, Madam Chair.
    Mrs. Emerson. Thank you.
    Mr. Yoder.
    Mr. Yoder. Thank you, Madam Chair.
    Mr. Secretary, thanks for the opportunity to be here today. 
I know you have done a lot of these, it sounds like, so I will 
try to ask you a few questions here that maybe haven't been 
fully been vetted.
    I want to follow up where the previous speaker, the 
previous Congressman, the gentleman was asking. I want to ask 
you a more philosophical question. I am one of the new Members 
in Congress from Kansas, and what I have noticed in this city 
and across the country is that there is really a great divide 
in philosophy on what we should be doing right now in terms of 
spending, regulations, taxation, debt. And I kind of want to 
get a feel for where you are philosophically on these issues so 
I can understand sort of how you approach issues within the 
Treasury, and how your comments are related to questions before 
the panel.
    On one side I think you have the argument that what the 
economy needed was greater regulation; that there was too 
unregulated, that we needed new consumer finance protection 
bureaus, we needed greater regulation in markets, we needed 
greater government involvement in free commerce in this 
country, and that that was one of the things that was causing 
economic stagnation.
    You also have on that argument the idea that greater 
spending in Washington creates jobs, that cutting spending in 
Washington is a job killer, that borrowing more money and 
raising taxes can be a creation of jobs in Washington. And then 
clearly on the other side, you have the belief that government 
borrowing and spending is a net loser, that free enterprise and 
free markets are what built this country, and that we need to 
do everything we can to restore those principles and push 
rather for greater regulations, push for greater free trade, 
greater opportunities for folks to contract with one another.
    I will tell you back in the district what I hear from 
almost every small business and bank in the community is that 
they feel government breathing down their necks at every turn, 
whether it is the health care bill, whether it is it Dodd-
Frank, or whether it is new EPA regulations, whether it is a 
whole host of things that are so destabilizing and so 
unpredictable for the bottom line for these businesses that 
they are telling me, we have capital, we are not going to 
create jobs, because we are waiting to figure out what the 
government is doing to us. I hear that from my community 
bankers, I hear that from small businesses, I hear that from 
entrepreneurs.
    And so I guess I would like to get an idea of do you agree 
with the sentiments of those entrepreneurs, small business 
owners, community bankers; do you think it is a fair assessment 
on their part? Do you think that the course of action in this 
city of greater regulation, spending and taxation is the proper 
way? And I know you made a statement before that the cuts that 
this Congress has looked at in H.R. 1 would be a job killer. Do 
you still believe that cutting government spending and putting 
more cash back in the hands of individuals and small business 
owners is a job killer?
    Secretary Geithner. Okay, a thoughtful question, but let me 
just try to give you a sense of what I feel about these basic 
fundamental questions about strategy.
    The most important thing we can do for the economy is to 
create better incentives for businesses to invest and to hire, 
and as we do that--and that is a complicated thing to do. It 
requires, again, making sure that tax policy creates better 
incentives for investment. It requires that businesses can hire 
people with the skills they need to be able to be competitive 
in this world. That is why education is so important. It 
requires investments by the government in basic things like 
research and development and science. Those things are 
fundamental to the capacity of any community to grow, any 
business to function and thrive in this competitive world. 
Infrastructure is hugely important to the basic competitiveness 
of the American economy. Those are core government functions 
that we have not been as good at as a country. We need to get 
better at that.
    Part of it requires expanding opportunities for trade and 
exports, and that is why you are going to see before you an 
agreement not just with Korea, but if we get the change that we 
need with some other important trade agreements, we think those 
things would be very productive and very consequential.
    Now, you referred to a couple of other things which I think 
I should respond to. In terms of the financial sector, you 
know, this is a crisis fundamentally caused in part by basic 
failures in financial oversight. And we all had an obligation 
to fix those problems.
    Now, community banks were not the source of that problem, 
and community banks are largely insulated from the broader 
forms of Dodd-Frank. Those are targeted except for interchange, 
which your chairman referred to. Community banks were left 
largely outside of the scope of those changes and regulations. 
Those were directed, as they should have been, to the large 
institutions and the major markets at the center of the crisis, 
and all businesses were victimized by those failures. It wasn't 
just individuals and communities where predation and fraud were 
rife, but businesses were the victim of the basic failures in 
the financing. It is why businesses stopped hiring, why 
financial markets seized up, why the economy was shrinking at 
the annual rate of 6 percent of GDP a year at the end of 2008.
    So getting the financial system better, more stable, and 
more efficient, better to be able to provide capital is a 
central function of government. And it is absolutely the case 
that parts of our financial system had too much regulation, but 
parts had too little. And fixing that is really important to 
the broader task of trying to make sure that businesses were 
able to grow again, expand again in that context.
    Now, of course, that to wait for this all to work, you have 
to bring the deficits down over time, and they have to kind of 
come down dramatically. If we don't do that, then you will risk 
higher interest rates, and you will make it harder for 
businesses to grow and expand. It is so important for all of us 
to recognize we have to do that. And you can't do it simply by 
doing the necessary reductions in spending and discretionary. 
We believe there are savings there we can do in support, but 
you are not going to be able to bring the deficits down over 
time without taking a broader multiyear approach, and that is 
going to be very important to confidence.
    So to summarize, I don't know you, you don't know me. I 
doubt we disagree quite as much as your question suggested. And 
you can measure our intention and our values on these things by 
looking at the things we proposed. Again, if you look at our 
proposals in education, in tax incentives for business 
investment, in innovation in basic research and development, 
and infrastructure and trade, we think we have good ideas, but 
if we have broad support across the political spectrum in the 
past, it would make a big difference in terms of strength and 
recovery.
    Mr. Yoder. To follow up on the last question I had as part 
of the philosophical section here, do you believe that cutting 
government spending in any manner, such as the manner in which 
we have cut discretionary spending, and returning that money 
back to small business owners and individuals is a net job 
killer?
    Secretary Geithner. Are you asking me about H.R. 1 
specifically? I think if you cut that deeply in the way you are 
cutting in H.R. 1, it would be very damaging to the economy, 
near term and long term. Again, you need to look broadly, as I 
am sure you will, at what the government is doing. And you want 
to look at where those savings are used. And so you want to 
look at not just where you can cut, but where you need to 
protect investments and where you use those savings to make 
sure that we are like educating children with better skill 
sets.
    Mr. Yoder. Let me be a little more specific on the question 
here. I guess my question goes to the issue of jobs. This is a 
philosophical question, depends which you go here, but we hear 
folks in this town say that when you are cutting spending in 
Washington, you are killing jobs.
    Secretary Geithner. No, I don't think that is necessarily 
the case. It depends on what you are cutting. There are 
absolutely things you have to cut, should cut. We can't afford 
a lot of----
    Mr. Yoder. I am not talking about the deficit.
    Secretary Geithner. No, no, no the spending.
    Mr. Yoder. When we reduce spending and reduce the amount of 
Federal employees that we have in this city, the argument is, 
well, then we have eliminated jobs, and we have hurt the 
economy. I guess I question you as to whether reducing those 
Federal jobs in a way in which we are reducing Federal 
expenditures and returning more money to small business owners 
and entrepreneurs, individuals isn't a net job benefit.
    Secretary Geithner. Well, again, I think it depends on what 
you cut. You are absolutely right that there are some programs 
that you cut would not be--hurt the economy, even if they 
temporarily reduce jobs. But again, it depends, what are you 
going to use the savings for? If the savings go to finance tax 
cuts for the richest Americans, you are not helping job 
creation. If you achieve those savings, but we are still living 
with very large deficits, then you are not helping the economy 
as a whole. You could be hurting the economy. It depends what 
you are doing to the overall path of----
    Mr. Yoder. Let us get into taxes, if we could, Mr. 
Secretary. You discussed in your statement that the budget that 
has been proposed by the administration would reduce the 
deficit from 10 percent of GDP to 3 percent of GDP over 5 
years.
    Secretary Geithner. Yeah. I can't remember if we do it in 
the 4th year or the 5th year, but over roughly that period of 
time.
    Mr. Yoder. What percentage of that reduction is related to 
tax increases?
    Secretary Geithner. A pretty modest proportion is related 
to taxes. But you are right, we do in the deficit--in the 
budget propose to allow the tax cuts that apply to the top 2 
percent of Americans to expire on schedule a year and a half 
from now, 2 years from now, and we also propose to limit in a 
very modest way tax expenditures for those richest same 2 
percent of Americans. So, for example, we propose to limit the 
tax deductibility, the deductions, for those top 2 percent of 
Americans. Those are the principal tax reforms recommended, and 
we think they are sensible. We don't think we can afford those 
taxes. And if we don't allow those reforms to go into place, 
then you will be left with higher deficits. That is why, again, 
I know there are people on your side who think we didn't go 
deep enough in the budget.
    I will make an observation. I don't think you will be able 
to find a way to get the deficit lower as a share of GDP in 
that time frame without doing anything in terms of tax reform. 
I think it is infeasible to do it without killing the economy.
    Mr. Yoder. I think you will find broad-based support for 
tax reform certainly as strong or stronger on the other side of 
the aisle. I guess I would ask, then, if you believe that we 
should increase taxes on the upper 2 percent. What do you feel 
the proper tax rate is for this country, specifically related 
to the upper 2 percent? It assumes your philosophy being that 
when we can take money to the richest 2 percent, and we can 
send it to the Federal Government and create programs, that is 
a benefit for society.
    Secretary Geithner. No, I wouldn't say it that way. I would 
say that we can't afford them. We don't say this with any 
enthusiasm; it is just more in sorrow and in reality. You 
should not ask me to go out there and borrow a bunch more 
money, a trillion dollars over 10 years, to make those tax 
cuts--leave those taxes in place. That would be irresponsible 
for the country, can't afford it. What we are proposing to do 
is to allow those taxes changes to take effect and use those to 
reduce the deficit.
    Mr. Yoder. Why is that the magic number, though? Why not 
increase taxes beyond that? It is seems sort of political, I 
guess. I know you look at these things from a very serious 
economic analysis here, and I want to, I guess, understand why 
this is just letting the 2 percent increase--what has the 
economic theory behind just that specific provision? Why is it 
not higher than that? Why does it not expand another 2 percent?
    Secretary Geithner. Here is the philosophy of how we do it. 
We want to have the lowest taxes possible consistent with our 
obligation to run a sustainable fiscal position and fund core 
critical functions of government.
    You say why those rates? The Bush taxes were designed to be 
temporary, to expire, and we think that the economy can 
withstand them reverting to the level they prevailed in the 
late 1990s, where we had, frankly, the best record of economic 
performance in terms of private investment, job growth, income 
growth, productivity improvement that we have seen in a long 
period of time. So looking back over history we think that this 
economy thrived at a time when the tax rates for the top 2 
percent were at that level.
    Mr. Yoder. That was for all rates. You want to go----
    Secretary Geithner. No, we are proposing only to go back to 
the----
    Mr. Yoder. I understand, sir, but you were talking about 
the 1990s in which all rates were at a higher rate.
    Secretary Geithner. They were a higher rate.
    Mr. Yoder. And this gets back to a philosophical question. 
There are some in this town who believe that these higher tax 
rates and greater spending in Washington ultimately is better 
for jobs and better for the economy, and there are others who 
believe that the tax reductions in the early 2000s led to 
economic gain. And it is just this question of whether we think 
ultimately higher taxes create greater economic gain, or we 
think lower taxes create----
    Secretary Geithner. I guess I would say if you describe 
both sides that way, they are both wrong, both substantially 
wrong. Of course, you want to make sure the commitments we make 
as a country are ones we can finance and afford, but you can't 
have everything, and you cannot sustain those tax rates with 
deficits this large. And you cannot achieve a reasonably 
responsible fiscal position without those types of tax reforms. 
Maybe you can, but I think it would be hard to do that.
    Mr. Yoder. Thank you, Madam Chair. You have been generous 
with the time. I yield back.
    Mrs. Emerson. Mr. Secretary, we have one vote, and I don't 
believe there will be more shenanigans. We hope not. But if you 
would be so kind as to allow us to recess for 10 minutes, and 
we will run over and vote, and we will be right back. Thanks.
    [Recess.]
    Mrs. Emerson. Okay. We will go ahead and resume our 
questioning.
    Mr. Serrano.
    Mr. Serrano. I will be ready in 5 seconds.
    Mr. Secretary, you are familiar with H.R. 1, and I don't 
mean Mickey Mantle's first home run or 900th.
    Mrs. Emerson. Yes, okay. As long as you make it straight 
that----
    Mr. Serrano. Mickey Mantle is your favorite?
    Mr. Womack. The gentleman knows that I am a Cardinal fan.
    Mrs. Emerson. Yes, it is 2 to 1. And we have an Oakland 
fan, so 2 to 1 to 1.
    Mr. Womack. My treat sometime, Mr. Serrano.
    Mr. Serrano. We have already heard from Commissioner 
Shulman of the IRS this hearing season, but I think a couple of 
points bear repeating. As I am sure you know, H.R. 1, the 
proposal to complete the 2011 appropriations process, contains 
severe cuts to the IRS. But I know Chairman Emerson and her 
staff did their best to avoid layoffs and furloughs. The IRS 
took the bulk of the cuts.
    I think a cut to the IRS budget is completely contradictory 
to everything that we are doing. How do we begin to solve a 
budget crunch by reducing resources to the agency that collects 
our tax revenue? What are the long-term ramifications, from 
your perspective, of reducing the ability of the IRS to 
accurately and efficiently collect tax revenue?
    Secretary Geithner. Well, I think they are very stark and 
compelling. If you reduce resources for enforcement and 
customer service, then two things happen. We collect less 
revenue. It means our future deficits are higher. It means to 
reduce deficits, you have to either raise more taxes on other 
people or cut other spending to make up for that. But the other 
effect you have is equally damaging. You reduce the capacity of 
the IRS to make sure that people who have the privilege of 
being Americans pay their fair share of taxes. So in some ways, 
if you reduce resources for enforcement and customer service, 
you make Americans less confident that the system is fair to 
them, too. So both of those effects are very damaging.
    Mr. Serrano. Now, Commissioner Shulman told us at the March 
1st hearing that--he stated a $603 million cut to the IRS 
proposed in H.R. 1 would mean $4 billion less in revenue for 
the United States Treasury. The lost revenue is seven times 
larger than the supposed savings. Do you agree with that 
assessment?
    Secretary Geithner. I do. I trust his judgment on that. He 
got a very good record of trying to make sure that we are 
satisfying the obligations Congress gives us with the lowest 
costs in terms of enforcement and customer services resources. 
But again, a dollar of enforcement resources raises roughly $5 
in revenue, it more than pays for itself. And if you don't do 
that, you are going to have higher deficits.
    Mr. Serrano. Yeah. I am going to bring up the word nobody 
wants to mention around here: shutdown. No one wants to see a 
shutdown of the Federal government. However, we must accept 
that this is a possibility and plan accordingly. What has your 
agency done to prepare for a potential shutdown?
    Secretary Geithner. Well, across the executive branch, at 
the President's direction, agencies have been looking carefully 
at what the law requires, what the law permits, how to make 
sure that we plan for that eventuality. But, Congressman, we 
are all working to avoid that. I think we should be able to 
avoid that. It would not be good for the economy now to put us 
through that kind of reduction in critical government services.
    Mr. Serrano. But across the government you say plans are 
being put in place. And I don't know if we are late into the 
season, but there was talk about refunds, tax refunds, being in 
jeopardy. Is that a possibility?
    Secretary Geithner. Again, I don't think I should at this 
point, Congressman, walk through the precise implications of a 
shutdown. It depends a lot on the legal judgment about what is 
possible and what is not possible in that context. But I think 
it is very important that we all try to work to avoid that, 
because, it is not good for us to put an economy still emerging 
from crisis through the trauma that would come from loss of 
critical government services.
    That would be one example that could be implicated. But I 
don't want to go into those details now. And again, we are 
doing what you expect us to do which is to work to avoid it. 
But, of course, we all always look at these kind of 
contingencies.
    Mr. Serrano. Madam Chair, I know that the time is running 
short, and I know we have other Members, so I will stop here 
for now.
    Mrs. Emerson. Thank you so much, Mr. Serrano.
    Let me ask you a really quick question, Mr. Secretary. 
Could other factors such as business cycles affect receipts 
more than the size of the IRS's budget, for example?
    Secretary Geithner. No. I think in this context anybody--
well, not anybody. I believe it is fair to say that Republicans 
and Democrats who have looked at this question over time would 
say that enforcement and customer service resources have a 
substantial effect on revenue. Of course, lots of things affect 
overall revenue, how strong the economy is, but you know one 
thing for sure. If you cut it, your deficits will be higher, 
other things being equal. You don't make----
    Mrs. Emerson. The other things being equal key, because----
    Secretary Geithner. No, but you won't make the economy 
stronger by cutting enforcement resources. That will have no 
effect on that. Now, of course, the economy will be stronger 
long term if you get our fiscal position resources and--but you 
are not going to do that by cutting enforcement resourcesfrom 
the IRS.
    Mrs. Emerson. Well, I mean, this is why I think business 
cycles might impact, because when we--at two different times, 
in 2008 and 2009 and then, I believe, 2001-ish, receipts were 
down in spite of the fact that the IRS budget was up.
    Secretary Geithner. Yes. But I think it is fair to say the 
right way to think about this is that for a given economy and a 
given tax policy, Congress sets the tax rates for the country. 
You will collect more revenue in a more fair way if you have 
adequate enforcement resources with the IRS. If you cut those, 
you will have less revenue, and it will be less fair. And that 
is why it is worth doing.
    I know you have been very supportive of this in the past. 
Of course, we all have to make tough choices in this context, 
and we are trying to, as I said in my testimony--trying to find 
areas where we can save, so where we are making investments, we 
think of higher return, we are funding those investments to the 
extent we can with savings efficiencies.
    Mrs. Emerson. Appreciate that.
    Mr. Womack.
    Excuse me, let us keep to 5 minutes, okay, on this round of 
questions if you all don't mind. Thanks.
    Mr. Womack. I should be able to yield back time, because I 
only have a couple of follow-up questions.
    One, when you look at the glide path of our debt, the size 
of our debt, and the glide path of what that debt means in the 
outyears, I am concerned about the numbers that our side 
crunches and, I am sure, your side crunches, and the relative 
interest rates that figure into the projections. And my 
understanding is those are factored in, I don't know, 4 to 5 
percent levels, somewhere in that neighborhood.
    What happens in a period of high inflation? Suppose for a 
moment we went into that, and interest rates spiked to more 
astronomical levels? And you can pick a number. What does that 
do to the mandatory piece of our spending pie as obviously it 
gets elevated exponentially?
    Secretary Geithner. Well, you are right to say that lots of 
things affect that overall burden, interest burden, over time, 
how fast we grow, what happens to interest rates. But the 
biggest factor really is just the rate of growth in health care 
spending. With an economy aging and people able to live longer, 
that is the biggest overwhelming factor.
    Now, we have an independent Federal Reserve, and their job 
is to keep inflation low and stable over time, and they have 
got a very good record of doing that in the last three decades, 
and I am very confident they can do that. But even if they do, 
that is not going to save the Congress and the executive branch 
from the obligation of trying to put in place reforms that will 
reduce those long-term deficits.
    Mr. Womack. And then related to the debt ceiling, it has 
already been talked about in the previous line of questioning, 
you have indicated that the path that you hope to have us on is 
down to about 3 percent, a 3 percent factor of GDP.
    Secretary Geithner. At least.
    Mr. Womack. At least 3 percent. And you call that relative 
balance.
    Secretary Geithner. Primary balance.
    Mr. Womack. I understand the concept there. And through 
normal growth we can begin to trim our debt. I fully get that.
    I don't want to put words in your mouth, but because we 
have to continue to go back statutorily and raise this level of 
debt every time that we start bumping up against it, is that a 
call for a more indexed debt ceiling?
    Secretary Geithner. Well, that is really a question for you 
and your colleagues. We are the only country in the world that 
I am aware of, or any serious country, that requires its 
elected representatives to periodically go back and raise the 
limit.
    Remember the limit, we are only allowed to borrow to 
finance things Congress has obligated us to finance. Congress 
sets the obligations for the country; we just raise the money 
to finance it. And we are the only place in the world I know 
that has a separate obligation on Members of Congress to come 
back periodically and raise it.
    I don't know why you want to live with that. It is tough 
enough making some of the other choices you have to live with. 
As you know, it is not proven to be of any value in forcing 
choices Congress hasn't been able to force on itself through 
other means, because fundamentally we will never default on our 
obligations. No Congress will ever let us default. It provides 
no leverage in that context, and it has had no value in 
bringing discipline to fiscal choices of the contribution of 
the past.
    So my own sense is that it is not a particularly useful 
tool relative to political costs it imposes on each of you. 
That is why many of your colleagues in the past have tried to 
find ways to reform that obligation.
    The important thing is for Congress to agree on multiyear 
commitments that lock in improvements in the deficit over time 
in ways that don't kill the economy, and that is the important 
thing to do.
    Mr. Womack. My colleague here in his line of questioning 
talked a little bit about the Dodd-Frank Act and the community 
bank side of the house. We all agree that community banks are 
very important to local communities, in particular rural 
Arkansas, rural Missouri and other areas. Is it possible we 
threw the baby out with the bathwater in Dodd-Frank with regard 
to community banks?
    Secretary Geithner. No, no risk of that. In fact, again, we 
were very, very careful, completely committed to make sure that 
the reforms in this bill were targeted on the parts of the 
system that were broken. We were very successful in doing that.
    Now, there are things like interchange with people worried 
about that in that context, but if you look at all the basic 
dimensions of the bill in terms of what changed, we 
appropriately followed a simple principle, which is let us 
focus on the things that were broken and on the institution 
that caused the problem, not on the ones that were mostly 
caught up.
    Now, of course, community banks were not innocent 
completely. A lot of them got way too exposed to commercial 
real estate. They are trying to dig their way out of that. They 
have to reduce lending to their business customers because of 
that. And we can help them get through that a little bit. But I 
think Dodd-Frank has a pretty good balance; not perfect, but 
pretty good.
    Mrs. Emerson. Thank you.
    Mr. Womack. I am going to stop there. I just want to say 
one thing, Madam Chairwoman. I was digging through my unlimited 
funds here, and I found this $1 bill, it is all I have, with 
the Secretary's name on it. But I know because his name is on 
it that he cares deeply about what is happening in America and 
our fiscal health. And I appreciate his testimony here today, 
and I have enjoyed the conversation that we have had today.
    Mrs. Emerson. I am sure the Secretary would be happy to 
sign that for you.
    Mr. Womack. I don't know if that is a violation of Federal 
law or not. I certainly----
    Mr. Serrano. I think it is against the law.
    Mrs. Emerson. Actually I will say that I found at a 
colleague's home this past week that Secretary Snow had 
actually signed a dollar bill for he and his wife so--in honor 
of their marriage.
    Ms. Lee.
    Ms. Lee. Thank you very much.
    Okay. Going back to the point you were making about 
earmarks in terms of making the point that the public wants us 
to reduce spending and reduce deficits. I agree. But I also 
believe that the public understands that while everyone must 
share in the pain, not--it is given, all things being equal; 
given all people, given all districts, given entire countries 
in terms of middle-income individuals having the kind of 
wherewithal to sustain some of these cuts. So I don't believe 
all things are equal.
    And given that, the 3 percent in terms of the earmark, the 
3 percent reduction to me doesn't seem fair. It doesn't seem 
fair because once again it is hitting the most vulnerable 
communities the hardest, communities that need jobs and need 
services, which unfortunately our government nor State 
governments provide. And so while the public wants us to do 
this, reduce the deficit, reduce spending, I am sure the public 
does not want us to wreak havoc, mind you, and I don't think 
the President wants that to happen on these communities that 
need this type of support.
    Secondly, I believe that, and I think that many concur, 
that the deficit is caused by three factors, the Bush tax cuts 
for the wealthy, two wars that did not need to be fought, and 
the recession was, of course, caused in large part by Wall 
Street.
    Secretary Geithner. Part D and Medicaid contributed.
    Ms. Lee. Yes. Part D and Medicaid. The prescription drug 
deal.
    So given that, that seems to be where we should go to find 
revenue. That seems how you begin to dig us out of this hole 
and reduce the deficit. When we talk about going back to 2008 
domestic discretionary spending, cutting back, some agree, some 
disagree, but if we do that we should go to defense. Why not? 
Again, $700-some billion. And I think most experts who study 
this, most economists and most military experts, will identify 
100-, 150 billion in defense that could be cut without 
jeopardizing our national security.
    And so what I can't quite figure out is why would we talk 
about reducing or develop economic policy and strategies to 
reduce the deficit on the backs of those who can least afford 
these kinds of hits?
    Secretary Geithner. I don't think we should do that. And 
that is why the President proposed in his budget a very 
substantial, very ambitious deficit-reduction program with a 
balanced approach that preserves critical investments in things 
that matter, not just the most needy Americans, but also to 
things that are very important to our capacity to grow in the 
future.
    You know, the hard thing to do is not to figure out a way 
to cut spending or reduce deficits. The hard thing is to find a 
way to do it in a way that does not hurt the capacity of the 
country to grow, to expand opportunity, and it is done so in a 
way that is just as fair, fair across the country. That is the 
challenge, that is the political challenge in this context. 
That is why, again, in the President's budget we proposed a 
balanced approach, multiyear package of phased-in reductions in 
spending in areas where we can afford to cut spending, but 
while preserving in some cases increasing investments in things 
that this government has not done well enough and has to do 
better in the future if we are going to grow and prosper in the 
future.
    Ms. Lee. What are the numbers in terms of health care 
reform how that would hit our Treasury? If, in fact, we 
repealed health care reform, of course, we are going to create 
a larger hole. What are those numbers? Do you have that?
    Secretary Geithner. Apart from what it does to coverage and 
incentives to use health care more wisely, reduce cost growth, 
what it does is it reduces the 10-year deficit by $143 billion, 
the Affordable Care Act reforms, and it reduces the deficit 
over the next decade by a trillion dollars. And most health 
care estimates look at those estimates and feel that CBO is 
reasonably conservative in giving us credit, giving the 
government credit, for the savings that are ahead.
    Now, of course, for those savings to be realized, Congress 
we have to hold to them, not walk them back over time, leave 
them in place and let them work. So if you repeal, your 
deficits will be higher by 150-, a quarter billion dollars the 
next 10 years, then higher by a trillion in the next decade.
    Ms. Lee. Thank you very much, Madam Chairman.
    Mrs. Emerson. Thank you so much, Ms. Lee.
    Mr. Yoder. No more questions?
    All right. Mr. Serrano.
    Mr. Serrano. Thank you.
    In my final round, I think, I just want to help us set the 
record straight. It seems to me, Mr. Secretary, that there is 
some confusion about TARP with new Members and some returning 
Members of Congress. So let us set the record straight, and you 
tell me if I am wrong.
    As recently as yesterday on the floor of the House, my 
friends on the other side were accusing the Democrats of 
dreaming up TARP. Let us be clear. TARP came about under the 
Bush administration, and it was the Bush administration that 
told us that the entire American economy would collapse if we 
didn't vote for it. TARP is a program that you inherited, not 
one that this administration created. Am I correct?
    Secretary Geithner. That is absolutely correct.
    Mr. Serrano. Now that we have that clear, let us talk about 
the real cost of TARP. Beyond anyone's wildest expectations, 
the cost of TARP, as analyzed by the nonpartisan Congressional 
Budget Office, keeps declining. We are finding that the 
investment that we made in certain industries actually paid 
off. Can you tell us what the original estimate was for the 
cost of TARP and what we expect the program to actually cost 
now?
    Secretary Geithner. At its peak it was $350 billion. That 
was without the risk that we might have to come back to 
Congress and ask for more authority. And relative to that 
initial estimate, as I said, outside of housing we are going to 
earn money for the taxpayer. I think CBO's latest estimate is 
total costs are--I can't remember what the exact number is, 
something closer to $20 billion, but I think that is probably a 
little high.
    Mr. Serrano. Not every program within the TARP has been 
successful, though. The HAMP program, your signature program 
for foreclose mitigation, has produced far fewer mortgage 
modifications than anticipated or hoped. In fact, the House 
voted to defund the program just last week, claiming that it is 
better to give up on solving the foreclosure crisis than to try 
to fix the program.
    What are your plans for reforming the HAMP program? How can 
you make it more useful for homeowners who are struggling?
    Secretary Geithner. Very good question. And let me just say 
that we are all disappointed and frustrated by the speed at 
which we reach people through this basic program, but--and 
again, I would say that the servicers and banks are not doing 
nearly enough to make sure they can determine whether people 
are eligible for these programs and make sure they get the 
benefits of these programs as quickly as they need to, and they 
need to do a much better job of that.
    Appalling performance by servicers generally still not 
nearly good enough. But this program has reached 600,000 
Americans with permanent modifications and lowered their 
monthly payments by an average of $500 a month. That is a very 
substantial amount of money, and the reforms put in place have 
helped set an industry standard that led to more than 2 million 
additional modifications outside this program. Again, a very 
substantial improvement in reducing the rate of avoidable 
foreclosures.
    And we have a number of programs in place that are designed 
to help make sure we reach more people as quickly as we can. 
But by law, by the constraints of law, this is a voluntary 
program, and we do not have the capacity to compel banks, to 
force banks to deliver these reductions. We can push them to do 
what we are doing, encourage them to do it with incentives. 
And, you know, we publish detailed metrics every month to show 
how banks are doing on meeting the basic customer service 
obligations in this program. They are getting better, but not 
nearly good enough yet.
    Mr. Serrano. Go ahead, one more, or are we short?
    Mrs. Emerson. Two minutes left.
    Mr. Serrano. I did have a quick question about the Bank 
Secrecy Act.
    Mrs. Emerson. Go ahead.
    Mr. Serrano. In the 2012 budget issue, February 18th, the 
Treasury Department proposes to eliminate all State and local 
direct access to the Bank Secrecy Act, BSA, portal maintained 
by the Financial Crimes Enforcement Network. You are familiar 
with that issue. So the question is, is the degradation of the 
capacity of States and cities to combat terror, fraud, 
corruption and crime justified by a proposed savings of a 
little over $1 million? Did the Treasury Department conduct any 
study of the secondary cost of this proposal in terms of 
increased inefficiencies, loss of revenue, or the cost of the 
likely increase of uncaptured fraud that will result from this 
proposal? If so, what were the results of this study; if not, 
why not?
    Secretary Geithner. Excellent question. Of course we looked 
at this very carefully before proposing it. And again, we are 
trying to find savings everywhere we can justify them. But I 
did not believe this proposed reform would have any material 
effect in the capacity of State and local authorities to carry 
out those basic obligations. But we would be happy to give your 
staff a little more information on what went into that 
judgment.
    Again, this is just another example of how we can't do 
everything. We have to make some hard choices. We have to 
reduce some things that have a--where we think we can better 
use the money. But in this case we think the reforms are 
justified, and we don't think they affect the capacity of State 
and local governments to carry out that responsibility.
    And I want emphasize something your colleague said, which 
is, again, we want to be very careful that where we are saving 
resources, we are not hurting the most vulnerable or taking 
away from programs that have, again, a demonstrated very good 
record over time in using taxpayers' money, supporting private 
investment.
    Mr. Serrano. Well, in closing let me just say you should 
take a look at that, Mr. Secretary, because I can tell you one 
city where they feel they will be hampered in their ability to 
do what they need to do. Thank you.
    Mrs. Emerson. Thanks, Mr. Serrano.
    Bless you.
    In response to the question that Mr. Serrano asked you 
about HAMP, and it reminded me of this e-mail that I just got 
from a friend of mine who is a banker, a community banker in 
one of my counties. And I am actually going to read you what he 
said, because this is somewhat problematic. But basically, just 
to pick and choose, in theory the program, HAMP, seemed like a 
viable option to help borrowers stay in their homes in times of 
financial difficulties, but the cumbersome process of getting a 
borrower qualified for the program made it almost impossible to 
help those who are in most need in general. The servicers are 
required to solicit those borrowers and provide them with 
information regarding the HAMP options available. The borrower 
then must complete and return the forms required in order for 
the servicers to proceed. The borrower's information is then 
input into the HAMP Web site and transmitted electronically to 
Fannie Mae, who handles the applications for Treasury 
Department.
    Navigating the loan input Website was nearly impossible, 
the users guide alone being 64 pages. Issues with calls to the 
support line when assistance was needed included long wait 
times and conflicting answers from the staff members once the 
call was answered. The incentive offered to participate did not 
seem to interest any of our borrowers--blah, blah, blah. So I 
tell you this primarily because it needs to be streamlined and 
made more efficient.
    Secretary Geithner. I am really glad you raised this, but 
let me explain to you why we are in this position. Any time we 
put taxpayer resources on the table--in this case it is to 
encourage banks to put some of their own money on the table to 
modify a loan for a homeowner who is better off staying in 
their house--we have to be very careful that those resources go 
to people who are eligible for the program, and that requires 
making sure we can defend to you and your colleagues up here 
that we have good protections against fraud and people can 
prove income in this context.
    And as you know we have a crisis where part of the crisis 
was the country was filled with examples people were given 
loans without having to prove income, without having to 
document assets, capacity to pay. And part of our challenge in 
designing this program in applying was to make sure that again 
where we are qualifying people for a program and putting 
taxpayers money on the table that we could demonstrate to you 
and your colleagues up here that we are being exceedingly 
careful.
    Now, that does slow down the pace of conformance, and banks 
do complain about it, but look how well the banks are doing at 
qualifying and even loan programs. Ask people how they feel 
about the basic quality of service of banks for loan programs, 
and you will find people with still terrible examples of lost 
documentation, long waits, inability to find a live person to 
help them navigate that complicated process. But I agree with 
you it is still hard and complicated, but where it is hard and 
complicated is because we are trying to be careful custodians 
of the taxpayers' resources.
    Mrs. Emerson. I do understand that, but 64 pages of user 
guide seems a little excessive, and it begs the question then, 
if we are going to talk about banks just for a moment, and it 
frustrates probably all of us across the board that the Office 
of the Comptroller of the currency doesn't come under the 
Appropriations Committee, in spite of the fact they are 
authorized to charge whatever they want in order to run their 
own operation, and yet we have the FTC, the FCC, SEC, and I 
could go on and on and on, who are funded through fees and we 
actually do have some jurisdictions.
    But given the importance of the OCC and its performance 
over the past several years, do you think there is any 
justification at all for allowing bank regulators to be outside 
of the congressional oversight?
    Secretary Geithner. That is a dangerous question for me to 
answer in a subcommittee of the Appropriations Committee.
    Mrs. Emerson. This is not just we want our hands on it. It 
is a serious question because the regulators did not do their 
jobs in many cases, obviously. We all know that.
    Secretary Geithner. We had a system to which a really 
appalling extent we allowed institutions to choose who their 
regulator was. They could choose who their regulator was based 
on how soft or permissive the regulation was, and in some ways 
what was more expensive in terms of fees and that kind of 
thing. That is a crazy way to run a country's financial system.
    What happened was people just flipped their charters to 
take advantage of lower costs and lower standards, and that was 
disastrous for us. And it is just an untenable way to run a 
country in this context.
    Now, part of that is how we fund our supervisors, and it is 
very important for the country that we have a funding mechanism 
that allows them to attract and retain quality people and to 
maintain an adequate supervisor resource base. And so my own 
view in this case, and I know it is a little bit controversial 
in a body like this, is I would try to retain as much 
independence as possible so you can make sure that they can 
attract and retain qualified people. And I would eliminate as 
much as I can the capacity for arbitrage across different 
regulators. To some extent, we have done that in Dodd-Frank. 
But funding is part of that.
    Mrs. Emerson. I have ethical issues with fee-based 
regulators anyway because generally speaking, the people who 
end up being the top regulator come from the industry which 
they are entrusted to regulate.
    Secretary Geithner. I am against that, too. I think in 
general, particularly for a regulator, they have unimpeachable 
credentials not just for toughness, but for independence, and 
it is a very important thing that we instill in the system.
    Mrs. Emerson. Indeed. I have numerous questions to submit 
for the record that we would like to ask you to respond to 
within 10 days, if possible.
    Let me ask one quick question, and then we will close it 
down because I know you have to leave. This is about the 
Consumer Financial Protection Bureau (CFPB).
    What happens to the CFPB if there is no director confirmed 
by the Senate by that time in which it is supposed to be stood 
up?
    Secretary Geithner. At a date we call a transfer date, a 
date I set but the statute defines that authority, a bunch of 
authority from existing bank regulators transfers to the CFPB, 
but not all of the authority under the law. Some of the 
authority does not happen until there is a confirmed director 
in place.
    So the short answer to your questions is that the CFPB 
would not be able to operate with the full authority 
established in the law, part of it, but not all of it. The 
consequence of that would be that you leave the financial 
system left with a huge amount of uncertainty about who is in 
charge, and a lot of duplicative, overlapping function in this 
area. And you leave the system, I think, to some extent, to a 
significant degree, without the ability to make sure, for 
example, that small community banks don't face a lot of 
competition from people that are not required to adhere to the 
basic standards for consumer protection we try to apply to 
banks as a whole.
    So it would be--of course, it would substantially impair 
the capacity of this bureau to do what the law requires, which 
is establish and enforce sensible standards for consumer 
protection across the system. Again, in this crisis, what 
happened was you had banks subject to consumer protection, not 
always perfect, a lot of mistakes in that, too. But the more 
appalling failure was you allowed a bunch of institutions to 
compete with banks that were not subject to consumer 
protection.
    So you don't want to put community banks or any banks in a 
situation where they see their business just move to people who 
are not subject to that fair regulation. So that level playing 
field obligation is a critical objective, critical rationale 
for the establishment of this bureau, and you lose that 
objective, lose that advantage the longer you leave this entity 
in limbo.
    Mrs. Emerson. I appreciate that, and I don't believe there 
is anyone who believes that non-bank banks shouldn't be treated 
the same as banks when they are doing more or less the same 
thing.
    Thank you very much for being here. Thank you for staying 
over time. We appreciate it. This hearing is adjourned.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
